<html>
<title> - NOMINATION OF CHRISTINE TODD WHITMAN</title>
<body><pre>[Senate Hearing 107-3]
[From the U.S. Government Printing Office]



                                                          S. Hrg. 107-3

 
                  NOMINATION OF CHRISTINE TODD WHITMAN

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

THE NOMINATION OF HON. CHRISTINE TODD WHITMAN TO BE ADMINISTRATOR, U.S. 
                    ENVIRONMENTAL PROTECTION AGENCY


                               __________

                            JANUARY 17, 2001


                               __________


  Printed for the use of the Committee on Environment and Public Works

                    U.S. GOVERNMENT PRINTING OFFICE
69-822 CC                   WASHINGTON : 2001

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

              one hundred seventh congress, first session
                      HARRY REID, Nevada, Chairman
          BOB SMITH, New Hampshire, Ranking Republican Member
MAX BAUCUS, Montana                  JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ROBERT F. BENNETT, Utah
JON S. CORZINE, New Jersey           BEN NIGHTHORSE CAMPBELL, Colorado
                Eric Washburn, Democratic Staff Director
                Dave Conover, Republican Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 17, 2001
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    73
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    25
Boxer, Hon. Barbara, U.S. Senator from the State of California...    11
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    15
Chafee, Hon. Lincoln, U.S. Senator from the State of Rhode Island    17
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    24
Graham, Hon. Bob, U.S. Senator from the State of Florida.........    28
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    14
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................    17
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........     1
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     3
Vonovich, Hon. George V., U.S. Senator from the State of Ohio....    19
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................     4

                               WITNESSES

Corzine, Hon. Jon S., U.S. Senator from the State of New Jersey..     8
    Prepared statement...........................................    73
Frelinghuysen, Hon. Rodney P., U.S. Representative from the State 
  of New Jersey..................................................     9
    Prepared statement...........................................    75
Torricelli, Hon. Robert G., U.S. Senator from the State of New 
  Jersey.........................................................     5
    Prepared statement...........................................    74
Whitman, Hon. Christine Todd, Governor of of the State of New 
  Jersey and nominee to be Administrator, U.S. Environmental 
  Protection Agency..............................................    29
    Biographical sketch..........................................    88
    Committee questionnaire......................................    78
    List, Accomplishments of Governor Whitman for the Environment   155
    Prepared statement...........................................    75
    Responses to additional questions from:
        Senator Baucus...........................................   101
        Senator Bennett..........................................   116
        Senator Bond.............................................   107
        Senator Boxer............................................   102
        Senator Carper...........................................   104
        Senator Chafee...........................................   115
        Senator Clinton..........................................   115
        Senator Corzine..........................................   104
        Senator Crapo............................................   113
        Senator Inhofe...........................................   105
        Senator Lieberman........................................   101
        Senator Reid.............................................    90
        Senator Smith............................................    99
        Senator Voinovich........................................   108
    R132-139, 141-152tions from Sierra Club......................

                          ADDITIONAL MATERIAL

Articles:
    Bush-Whitman Agenda Will Hurt Environment....................   124
    Whitman Appointment Is Cause for Concern.....................   125
Letters:
    American Civil Rights Coalition..............................   158
    City of Hoboken, NJ, Mayor Anthony J. Russo..................   163
    City of Newark, NJ, Mayor Sharpe James.......................   158
    Clean Ocean Action...........................................   154
    National Association of Realtors.............................   157
    New Jersey Institute of Technology...........................   154
    N120, 128y Sierra Club and Audubon Society...................
    Ogden, Maureen...............................................   156
    Public Employees for Environmental Responsibility............   152
    Several New Jersey State Senators............................   123
Memor126, 127w Jersey environmental regulations..................
Statements:
    Atlantic City Branch of the NAACP............................   159
    Communications Workers of America Local 1033, Trenton, NJ....   161
    Gale Warnings, New Jersey Sierra Club........................   117
    Whitman Sampler, New Jersey Sierra Club......................   139


               NOMINATION OF HON. CHRISTINE TODD WHITMAN

                              ----------                              


                      WEDNESDAY, JANUARY 17, 2001


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Dirksen Senate Building, Hon. Bob Smith (chairman of the 
committee) presiding.
    Present: Senators Smith, Warner, Inhofe, Bond, Voinovich, 
Chafee, Graham, Lieberman, Boxer, Carper, Clinton and Corzine.
    Senator Smith. Good morning, everyone.
    I have the distinction and the pleasure of presenting this 
gavel to the chairman of the Environment and Public Works 
Committee. I would just say I have a tracking device on this 
and it looks like it's going to bounce back here in 3 or 4 days 
but I'm pleased and honored to present you this gavel and look 
forward to working with you in both capacities over the next 
few years.

             OPENING STATEMENT OF HON. HARRY REID, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Reid. (assuming the chair). Senator Smith, thank 
you very much.
    Bob Smith and I have worked very closely together for many 
years in capacities we would rather not have worked. We were 
the lead Democrat and lead Republican on the Ethics Committee 
for a number of years where we worked to try to bring peace and 
quiet to the Senate. We also worked together on the MIA/POW 
Select Committee.
    I want to welcome President-elect Bush's nominee for 
Administrator of the Environmental Protection Agency.
    I want to do this with kind of an outline of what we are 
going to do here. I'm going to give a brief statement; Senator 
Smith will give a statement. We are going to then have Governor 
Whitman introduced by Senators Torricelli and Corzine and 
Representative Frelinghuysen. After that, we will have 
statements from members of the committee. After that, the 
reason we are all here is to see how well Governor Whitman 
responds to all these questions.
    We look forward to this hearing. As you can see, there is 
tremendous interest--this is a very important position for our 
country.
    I want to welcome your family. I had the pleasure this 
morning, Governor Whitman, of meeting your husband. It's 
obvious that everything that has been indicated about how 
supportive he has been of you and you of him is certainly valid 
from our conversation.
    I can't begin this hearing without saying how great it is 
sitting here as chairman of this committee for a couple more 
days. This is a committee that I've served on since I came to 
Washington as a member of the U.S. Senate. It is with fond 
memory that I reflect back on the days of Chairmen Stafford, 
Burdick, Moynihan, Chafee, Reid and the great work of Senator 
Baucus.
    The record should reflect that my short tenure has nothing 
to do with my ability. I'm really happy to have my first 
hearing as chairman of this committee to be the consideration 
of the nominee for the head of the Environmental Protection 
Agency. This agency has great responsibility. My reason for 
being on this committee are multitudinal but I was born and 
raised in a little community in southern Nevada and one of the 
things we did once in a while was go to a place about 30 miles 
from Searchlight called Paiute Springs. It was truly an oasis 
in the desert.
    It was in this very dark desert that out of the side of a 
mountain gushed a spring, a place that was so interesting that 
there was an Army fort there to protect the mail in the 1860's. 
It had things I'd never seen before--water lilies, cattails, 
things that didn't grow in Searchlight.
    During my childhood I went there probably eight or nine 
times. It was hard to get there--it was a dirt road--but after 
I married and got my education, I always told my wife about 
what a great place this was. She, recognizing what was in 
Searchlight, I don't think believed me.
    After I got out of school and settled down a bit, I took my 
wife to Paiute Springs. What a disappointment. Over the years, 
it had been ruined. The fort was torn down, it was just an 
absolute mess. The places where you could throw a rock down 
this canyon and the birds would take off and it sounded like an 
airplane taking off, they were gone and it was really a mess 
from people that had trashed this natural treasure.
    So, Governor Whitman, always think if Paiute Springs in 
your job because we need the environment protected and there is 
no better example of that than near the place of my birth, 
Paiute Springs.
    The EPA has had a great record over the years of improving 
the quality of our air and our water.
    I want to also welcome Senator Carper. We have two other 
new members--Senator Corzine who we will hear from in a minute 
and of course, Senator Clinton, new members on the democratic 
side. We welcome you.
    Senator Carper, you and I came to Washington together in 
1982 with Senator Boxer, who is quiet and whom we rarely hear 
from, but she was in our class. I always say about our service 
on the Foreign Affairs Committee, it was like going to school 
and not having to take the test.
    During the last 8 years under the Clinton Administration, I 
think we have made some significant progress. The recent diesel 
sulfur rule, for example, will greatly improve air quality. 
Governor Whitman, if confirmed, I am confident you will be 
committed to taking us forward in environmental protection and 
not roll back the important gains we have made. I hope the 
hearing does nothing to discourage my vision of the EPA that's 
directed and guided by Governor Whitman.
    As leader of the State of New Jersey for 7 years, you have 
many advocates for you based on how well you have done your job 
as Governor. We have letters and they will be placed in the 
record at a subsequent time, but conversely, there are some who 
have expressed concern. This information has been supplied to 
us--the good and not so good--and we will have you answer 
either orally or in writing.
    This committee, on confirmation, doesn't allow separate 
panels as in some other committees unless something 
extraordinary is developed by this hearing or the work of our 
investigative staff.
    You have had a distinguished career as Governor of the 
State of New Jersey and I am pleased you are willing to take on 
the challenge of protecting both the health of our citizens and 
our environment, two things that are interchangeable.
    It is also my hope that we can work closely together, not 
only on national environmental issues, but from a very 
parochial perspective in problems unique to the State of Nevada 
as well as unique to the West. There are a number of members of 
the committee from my part of the country. We have big States, 
not many people but still have many, many environmental 
problems that are not all rural in nature. Many are urban in 
nature as we discussed when you came to my office.
    I know you've visited the West, I know you know how 
beautiful it is and how important it is to protect the 
resources we have. I do hope as soon as you get your feet on 
the ground and do some traveling around the country, that 
you'll come to Nevada, and accept my invitation to not only see 
the beauty but some of the challenges we face.
    I look forward to hearing from you.
    We will now hear from my colleague, Senator Bob Smith of 
New Hampshire.

             OPENING STATEMENT OF HON. BOB SMITH, 
          U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you, Mr. Chairman.
    Good morning, Governor.
    Chairman Reid, I want to thank you and your staff for the 
courtesies you have extended in the last several weeks. We have 
worked well together, as you indicated, on other committees, 
specifically Ethics and POW/MIA.
    I also would like to welcome back into the fold Senator 
Lieberman. I can't tell you how good it is to see you back 
here.
    Senator Lieberman. I am warmed by your welcome.
    Senator Smith. I also would like to welcome Senator 
Campbell, who is not here yet. There still is one possible 
addition to the committee on our side. Certainly, Senator 
Carper, Senator Corzine and Senator Clinton, welcome and we're 
glad to have you on the committee.
    We've had a lot of bipartisan results in the last few 
months since I've been the chairman and I think we will 
continue to do that in the future because with a 50-50 Senate, 
unless it's bipartisan, obviously we are not going to pass very 
much.
    Again, Governor, a warm welcome to you. Perhaps there is 
some irony in the fact that a guy born in Trenton, New Jersey 
gets a chance to be both the Ranking Member and the chairman 
during your confirmation hearings. I think that's kind of nice. 
My grandfather's family was Elderidges and they were the 
Elderidge Park and all that area around Trenton which I'm sure 
the two Senators are also familiar with.
    I look forward to hearing from you not only today but often 
after you take the reins at EPA. Since you've served your State 
well, we will focus specifically on your environmental record. 
It has been a top priority for you. During 7 years as Governor, 
more open spaces and farmland has been preserved than in the 
previous 32 years. So that's a tribute to you.
    With the establishment of the Garden State Preservation 
Fund and providing tax incentives for land and conservation 
donations, your conservation legacy will continue long after 
you leave. Of particular interest to me is shoreline 
protection. As one who for many years as a young guy at Seaside 
Heights and Long Beach Island, I remember not too man years ago 
when we heard the stories of the hypodermic needles and 
syringes and in a bipartisan way, many of you have been 
involved in that cleanup which is certainly appreciated by many 
of my family who still live in New Jersey.
    You've also made great strides in the redevelopment of 
brownfields which will be a top priority of this committee this 
year. We look forward to working with you on that.
    I also appreciate the ideas that you put forth in terms of 
looking at these environmental problems in a holistic manner, 
an entire ecosystem, an entire river, looking at all the 
sources of pollution as opposed to end-of-pipe regulation 
without really any end to it. We will work together on that.
    The air, water and land are cleaner in New Jersey because 
of your efforts and I congratulate you. I know you'll bring 
that same type of enthusiasm and results to the EPA.
    I would ask unanimous consent that my statement with more 
detail regarding Governor Whitman be inserted in the record.
    Senator Reid. Without objection.
    Senator Smith. I'll stop there, Mr. Chairman, and look 
forward to moving forward with the witnesses.
    Senator Reid. If I could have everyone's indulgence, 
Senator Warner is going to have to conduct a hearing regarding 
General Powell in just a few minutes and he has asked to be 
able to say a few words at this time. Senator Warner?

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner. Thank you very much and thank you, Senator 
Smith.
    I join in welcoming our distinguished nominee. I commend 
the President and most of all, I commend you for your 
willingness, together with that of your family, to continue in 
public service.
    Mr. Chairman, we welcome your chairmanship here today. I 
remember when you were chairman of a subcommittee and you and I 
dealt together. I was ranking on the subcommittee and I know 
your record for fairness and thoroughness.
    If I may say just one word and that is balance. I've served 
on this committee for many years now and it is the balance 
between the 50 States and the Federal Government. Our 
environmental laws, in large part, are in place because 
pollution knows no bounds, for example. Air transits many 
States. Water originates in one and flows through many States. 
Therefore, it is essential we have a framework of the Federal 
laws that cross the State boundaries and affect all States.
    We have got to remember that the States are very proud of 
their own environmental programs. You bring to this office the 
experience of a chief executive of a very important State, one 
that has complex environmental problems and you have worked 
through many of those with great expertise.
    Now the other 49 States will be looking to you to have that 
same leadership as they struggle to do their very best with 
regard to the environment.
    In conclusion, one of the main problems you are going to 
have is the Department of Defense which I'm not sure but has a 
reputation of being a very significant polluter. I have a small 
hand in that responsibility here in the Senate as chairman of 
the Senate Armed Services Committee.
    I want to work with you, I want to make greater strides 
with the Department. I know the Secretary of Defense-designee 
very well. We've been together in public life together for 
many, many years. I know in his heart is the desire to have 
that department's image and that department's record improved.
    I'm going to hold up here an agreement between the 
Department of Defense, the Commonwealth of Virginia, and the 
Environmental Protection Agency, the first in history. It was 
just executed. It reads as follows: ``The pollution prevention 
partnership between the Commonwealth of Virginia and the U.S. 
Department of Defense shall be a State/Federal partnership that 
exists to identify opportunities, develop solutions and promote 
success in pollution prevention. The partnership will help 
enhance the pollution prevention missions of participants, 
conserve resources and improve the quality of Virginia's 
environment.''
    I comment that to you. I hope you can have many more like 
it.
    I thank the Chair, the Ranking Member and my colleagues. I 
have the privilege of introducing Colin Powell in a few minutes 
before the Senate Foreign Relations Committee.
    Senator Reid. We are now going to hear an introduction of 
Governor Whitman from Senators Torricelli and Corzine and 
Representative Frelinghuysen.
    Senator Torricelli?

STATEMENT OF HON. ROBERT G. TORRICELLI, A UNITED STATES SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Torricelli. Thank you, Mr. Chairman.
    Before Senator Warner leaves, I also want to extend thanks 
on behalf of all my colleagues. Last year, Senator Warner 
provided leadership on an issue that was very important to the 
people of southern New Jersey. That was a generation-long fight 
to have the battleship New Jersey returned to our shores. 
Senator Warner singularly is responsible for that judgment. For 
that, we are very grateful.
    I also want to say in keeping with your comments about 
military facilities, indeed, Senator Warner, we have several 
that have environmental problems and more than that, the ocean 
terminal in the harbor of New York and New Jersey with enormous 
economic potential which also has environmental difficulties 
and your leadership in that is equally appreciated.
    Mr. Chairman, I'd like to congratulate your on your rein as 
chairman of the committee and predict that in the long 
environmental history of this Nation, in these 48 hours, you 
will be the only chairman probably to serve without any serious 
environmental controversy or degradation. For that, you are to 
be congratulated.
    I would congratulate the members of the committee on their 
return and our two neighbors from New Jersey, the Governor of 
Delaware, who now serves on this committee and so ably will 
represent the southern shores of New Jersey; and Senator 
Clinton who will serve with distinction representing those 
areas to the east of Jersey City and Newark.
    [Laughter.]
    Senator Torricelli. Mr. Chairman and Senator Smith, I can 
only imagine pride that Christine Todd Whitman, her husband, 
John, and children, Kate and Taylor must feel at this new stage 
of what has been a brilliant career of public service. It is a 
great honor for me to introduce to you the Governor of the 
State of New Jersey, Christine Todd Whitman, the President-
elect's designate for the Environmental Protection Agency.
    During her years as Governor, we have waged many fights 
together on important issues from her leadership in preserving 
open space to the ending of ocean dumping, so vital to preserve 
both our economy and the environment, critical not only to our 
State, but as Senator Warner has pointed out, to the beaches 
that range all the way from Virginia to Delaware and New York.
    President Bush has made a very wise selection. The EPA and 
the country will be getting an Administrator who is qualified, 
tested and ready to tackle the challenges that lie ahead for 
this agency. With this nominee, there will be absolutely no 
learning curve. There are few training grounds that could 
better prepare someone for this position that the Governorship 
of New Jersey.
    As chief executive of our State, Governor Whitman has had 
the managerial and administrative experience of running an 
agency as large as the EPA but more importantly, no State has 
had a better sampling of the issues facing the incoming 
Administrator of the EPA than New Jersey. With 127 miles of 
shoreline, Governor Whitman has dealt extensively with issues 
of clean water and nonpoint source pollution. She knows 
firsthand the threats to the economy and the environment from 
ocean dumping.
    Indeed, Governor Whitman has increased funding for beach 
cleanups and under her administration, beach closings have 
dropped from 800 in 1989 when many families in our State were 
denied the simple pleasure of an afternoon at the shore with 
their children, to just 11 in 1999.
    New Jersey has been praised by the Natural Resources 
Defense Council for having the Nation's most comprehensive 
beach monitoring system. With more Superfund sites than any 
other State in the Union, with 111, she knows what works and 
what doesn't work in the Superfund Program. We have indeed 
experienced all the triumphs of when that program works and 
lived with its frustration when ample resources and community 
need have not been met with sites being cleaned.
    She has seen the value of a concerted effort to turn urban 
brownfields into productive industrial and commercial sites. 
Indeed, the Mayor of New Jersey's largest city, Sharpe James, 
has written to this committee to praise her efforts to take 
brownfield areas of Newark and turn them into working, 
productive, industrial and residential areas.
    During her tenure as Governor, Christie Whitman brought 
innovative technologies to the New Jersey Department of 
Environmental Protection to improve efficiency within the 
Department's permitting processes. This investment has paid 
off. For example, it has allowed for the expedited remediation 
of brownfield sites in New Jersey's urban centers.
    In the many dense urban centers in New Jersey, she has 
dealt with the complex funding and regulatory issues of 
upgrading dilapidated sewer systems and controlling combined 
sewer overflow. As the Governor of our Nation's most developed 
State, she initiated and passed a landmark $1 billion bond 
measure to preserve open space. By the time this program is 
finished, New Jersey will have preserved 1 million acres of 
farmland, forests, watershed and urban parkland. Few elected 
officials in the Nation, yet alone this Cabinet, have a better 
understanding of what is needed to curb urban sprawl and to 
protect our open spaces.
    More than a record of environmental progress, what makes 
Governor Whitman uniquely qualified for this position is her 
understanding that economic and environmental progress are not 
mutually exclusive. For example, our beaches alone provide the 
best understanding of this in the Nation. Travel and tourism 
generate $28 billion in revenue in New Jersey and employ 
800,000 people in central and southern New Jersey. No issue is 
more important to preserving this industry than a clean ocean.
    The Port of New York and New Jersey is also a vital 
component of economic growth and employment in the northern 
part of New Jersey, contributing $20 billion annually to the 
economy and supporting 200,000 jobs.
    Both of these issues, our beaches and tourism and the Port 
of New York and dredging are examples of where economic growth 
and a clean environment must be made compatible.
    The job for which Governor Whitman has been nominated is by 
no means an easy one. The challenges facing the next 
Administrator are both numerous and difficult. Some have proven 
in recent years intractable. The Superfund, Clean Water and 
Clean Air Acts have not been reauthorized in a decade and there 
are new challenges for each.
    Our urban centers have sewer systems that were built at the 
turn of the 19th Century but continue to operate now stretching 
their engineering limits into the 21st Century. They frequently 
back up and endanger public health and water quality because 
they are incapable of handling overflow which is the largest 
source of pollution in the Delaware Bay and the Port of New 
York and New Jersey. Having solved most other point solution 
problems, these remain the single difficulties in our combined 
water systems.
    The next Administrator must make a priority of closing the 
gap between available funds and infrastructure needs and 
ensuring that environmental justice is more than a thinktank 
slogan. The poorest citizens among us, those who live in 
neighborhoods with economic deprivation, must not have to be 
forced to bear the burden of housing industries that are 
otherwise not safe or compatible with urban and suburban 
living.
    I am confident that Governor Whitman will bring this 
balance and be fair and recognize that with a single exception 
of Paiute Springs, these are the most important environmental 
issues in the Nation.
    Mr. Chairman, the challenges are many--protecting our 
water, purifying our air, preserving our open space and 
reforming Superfund. I'm here simply to tell you as one who has 
known Governor Whitman for many years, watched her 
administration closely, been an ally and a critic, on balance, 
I'm here to tell you the President-elect of the United States 
has chosen well. This is a good nomination and she will be an 
excellent Administrator of the EPA. This committee should have 
confidence in this nomination and I believe in listening to her 
answers, confidence in approving it and sending it to the 
Senate.
    Thank you.
    Senator Reid. We will now hear from Senator Jon Corzine, 
Senator from the State of New Jersey.

STATEMENT OF HON. JON S. CORZINE, A UNITED STATES SENATOR FROM 
                    THE STATE OF NEW JERSEY

    Senator Corzine. Thank you, Chairman Reid. It's an honor 
for me to be here today. It's a distinct pleasure which I am 
extremely enthusiastic about, and serving on this committee and 
with all the members. I look forward to the prospect of working 
with you, with soon to be Chairman Smith and with all the 
members of the committee.
    Today, I am pleased to join my distinguished colleague, the 
senior Senator from New Jersey, Senator Torricelli, in 
introducing our Governor to the committee. Let me begin by 
publicly congratulating Governor Whitman on her nomination to 
head the Environmental Protection Agency. It is a great honor 
for our State and a truly vital role for the Nation. The Garden 
State is proud.
    As Senator Torricelli has explained, Governor Whitman has a 
long and distinguished record of public service and has made 
many, many important contributions to our State. As you will 
see, Governor Whitman is highly articulate and extremely 
persuasive. She genuinely cares about the issues and the issues 
of the environment. She knows how to make an impact.
    She has been a leader in protecting New Jersey's 127 mile 
shoreline and fighting for cleaner air, fighting against the 
kind of pollution that knows no State boundaries. As an 
individual and as a Governor, she has demonstrated a strong 
commitment to preserving open space. Given the Governor's 
record on matters of conservation, I'm not sure I would not 
have preferred to see her nominated for Secretary of the 
Interior.
    As you know, the Administrator of the EPA has the primary 
responsibility for ensuring that our air and water is clean, 
our natural resources are preserved and our public health 
protected. It is a difficult job that often requires a careful 
evaluation of highly complex scientific data and an ability to 
translate that data into detailed policies. It needs someone 
who will fight internal battles to make environmental 
protection a budget priority. It need someone who will work 
with local communities and business to find mutually acceptable 
solutions to environmental problems. It needs someone who, when 
necessary, will be tough on polluters and require them to do 
the right thing.
    Mr. Chairman, I believe Governor Whitman has the 
background, the experience and the skills necessary to do the 
job. Of course these are not the only requirements for an EPA 
Administrator. These qualities must be matched by a 
determination to stand firm for the environment, to fully 
enforce our environmental laws and to fight for justice and 
equity for all.
    I know that you and other members will want to ask the 
Governor for details about her views on specific environmental 
policies. Once I get on the other side of the table, I'll have 
a few questions of my own.
    Having spoken privately with the Governor, I believe that 
she will be able to effectively articulate her positions on 
specific issues and demonstrate a real commitment to 
environmental protection.
    Without rushing to conclusion before the hearing starts, I 
fully expect that she will convince the committee not only that 
she deserves to be confirmed but that she had the tools to be a 
n outstanding Administrator.
    With that, Mr. Chairman, I would simply congratulate the 
Governor on her nomination and I thank you for the opportunity 
to introduce her.
    Senator Reid. Senator Corzine, I appreciate your statement. 
Welcome to the committee.
    Representative Frelinghuysen?

STATEMENT OF HON. RODNEY P. FRELINGHUYSEN, U.S. REPRESENTATIVE 
                  FROM THE STATE OF NEW JERSEY

    Mr. Frelinghusen. As someone who has worked very closely 
with Governor Whitman, both as a member of the House 
Appropriations Committee and as a former New Jersey State 
legislator, I'm honored to be here to support her nomination 
and to further introduce her to you and your colleagues.
    President-elect Bush has made a wise choice in selecting 
her to lead our Nation in the development of America's 
environmental policies for the 21st Century. Governor Whitman 
is an extremely capable executive. Throughout her tenure as New 
Jersey's Governor and as a former county-elected official, she 
has championed clean air and clean water and has been without 
question the strongest proponent of open space in our State's 
history.
    As New Jersey's chief executive, her leadership has left 
New Jersey residents feeling proud of their State and of their 
natural resources which I may add are cleaner and more 
protected than ever.
    Governor Whitman's effective stewardship, as has been 
mentioned, of our coastline on the Atlantic has left our 
beaches pristine and our waters among the cleanest in the 
Nation. As one might expect in the Nation's most densely 
populated State, the preservation of undeveloped land has been 
a top priority of hers. Again, Governor Whitman rose to the 
challenge of combating urban sprawl and has implemented a State 
initiative to protect over 1 million acres of open space.
    She has also strengthened New Jersey's record in cleaning 
up hazardous waste under the Superfund and outside of Superfund 
and has partnered with the EPA to actually clean up sites. She 
has made polluters pay whenever they can be identified and she 
has worked to implement an excellent brownfield strategy.
    Drawing on that experience, I am certain that she will be 
an advocate for streamlining our Nation's Superfund Program, 
ensuring more effective expenditures, more accountability and 
most importantly, getting the cleanup done.
    These are just a few examples of her strong leadership. For 
your close examination of her record, I am confident that she 
will be dedicated to the health and safety of all our Nation's 
citizens, a true advocate for our environment.
    Finally, I've known Governor Whitman all her life. I have 
proudly watched her as Governor handle every conceivable type 
of challenge. At every turn, she's balanced competing interests 
in order to make decisions that have served New Jersey's best 
environmental and economic interests. She will do likewise for 
our Nation.
    Mr. Chairman, I urge your support and that of your 
colleagues of her nomination.
    Thank you.
    Senator Reid. I appreciate very much the bipartisan 
introduction of the Governor and I hope it bodes well for a 
bipartisan relationship for the EPA during the years that you 
are the Administrator.
    I would excuse the Senators and the Representative at this 
time unless they want to stay. They are welcome to do so. 
Senator Corzine, we expect you back after you go to the Banking 
Committee and work on the nomination there for head of Housing.
    Governor Whitman, as I explained, we are going to have 
statements from members of the committee. I would say to the 
members of the committee, we are not going to have any time 
limit on your statements but we would appreciate it if you 
would try to keep them to around 5 minutes. We will have the 
time clock on for the series of questions that will be asked.
    After the Governor has given her statement, we will have a 
series of questions from members based on when they got here, 
the early bird rule going from side to side, Democrat, 
Republican, back and forth.
    We are not going to take a lunch break; we're going to work 
through as I explained to the Governor. Always keep in mind, I 
say to my committee members if you feel you don't have time to 
ask all your questions, certainly you can submit them in 
writing. The Governor understands she would have the responses 
to us by Monday of next week. So we would appreciate everyone's 
cooperation.
    The first statement will be from Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you very much.
    Welcome, Governor. I really enjoyed our meeting we had 
yesterday.
    I wanted to note that I do have General Powell also 
appearing before Foreign Relations so I will be running back 
and forth as is usually the case.
    First of all, congratulations on the introductions that you 
received. I thought they were quite eloquent. It's almost like 
if you quit now, I think you'd be in good shape considering the 
very strong support of your nomination.
    I also want to add my warm welcome to our new colleagues on 
the committee. Senators, we really welcome you and we need your 
help and we are delighted.
    I understand that Senator Campbell has been added to the 
committee and I think he is going to add a great perspective to 
our work. I'm looking forward to this year.
    New Jersey had made tremendous contributions to this 
committee. I think about Senator Lautenberg and the hard work 
he did on behalf of your State and the whole Nation in terms of 
Superfund and brownfields, issues I know you care about. I am 
also excited that Senator Chafee and I will be working together 
on that Superfund Brownfields Subcommittee and will work very 
closely with you on that. With you and Senator Corzine, we 
continue the New Jersey tradition of contributions to this 
committee.
    I want you to know I think your position is so important. 
I'm going to be introducing a bill to make it a full Cabinet 
level agency. I spoke to you about it, it's something I've 
wanted for a long time, whether a Democratic or Republican 
Administration. I think you ought to have that full level 
Cabinet position. I'd like to be calling you Madam Secretary 
instead of Administrator, so perhaps we can get that done.
    Why do I feel that way? Because the Administrator of EPA 
can literally save thousands of lives by strengthening a single 
clean air rule. He or she can protect all the Nation's drinking 
water by taking a single action to ban a few additives, i.e., 
MTBE that Senator Smith and I have worked so hard on.
    You can protect all of our children by restricting the use 
of a single pesticide. This is an incredible job that you have. 
You can ensure that low income and minority populations, those 
who are disproportionately affected by pollution, are brought a 
cleaner and healthier environment by making civil rights a top 
priority in every program at the EPA.
    The Administrator must have a strong sense of purpose and 
engage in the nearly singleminded pursuit of these goals if you 
ever hope to achieve them for the American people because in 
any Administration, be it Republican or Democratic, the EPA 
Administrator often runs into tough opposition within the 
Administration when dispatching her charge of protecting the 
public health.
    The Secretary of Energy, the Secretary of Transportation, 
Agriculture, the Director of OMB, none of these officials have 
as their primary charge the protection of this Nation's public 
health. So if the issue is MTBE, for example, which Senator 
Smith and I feel so strongly about, and others on this 
committee, the Secretary of Energy may argue that you can't ban 
it because it will disrupt the fuel supply.
    If the issue is clean air, the Secretary of Transportation 
and OMB may argue you can't tighten standards and protect 
thousands of lives because it cost too much. The debate on the 
air standard will probably be about how much a human life is 
worth. The OMB Director has a different view usually than the 
Administrator of EPA.
    If the issue is pesticides, the Secretary of Agriculture 
may tell you not to restrict a pesticide that's harming kids 
because perhaps they don't feel there is a cost effective 
alternative.
    It is the job, in my view, of the EPA Administrator to 
argue forcefully with her colleagues in the Cabinet and to 
firmly pursue protection of the environment and public health 
in those debates. I think it's a sacred trust. I feel you're 
going to do that and I know the rest of the Cabinet will fight 
just as strongly for their mission. In the end, it's going to 
be a compromise but if you don't have that strong voice in 
those meetings, we won't make any progress.
    I told you yesterday when we met that I have a particular 
role in the Senate which is to really push hard for the 
toughest environmental standards for our kids, for Superfund, 
et cetera. I know that sometimes you and I will not agree and 
it will never be personal, it will just be on substance.
    I worry about some of the issues that are out there. I 
worry about the issue of letting companies self police. I worry 
about the fact that we'll say comply if you can and I think 
it's important for this committee to note that comply if you 
can sounds great but that isn't what the Clean Water Act says, 
the Safe Drinking Water Act, the Clean Air Act. They provide 
for civil and criminal penalties if those requirements aren't 
met.
    I will ask that the rest of my statement be placed in the 
record and close with this. I have a series of questions I'll 
be asking. I talked to you about them yesterday. My particular 
interest will be Superfund and brownfields, MTBE, environmental 
justice, and I'm going to talk to you about affirmative action 
at the EPA.
    Administrator Browner was called before the House Committee 
to answer questions about problems that minorities and women 
are having in the agency, so I think it very appropriate we 
talk about that.
    I want to talk to you about methamphetamine labs that are 
polluting some farms and the poor farmers had no idea this 
would happen. We need to help them.
    Finally, on the issue of children, the Children's 
Environmental Protection Act that I authored, how important it 
is to protect our vulnerable populations.
    Again, welcome and I am very proud as a woman to see you in 
this position. I think you will do us proud.
    Thank you.
    [The prepared statement of Senator Boxer follows:]
    Statement of Hon. Barbara Boxer, U.S. Senator from the State of 
                               California
    Thank you, Mr. Chairman.
    I am pleased to be here today to welcome Governor Christine Todd 
Whitman to the committee. I am also pleased to welcome the new members 
to the committee.
    The Administrator of the Environmental Protection Agency is, in my 
view, this nation's guardian of the environment and public health. The 
agency he or she oversees is so important that I will soon introduce a 
bill to make it a cabinet level department.
    The Administrator of EPA can literally save thousands of lives by 
strengthening a single clean air rule. The Administrator can protect 
all of the nation's drinking water by taking a single action to ban one 
fuel additive. The Administrator can protect all of our children by 
restricting the use of a single pesticide.
    The Administrator can ensure that low-income and minority 
populations--those who are disproportionately affected by pollution--
are brought a cleaner and healthier environment by making civil rights 
a top priority in every program at EPA.
    But the Administrator must have a very strong sense of purpose and 
engage in a nearly single-minded pursuit of these goals if he or she 
ever hopes to achieve them for the American people.
    Why?
    Because in any administration--whether Republican or Democratic--
the EPA Administrator often runs into tough opposition within that 
administration when dispatching his or her charge of protecting the 
public health and the environment.
    The Secretary of Energy, the Secretary of Transportation, the 
Secretary of Agriculture, the Director of the Office of Management and 
Budget--none of these officials have as their primary charge the 
protection of this nation's environment and public health.
    If the issue is MTBE, the Secretary of Energy may argue that you 
can't ban it because it will disrupt the fuel supply.
    If the issue is clean air, the Secretary of Transportation and OMB 
may argue that you can't tighten standards and protect thousands of 
lives because it costs too much. The debate on that air standard will 
probably be about how much a human life is worth.
    The OMB Director typically has a different view from the 
Administrator.
    If the issue is pesticides, the Secretary of Agriculture may tell 
you not to restrict a pesticide that's harming our children because 
farmers may have to use a less effective alternative.
    It is the job of the EPA Administrator to argue with her colleagues 
in the cabinet. It is her job to firmly pursue the protection of the 
environment and public health in those debates. To be sure, the rest of 
the cabinet will do the same with respect to their agency's mission.
    I also want to note that I have serious concerns about some of the 
environmental approaches President-elect Bush advocated on the campaign 
trail and in Texas.
    In particular, President-elect Bush and his Interior Secretary 
nominee Ms. Norton have said that voluntary approaches to environmental 
protection are preferable to strongly enforcing the mandatory 
requirements of our environmental laws.
    For example, for years while Ms. Norton was the Attorney General of 
Colorado, she was locked in a dispute with EPA over Colorado's ``self-
audit law.''
    The law basically said, if a polluter came forward and reported a 
pollution violation, the State wouldn't enforce against it. The law 
also kept all information about the violation secret, so that the 
public couldn't find out the extent of the violation or the remedy.
    EPA rightly thought this was a spectacularly bad idea. The agency 
said this State law was contrary to the Federal environmental statutes 
Colorado was charged with implementing, and threatened to revoke 
Colorado's ability to implement those laws. EPA was only able to 
resolve the dispute after Ms. Norton left her post.
    The point of this story is this: our Federal environmental laws 
don't say--``comply if you can.''
    You won't find that in the Clean Water Act, the Safe Drinking Water 
Act or the Clean Air Act.
    Those laws set requirements and they provide for civil and criminal 
penalties if those requirements aren't met.
    That's the philosophy enshrined in our laws. It is the role of the 
EPA Administrator to give effect to that philosophy. It is the role of 
this Committee to consider whether it is a good idea to radically 
change that philosophy.
    In the 1970's, we wrote our environmental laws with these firm 
requirements and penalties for a reason. It was because our air was 
increasingly too dirty to breathe and our rivers were catching fire--
such was the legacy of voluntary approaches to environmental 
protection.
    I am, for one, very skeptical that voluntary approaches will bring 
this nation's people a cleaner and healthier environment.
    In closing, I look forward to your testimony today. I will have a 
series of questions I would like to ask and submit for the record.
    Thank you.
    Senator Reid. Thank you very much, Senator Boxer. 
Congratulations on your new committee assignment, the Commerce 
Committee. I am very happy that you stayed on this committee.
    Senator Boxer. I wouldn't leave this committee.
    Senator Reid. We will now hear from Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    I want you to know, as I told you, I was very excited when 
President-elect Bush came up with your name. I think we all 
came up with some informal suggestions as to profiles that we'd 
want. Mine was to have someone who had experienced the other 
side of it which clearly you have.
    You're going to have to draw on all of your skills because 
you're going to inherit quite a few problems that I think are 
going to make your job one of the most important jobs in this 
new Administration.
    Senator Smith talked about ballots a few minutes ago and I 
have said quite often that I really only want two things--one 
to have regulations and rules based on sound science and to 
have some type of cost benefit analysis so we can see the price 
we're paying for the various rules and regulations we are 
initiating.
    In the case of sound science, when we went through some of 
the air regulations, we have in our statutes, CASAC, the Clean 
Air Scientific Advisory Commission, that is there, 21 well 
informed professional scientists and yet they have been ignored 
in the last few years. I think we need to base that on sound 
science.
    I think the States have become second class citizens and 
the Enforcement Office has been more concerned about penalties 
and fines instead of compliance with the laws. The EPA has even 
been in the practice of funding lawsuits against itself and 
then turning around and entering into consent decrees. This 
isn't something that needs to be done.
    Midnight regulations, I had a news conference last April 
when I said I know what's going to come up, we're going to have 
these regulations coming out and sure enough, this has 
happened. The sulfur diesel regulation, for example, is one we 
needed to have more hearings on, we needed to have more time 
and deliberation to see just what the results were going to be.
    It may come as a shock to you but I don't always agree with 
Senator Torricelli on everything. However, when he said there 
is no better training ground for this job than to have been a 
Governor of a State, I do agree with that, so you know the 
problems that come with various enforcements.
    In complying with our time, I just want to mention a couple 
of things. Back 30 years ago when this all started, the States 
didn't have any experience in environmental issues but now they 
do. I hope we are going to be accepting the States not just as 
partners but with recognition that they are closer to the 
problem.
    I can remember when this committee was concerned about a 
Superfund problem in Louisiana in Bolger City, Oxy USA. They 
put together a program and went to the State of Louisiana, went 
to all the parishes, went to Bolger City, went to the 
environmental groups and they all agreed this was going to be a 
cleanup they'd be responsible for and we would have it become a 
reality in 2 years. The EPA came along and said, no, we want to 
do it. Their experience was it would take from 7 to 9 years. I 
would like to see a greater reliance upon the experience that 
has been gained by the States.
    I would like to have be concerned with how the EPA is 
working not in a vacuum but the regulations and how they affect 
the military, energy. I think you are going to be working 
closely with Secretary Rumsfeld as well as Senator Abraham in 
terms of the military and I think Senator Warner alluded to 
this briefly.
    The cost of compliance with some of the environmental 
regulations on our training bases has become very, very 
expensive. In fact, I chair the Readiness Subcommittee of the 
Senate Armed Serves Committee and we had a hearing where 
testimony came in and we drew the conclusion that they are 
spending more money complying with the various environmental 
regulations than they are in training.
    In the area of energy, as we impose more regulations on the 
refining industry, which is already 100 percent in the United 
States, any additional regulations--supply and demand--goes 
directly into the cost of energy to heat our homes and to drive 
our vehicles. These things have to be taken into consideration.
    I have no doubt that you will do that. I'm looking forward 
to working with you. While we need to ensure the utilities 
continue to clean up their emissions, I'm committed to work 
with Senator Voinovich and Senator Smith on that issue, some of 
the out of control enforcement actions are not the answer. Too 
many times the EPA has acted without regard to the consequences 
for their actions.
    I know as Governor, as a former Governor, you bring that 
experience with you. You're fully aware of this and I'm looking 
forward to your confirmation and to working with you for a 
cleaner and healthier America.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you for the warm welcome to those of 
who are new, and thank you, Senator Reid, for what is sure to 
be known as the Reid Era, the period of time when you led this 
committee.
    It's a special privilege to be here with the First Lady and 
our new colleague, Senator Boxer and Senator Reid and 
Torricelli. We all started in this business 18 years ago and 
served with Senator Smith and Senator Inhofe. I see Senator 
Voinovich who has been my chairman in the National Governors 
Association, and chairman of one of the committees I serve on 
here.
    Senate Chafee, I greatly admired and had a warm affection 
for your dad. It's great to be here with you and Senator 
Lieberman who led us through the Democratic Leadership Council.
    It's a pleasure to be here today to welcome my former 
seatmate at the National Governor's Association whom I sat 
alongside for 7 years. It's a pleasure to welcome you. Others 
have said wonderful things and I'll to that list.
    Over her shoulder, is her husband and John, having applied 
and got through Senate confirmation a time or two myself, I 
have some idea what you've had to go through in terms of 
disclosure for the privilege of this day. That's a true test of 
one's affection for your wife. The fact that you're both here 
speaks volumes for each of you.
    As Governor I think the question most asked of me during my 
8 years when I led your neighboring State was, what's it going 
to be, Governor, the economy or the environment? I responded, 
it ought to be both. I always felt you could have a cleaner 
environment and a strong economy. I think we've proven that in 
our State. I think we've proven that in our country. I believe 
you've proven that to be the case in New Jersey.
    You have a fellow who works for you there, Bob Shin--he's 
here somewhere--one sharp cookie and very creative, a very 
innovative thinker. I want to say I have no question that 
you'll be a superb Administrator.
    The only question I have is the extent that you will have 
freedom to select the top people around you. That is the key. 
They are wonderful people in the ranks of EPA. I think there 
are wonderful people at the top of EPA. Some of them will leave 
at the end of this Administration.
    One of the questions I want you to be thinking about is the 
kind of people you'll surround yourself with at the very top 
going forth.
    Whether it's working to develop creative automobile 
emissions in New Jersey, testing standards so our region would 
enjoy cleaner air, fighting to protect horseshoe crabs in the 
Delaware Bay from overharvesting, I believe Governor Whitman 
has the ability to find workable solutions without a diminished 
resolve for a cleaner environment.
    I look forward to working with you, Mr. Chairman and 
Senator Smith, our colleagues on this committee and our new 
Administrator to modernize but never to weaken our Nation's 
commitment to clean air, to clean water, to open space and a 
rich environmental legacy for our children.
    While we have made important strides in the past three 
decades, we have an obligation to try to do better and I know 
we will. Whatever the challenge, whether it's global warming, 
nuclear waste, polluted coastal waters, urban sprawl, we've got 
to put our heads together and work hard across party lines to 
develop consensus.
    As we begin this new century, it's time to examine our 
Nation's environmental successes and challenges, the laws and 
regulations we've put into place in three decades since the 
Environmental Protection Agency was created. While it's crucial 
that the EPA Administrator enforce existing environmental laws, 
you must also support and encourage innovation and cooperation 
as industries achieve and move beyond current requirements.
    It's also important we work to fully exploit the 
partnerships between EPA and the States with regard to 
environmental management. In short, there is still plenty of 
work to do.
    I could be accused of a certain bias in believing that a 
Governor might be the right kind of person to administer the 
EPA, but viewing Governor Whitman's nomination as objectively 
as I can, here is what I see. I see someone who has had to 
learn the fine art of working within all branches, all levels 
and all parties of government; someone who understands the 
power of properly inspired corporate resources; and who has 
seen firsthand the intimate relations between environmental 
quality and the wisdom of our energy, transportation, growth 
management and agricultural policies.
    I know her as a fellow Governor and as a friend and as a 
good neighbor. She's an independent thinker, surrounds herself 
with excellent people, possesses a strong intellect and has 
demonstrated a propensity to think outside the box in 
preserving the natural resources of her State.
    I believe she will bring the power of her State experience 
to EPA into our environmental well being. I am pleased the 
President-elect has nominated Governor Whitman for this post. I 
consider it a privilege to support her nomination and welcome 
her here today.
    Senator Reid. Thank you.
    We will now hear from Senator Chafee.

           OPENING STATEMENT OF HON. LINCOLN CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. Thank you. Welcome, Governor Whitman. I 
again commend President-elect Bush for this appointment.
    Governor Whitman will bring to the EPA the ability to find 
solutions to complex problems and to solicit and consider all 
points of view. I am very enthusiastic about her nomination.
    The position of the Administrator of the EPA requires 
special skills because of the frequently competing interests, 
the controversy that has surrounded environmental issues in 
recent times, and the importance of getting it right. Governor 
Whitman has had a long record of success in New Jersey and I 
look forward to her speedy confirmation as Administrator of the 
Environmental Protection Agency.
    Although there will be many challenges ahead, I am 
confident that she will steer a steady course and serve the 
environment and the Nation well.
    I'll join Senator Boxer in shuttling back and forth for the 
Foreign Relations Committee and the General Powell hearing.
    Senator Reid. I think the example you set for the length of 
your speech is exemplary.
    Senator Chafee. I believe hearings are made to be heard.
    Senator Reid. Senator Lieberman?

        OPENING STATEMENT OF HON. JOSEPH I. LIEBERMAN, 
           U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Lieberman. A tough act to follow.
    Thanks for your warm welcome back to the committee.
    I was thinking of the witness--a great Governor of a great 
State whose people are noted for their goodness and wisdom. I 
wanted to express my gratitude for the wisdom their voters 
showed last November. If there had been just a little more of 
that, I might not have the thrill of being here with my 
colleagues this morning.
    It is good to be back. It's been a great committee and I 
look forward to a very productive year.
    I welcome the new members very warmly and envy them for the 
experience they are going to have here.
    I did want to briefly say that I think Governor Whitman you 
enter the leadership of the environmental protection area at a 
time when your particular leadership is going to be very 
necessary. In recent years, I've found both in the State of 
Connecticut and as I've had the opportunity to travel around 
the country and read public opinion surveys that there is a 
growing bipartisan consensus in favor of both protecting our 
natural resources and protecting us from environmental 
pollution that may affect our health.
    Unfortunately, here on Capitol Hill the recent years have 
not been, notwithstanding the good efforts of members of this 
committee, very productive years. We haven't produced a lot of 
new environmental legislation. For some that may be good news 
but I think it's not good news for the public. There are major 
pieces of environmental law that await reauthorization. So your 
arrival here presents an opportunity and challenge to try to 
mediate the gaps that have existed to overcome the 
environmental gridlock that has existed on Capital Hill and to 
take us forward in a balanced and progressive way.
    During this same period of time, the Clinton Administration 
has, in my opinion, taken some very significant steps forward 
in both protecting our natural resources and protecting us from 
the adverse effects of environmental pollution to our health. I 
think here you have a special opportunity to protect those 
gains and advances.
    I must say many of us are concerned about the suggestion 
that the new Administration will undo a number of environmental 
initiatives of the Clinton Administration, particularly several 
of those that have been finalized in the last several months. 
From my perspective, obviously it's personal, these are by and 
large critical needed protections that were not just rushed 
through at the end but have been carefully debated and 
considered for years.
    For example, the new regulations limiting sulfur content in 
diesel fuel and emissions from diesel engines were initiated 
years ago before they were promulgated in December. These 
regulations will reduce smog-causing emissions from trucks and 
buses by 95 percent and soot emissions by 90 percent below 
current levels.
    I'd note with appreciation for the record that the State of 
New Jersey supported that rulemaking, so I know you're aware of 
the great need to control these emissions. I hope that your 
testimony today and your service in office will reassure us 
that you will not abandon but rather will vigorously enforce 
this new standard which again is not to be enforced just 
because it was done but because it will protect the health of 
millions of Americans.
    Second, I want to pick up on Senator Boxer's excellent 
statement that you have an opportunity to be an advocate within 
the new Administration for environmental protection. I 
specifically want to focus on what is a cloud on our horizon 
which is the threat of climate change. Although I know the 
debate continues, global warming is real and distressing.
    I was interested that two of our colleagues, Senator Hagel 
and Senator Craig both attended the meeting last November in 
the Netherlands where they didn't agree with the specifics that 
were being proposed amid statements they'd reached a conclusion 
based on the science that there was a real problem here. I hope 
you will use your position in this Administration to also bring 
about a consensus that will enable us to take at least some 
steps forward to stop this problem.
    At the international negotiations in the Netherlands last 
November, there were a number of positive signs that an 
acceptable agreement is possible in the context of the Kyoto 
protocol. I hope you will play an active role in helping 
Congress and the new Administration take some sensible steps 
forward in that direction.
    Finally, although I recognize you're now moving to a 
national office, I hope you will not lose sight of the 
particular environmental problems of the northeast. Since the 
passage of the Clean Air Act amendments in 1970, transported 
pollution in our States in the northeast--yours, mind, New York 
and others--has continued to be a problem. In Connecticut, for 
instance, transported pollution has measured at levels that 
exceed the public health standard by 80 percent. Under the 
stewardship of the Clinton Administration, the EPA began to 
take steps to address this problem through regulations such as 
the NOx SIP which will help reduce smog in the northeast.
    I remember some good political advice I got when I took a 
first step forward in politics in Connecticut from a salty old 
New Haven politician who said to me, ``Kid, never forget where 
you came from.'' So I hope environmentally speaking, as you 
assume the leadership of EPA, that you will not forget where 
you came from.
    I look forward to your testimony today. Thank you for your 
willingness to serve in this position.
    Senator Reid. Thank you, Senator Lieberman.
    Senator Voinovich?

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you.
    I too would like to welcome back Senator Lieberman and look 
forward to working with him in this committee and also in 
Governmental Affairs.
    I'm pleased that my longtime and good friend, Senator 
Carper, is going to be on this committee and looking forward to 
working with you, Tom.
    Senator Clinton, we've worked together on children's issues 
and I look forward to working with you, and all my other 
colleagues here.
    I'd like to make a short statement and then ask unanimous 
consent that a longer statement be put in the record.
    Senator Reid. That will be the order.
    Senator Voinovich. First, Governor, after the statements of 
all us here today, you're going to realize what a tough job you 
have. Governor Whitman and I have been friends for a number of 
years. I can still remember how pleased I was to support her 
candidacy for Governor of New Jersey when I was chairman of the 
Republican Governors Association.
    We worked together in the National Governors Association 
where she was a very, very active member. I know of her 
interest and commitment to the environment because I appointed 
her to serve as chairman of the NGA's Committee on Natural 
Resources, a longstanding interest in the environment.
    Though we have had some regional differences, we have 
collaborated on many issues, giving our States greater control 
of overflow control and out-of-state waste. We didn't make it 
but we sure worked at it. I know your record of outstanding 
accomplishments in protecting public health and the 
environment. We have heard about that and we will hear more 
from you.
    I think you further understand being a good environmental 
steward can be done responsibly, that there's a balance that 
can and must be maintained between economic progress and 
environmental protection. It's that balance, Governor, that I 
will work to achieve with you when you're confirmed as I think 
you will be, as the Administrator.
    An issue of concern to me and millions of Americans, and 
I'm surprised I haven't heard it yet this morning, is today's 
high energy prices and what we are now seeing in the West and 
the need for reliable energy supply. With electricity, natural 
gas and home heating oil prices skyrocketing and gasoline 
prices remaining high, we've got to address our country's lack 
of a comprehensive energy policy.
    Not only that, we need to be concerned about the growing 
solidarity among the oil-producing nations and the unrest in 
the Middle East. I just came back from visiting with President 
Mubarak and meeting with leaders in Israel. That situation is 
very, very critical and could explode.
    Since at least the mid-1970's, Congress and the 
Presidential administration of both parties have been 
unwilling, unable, unmotivated to implement a long term energy 
policy. As an aside, it seems like deja vu to back in the 
1970's as we sit here today awaiting the outcome of another 
OPEC meeting being held to determine what production levels are 
going to be provided by the oil cartel. Three dollars a barrel 
today, God knows what it is going to be tomorrow.
    We import more oil now than at any other time in history 
but we can't increase production here in the U.S. even if we 
wanted to. We haven't built a refinery in 25 years; we shutdown 
36 during the Clinton years. As a result, gasoline prices are 
high and could go higher.
    Home heating oil, I talked to somebody yesterday and it's 
going to have a devastating impact not only on the people in 
that part of the country but on the businesses there. Fifty-six 
million American homes use natural gas. Unfortunately, supply 
and demand of this clean fuel is driving prices through the 
roof. Just ask my wife, Janet. Look at this bill and I said, 
you know, we can afford it but what about the poor in this 
country, what about the elderly who are going to give up eating 
or other things they need to have because they have to pay 
their energy costs.
    We shouldn't forget we have other energy resources like 
coal. I know it's a dirty word today at the EPA, fossil fuel, 
let's get rid of it. We have new technologies that are making 
coal an increasingly cleaner source of electricity and it's 
abundant. It's an abundant resource, 250 years of supply of 
coal we have in this country.
    I think it's time the Government, industry and 
environmentalists and consumer groups together start talking to 
one another on the best approach to meet our long-term energy 
needs. I'd be interested in your thoughts, Governor, on the 
need for a comprehensive energy policy and the role of the EPA. 
It's not only in the Energy Committee, it's in the EPA. Energy 
and EPA have to work together.
    I'm also interested in brownfields. I'm pleased to know 
you've done so much in your State about it. I had legislation 
in last year that would allow States to go forward with their 
brownfield program but many States cannot get the signoff from 
the EPA. For some reason, they think they care more about the 
environment than Governors and state legislators, mayors and 
city council members and commissioners in our respective 
States. We need to get on with that brownfield legislation. I 
can tell you in Ohio we have cleaned up a lot more sites with 
our law than the Federal Government has under their program.
    The other thing--and you and I have talked about it and I 
think it's a subject all of us in this committee ought to be 
concerned about--is the upcoming human capital crisis in this 
country. A lot of people are unaware of the fact that one-third 
of the people working in our Federal agencies are going to 
retire before 2004 and another 22 percent of them are eligible 
for retirement. We could lose almost half the Federal work 
force by 2004. That's going to impact your agency. You've got a 
tremendous problem there. You need the best and brightest 
people to do research, do the enforcement, you need scientists 
and lawyers.
    I'm going to be interested in knowing some of your 
recommendations on how you can deal with that. I would hope 
you'd bring that problem back to this committee and others in 
Congress so that we can be responsive.
    Last month I released a report to help the new 
Administration respond to this crisis before it reaches crisis. 
I gave you a copy when you were in the office.
    Mr. Chairman, all of us agree we need to protect the 
environment and the health of our citizens. Congress and the 
Administration need to do a better job of ensuring the cost of 
laws and regulations bear a reasonable relationship with their 
benefits to public health and the environment. We need to do a 
better job of setting priorities and spending our resources 
wisely. How we do that will affect our ability to create a 
national energy policy, secure our national defense and 
economic competitiveness in the world marketplace and respond 
to the need to maintain a reliable source of energy as well as 
address the soaring cost of energy in this Nation and its 
reliability, as I said before, costs that are impacting on 
those least able to pay.
    The unrest that is occurring in the Middle East and the 
soaring cost of energy in the United States means that this 
Nation's lack of a cohesive and comprehensive energy policy 
will be on the front burner and generate a lot of heat for 
sometime. I think it's going to be the issue for sure this 
year.
    Governor Whitman, you and President-elect Bush are in the 
kitchen and we're in there with you. We look forward to working 
with you.
    [The prepared statement of Senator Voinovich follows:]
 Statement of Hon. George V. Voinovich, U.S. Senator from the State of 
                                  Ohio
    Good morning, Mr. Chairman, and thank you for holding this hearing 
on the nomination of Governor Christine Todd Whitman to be the next 
Administrator for the Environmental Protection Agency.
    Governor Whitman, I would like to welcome you to our Committee this 
morning.
    Christine Whitman and I have been good friends for a number of 
years, and I can still remember how pleased I was to support her 
candidacy for Governor back in 1993 when I was chair of the Republican 
Governors' Association.
    Governor Whitman and I have worked closely together in the National 
Governors' Association where she was a very active member. I know of 
her interest in and commitment to the environment because I appointed 
her to serve as the chairperson of the NGA's Committee on Natural 
Resources.
    Even though we had some differences because of the regions of the 
country that we represent, we collaborated on many issues, including 
giving states greater control over waste flow control as well as 
shipments of out-of-state waste.
    Throughout her term in office, Governor Whitman has been interested 
in protecting public health and the environment, and has made it one of 
her priorities.
    To point out a few of her accomplishments, Governor Whitman has 
provided nearly $675 million in loans and over $17 million in grants 
for a variety of clean water and drinking water infrastructure projects 
in New Jersey; she has worked to clean up New Jersey's waters, making 
100 percent of the state's beaches ``swimmable'' and increasing the 
acreage in her state available for shellfish harvesting; and she has 
fought to preserve farmland and other open spaces including approving 
$11 million to preserve Sterling Forest in New York a major watershed 
region for millions of residents of northern New Jersey and New York 
City.
    As Governor, Christine Whitman has understood that being a good 
environmental steward can be done responsibly; that there is a balance 
that can and must be maintained between economic progress and 
environmental protection.
    It is that balance that this Senator will work to achieve with 
Governor Whitman when she is as I believe she will be confirmed by the 
Senate.
    Governor Whitman, an issue that is of concern to me and millions of 
Americans is the high price of energy, coupled with the need to 
maintain a reliable energy supply. With electricity, natural gas and 
home heating oil prices skyrocketing and gasoline prices remaining 
high, it has become apparent that our country's lack of a comprehensive 
energy policy must be addressed. Since at least the mid- 1970's, 
Congress and Presidential administrations of both parties have been 
unwilling, unable and unmotivated to implement a long-term energy 
policy.
    As an aside, it seems like deja vu as we all sit here today 
awaiting the outcome of another OPEC meeting that is being held to 
determine what production levels will be imposed by this oil cartel.
    Today, the United States relies on more foreign sources of oil than 
at any other time in history. However, even if we wanted to increase 
the production of crude oil in this country, there has not been a new 
refinery constructed in 25 years due, in part, to changes in U.S. 
environmental policies. Additionally, 36 refineries have closed since 
the beginning of the Clinton Administration, in part, because of strict 
environmental standards.
    Last year, the existing refineries were running at 95 percent 
capacity or higher for much of the year. With our refineries running at 
these levels, even if a greater oil supply was available, there would 
be no capability for refineries to turn it into useful products. As a 
result, we must rely on overseas supplies at an astronomical cost from 
a region fraught with instability. Until new refining capacity is 
available, even minor supply disruptions will continue to lead to 
drastic increases in fuel prices.
    In addition, natural gas heats 56 million American homes and 
provides 15 percent of the nation's electric power, for nearly one-
quarter of our energy supply. Because natural gas burns so cleanly, it 
is easier to obtain the environmental permits necessary to build 
natural gas-run energy plants. Thus, it is easy to see why up to 95 
percent of all new electric generation plants that are currently being 
built are expected to use natural gas for fuel.
    The popularity of natural gas is good for the environment, but the 
high demand for it is beginning to pinch the pocketbook, resulting in 
soaring costs. We should not forget that other energy resources are 
available which can provide additional sources of clean, low-cost 
power.
    New technologies are making coal an increasingly cleaner source of 
electricity. We shouldn't forget this valuable, abundant natural 
resource with an estimated domestic supply of 250 years as we move 
forward with an energy policy that not only protects our environment, 
but also continues to meet consumer's needs for power.
    During this energy crisis, it is critical that we restructure our 
country's disjointed energy policy into a national plan that is 
comprehensive, cohesive and cost-efficient. This is a goal that we 
cannot accomplish without considering the role environmental 
regulations play in our energy infrastructure, and Governor Whitman, I 
would be interested in hearing your views on what we should do to forge 
a comprehensive energy policy, and the role that the EPA should play in 
developing that policy.
    One other area that I am interested in, and which I know Governor 
Whitman cares about, is the need to enact brownfields legislation. In 
fact, I introduced legislation last year to provide incentives to clean 
up abandoned industrial sites across the country, put them back into 
productive use and save our greenspaces.
    The main impetus behind my legislation was my view that we need to 
create more certainty in the brownfields cleanup process. Parties that 
clean up non-NPL sites under state cleanup laws need to be certain 
about the rules that apply to them, particularly that their actions 
terminate the risk of future liability under Superfund.
    We need to create that certainty by allowing states to release 
parties that have cleaned up sites under state laws and programs from 
Federal liability.
    Again, I intend to reintroduce my legislation once the Senate re-
convenes, but, Governor Whitman, I would like to hear your views as to 
what the administration will do with respect to implementing a fair and 
reasonable brownfields policy that does not impede progress onsite 
clean-ups that have been conducted via state standards.
    Finally, I would like to talk about an issue that I believe to be 
very important; one that affects all Federal agencies and departments 
the human capital crisis.
    By 2004, 32 percent of all Federal employees will be eligible for 
regular retirement, and 21 percent more will be eligible for early 
retirement. Taken together, more than half the Federal work force 
900,000 employees will be eligible to leave government service in just 
4 years.
    While I don't expect such a mass exodus, it's certain that we will 
lose a lot of good people who have the experience and know-how 
necessary to meet the expectations of the American taxpayer.
    For instance, at the EPA, the loss of scientists could affect 
attempts to revise environmental standards, while the loss of lawyers 
could have an impact on enforcement action timetables.
    All in all, fewer qualified Federal employees could have a 
tremendous economic and societal impact.
    Last month, I released a report titled ``Report to the President: 
The Crisis in Human Capital,'' a guide for the Bush administration to 
respond to this crisis while it can still be reasonably addressed, and 
before it reaches critical mass.
    I am ready to work with the administration in helping to resolve 
this impending crisis and to create greater awareness among my 
colleagues in order to pass legislative remedies. In the meantime, 
Governor Whitman, I hope you quickly familiarize yourself with the 
human capital needs at the EPA and I would be interested in hearing how 
you intend to respond to this challenge.
    Mr. Chairman, everyone in this room agrees that we need to protect 
the environment and the health of our citizens. I believe that Congress 
and the Administration need to do a much better job of ensuring that 
the costs of laws and regulations bear a reasonable relationship with 
their benefits to public health and the environment, and we need to do 
a better job of setting priorities and spending our resources wisely.
    How we do that will have an enormous impact on our ability to 
create a national energy policy, secure our national defense and 
economic competitiveness in the world marketplace, and respond to the 
need to maintain a reliable source of energy as well as address the 
soaring cost of energy in this nation costs that are impacting most 
severely on those least able to pay, primarily, seniors on fixed 
incomes and low-income families.
    The unrest that is happening in the Middle East and the soaring 
cost of energy in the United States means that this nation's lack of a 
cohesive and comprehensive energy policy will be on the ``front 
burner'' for quite some time. And Governor Whitman, you and President-
elect Bush will be in the kitchen.
    Senator Reid. As usual, you give an important statement.

       OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman.
    I'm pleased to be joining my colleagues as a new member of 
this committee. It has a strong tradition of New York presence 
and leadership because of Senator Moynihan's work on behalf of 
the environment and public works and his service as the 
chairman of this committee.
    I'm looking forward to working on behalf of the issues that 
this committee is concerned with--protecting and preserving our 
environment, protecting and furthering public health, and 
providing communities with much needed infrastructure.
    I'm delighted to be here with Governor Whitman and her 
husband, whom I have shared many spousal events with, so it's a 
particular pleasure to see you here and to see you in this 
position.
    The points that have already been raised by previous 
opening statements are all ones that are of concern to the 
State that Senator Torricelli described as being east of Jersey 
City and Newark because New York has a number of environmental 
challenges, partly because of our long tradition of 
industrialization which we share with New Jersey, Delaware, 
Connecticut and other States in the Northeast; partly because 
of transported pollution. We have particular issues that will 
need the concern and attention of the Administrator of the EPA.
    That is why this hearing is important to me because as I've 
traveled New York from the Adirondacks to Lake Onondaga to the 
Hudson River to the Long Island Sound and the New York 
shoreline, I've certainly seen the extraordinary environmental 
treasures but also the problems that have come over the decades 
that have not yet been addressed.
    I too believe that a clean and healthy environment go along 
with a growing and expanding economy. Today we enjoy the 
cleanest air, cleanest water and strongest economy in a 
generation. It is my hope that through new tax credits and 
other incentives, we can further reduce pollution and improve 
the environment while continuing to grow the economy, 
particularly in areas like upstate New York, and other urban 
areas in New York and elsewhere that have not yet realized the 
full benefits of economic growth.
    I know that we can continue to improve the environment and 
provide new opportunities for job creation and economic 
development through an increase in brownfields cleanup and 
redevelopment. EPA's brownfields initiative has already proven 
successful across the country and in many areas in New York 
State including Buffalo, Rochester and Niagara Falls.
    I believe that an effective, voluntary and incentive-based 
program needs to be backed by strong environmental and public 
health standards, and by rigorous enforcement where compliance 
with such standards is lacking. These efforts need to be 
supported by adequate resources in the agency's budget.
    I look forward to learning more about Governor Whitman's 
ideas of how best to enforce environmental standards.
    Perhaps even more important than the link between the 
environment and the economy is the link between the environment 
and public health. In the work that I have done on behalf of 
children's health, as many of you, including members of this 
committee have done, we know and we're becoming increasingly 
aware of the link between environmental degradation and harmful 
pollutants and diseases that children and adults suffer. I 
would particularly point to the extraordinary increase in 
asthma as one example of that.
    In children particularly, environmental damage can lead to 
long-term learning disabilities and other health problems. So 
this link between the health of our citizens and the health of 
our environment makes it all the more important to continue 
expediting the cleanup of toxic waste sites under the Superfund 
Program, establishing the strongest standards for the quality 
of our air, and ensuring that communities, particularly 
communities of color, have the resources they need to 
adequately treat their water and clean up the toxic wastes that 
are in their environment.
    Equally important are effort to provide the public with 
information about the food we eat, the water we drink and the 
air we breathe so that we all can make our own decisions about 
how best to protect ourselves and our families from potential 
environmental health risks. I would hope we would continue to 
work to make certain the same protections are afforded to all 
communities regardless of who lives in a community, the race or 
ethnicity, or income level of those citizens.
    In New York, as in New Jersey, the environment has been an 
area in which Republicans and Democrats have worked together. 
It is my great hope that we will make similar progress at the 
national level with the new administration by working in a 
bipartisan, even non-partisan way.
    I think we can all recognize significant progress has been 
made in improving and protecting public health and the 
environment, but there is much more to be done. In addition to 
the issues that I've mentioned, I certainly join my colleagues' 
comments about everything from the energy crisis to climate 
warming and know these are the challenges that will have to be 
tackled with Governor Whitman's leadership in this 
Administration.
    I look forward to discussing these issues and challenges 
with you this morning and in the weeks and months ahead.
    Senator Reid. Thank you, Senator Clinton. We appreciate 
your patience.
    Senator Bond?

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you.
    It's a real pleasure for me to welcome a friend I've known 
for over 40 years. She was a very, very, very young person when 
I first met her.
    It's also a pleasure to welcome two other new members to 
the committee, Senator Clinton and Senator Carper whom I first 
got to know in the Governors Association and following several 
Governors.
    I have to tell you, Christie, there are a lot of 
adjustments you have to make from being Governor to being in 
Washington, D.C. The first thing you need to know is that when 
they say hearing, don't believe we're here to hear the 
witnesses. You have spent about a hour and 15 minutes and 
you're not through yet.
    Senator Reid. Would the Senator yield his time?
    [Laughter.]
    Senator Bond. No. I'm not going to submit my statement for 
the record either because I know nobody reads it. It makes us 
feel better but it doesn't do any good.
    [Laughter.]
    Senator Bond. On a serious note, I want to echo what 
Senator Voinovich said about the energy crisis. We are seeing 
in our part of the world the natural gas prices going through 
the roof because of some very short-sighted policies. One, we 
pushed our all other forms of energy so we are now building new 
electrical generation facilities utilizing natural gas. I 
happen to think that's a very, very outrageous waste of a 
scarce resource. We ought to be using other sources.
    I'm not going to tickle the fancy of our chairman by 
mentioning one particular resource but there are other sources 
of energy and natural gas should not be the primary source of 
electrical generation. Natural gas itself is higher because of 
the restrictions and limitations put on the development of 
sources. That's something again that's going to come into this 
energy discussion.
    On the question of your responsibilities, as a Missouri 
Republican outdoorsman, everything from hunting, fishing, to 
native grasses and wildflowers, I'm very proud of the tradition 
we have in our State of conserving, preserving and protecting 
our environment. I want to save it for my son who happens to be 
a temporary resident of your State right now.
    I think we both know that the issue is not whether we are 
going to preserve and protect our environment, but how we go 
about it and make it a sustainable, continually progressive 
effort. I don't accept the status quo simply because 
bureaucrats think it works but there are a lot of people on 
main street who know it doesn't work.
    I reject the notion that to seek reform and improvement in 
the environmental laws and regulations is tantamount to a 
rollback of environmental protections. That kind of easy 
characterization won't work, that dog won't hunt anymore.
    I hope you will agree to seek flexibility to seek improved 
methods of cleaning up the environment, not rollbacks or 
letting polluters off the hook. A targeted fix to improve the 
environment in a cost effective way is not a stealth attack. I 
would hope that we both agree that flexibility needs to be 
protected, partnerships need to be formed and we need to 
measure environmental progress, not in the bean counter numbers 
of how many enforcement actions and how many people have been 
sued solely but in how much the environment itself has been 
improved in the various areas.
    Our environmental statutes are like stovepipes that require 
us to look only at one element in many of the activities. We 
need to be looking at the broad impact our actions have across 
the media which are affected by environmental statutes.
    I look forward to working with you on this committee on 
streamlining some of the environmental regulations. We do 
transportation out of here as well and transportation is 
vitally important. Yet we see in our State when we are building 
a bridge of road, instead of taking two or 3 years, NEPA drives 
it up to eight, nine or 10 years. There are some people who 
want to use the environmental laws to cut out barge traffic and 
navigation in this country. One barge tow takes about 880 
trucks, 18 wheelers off the highway and that is a significant 
environmental problem.
    Senator Reid. How many?
    Senator Bond. 880 18 wheelers. A normal barge tow with 25 
towboats on it. That's why I have imposed upon my colleagues, 
particularly my colleague the chairman, in seeking to maintain 
the flexibility to have river transportation as one of our 
alternatives for transportation.
    We look forward to streamlining the process so we can 
protect the environment and keep transportation moving.
    I look forward to working with you on some other 
committees, on the Budget Committee, and the Appropriations 
Committee where you'll have an opportunity to tell us what your 
priorities are.
    I certainly hope we can work to improve environmental 
progress, one of the areas with which you are familiar with 
your agricultural background, is how to deal with the problem 
of nonpoint source pollution. We've done things with the EPA, 
the hog producers and the Clean Water Foundation.
    We think agraforestry has a means of providing natural 
filter strips to lessen nonpoint source pollution from 
agricultural runoff. We look forward to working with you on 
that.
    Finally, I do have one more committee and that's the Small 
Business Committee and Superfund liability is a tremendous 
problem for many innocent small businesses. We've had the 
dickens of a time trying to rationalize that to make sure we 
can clean up Superfund sites and not hold small businesses who 
have neither the resources nor the guilt for superfund sites 
from being held liable.
    We have a lot of work to do and maybe before lunchtime 
you'll have an opportunity to make your opening statement.
    I thank you for your indulgence and I thank the chairman.
    Senator Reid. Thank you, Senator Bond.
    The final statement will be made by Senator Graham. I say 
to you, you and Senator Smith are an example of being able to 
legislate things that really matter. The work you did last 
session on the Everglades is something that will long be 
remembered when history is written as to good things that have 
happened dealing with things environmental. Both of you are to 
be congratulated for getting that piece of legislation through 
the Senate, through the House and signed by the President.

             OPENING STATEMENT OF HON. BOB GRAHAM, 
             U.S. SENATOR FROM THE STATE OF FLORIDA

    Senator Graham. Thank you very much, Mr. Chairman. That's 
typical of your thoughtfulness and courtesy as well as depth of 
wisdom in terms of what is really important.
    I want to also extend my congratulations and best wishes to 
our two newest members, Senator Carper and Senator Clinton. We 
know that you bring a great deal of wisdom and experience to 
these issues and we will look forward to benefiting by your 
participation.
    In light of the fact that I am the last and also to try to 
follow your admonition for brevity, I would just like to 
mention two policy issues that I think are significant.
    One is a continuation of what Senator Voinovich and Senator 
Bond both previously referred to and that is the issue of 
energy. I met last week with a member of an energy commission 
that has been established by our Governor Bush to look at the 
future in Florida. One of the things that stunned me was the 
fact that today of the approximately ten new plants that are in 
some stage of development in Florida, every one of them is a 
natural gas plant. They are not being used as they had been in 
the past, just for peaking power, but rather they are going to 
be a part of the base load.
    So the degree of dependence to which we have come on that 
one source of energy I think has very serious ramifications. 
One of the reasons we've become so dependent on natural gas is 
that all the other alternatives had become very difficult to 
get permitted. One area that our State had a good experience 
with is nuclear. We have three nuclear farms in Florida. They 
used to provide over 20 percent of our total energy. Now they 
are under 15 percent and going further south.
    That is going to particularly involve your agency in terms 
of how can we have a rational national policy of 
diversification of energy sources for electrical generation. 
I'd look forward to working with you on this committee and also 
on the Energy and Natural Resources Committee to see if we can 
come to an accommodation.
    The second issue which was highlighted by a recent Supreme 
Court opinion on wetlands, is that many environmental issues 
involve a degree of Federal jurisdiction; then outside that 
Federal jurisdiction is what the States will do. I think it is 
important that we increasingly look at our Federal policy not 
as if it were a unilateral policy but rather a partnership with 
the States.
    I believe this recent Supreme Court opinion which 
apparently is going to restrict the jurisdiction of the Federal 
Government relative to wetlands protection offers an 
opportunity for us to explore how that partnership might be 
crafted.
    With your background as a Governor and a citizen in one of 
our major States, I think you bring special competencies to 
both of those issues of energy and a new Federal/State 
environmental partnership. I know the members of the committee, 
including myself, look forward to working with you toward that 
end.
    Thank you very much and congratulations.
    Senator Reid. Governor Whitman?

     STATEMENT OF HON. CHRISTINE TODD WHITMAN, NOMINEE FOR 
   ADMINISTRATOR OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY

    Governor Whitman. Thank you, Mr. Chairman.
    I'd start by offering my thanks to Senators Torricelli and 
Corzine and Congressman Frelinghuysen for their very kind 
introductions and frankly, to each of you for your statements; 
to you, Senator Reid and Senator Smith, for allowing me to be 
here today and appear before you.
    I do want to echo what you said, Senator Reid, about the 
importance of family and support and I am delighted that my 
husband is here along with my sister. I would have loved it if 
our son, Taylor, and our daughter, Kate, could be here but the 
fact that one is attending to studies and the other is earning 
her keep are both very good things. As a parent, I will forgive 
them for not being a part of this today.
    Senator Reid. Would your sister and husband stand and be 
recognized?
    Thank you.
    Governor Whitman. It is an honor to come before this 
committee today as President-elect Bush's designee for 
Administrator to the Environmental Protection Agency. I am 
truly grateful for the opportunity that President-elect Bush 
has given me.
    Over the past several weeks, I have enjoyed the opportunity 
to sit down with almost all of you--Senator Graham is the only 
one I haven't had that opportunity with yet and I trust we will 
close that loop very shortly--to talk about what we can do 
together to preserve this Nation's environment. I'm especially 
looking forward to your kind invitations to visit your States. 
I intend to take you up on that as early as possible. While I 
look forward to seeing the sights you wish to show me relative 
to the environmental challenges you face, I hope we can spend 
some time in some of your States on a trout stream because I 
have a particular place in my heart for that, to talk about 
what we can do to protect our environment.
    It was on the banks of a very small trout stream that goes 
through our farm that my father first introduced me to the 
beauty of nature and obviously, I've been hooked ever since, 
having had the fortunate experience of being raised on a farm.
    We stand today I believe at a place of enormous 
opportunity. Over the past three decades, our Nation has won so 
many important victories in our common mission to preserve this 
Nation's environment, to protect America's environment.
    We have seen a radical transformation in the way that we 
look at our air, our water, and our land. Today, there is 
universal, and I truly believe it is universal, agreement that 
our natural resources are valuable, not just for the economic 
prosperity they help create, but for what they add to our 
quality of life. No longer do we debate about whether we need 
to act to protect our environment. Instead, we discuss how we 
can keep America green while keeping our economy going.
    In fact, we have reached a stage of realization where we 
recognize we need a strong economy in order to help us have the 
resources to spend on some of the more expensive clean-ups that 
we need to do, and to promote some of the more expensive 
answers to environmental challenges that we face.
    Due to the progress that we have made, both in our actions 
and in our attitudes, America is at the cusp of yet another 
transformation. We are ready to enter a new era of 
environmental policy; an era that requires a new philosophy of 
public stewardship and personal responsibility.
    To discover what this new era will look like, I believe one 
only has to look to the states. Since I happen to quite 
familiar with one particular state, I would like to tell you a 
little bit about what we have done in New Jersey over the last 
7 years.
    In my home state, we are moving beyond the ``command and 
control'' model of mandates, regulations, and litigation. We 
are, instead, working to forge strong partnerships among 
citizens, governments, and business, built on trust, 
cooperation, and shared mutual goals. Those partnerships are 
producing results: clear, measurable results. I would like to 
share some of them with you.
    Our air is cleaner. For example, the number of days New 
Jersey violated the Federal 1-hour air quality standard for 
ground level ozone has dropped from 45 in 1988 to four last 
year. We are doing a better job of monitoring our air quality, 
with more air monitoring stations around the state. We are on 
target to reduce greenhouse gas emissions below 1990 levels 
through incentives to encourage voluntary reductions, promote 
energy efficiency and renewable technologies, and reduce 
landfill gas emissions.
    Our water is clearer in my home state. The Delaware River 
is thriving again, as Senator Carper knows, and the shad 
population is finally coming back up, further up the river. It 
has increased by more than 300 percent.
    Senator Reid. You are not supposed to talk about chad in 
this committee.
    [Laughter.]
    Governor Whitman. Not chad, shad; it is the ``s.'' That was 
my confusion initially, too, in part, I must say.
    [Laughter.]
    Governor Whitman. But it has increased more than 300 since 
the 1970's.
    New Jersey leads the Nation in opening shellfish harvesting 
beds. Annual ocean beach closings, as you have heard before, 
dropped from a high of 800 in 1988 to 11 last year.
    Our land is cleaner. We have transformed our brownfield 
programs into a redevelopment tool, providing $15 million to 
help towns clean up sites and market them for re-use. Mine is 
the only state in America today that provides a program for 
private citizens to do voluntary clean up sites. We provide 
reimbursement, and we are the only state to do that.
    In addition, in 1998, the voters in New Jersey 
overwhelmingly approved my plan to preserve one million acres 
by the year 2010, and we are already 20 percent of the way to 
doing that.
    Only by measuring the quality of the environment, the 
purity of the water, the cleanliness of the air, the protection 
afforded the land, can we, I believe, measure the true success 
of our efforts in everything that we are doing. By those 
measures, New Jersey is succeeding: our water and air are 
cleaner, and our land better protected than it was 7 years ago.
    At the same time, New Jersey's economy is stronger than 
ever. More people have jobs today in my state than ever in our 
history. As President-elect Bush has emphasized, and as New 
Jersey has seen, environmental protection and economic 
prosperity do and can go hand in hand.
    The President-elect has articulated a clear set of 
principles that I will work to implement at the EPA, should I 
be confirmed. I would like to highlight several of those today.
    First, we will launch a new era of cooperation among all 
stakeholders in environmental protection. Only by including all 
America can we meet the challenges we face. There is much that 
government can do, but government cannot do it alone.
    Second, we will maintain a strong Federal role, but we will 
provide flexibility to the states and to local communities. 
They need that flexibility to craft their solutions to their 
unique situations. We will also respect state and local 
authority and rely on their expertise.
    Third, we will continue to set high standards and will make 
clear our expectations. To meet those goals, we will place a 
greater emphasis on market-based incentives.
    Next, we will use strong science. Scientific analysis 
should drive policy. Neither policy nor politics should drive 
scientific results.
    Finally, we will work to promote effective compliance with 
environmental standards without, and I repeat, without 
weakening our commitment to vigorous enforcement of tough laws 
and regulations. We will offer the carrot first, but we will 
not retire the stick.
    Taken together, these reforms will transform the way we 
meet EPA's mission. They will also produce real results; 
results to which we will be able to look when we want to know 
how far we have come, and how far we have yet to go, in order 
to meet the desires we all have for a clean and healthy 
environment.
    I am looking forward to the job ahead, should you honor me 
with your confirmation. The EPA is staffed with some of the 
finest environmental professionals in the world. I know that 
they are eager, as I am, to begin our work together.
    I also know that the demands I will face as Administrator 
of the EPA will not be the same that I faced as Governor. The 
position I hope to assume allows no room for regional 
favoritism. But I do expect to bring to my job an understanding 
and an empathy for what it is like to be on the receiving end 
of mandates from Washington.
    Mr. Chairman, one of the first things that my father taught 
me on that trout stream was something he said which was, 
``Christie, always leave any place cleaner than when you found 
it.''
    He did not know it at the time, but that was awfully good 
advice for someone who would some day be nominated to serve as 
head of the our nation's agency for environmental protection.
    I pledge to you, Mr. Chairman, and to the members of this 
committee, that if confirmed, I will do everything that I can 
as EPA Administrator to leave America's environment cleaner 
than when I found it. Thank you.
    Senator Reid. Governor Whitman, thank you very much. The 
process now is, to remind members of the committee and Governor 
Whitman, each of us will ask questions for 5 minutes. There is 
a light up here that indicates when you start. When you have a 
minute left and the red light comes on, you need to terminate 
the question and the answer, as soon as possible thereafter.
    We will go through as many rounds as necessary to make sure 
all the members have asked the questions that they feel are 
appropriate.
    Governor Whitman, you have heard a number of statements 
made by other members of the committee about some of the rules 
that are now in effect. One of the rules that is going to be 
somewhat controversial, but of which I am a real backer, is the 
new rule as it relates to the sulphur and diesel fuel, cleaner 
diesel engines.
    There is nothing more irritating to me, from an 
environmental perspective, than to be on a street in Los Vegas 
and have a bus or some other vehicle pouring out this big 
belching black smoke.
    The final rule mandates a 97 percent reduction in sulphur 
content in fuel in about 5 years, from approximately 315 parts 
per million. There are other parts of that rule that are 
important.
    Basically my question to you, do you believe that there 
needs to be something done regarding diesel vehicles, and would 
you enforce a final rule to get rid of these dirty vehicles?
    Governor Whitman. Well, Senator, I share your concern for 
air quality. We know how much of the degradation does come from 
motorized vehicles. We certainly face it in our state.
    I would say to you that as in the previous administration, 
coming in, we have the opportunity and I believe the obligation 
to review all pending rules and all new rules, and we will do 
that in this case.
    But I look forward to working with you and with members of 
the committee to see what we can do to ensure that we meet the 
environmental goals that we all share in a way that will ensure 
that our economy continues to function, but that most 
importantly, we are providing for the health and welfare of our 
citizens.
    We will be going through that process, should I be 
fortunate to become the Administrator at EPA.
    Senator Reid. Are you familiar with the rule about which I 
just spoke?
    Governor Whitman. Yes, I mean, I know it is there.
    Senator Reid. From a conceptual standpoint, do you believe 
that there needs to be something done about diesel fuel?
    Governor Whitman. I think we need to look at all the ways 
that we can clean our environment. As I said, motorized 
transport has been a large part of the problem that we see, 
particularly in New Jersey, where we have taken several actions 
to ensure that we clean our air. We need to ensure the balance, 
and that is what I will look to do.
    Senator Reid. Governor Whitman, one of the things that we 
are concerned about is something called environmental justice; 
making sure that people who have little ability to respond to 
problems dealing with the environment are protected by others.
    I, personally, have had some experiences in Nevada, and 
across the country, serious concerns have been raised about the 
disproportionate impact of environmental policies in decisions 
on low income, minority communities. One of the examples that 
has been given is some cement plant in New Jersey. I am not 
really familiar with it totally, but I am sure you are.
    What do you see as the role of the EPA Administrator in 
promoting the environmental justice in programs administered by 
the agency?
    Governor Whitman. Senator, environmental justice is clearly 
a very critical area. I would speak to the kinds of things that 
we have done in New Jersey, but also say that one of the 
biggest things that we see in environmental justice issues is 
the number, at least in our state, of situations such as 
brownfields that are located in our inner cities, where because 
of fear of retribution and of costly legal suits, there has 
been no movement to clean those sites up.
    That is one of the reasons why we have focused so heavily 
in New Jersey on innovative processes to encourage non-
polluting parties to come in and, in good faith, clean up those 
sites, so we can at least contain the pollution that is going 
into the environment and render those as good economic 
development sites.
    The same thing is true with our air. What we have done in 
New Jersey to clean our air, the disproportionate impact there 
has been to see a high level of clean air and changes in our 
inner cities; again, very important.
    I believe it is the Agency's responsibility to ensure that 
we continue to have those balances and to see that no 
population is singled out as a population that is, shall we 
say, dumped on.
    Senator Reid. I am going to submit a newspaper article or 
articles dealing with a cement plant in Camden, New Jersey, in 
a neighborhood which overwhelmingly consists of residents who 
are poor, and a significant number of African Americans/
Latinos. I would ask you to respond in writing to that 
situation.
    Governor Whitman. Absolutely; I would be happy to do that.
    Senator Reid. Before my time is up, I also want to direct 
your attention to a problem that we have in Nevada, with an 
Army depot in California, which is polluting a Paiute Indian 
tribe.
    I would ask you, upon getting settled in your job, to make 
a commitment to work with me to ensure that these Indians and 
others in Nevada are not exposed to materials that would 
threaten their health, and that this would be a priority to 
you.
    Governor Whitman. Absolutely, Senator.
    Senator Reid. Senator Smith?
    Senator Smith. Thank you, Mr. Chairman, and again, welcome 
to Governor Whitman. Thank you for being willing to serve. This 
is a tough business that we are all in, and the demands of 
public life, especially on the families, are very difficult. I 
think those of us who have been through it and are going 
through it, understand and appreciate it. I do not think that 
is said enough.
    You know, any time anything negative happens, we hear about 
it, but there is a lot of personal sacrifice with serving, and 
we appreciate the fact that you are willing to do it.
    There are a lot of good trout streams in New Hampshire, and 
I think other members would say the same thing.
    Governor Whitman. I know.
    Senator Smith. You are welcome any time to our great state.
    I want to commend you on your opening remarks. In a very 
specific way, you have given a good outline, a good insight 
into where you are coming from, in terms of how you will 
approach this job.
    You did not have to give a lot of detail in order to see 
that; specifically using such terms as cooperation, as opposed 
to the command and control technique; state flexibility as 
opposed to rigid Federal standards; market-based initiatives as 
opposed to Government initiatives; sound science as opposed to 
theory; and certainly promoting compliance without 
environmental damage.
    I commend you for that. I think that is an excellent 
statement, and one that we look forward, here on this 
committee, to working with you in implementing.
    We have had some great successes in working together, the 
Everglades, the Water Resources Development Act. We can work 
together, I think, if we think of our environment, not to gain 
points for the next election, but to look forward to the next 
generation, and take the politics out. Good environmental 
policy is not always equal to environmental politics. I know 
you will work with us in that respect.
    Let me just ask you a couple of quick questions. Short term 
and long term, realizing just now, once you take over the EPA, 
you will have to work with the new President in terms of 
setting priorities, but just on a personal level, as one who 
has been in a state that has dealt forthrightly with 
environmental problems, nationally, what would you say would be 
the most immediate short-term and long-term environmental 
problem that we face today?
    Governor Whitman. Well, Senator, where I had hoped that we 
could come to some early agreement is in brownfields 
legislation. I recognize the Superfund implications and the 
need to look at Superfund reauthorization, as well.
    But I really would love it if we could come together, and 
in a collaborative way, reach some agreement on some 
brownfields legislation that would allow the states to really 
move forward to clean up these sites, to turn them into 
productive places, and to stop the contamination and leaching 
that is going on currently; and at the same time recognizing 
that we also need to address issues of Superfund legislation.
    I certainly look forward to tackling that very difficult 
problem. I do not think for a minute that that is going to be 
an easy one.
    We also face the challenge of clean air reauthorization. 
That is something that is very important, as expressed by the 
concerns of the members of this committee; that we need to have 
clean air standards that ensure the health that are based on 
good science, that really reflect what is the best that we can 
know about how we can address these issues in an effective way, 
that will result in better health for our citizens.
    Of course, another major area that we are seeing rise to 
the top, particularly as we have done such a good job in many 
of the states in addressing point source pollution, is nonpoint 
source pollution. Much of that is traced back to water 
infrastructure; to old and aging pipes and systems throughout 
the country that are leaking.
    Combined sewer overflow is a big issue for us. It is a big 
issue in the State of New Jersey. After storms, it has a real 
impact on our streams. We need to address those.
    But in many instances, for the states and the localities, 
the cost of that is prohibitive. We need to see if we cannot 
work out a solution that would help the Federal Government be a 
partner with the states and with the localities to help them 
address this issue. Because I believe that could go a long way 
to ensuring that we meet this next level of challenge in clean 
water, which is moving from point source to nonpoint source.
    Senator Smith. I think you certainly hit on three top 
priorities with me, and I think with many others on the 
committee. Of course, another area on the short term that we 
share similar problems, as do other members of the committee, 
is the issue of MTBE, which we will also be looking at, as 
well.
    Governor Whitman. Yes.
    Senator Smith. Thank you, Mr. Chairman, and thank you, 
Governor.
    Senator Reid. Senator Carper?
    Senator Carper. Thank you, Mr. Chairman.
    Governor Whitman, thank you for your testimony. I know your 
dad would be real proud of you today.
    I am going to ask a series of questions. I am going to ask 
you to answer rather briefly, if you will. The first one is the 
kind of people you are going to be surrounding yourself with, 
as EPA Administrator. You have certainly surrounded yourself 
with terrific folks, back home.
    The question that is on my mind, and I know it is on the 
minds of some others of my colleagues, is will you have the 
independence to surround yourself with equally good or maybe 
even better people, as Administrator of EPA?
    Governor Whitman. The short answer is yes.
    Senator Carper. Good, we are going to hold you to that; 
thank you.
    Governor Whitman. I will tell you, just to elaborate a 
little bit, that this Administration has sent a very clear 
message, at least to me, and I am sure to the other Cabinet 
designees, that they expect quality people, and they expect us 
to find them.
    Senator Carper. Good; the second question is, we wrestle 
with clean air problems, just as you do on the other side of 
the Delaware River. Among the challenges that we face are 
pollution put in the air and transported to our states. It 
comes down to us when it rains. What do you think we ought to 
be doing about that?
    Governor Whitman. Well, as you know, right now there are 
certain things in place that are somewhat controversial; some 
regulations in place that would have an impact on that.
    I believe that we need to ensure that we continue to clean 
our air, to see if we can find some innovative ways that will 
help those who have been designated as being part of the 
problem, and move forward to clean up their concerns in a way 
that allows them to continue to be economically competitive.
    Again, it gets back to the concern that I have that we 
understand that it is not an ``either/or'' on the environment. 
We need to be forceful in our regulations. We need to be 
forceful in the implementation of the regulations, but we need 
to do it in a way that reaches out to those who are on the 
receiving end of those regulations, and allow them to be part 
of the solution. Because very often, then can come up with a 
lot more innovative ways than those of us sitting in Washington 
can device.
    Senator Carper. All right, thank you.
    Senator Voinovich and others have spoken to the issue of 
energy. My wife and I drove yesterday down to Dover for the 
inauguration of a new Governor and lieutenant Governor, and we 
rode in someone else's car, not driven by a state trooper.
    Governor Whitman. You are still not driving?
    [Laughter.]
    Senator Carper. I can drive, and I rather like it.
    [Laughter.]
    Senator Carper. But it was a big car. It was a big SUV. It 
was a stretch SUV. My wife just loved it. I think probably we 
stopped four times for gas between Wilmington and Dover.
    [Laugher.]
    Senator Carper. But she thought the ride was just terrific, 
and there was plenty of room.
    We now import over half the oil that we use in this 
country. Over half the oil that we use in this country, we use 
to power the vehicles that we drive.
    Just as we were going down the road in that gas guzzler 
yesterday, I was mindful of other vehicles that are just being 
introduced and are about to be introduced to the marketplace, 
that are, in some cases, highway vehicles; in other cases, 
vehicles powered by fuel cell technology.
    I am just wondering what you might have us do, in order to 
ensure that there is a marketplace acceptance, and not just an 
acceptance, of those kinds of vehicles with the new technology, 
cleaner burning, cleaner operating, more fuel efficient; but 
what can we do to provide incentives to consumers to actually 
buy those vehicles, if they are indeed produced?
    Governor Whitman. Well, Senator, I think you touched on it 
when you said what kind of incentive can we provide. Because 
that is really where I believe we are going to have the biggest 
impact, educating the public and providing incentives and a 
desire to find more fuel efficient vehicles.
    I do not believe that we should mandate from Washington 
that only a certain kind of car can be produced and that all 
people can buy. But I do believe we have a very real way and, 
frankly, when you look at gas prices today, that is one thing 
that is going to drive consumer choice. But education is also a 
part of it.
    We entered into a contract to have clean fuel vehicles for 
our state police. As we looked at them, the problem is that 
they were electric photovoltaic cell driven cars. The problem 
we ran into is where they could be recharged.
    It turned out that, in fact, it was not practical for the 
state police to use these vehicles, but it was very practical 
for local police. So we have turned them over to the police 
departments in the cities of Trenton and Newark, because that 
is where the fuel stations were that they could receive their 
clean fuel and be recharged. That makes sense.
    I think what we have to do is look at this as a policy that 
is not going to be answer. It is not going to be the same for 
the entire country. But we need to educate people, and we need 
to provide incentives and alternatives, so that they can move 
to more fuel efficient vehicles.
    Senator Carper. I have one last final statement. In the 
National Governors Association, one of the best things that we 
had going for us was the Center for Best Practices, where we 
use our 50 states as laboratories to figure out what is 
working, and rather than reinventing the wheel, steel somebody 
else's good idea, and we would do that quite frequently.
    Governor Whitman. Yes.
    Senator Carper. I would hope that we would be taking a 
similar kind of attitude in our Federal agencies, whether it is 
EPA or HUD or any other, to say, how can we better utilize the 
Federal agencies? That is not just to write rules and 
regulations, and that is important; but also to be a bit of a 
clearinghouse to share the ideas of what is working.
    That having been said, I am going to submit later on, just 
for a response in writing if you would, your thoughts on this 
proposal by the Army Corps of Engineers to dredge the Delaware 
River to a depth of 45 feet.
    Thank you very much.
    Senator Reid. Senator Carper, thank you very much.
    Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    Governor, as you were responding to us, a term came to my 
mind that would be a refreshing change. It is compassionate 
compliance.
    [Laughter.]
    Senator Inhofe. You have heard from each one of us as to 
why we believe you would be an excellent Administrator. But why 
do you think, in your own mind, that you would be a good 
Administrator of the EPA?
    Governor Whitman. Well, Senator, certainly, what I would 
bring to the office are the strengths and the skills that I 
have learned as Governor of a very complex state, as many of 
you have noted.
    Most of those skills have been based around, first of all, 
the ability to manage a large work force of 60,000 in the State 
of New Jersey and a large budget; to solve some very complex 
and competing problems through bringing everyone to the table.
    I have found that, for some, compromise is looked on as a 
backing away from principles, and has been denigrated as a tool 
for problem solving.
    I, frankly, find it quite the opposite. I think compromise 
is what you are doing in bringing everyone to the table, 
recognizing there is no one right answer to almost any issue we 
face. I do not care what it is, or in what field that you find 
it. But it is listening to everybody and crafting a solution 
that meets the greatest need of the greatest number of people.
    I look forward, at EPA, to being very aggressive in 
reaching out to you, to your constituents. In fact, I would 
intend, if I were to be fortunate enough to receive the 
confirmation, to very early on visit all the regions, and ask 
those regional directors to pull together some stakeholder 
meetings of those who are most involved in the most contentious 
issues that you face in those regions, and for me to sit down 
and to hear from them what they feel are the problems, and what 
they see as some of the solutions.
    That has been something that we have done in the State of 
New Jersey. It is something that, as my fellow former Governors 
know, is very much a part of how we approach problem solving. 
Besides, as I say, just the obvious task of having managed a 
large bureaucracy and dealt with a myriad of environmental 
problems, it is more the approach in this philosophy that I 
bring, that it is not either/or, either a clean environmental 
or a health economy; and we have shown that in this country, 
really. We have certainly shown it in New Jersey. I know it is 
true in your states as well. We need to understand and accept 
that.
    But we also need to recognize that the best way to come up 
with a solution that really is going to provide a long-term fix 
for problems is to bring all the stakeholders together, and to 
work as partners with the states, and make sure the 
municipalities and local governments are heard from.
    Senator Inhofe. In your state, in your own personal 
experiences, do you have any oversight experiences with the 
EPA, where they could have been more helpful to you and your 
state by focusing on environmental results, or by providing 
assistance; rather than just listing things they thought the 
state was deficient in?
    Governor Whitman. Well, we recently had last year, or it 
was 2 years now, a 1999 report, where they had come into the 
state and they looked at a number of issues, and they issued a 
report on it.
    The thing that was disappointing, while most of the areas 
where they had concerns were, you know, with the environment 
nothing is minor, but as minor as it could be in the 
environment, and we have taken steps to correct them. But there 
were things such as they held us up and faulted us for not 
having set certain standards, where they had not already set 
standards.
     There were no standards for us to set. We had not met 
standards because there were none, and that was not recognized. 
The work that we were doing to move the environment forward was 
not recognized.
    As I look at what is happening in states, there is a lot of 
innovation occurring at the state level. But if we are going to 
insist at the Federal level that we judge only through what was 
referred to as, I think, by you perhaps, or Senator Smith, I do 
not remember, the bean counting, only on how many fines are 
issued or how many dollars have come in penalties; and not, is 
the air cleaner or the water cleaner, we are making a big 
mistake.
    In this one review that we got, the most recent one, that 
is really where the emphasis was. It was kind of disappointing 
that they are satisfied with everything we have done to correct 
the issues that they highlighted. But I think we could have 
done a lot of that in a more collegial basis up front, and 
maybe solved the problems more quickly.
    Senator Inhofe. Governor, you heard me mention the energy 
crisis, and I think Senator Voinovich expanded on that. Have 
you had occasion yet to meet with Senator Abraham concerning 
ways you might be able to work together to address this; and if 
not, do you have some plans to do that?
    Governor Whitman. Oh, I will absolutely do that at a very 
early time. As you know, the President-elect is absolutely 
committed to an overall national energy policy. The final 
decisions on that will rest with the Department of Energy, but 
there is a great deal of involvement from the Environmental 
Protection Agency.
    I look forward to the opportunity to work with the 
Administration and all of my colleagues, if I do reach that 
level of being able to call them colleagues, to craft an energy 
policy that does protect the environment.
    Because that, first and foremost, is the responsibility of 
the Environmental Protection Agency, but also recognizes that 
people need to be able to live in this country, and to function 
in this country, and to have access to energy at reasonable 
cost, and not, as Senator Voinovich pointed out particularly 
for those on fixed income, sometimes have to make a decision 
between getting needed medication and paying for their electric 
bills.
    We saw many of those problems last winter. I hope we do not 
face them to the same degree, although parts of this country 
are in worse shape this year. We need to have that energy 
policy.
    Senator Inhofe. I have the same question as to what I 
consider to be a military crisis right now in terms of the 
compliance with many of these rules and regulations. Are you 
planning to work with either Secretary Rumsfeld and/or our 
committee, the Senate Armed Services Committee, and the House 
Armed Services Committee?
    Governor Whitman. Both, absolutely.
    Senator Inhofe. Good, thank you.
    Senator Reid. Senator Lieberman?
    Senator Lieberman. Thanks, Mr. Chairman.
    Governor Whitman, I appreciated the comments you made about 
pollution prevention and market-based incentives, in 
cooperation with regulated entities.
    I think, as the comments of some of my colleagues have 
indicated, you will find a lot of support on this committee and 
in Congress generally, across party lines for those kinds of 
steps.
    I spoke in my opening statement about what I, at least, 
perceive as a broad consensus in our society in favor of 
environmental protection. It seem to me that one of the most 
encouraging aspects of that, over the last three decades of the 
modern environmental protection movement, has been the extent 
to which law has led to an assumption of responsibility by 
private parties; a kind of environmental ethic.
    I see it, and I am sure you see it in your state, among 
businesses that had previously been sources of pollution, to 
say that they did not want to be identified as polluters or law 
breakers, and have taken steps, some at great cost, to make 
sure that they were living and doing business in an 
environmentally appropriate way.
    But I do think that part of what has helped created that 
ethic has been environmental enforcement. That will continue to 
be important, as we move into what some have called a second 
generation of environmental protection.
    So I welcomed your statement, in your opening statement, 
that while you offer the carrot to regulated entities when 
appropriate, you are always going to preserve the stick of 
enforcement. I wanted to invite you to speak with some more 
detail on the emphasis that EPA, under your leadership, will 
place on enforcement.
    Governor Whitman. Well, Senator, as I indicated in the 
opening statement, I believe that enforcement is a critical 
tool. We must not abandon it, nor walk away from it.
    But I have also found in my experience in New Jersey that 
where we can collegially have relationships with many of the 
businesses, they will clean up faster and sometimes better, 
than if it just through the threat of fine and penalty.
    So while I think enforcement is important, and it would 
never be something, as I indicated, the stick, we will never 
retire, I would and have in the past in New Jersey, approached 
it in an effort first to see if we cannot find some compliance 
intelligently up front.
    We have worked on, in New Jersey, what we call facility-
wide permitting, for instance.
    Senator Lieberman. What is that called?
    Governor Whitman. Facility-wide permitting.
    Senator Lieberman. Yes.
    Governor Whitman. It is basically getting to one permit, 
where we used to come in as the department and permit every 
single step along the way of a production line.
    Senator Lieberman. Right.
    Governor Whitman. What we do is, we go in to the business. 
We will sit down with them. We will go over all their steps. We 
will go over what they use in their steps. We will come to an 
agreement as to what the final output is, what is an acceptable 
level of discharge into the air or to the water.
    We will point out to them where we think they can be a 
little more efficient within their own production cycle; but we 
will leave it to them to achieve those levels.
    What we have found, and then we have added, and I can give 
you more for the record, if you would like, in writing, of 
something we call silver and gold track, which has allowed them 
to voluntarily reach this. We agree upon these standards.
    We have allowed for trading. If they do better than those 
standards, they can then trade the air emissions, the 
difference there, which allows them to earn a little money, at 
the same time that they are going beyond what we have agreed 
upon as the standard for discharge into the atmosphere.
    Those kinds of innovations, I believe, you are seeing all 
around the nation, when states have the ability to do that. 
While you do not retire the enforcement, if you can come to 
those kind of incentive-based agreements, we find that the 
businesses actually are very willing to go beyond that. 
Oftentimes, they go beyond what we have all agreed is an 
acceptable level of discharge, in order to have more 
flexibility.
    Senator Lieberman. Well, I hope you will be able to build 
on that. Also, I am sure you agree that, notwithstanding the 
movement in the right direction, there are always going to be 
entities that will simply not obey the law.
    Governor Whitman. Absolutely.
    Senator Lieberman. There, we have got to enforce the law.
    Governor Whitman. Absolutely, I pledge to you that we will 
do that. There are certainly those, unfortunately, who do not 
do what is best for everyone.
    Senator Lieberman. Let me ask a final question about 
climate change, which I spoke about briefly in my opening 
statement.
    Here is an area where the slightest steps have been fought 
in Congress. The late Senator Chafee and I had what we thought 
was a very modest bill to create a registry where industries 
that were taking action to reduce greenhouse gases could gain 
credit for some potential down the road of a system that would 
require them to take those actions, and that was fought.
    I note that in New Jersey, under your leadership, and I 
presume with bipartisan cooperation, you adopted a state 
climate change plan. You indicated in your opening statement, 
if I heard you correctly, that the goal was set to achieve a 
reduction in greenhouse gas emissions to the 1990 level.
    I wonder if you could both speak about that, and speak to 
what your plans are for speaking and acting to this issue of 
climate change, as the Administrator of EPA.
    Governor Whitman. Well, first, Senator, let me say that I 
would look forward with you and with Senator Chafee, if the 
current Senator Chafee assume where his father left off, to see 
what can be achieved, and with the other members of this 
committee, to see what can be achieved toward that goal.
    We understand this, and I think the science is pretty clear 
there. There is no one who objects, and the President-elect has 
indicated that he is very concerned about global warming and 
what is occurring.
    We, in New Jersey, have set goals and targets. We are ahead 
of our targets, right now. We have agreed with the 
Environmental Protection Agency. We came to a joint agreement 
as to attainment, and we are moving forward toward that 
attainment.
    If we can come to more kinds of agreements like that as an 
agency with the states, where we can come to a voluntary 
agreement on what the standards are and, again, allow the 
states the flexibility to put together programs that address 
their particular industries; because what is causing the 
problem in states differs, as we know on the East Coast. Some 
of the challenges that we have are beyond our particular 
ability to address.
    So we need to provide the flexibility to the states to be 
able to work with EPA, to achieve goals that are mutually 
agreeable goals.
    Again, I would look forward to taking the experience that 
we have had in New Jersey, but not trying to impose that 
wholesale on anyone else, but to use it as perhaps a blueprint 
as to how we can have an interaction between the Environmental 
Protection Agency and the states to achieve mutually agreed 
upon goals.
    Senator Lieberman. Thank you. This is an area that I think 
is critically important to our future, and I look forward to 
working with you on it. Thank you.
    Senator Reid. Senator Lieberman, I appreciate very much 
your statements regarding climate change. I look forward to 
working with you on a continual basis on this. We need to do a 
lot more work than we have done.
    Senator Voinovich?
    Senator Voinovich. I am anxious to bring you to Ohio for 
some of the best steelhead fly fishing in the United States of 
America.
    Governor Whitman. That sounds fabulous.
    Senator Voinovich. And I will show you one of the great 
stories in this country, and that is the clean-up of Lake Erie 
and our tributaries. There are some wonderful things that have 
happened over the years, since my days with the Environmental 
Protection Agency in Ohio.
    We have hear Senator Reid talk about the issue of diesel, 
and the new regs that are out. Last week, I met with a 
businessman from Ohio, who has come up with new technology that 
is being used today in Europe, that reduces the pollution from 
diesel vehicles 40 percent. For some reason, he cannot get the 
paperwork done in the Environmental Protection Agency to get it 
on the street.
    Now in Europe, they are using it. In fact, they have 
incentives to encourage firms to use it, but they cannot get it 
through the agency.
    I think that one of the challenges that you are going to 
have, a big one, is the issue of the kind of people that you 
have. You need Ph.D.s, you need Masters Degrees, and you 
probably are going to have to look at your budget, in terms of, 
do you have the people that you need to get the job done. Of 
course, we have already talked about the issue of this human 
capital crisis.
    But I know in Ohio, I had to increase the budget of our 
Environmental Protection Agency 60 percent in order to get the 
job done. So that is one thing that I hope that you are looking 
at.
    The other is this. Senator Smith and I are very much 
concerned, and I am glad we have heard some testimony about 
storm flow, overflows, and combined sewers. It is an 
unbelievable problem. In my state, because of the new mandates, 
the sewer bills of people are going to go from $40 a month to 
$100 a month. It is because of the mandates coming out of the 
EPA.
    You may not recall this, but when we got started with 
cleaning up our waste treatment facilities, we had a 75 percent 
Federal participation and a 25 percent local. Now we have gone 
to completely locals.
    Last year, I tried to get the SRO, the State Revolving Loan 
Fund, reauthorized. It fell on some bad times, because there 
was some problem with Davis Bacon or something.
    But the fact of the matter is that we do need an enormous 
amount of more money to deal with that problem. Senator Smith 
and I, in the Appropriations Bill, were able to get the Wet 
Water Quality Act of 2000 passed. That is a bill that requires 
$1.5 billion of grants during the next 2 years, but it will not 
happen unless Congress authorizes more than $3.5 billion for 
the SRO program.
    So one of the things that I suggest you look at is the 
issue of the wherewithal and the unmet needs that we have. I 
have talked with the people that are in this area around the 
country, and they say we need $57 billion during the next 5 
years, to deal with the problems of storm flow, overflow, and 
combined sewers.
    The President is putting his budget together, and we are 
all talking about reducing taxes and spending more money on 
this program and that program. I have to tell you, we have 
enormous unmet needs that we see here on this committee all the 
time.
    The WRDA bill that we worked on last year, that the 
Everglades were part of it, we have $39 billion on the shelf of 
projects that have received design money or some construction, 
and last year, what did we appropriate; a $1.5 billion or 
something like that for WRDA?
    Yes, and so you are going to need the team to get the job 
done. I agree with Governor Carper, that you ought to choose 
your team.
    Too many times, in these Federal agencies, they tell you 
who is this director and so forth; and I know you are getting a 
lot of names. But I would insist they are going to be your 
people. I did that when I was Governor of Ohio. I appointed a 
director, and you choose your people, because they are your 
people.
    Second of all, I think that you ought to really make a run 
at getting some money, so you can get the job done in your 
agency, and also look at these unmet needs. Make sure that as 
the Director, you get that on the table. I agree with some 
other people, we ought to make the EPA a Cabinet level 
department in our Government.
    Governor Whitman. Thank you, Senator, and I do want to just 
compliment you on the focus on human capital, because that is 
such an overlooked area so often, and it is going to be a 
challenge.
    Although I believe that we have within the Environmental 
Protection Agency, while there are a number of people who are 
getting ready to retire, and that will be a real loss and I 
hope they will not leave entirely but will allow us to pick 
their brains from time to time; but there are a number at the 
staff level below that, who are very capable and qualified, and 
ready to move up and accept responsibility.
    But it is an issue that is of concern, as you have pointed 
out, to every agency in the Federal Government. We need to 
ensure that we are getting the best and the brightest, 
particularly in an agency like the Environmental Protection 
Agency, where science and sound science has got to be the 
absolute basis of everything that we do, as far as 
decisionmaking is concerned.
    I would look forward to working with you and other 
Senators, to see what we can do to help provide us with more of 
the wherewithal to address this issue of waste water and 
combined sewer overflow, because it is an enormous problem.
    Senator Reid. Senator Voinovich, I appreciate very much 
your statement and your question. We have a problem, not with 
billions, but trillions of dollars in backlogged work that 
needs to be done with our sewer systems and our water systems. 
We can talk all we want about having a clean environment, but 
we have to spend some money to get where we need to get.
    So I appreciate very much your very strong statement. We 
are going to have to do it on a bipartisan basis. As you know, 
the Clean Water Act, as I recall, started as a result of the 
Cuyahoga River catching fire on several occasions. I understand 
that is in Ohio. Is that right?
    Senator Voinovich. When I was mayor, we had to sanction one 
our police officers for fishing in the Cuyahoga River; so 
things have improved.
    [Laughter.]
    Senator Reid. But that is true?
    Senator Voinovich. Oh, absolutely; I mean, the truth of the 
matter is, when I came to legislature, we had people from BBC 
coming into Ohio. They talked about Lake Eric dying and the 
eutrophication, and the burning river, and so forth. I mean, it 
was terrible.
    You are right. It was one of the things that people focused 
on, to move forward with coming up with the Federal Program for 
waste treatment, and the Clean Air Act.
    In fact, I went out and spoke in 1971. Bill Ruckleshaus 
asked me to go out to Cheyenne, Wyoming, to talk to Rocky 
Mountain legislatures about preserving their air and water, and 
not allowing it to deteriorate on the alter of economic 
development.
    That was a real crisis then, and we have made some real 
progress. But a lot of that, somebody mentioned, is aging 
today. We have got these new mandates that are coming out of 
the EPA. If we are going to comply with those mandates, the 
communities have got to have the money to deal with the 
problem.
    Senator Reid. I would hope that in the work that we do here 
in authorizing things, that we remember there is another step, 
and that is appropriating the money. I hope that you and others 
will work with me, to try to get the Appropriations Committee 
to be generous in trying to meet this tremendous backlog that 
you have outlined.
    Senator Voinovich. If we could get the Secretaries and 
others, the independent agencies, to put those unmet needs on 
the table, so they could be considered; but what happens is, 
they just get put in the drawer. Then we go off on a lot of 
other initiatives, and we have all these problems that need to 
be dealt with.
    Senator Reid. We thank you very much, Senator Voinovich.
    Senator Clinton?
    Senator Clinton. Well, I certainly want to associate myself 
with Senator Voinovich's comments. You know, so many of the 
issues that we will deal with on this committee are somewhat 
less visible than other pressing problems, and do get put on a 
back burner.
    Certainly, the infrastructure needs for clean, safe waste 
water treatment are, to me, one of the most important concerns 
about which I heard a lot, as I traveled around the state, 
talking with local officials about the needs that they had.
    The elimination of the resolving fund was a very serious 
set-back to our ability to deal with that. So I would certainly 
look forward to working with the Senator about moving forward 
to try to provide those resources.
    I would like to ask Governor Whitman just a few questions 
about issues that are particular to New York in terms of their 
location, but I think have national implications.
    The first concern is the Hudson River which, as you know, 
is the nation's largest Superfund site. It is a national 
treasure and an American heritage river; but it was, 
unfortunately, affected by a 30 year period during which about 
1.1 million pounds of PCBs were discharged, because of 
industrial activity by General Electric at its plants in Hudson 
Falls and Fort Edward.
    Last month, the EPA issued its proposed remedial action 
plan for cleaning up the contamination of the Hudson from those 
PCBs, which recommends targeted dredging to remove 100,000 
pounds of PCBs from the most contaminated areas in the upper 
Hudson River.
    These proposals by the EPA have been supported by a wide 
range of New York elected officials, including Governor Pataki. 
In fact, they were supported by the New Jersey Department of 
Environmental Protection in the last weeks.
    EPA is accepting public comment on the plan until February 
16th, and then will issue a final plan in June of this year. I 
would like to ask the Governor that she not only pay close 
attention to this issue, but inquire specifically as to your 
commitment to the EPA's dredging proposal.
    I know there are legitimate questions being raised about 
where to place the dredged material, and I am very concerned 
that. I would look forward to working with you on that. But 
will you be committed to a clean-up schedule that is finalized 
within the timeframe recommended by the agency?
    Governor Whitman. Well, Senator, as you know, as you 
pointed out, that is in the comment period now. So it would be 
really inappropriate of me to stake out a claim and say 
definitively what I will do, except to tell you and assure you 
that, of course, I will look very closely at those comments, as 
well as the rule.
    As we spoke, I indicated to you that Governor Pataki and I 
signed that estuary agreement with the Environmental Protection 
Agency and New York Harbor. That is impacted by what is coming 
down the Hudson.
    I have opened canoe and kayak take-out places along the New 
Jersey side of the Hudson River, and kayaked in it as well. I 
enjoyed that, and what an extraordinary river it is.
    But as to the actual language within the proposed order, it 
would be inappropriate of me to say anything specific until the 
comment period is closed, and I have had the opportunity to 
review all of that; but I certainly will. That will be an issue 
where I look forward to working with you on it, to see what we 
can do to protect that very special river.
    Senator Clinton. It is; it is just a fabulous treasure for 
our nation.
    We have another unfortunate distinction with respect to 
Onondaga Lake, which is outside of Syracuse, which is 
considered the most polluted lake in the entire country. It has 
not yet caught fire, but it is a problem that has certainly 
impacted on the development, both tourism and economic 
development, as well as recreation opportunities there.
    The Army Corps of Engineers is in charge of cleaning up the 
lake, and currently, the plan is expected to take 15 years to 
complete. The EPA has been extremely involved in the clean-up 
process.
    Again, Governor, I would like to not only bring this to 
your attention, but to ask if the EPA, under your leadership, 
will continue this high level of involvement.
    Governor Whitman. Senator, I have to tell you, I am not 
familiar with that particular issue that you are talking about 
with the lake. But of course, we will take a very hard look at 
it.
    We will take very seriously our commitment to prioritizing 
the most serious environmental challenges that we have, and 
focusing our attention on solving those problems; working with 
the local community; working with the state; and, of course, 
working with the Federal legislators to achieve those goals.
    Senator Clinton. Finally, I just wanted ask about the right 
to know. I think it is important that we build on the consumer 
right to know provisions of the Safe Drinking Water Act of 1996 
by providing consumers with information more quickly about the 
quality of our drinking water. I intend to propose legislation 
that will build on that.
    This would be particularly important in areas such as Long 
Island, where we depend on an aquifer system, and where we need 
to have accurate, timely information to promote consumer 
confidence, and also to make knowledgeable decisions about the 
environment.
    I would look forward to working with you and your staff at 
the EPA in coming up with some legislation, if you would be 
interested in pursuing that.
    Governor Whitman. I would be happy to work with you on 
those issues.
    Senator Clinton. Thank you.
    Senator Reid. Senator Graham?
    Senator Graham. Thank you, Mr. Chairman.
    Governor, to get some sense of your priorities, what might 
we expect to be some of the early legislative recommendations 
that you will be submitting to us for consideration?
    Governor Whitman. Well, Senator, I have to tell you, beyond 
what I outlined initially in response to Senator Smith's 
question: brownfields, clean air, the issue of infrastructure 
of our combined sewer overflow, as immediate issues that need 
to be addressed.
    I really have to, if I, again, become the Administrator of 
the Environmental Protection Agency, take some time to 
thoroughly review all those pending legislative issues that are 
facing the agency, and to sit down with you and the members of 
the committee, to get your input as to problems and priorities, 
and where we can move to reach resolution.
    I will tell you that one of the things that I am going to 
focus on is trying to identify those areas where we actually 
can build a consensus, that is a bipartisan consensus, that can 
come to some resolution, so we can actually start to solve 
problems.
    As we look at the impact that we are having on the 
environment, we can measure it, and say that it is, in fact, 
good; that we are making a difference.
    I recognize the importance of having the access to the 
courts; the importance of always having the availability of 
lawsuits. But I will say that I do not think that the time and 
the money spent in court does a whole lot to clean up our 
environment. Therefore, to the extent that we can reach 
agreement and consensus on approach, we will be far better off.
    I would have to beg your indulgence to ask, beyond those 
that I have mentioned, that are clearly immediate problems, 
that I believe where we are close to some agreements, where we 
could come to some agreements and move some legislation 
forward, that I have the opportunity to get into the agency and 
get the benefit of counsel, from those who are there now, as 
well as from working with your staffs, to start to identify 
those priorities that could be legislative priorities, where we 
think we can come to agreement and move this nation forward.
    Senator Graham. I commend you for your emphasis on doing 
the doable, first. Not only does it allow us to move forward in 
those areas, but also, it helps to build a relationship of 
mutual confidence, which can then be drawn upon to deal with 
the more difficult questions.
    So I will personally be looking forward to your 
recommendations as to what those first tier of issues should 
be, and see if together we cannot show that bipartisanship can 
achieve positive results for the environment.
    To followup maybe to some degree on Senator Voinovich's 
questions relative to infrastructure, there is another issue, 
and that is the issue of infrastructure for water supply. For 
many particularly eastern and southern states, we have lived 
with a history of adequacy and even abundance of water.
    Now we are beginning to see the fact that there are limits 
to that water supply, and beginning to ask the question, how 
can we, in an environmentally appropriate manner, begin to 
supplement our traditional water supply sources? What do you 
believe could be EPA's role in working with the states in water 
supply infrastructure?
    Governor Whitman. Well, Senator, there are two parts to 
that. One is, obviously, the fiscal demands of replacing, and 
the Senator from New York will know that; that New York City 
has a water supply system that leaks vast amounts of very 
valuable water every day. That is an extraordinarily expensive 
problem to solve, but one that we need to address.
    I would also encourage states to move forward in the kind 
of way that we have. As we have looked at the demands on our 
water and water table, and we have seen periods where we have 
had serious droughts in the State of New Jersey, we need to 
recognize that a lot of that goes very much to planning, to 
where we grow, and how we grow, to ensure that we are 
preserving water shed areas, we have moved.
    It is an area where I believe the Environmental Protection 
Agency can be helpful to states; and again, the Federal 
Government can be helpful in providing some of the resources 
necessary to do this.
    But we have 20 water shed management areas in the state of 
New Jersey. I have, in the last two budgets, provided 
additional money to allow for plans to be developed for each of 
those water shed management areas, based on the local needs and 
the counties involved, to see how we can best control and 
direct growth, so that they do not adversely impact the water 
shed management area.
    Also, Senator Carper touched upon information. One of the 
things that we have done in the State of New Jersey is, we have 
a GIS system, Geographic Imaging System, that shows not only 
every brownfield in the site in the State of New Jersey, but it 
also shows all our water sheds.
    It allows for intelligent planning. It allows the counties, 
and the municipalities to be much smarter when they work with 
the state, and they work with the constraints of overall water 
availability, land availability, to plan and direct development 
where the land can sustain it.
    Those are going to be ultimately some very important tools 
for us to provide to states and to localities, to allow them to 
do the kind of planning that they want to do; and at the same 
time, reminding them that this does have an impact on the water 
table, on salt intrusion into clean water, which is what we see 
coming in the State of New Jersey, and the other issues that 
face us, as a nation, that are different than what the west 
faces.
    I recognize that, and that is why I think it is also very 
important that we work with partners; work with the states as 
partners, and work with the other stakeholders, because the 
solutions to our problems are going to be different than the 
solutions to the problems in Nevada and Wyoming and Utah.
    Senator Reid. Senator Corzine, we appreciate your patience. 
We realize you were here early this morning and had to leave. 
We appreciate your patience.
    Senator Corzine. Thank you, first of all, I want to also 
embrace Senator Voinovich with regard to funding for this waste 
water treatment, which is such an important issue for, I think, 
all of us, and certainly in New Jersey, as the Governor knows.
    I also would embrace some of the remarks and questions that 
were probably more articulately framed by Senator Lieberman 
about enforcement, than I might be able to fully articulate. 
But there are concerns in my mind, and I think among some in 
New Jersey, about the balance between enforcement and 
collegiality and consensus building. I think I understand the 
Governor's response.
    But it is also a concern that we saw the Department of 
Environment reduced in size fairly substantially; certainly in 
the first term, elimination of the environmental prosecutor. I 
understand the philosophical arguments that were raised, but I 
wonder whether some of those same considerations will occur in 
the initial stages within EPA. But I think the response to 
Senator Lieberman is relatively clear on how you will look at 
that.
    Maybe more importantly, I would like to ask the question 
that I think is very much an issue, germane both to New Jersey 
and across the country. I know you, like all of us, are very 
desirous of ending the practice of racial profiling, and the 
concern that a number of our minority communities have with 
regard to racial justice.
    I think in the environmental context, we need to make sure 
that we have as great a security with regard to environmental 
justice, as we have concerns about driving on highways.
    I know there were questions about citing issues, and how 
one would address particular considerations. I wonder if you 
have thought about the Title 6 guidelines and the EPA's 
commentary on those, and how you might address them; and then 
also, how you might go about providing assurance to all of our 
communities that their equity issues would be fully addressed?
    Governor Whitman. Well, Senator, I know you had to leave, 
and we had a little discussion of this earlier. But I am fully 
committed to ensuring that environmental justice is something 
that is recognized and at the forefront of decisionmaking.
    I look at issues, and we have touched a bit on it, for 
instance, on hopefully some kind of early recognition and focus 
on some brownfields legislation. As you know, in the State of 
New Jersey, unfortunately, many of our brownfields are located 
in our cities.
    I am very pleased with the accomplishments that we have had 
in New Jersey, through the legislation that we enacted, that 
provided some liability coverage for good faith efforts at 
clean up, which have resulted in an extraordinary number of no 
further action letters. There have been over 7,000, which 
represents the fact that we have over 7,000 sites that have 
been cleaned up, in our inner cities, that are moving forward 
to be contained, so that they are not continuing to pollute; 
and to ensure that they are now becoming actually economic 
development opportunities within our cities.
    I can certainly give it to you for the record, if you would 
like, because I have to confess that using all the terminology 
in citing all the parts per billion that have changed does not 
roll off the tip of my tongue right now, but I am sure it will, 
with a little more exposure in the agency. But the level of 
impact that our efforts at cleaning the air have had, 
particularly on our inner cities, it really has been 
extraordinary.
    I mean, it is not just the way we have been able to reduce 
the number of 1 hour, ground level ozone non-attainment days 
from over 40 in 1988 to four last year; and, again, our 
monitoring systems that we have expanded, particularly in our 
inner cities.
    This is an issue that should be at the forefront. It should 
be part of our planning. It should be part of our assessment. 
As I know, with Senator Boxer and Senator Clinton, they are 
particularly concerned on children in the Office of Children's 
Health, within the Agency. That is something that I, along with 
the President-elect, pledge to strengthen and continue to 
ensure that it has an active role in the decisionmaking of the 
agency.
    Senator Corzine. Do you have any comments on the Title 6 
guidelines; whether you feel like EPA's interpretations of 
those are ones that you would find consistent with your own?
    Governor Whitman. Senator, I have to tell you very 
honestly, I am not totally familiar with EPA's current 
assessment and analysis of Title 6. That will be something that 
I will look at immediately upon assuming office, if I get that 
far.
    Senator Reid. We are now starting the second round of 
questions. Let me just build a little upon what Senator Corzine 
talked about.
    One of the concerns I have, Governor Whitman, is voluntary 
compliance. I think there is a place for voluntary compliance, 
but I think it takes not long to understand that people are 
using the system, rather than trying to comply.
    I would hope that based upon your experience, and I see 
from some of the information given to me, that you had a 30 
percent cut in the agency budget in the state. A significant 
number of enforcement positions were eliminated. There was a 
corresponding drop in enforcement, and we are told that there 
was an 80 percent reduction in penalties collected across all 
programs in the first 3 years that you were in office.
    I am sure there are reasons for what you did. My only point 
is that voluntary compliance sounds good, but it is easy if you 
have, within the first couple years of your being the EPA 
Administrator, with a reputation that we do not have to comply; 
that she will not do anything to enforce the law, I would hope 
that that is not a legacy that you are going to leave.
    I think it is great that you are going to try to work 
things out with people. But I think you have to have, as you 
have indicated, the carrot, but also let everybody know that 
you have a very powerful stick.
    Governor Whitman. Well, Senator, let me just clarify some 
of those things. First of all, there has not been a reduction 
of 30 percent in financial support for the Department of 
Environmental Protection in New Jersey. In fact, we have, 
today, continued to increase the level of support. Yes, there 
were changes.
    Senator Reid. Those figures I have been given were wrong?
    Governor Whitman. That 30 percent figure is erroneous. The 
Commissioner is here, and will speak to that. But we continue 
to increase funding for the Department of Environmental 
Protection.
    Yes, there were changes in staffing patterns. I will tell 
you that part of that was due to my feeling that we need to do 
better with what we have, and that we can be more efficient, 
and do not perhaps require all that we saw in staffing at the 
time that I came in. Also, it was because I faced a budget 
deficit of almost $2 billion, that was awaiting me when I took 
office. I was forced to cut a little more deeply perhaps across 
state government than I had initially anticipated.
    I will also tell you that the number of inspections in the 
State of New Jersey have remained relatively stable at over 
20,000 annually. So if you are only going to judge by the 
number of fines and penalties in a given year, then first of 
all, there are two things. One, I feel the measurement really 
should be, is the air cleaner; is the water cleaner; is the 
land better protected? In those three areas, the answer in New 
Jersey is, yes.
    Second, one large fine can raise or lower that number 
rather dramatically. We took over $80 million in fines and fees 
last year collected. That is right about where it has been, at 
the high. It is just below the high, but it varies from year to 
year, depending on where we have non-compliance.
    What we try to do is ensure that we get voluntary 
compliance, but we are absolutely ready to use the stick. We 
have used the stick. Voluntary compliance still does not mean 
that you do not have regular inspection. With over 20,000 
inspections done by the state, by the way, we also have 
inspections done at the county levels, as well, that add to 
that.
     We believe that the answer, or actually the report card, 
if you will, is reflected in the fact that the air is cleaner 
and the water is cleaner, because that is what is most 
important to me.
    Senator Reid. But you do believe that enforcement is a 
powerful tool in environmental issues.
    Governor Whitman. Oh, absolutely; of course.
    Senator Reid. As you may know, the EPA has the statuary 
responsibility of issuing final public health and safety 
standards for the protection of the public from releases from 
radioactive materials stored in the depository at Yucca 
Mountain in the State of Nevada.
    In August, 1999, EPA proposed to limit annual radiation 
doses to reasonably maximally exposed individuals to 15 
milirams, and to four milirams for exposure to ground water. 
The nuclear industry and the Nuclear Regulatory Commission 
seemed to think that the standard is too protective of the 
health of the public.
    It is my further understanding that there is being sent 
from the EPA today, down to the Office of Management and 
Budget, this standard of 15 milirams and four milirams of 
ground water standard.
    I am wondering, because it does not become final unless it 
goes beyond the Office of Management and Budget, do you have 
any feelings about the EPA setting the standards, or do you 
feel the standards should be set by the NRC.
    Governor Whitman. Obviously, I think that is going to be a 
combined responsibility. The Environmental Protection Agency 
has the final responsibility for ensuring the environmental 
health and safety of the public.
    That is the kind of resolution that we should achieve in a 
collegial way, working amongst and between the departments, in 
a way that ensures that we protect the public health and 
safety, but allows Government to do what it needs to do in 
addressing some of these problems.
    I am familiar somewhat with your situation with Yucca 
Mountain. I look forward to working with you further on that, 
to see if we cannot achieve some level of comfort that the 
public is being protected, as it needs to be if, in fact, the 
final decision is made that would locate a facility there.
    Senator Reid. My only criticism of your statement would be 
that you feel it is a shared responsibility. I think it is the 
EPA's responsibility. The NRC is the ultimate licensing agency, 
and the licensing agency should not be setting the standards. I 
would hope that you take a close look at that.
    Governor Whitman. I certainly will.
    Senator Reid. Senator Smith?
    Senator Smith. Mr. Chairman, like so many other members who 
are juggling their schedules, I am now supposed to be over at 
the Judiciary Committee. So with my apologies to the Governor, 
I am going to leave now, and yield my time to Senator Inhofe.
    I would say also that Senator Reid and I will be working 
together to try to get this to the Floor some time the middle 
part of next week, unless there is some unforeseen circumstance 
that we do not know about. Thank you.
    Governor Whitman. Thank you, Senator.
    Senator Reid. Thank you, Senator Smith.
    Senator Inhofe?
    Senator Inhofe. I will be very brief, but I need to bring 
up one last thing that I hope is not going to be too 
uncomfortable, and certainly it should not be for you.
    Governor Whitman, I spent 30 years, prior to coming to 
Washington, in the real world. I was out hiring people, and 
trying to make competitive businesses grow. I had some 
successes, some failures. It seems like all the years that I 
was out there, the chief adversary that I had was the Federal 
Government, and the attitude of the Federal Government and many 
of the regulators.
    I think I promised Carol Browner that I would not tell this 
story again, but you have not heard it yet, so I am.
    [Laughter.]
    Senator Inhofe. In 1994, I believe it was, I got a call 
from a guy from Tulsa named Jimmy Dunn. He was the third 
generation ownership of Mill Creek Lumber Company. He said, ``I 
do not know what to do.'' At that time, it was my last year in 
the House. He said, ``The EPA has just put us out of 
business.''
    I said, ``Put you out of business; what did you do?'' He 
said, ``Well, I did not think I did anything wrong.'' He said, 
``We have been selling our used crank case oil to the same 
contractors for 10 years now. They are licensed by the State of 
Oklahoma, and licensed by the County of Tulsa, and they have 
traced this to a Superfund site. I have received a letter 
invoking fines on me for $5,000 a day.'' He said, ``You know, 
in three or 4 weeks, we are out of business.''
    I said, ``Fax me the letter.'' I read the letter, and it 
was written beautifully, as bureaucrat would write, to instill 
and inflict intimidation into this person, which it did. After 
I looked at it, it was worded cleverly to say, in the event 
that this does not happen, we are prepared to do this. All of a 
sudden, he saw three generations of his family's business going 
down the drain.
    I really feel, and it is not just the EPA, but certainly, 
it includes the EPA, the attitude toward those people, who are 
out there in the real world, paying for all this fun we are 
having here in Washington, the instilling of fear and 
intimidation in these people, I am hoping this will be 
something that you will jump on right away, and stop and give 
them the proper recognition that they are, in fact, the ones 
that are generating and running this ship that we call our 
economy.
    Governor Whitman. Well, Senator, let me say that I think, 
in talking with Senator Reid and his concerns about reaching 
partnerships, we do much better when we do that. Instilling 
fear does not solve problems, generally. It is important to 
have the stick. It will always be there.
    Senator Inhofe. But I bet you have some examples in the 
State of New Jersey, where this has happened, too.
    Governor Whitman. We have had numerous examples. What 
happens is that people back away from problem solving, and they 
get into the defense mode or end up in court. That does not 
clean up the problem. It does not solve the problem. It does 
not clean up the issue that is at hand.
    I would prefer, and I would hope that the agency would 
proceed along the lines of identifying what the problem is and 
sitting down with them. One of the things that we have found, 
and one of the tools that we had, that we have used really very 
successfully, when we identify a problem with a business, is 
sitting down with them.
    Rather than giving them a letter or a notice of violation 
immediately with the fine attached, we go to them saying, these 
are the problems. This is what is happening. How are you going 
to clean it up? What can we do to work with you to clean it up? 
We give them a grace period in which they can resolve the 
problem, without resorting immediately to the threat of fines 
and sanctions.
    If they do not meet the agreed-upon timetable, then they 
will be fined, and they know that. There will be sanctions and 
there will be penalties for that.
    But by going in first and talking the problem through with 
them, we have found that, in fact, they can be very creative in 
how they solve that problem, and they can do it in a way that 
will allow them to maintain their economic viability and 
competitiveness. That really is an approach that we need to 
have.
    Again, it is never saying that you will not ultimately have 
the sanction of fines, fees, and penalties, or the ability, 
when necessary, if someone is criminally negligent, to take 
them to court.
    But it does say that first, we want to identify the 
problem, to see if there is a way that you, within your 
understanding of your business, your running it, your handling 
it, whether you can figure out a way to solve this problem to 
our satisfaction, so that the environmental damage being done 
is rectified or stopped. That would be the approach that I 
would like to see the agency adopt.
    Senator Inhofe. Compassion compliance; that is good. Thank 
you very much.
    I have one last thing. You had mentioned brownfields, and 
some of the things that there is consensus on. This is very 
closely related to the Mill Creek Lumber experience that I 
shared.
    We need to have comprehensive Superfund reform. What I am 
hoping we will not do is cherry pick, and take those things 
that are easy to do first, so that leaves maybe retroactive 
liability, joint and several liability, natural resource 
damages, some of the tougher issues, unresolved. So I hope you 
will keep that in mind, as you progress into these areas.
    Governor Whitman. Certainly, Senator.
    Senator Reid. Jim, the one thing I would say to you, 
though, you know, we have tried. Senator Chafee, when he was 
chairman of this committee, Senator Baucus, Senator Kempthorne 
and I, we worked, for example, on Endangered Species. It needs 
a lot of work done on it.
    We came up with a comprehensive new Endangered Species Act. 
We could not get it out of the Senate. It died a slow death 
over there.
    So I hear what you are saying. I think it would be great if 
we could have these big bills and re-write them. But I think 
that we are going to have to try to solve parts of those bills, 
because I do not think we can get them done anymore with the 
present climate that we have here.
    I hope I am wrong, and I would be willing to work with you 
and Senator Boxer with the Superfund legislation, but I think 
we are going to have to do pieces of it. But I look forward to 
working with you.
    Senator Inhofe. I thank the Chair.
    Senator Reid. Senator Boxer?
    Senator Boxer. Thank you so much. I missed you, but I got 
to hear Colin Powell, which was very interesting. I have a few 
areas, and will I be allowed to come back for another round?
    Senator Reid. Of course.
    Senator Boxer. Let me start with the Superfund, since that 
is where we were headed. The first thing I would say to my 
friend, Senator Inhofe, is that compassionate compliance is a 
great idea, but we do not want it to lead to taxpayer's tears.
    [Laughter.]
    Senator Boxer. Because if you are too compassionate with 
polluters, and you let them get off the hook, that means the 
burden falls to the taxpayers. But I do think we can work 
together to make sure everyone is happy in the end, with a good 
Superfund bill. Now I agree, we are going to have some problems 
with that, and that is why I want to ask you some questions on 
the Superfund.
    I know that there are some Governors who fight, getting a 
site listed on the Superfund list, the NPL list, the National 
Priorities List, but I understand that you have not taken that 
position. I want to commend you for that because maybe, yes, it 
is a little bit bad press when you announce you have a site, 
but it certainly is great when you clean it up, and you can use 
it again.
    So I wanted to ask you, given your good history, from my 
perspective, on this, do you support preserving EPA's authority 
to put new sites on the Superfund list?
    Governor Whitman. We have certainly used that ability of 
the Environmental Protection Agency. You are right, it has been 
difficult at times, because our new GIS information system also 
lists all the brownfields in the state.
    The fact that we recognize that we have these problems ends 
up with some bad press at times, but I believe that only by 
facing them, can we solve them. So I would be very comfortable 
with continuing that ability.
    Senator Boxer. As you know, Superfund is partially funded 
by a tax on petroleum and chemicals. The tax expired in 1995, 
and we predict the proceeds of the tax will be used up this 
year. Would you support reauthorizing that tax?
    Governor Whitman. That would be an issue that I would be 
happy to work with you on, and take a closer look at, in the 
context of the overall issues that we face.
    I will say that since I have been in office in New Jersey, 
more than $118 million of the corporate business tax has been 
directed toward Superfund site clean-up in our state. So I do 
recognize the very high cost of Superfund clean-up, and the 
need for the resources to be available. I certainly would be 
happy to work with you on that legislation.
    Senator Boxer. Well, thank you, because I think that is 
certainly going to be very key to us. We have so many needs in 
this country. This is one expensive one. We need the resources.
    I wanted to pick up on the issue of civil rights. I know 
that Senator Corzine asked about the issue of environmental 
justice. I want to associate myself with my concerns on that 
issue very strongly.
    But I also wanted to bring up the issue of civil rights 
within EPA itself. I have followed, certainly, the debate over 
racial profiling. This may sound like it is from some other 
issue, but it is sort of the same, if you have been watching 
the Ken Burns' documentary on jazz.
    Governor Whitman. No, I have not seen it.
    Senator Boxer. It is incredible to see what a history 
lesson it is, and the incredible prejudice that has plagued 
African Americans. We need to be reminded of it, and we need to 
understand that we cannot stand for it.
    That is why I think that on every one of these Cabinet 
positions, I was happy to see a Cabinet that looks like 
America. I also hope they think like America, because I think 
that America thinks wisely on the issue of race. I think they 
really want to see fairness.
    So I know that there has been tremendous controversy over 
the issue of racial profiling, and it has not spared you some 
pain; nor the blacks in your community pain. So I am not going 
to get into and dredge up images.
    But what I want to tell you, and we did discuss this 
recently, the House recently held hearings to investigate 
various claims of employment discrimination at EPA. They asked 
Carol Browner to come forward. It was a very emotional hearing 
for her. She was clearly upset about the issue.
    We know that under her leadership, women and minority 
representation has increased to its highest level, under the 
Clinton Administration; but still there are problems. Employees 
continue to complain in that agency about harassment and 
discrimination in promoting.
    In the hearing, Administrator Browner announced that 
preserving the civil rights of all employees requires constant 
vigilance, and personal oversight by the Administrator of the 
agency. She pledged to have an independent order to review the 
agency's procedures for processing civil rights complaints, 
among other things.
    I know in your experience in New Jersey with racial 
profiling, you had stated that you were not aware of it, and 
when the Attorney General found out, he did not inform you 
about it.
    So this is a crucial issue. I wanted to get it on the 
record today, because I do believe you will make this 
commitment. Will you commit to personally stay vigilant on this 
issue at the EPA?
    Governor Whitman. Senator, I think there is probably nobody 
else who would pledge to be more vigilant on this issue than I. 
I think it is absolutely critical.
    I believe we need to look very quickly at the backlog of 
pending discrimination cases that exist at the agency and clean 
that up, in order to be able to assure the staff that we are 
taking this seriously; and then ensure that every time there is 
an allegation of discrimination, that it is dealt with 
properly, and that everyone understands their responsibilities, 
understands what is appropriate behavior and what is not, and 
that we pledge ourselves to that.
    Senator Boxer. So will you continue to have this procedure 
that Carol Browner has started, that she is personally 
informed, and there is a new procedure, so that people can get 
their complaints heard? Will you continue what she has started, 
in terms of this constant vigilance and oversight?
    Governor Whitman. I cannot speak to exactly what she 
started, because I do not know what she has put in place. But I 
will pledge to you, constant oversight and vigilance.
    Senator Boxer. OK, I will just try one more. She pledged to 
have an independent auditor review the agency's procedure for 
processing civil rights complaints. I am wondering if that 
sounds like a good thing to you? I do not know if she has 
completed that.
    Governor Whitman. Off the top of my head, I have no problem 
with that at all.
    Senator Boxer. I would love to know, within the next few 
days, as you give this more thought and perhaps speak with her, 
specifically what you think about that. I will hold the rest of 
my questions for another round. Thank you very much.
    Senator Reid. Senator Voinovich?
    Senator Voinovich. Yes, we were talking about brownfields. 
I think I probably agree with Senator Reid that we ought to get 
on with it.
    One of the things that used to bother me, we have a 
Department of Health and Human Services, and we are trying to 
provide training for inner city people on welfare, and provide 
jobs in the city. We have acres and acres all over this country 
of land that could be developed, and businesses could expand.
    Frankly, I think, in many instances, because of nitpicking, 
nothing gets done. I think sometimes, you wonder if the left 
hand knows what the right hand is doing.
    I would suggest that maybe you sit down with the folks over 
at HUD and talk to them, and Health and Human Services, and see 
how your various agencies relate to each other. We do need to 
get on with some brownfields legislation.
    The other thing that I would be interested in, as Senator 
Carper talked about, is best practices. In Ohio, every year, 
when I was Governor, we honored businesses that had done the 
most to reduce their pollution, voluntarily. That was amazing 
how well some of them did, and testified that it was not only 
good for the environment, but good for business. There is a lot 
of new technology out there.
    When we tried to put a program in force in Ohio for 
volunteer audits, and that basically would have allowed our 
people to go into businesses and look at them, and comment 
about how they could improve and be more friendly 
environmentally, it hit the rocks. Because we wanted to give 
them the assurance that we would not publish what we found. You 
cannot do that, because if you do that, then there is a cover 
up.
    I think there is a lot more that could be done, I think, in 
the area of best practices and voluntary audits. I know we did 
that with our Ohio Bureau of Workers Compensation, where we 
said to businesses, let us come in and look at your shop. We 
are not going to fine you if we see things, but we will tell 
you how you can do things better to reduce your accidents in 
your business. There is a whole area there that I think needs 
to be looked at, you know, going outside the box.
    Second is Senator Reid's concern about Yucca Mountain. You 
know, we have been talking about dealing with nuclear waste. I 
was a county commissioner in the mid-1970's, when they were 
talking about storing it in the salt mines under Lake Erie. Of 
course, I was opposed to that, Senator.
    [Laughter.]
    Senator Voinovich. And the Senator is opposed to, I think, 
the use of Yucca Mountain.
    But we need to look at what other people are doing. You 
know, nuclear power is very prevalent over in Europe. But how 
do they deal with their nuclear waste? I mean, that is the big 
issue with nuclear power. How do you deal with the waste and, 
of course, the plants and technology, and so forth?
    Hydroelectric power, again, you know, there are people that 
want to say that we need to get rid of some dams and so forth, 
because of the environment. They say that the salmon are going 
upstream and so forth. There is coal and all of these things 
that I think we need to look at.
    I would be interested, how much of a priority are you going 
to give to harmonizing our environmental policy with our energy 
policy? What kind of a priority do you think that ought to be 
given in your agency?
    Governor Whitman. Well, Senator, one of the things that the 
President-elect has indicated to all us, as potential nominees, 
is the importance of working together. In fact, they have put 
that down on paper, that the departments and agencies need to 
work with one another.
    I think it is even a problem perhaps within the agency 
itself, in looking at things in silos. Water is one set of 
problems; air is another; land is third. Somehow, they do not 
interact at all. It is clearly true, amongst and between 
departments and agencies.
    I expect to spend a great of time working with my 
colleagues in the Cabinet to problem solve. It will be 
different agencies and different issues, but that is the way, 
as a Governor, that I have organized my Cabinet. I have had a 
number of committees of the whole cabinet, depending on the 
issue.
    If we are talking about our urban redevelopment, we have an 
Urban Coordinating Council. In every single agency that has an 
impact, which was all of them, met together just to discuss the 
issues of urban revitalization and how we approach those 
issues.
    I think the same applies for environment and environmental 
problem solving. As someone who had shamelessly stolen from 
you, when you were Governor for some of my governmental 
initiatives, I would be more than willing, and in fact welcome 
whatever we can learn, not just from the states themselves in 
this country, but from other countries around the world, as we 
address issues that are frankly shared issues.
    I would put that as a high priority: the collegial 
relationship amongst the Cabinet, to problem solve.
    Senator Voinovich. What about in terms of priorities? Where 
will this harmonizing in getting at this policy; where will 
that be on your list?
    Governor Whitman. To me, that would be underlying all of 
the decisions being made. Again, I need to get into the agency. 
I have not been into the agency. I have no status at this 
point. I am simply a nominee. If I get your support to assume 
the role, that will be something that I will do right away.
    But to me, that is something that should be underlying 
every issue. As you look at an issue, you need to work with the 
Department of Defense, the Department of Energy. Is this 
something where Commerce is going to be impacted? Frankly, a 
lot of the Environmental Protection Agency decisions impact on 
commerce.
    There are a host of decisions that are being made all the 
time, that impact other departments and agencies. The desire to 
find where those nexus are should be part of every 
decisionmaking that is done at the agency.
    Senator Reid. Senator Clinton?
    Senator Clinton. Governor, in following up on Senator 
Voinovich again, which I find myself doing often today, I think 
the points that he made earlier in the first round about the 
energy shortage that is being felt in many parts of the 
country, most acutely in California, are certainly going to be 
on the forefront of the national agenda and will require a lot 
of harmonization and cooperative efforts on the part of not 
only the Administration but the Congress and the private sector 
as well. One element of that that we have not yet referred to 
is the whole issue with respect to conservation and trying to 
make our energy usage more efficient.
    I was struck by Senator Voinovich's reference to the 
voluntary audit being not pursued because of questions about 
what would be found in a different context. But I would offer 
any encouragement we can provide to auditing of energy usage. 
We have become somewhat more efficient in the last decade but 
there is still an enormous amount of waste in our energy use 
here in this country, particularly in our industrial plants 
that are often out of date, using equipment that is not up to 
standards that could be considered conservation promoting.
    Will you see this as a particular issue that you would take 
to the cabinet and within the Administration so that when 
energy policies are devised and put forward, perhaps by 
colleagues of yours, conservation will have a role in whatever 
policies are promoted?
    Governor Whitman. Absolutely. As we have done as we have 
moved toward deregulation in New Jersey, we disseminate the 
information to the buyers of energy as to where the sources of 
energy come from so they can start to make more informed 
decisions about whether they are buying ``clean'' energy or 
energy efficiency. Again, it is an education process. I do not 
imagine I have much fight within the cabinet, but I certainly 
would see that as an issue that needed to be raised in the 
context of discussion of energy policy.
    Senator Clinton. There have been a number of fights over 
the last several years within the Congress. I do not think any 
of the major conservation proposals have made it through the 
appropriations process over the last several sessions, which 
have made it more difficult to have any kind of balanced energy 
policy. So, I am sure, given the great public attention that is 
being focused on our energy issues, there will be a lot of 
proposals coming forth about drilling or about using fast 
permitting processes for getting plants up and going. But at 
the same time, I would hope that conservation would be 
considered an equally important element of whatever plans are 
proposed.
    I am also interested in your response to the recent Supreme 
Court decision about implementation and enforcement of the 
Clean Water Act. I think it came as something of a surprise to 
some of us to see how far the court went in undermining Federal 
jurisdiction over clean water. And, again, I think this is one 
of those penny wise and pound foolish issues, without passing 
any judgment about which I know nothing of the facts concerning 
the Illinois example.
    Certainly, speaking from a New York experience, watershed 
protection is absolutely essential to clean water. The water 
supply for New York City comes from two different watersheds, 
the Croton and the Catskill. We are now looking at having to 
spend billions of dollars to build filtration plants to clean 
up water that historically had been considered of high quality 
because we have not done enough to protect the watersheds. So 
it is an issue of particular concern to me from the New York 
perspective.
    But more generally, how do you view this recent Supreme 
Court decision? And would the EPA under your leadership take 
action for making whatever legislative changes might be 
appropriate to ensure watershed protection in the future?
    Governor Whitman. Clearly, the decision stands now as case 
law and we will have to operate within that framework. It would 
be one of the functions of the Agency to take a look and see 
how we can be most effective in that. But it seems to me that 
that decision argues perhaps as eloquently as anything else for 
the need for partnership with the States. But to the extent 
that the regulatory authority of the Agency is restricted by 
the decision, we cannot stop trying to protect watersheds. 
Therefore, we need to be aggressive in working with the States 
and with the localities to identify watershed areas, to 
identify appropriate approaches to watershed protection and 
management, and to help people understand that, frankly, Mother 
Nature does a whole lot better job for a lot less cost of 
cleaning our water than do filtration plants.
    Senator Clinton. Absolutely.
    Governor Whitman. That is something that we have 
acknowledged in New Jersey and watershed protection and setback 
is a major part of our Open Space Initiative. It is not just 
open space for parks, whether they be urban or suburban or 
rural, it is not just farmland preservation, it is also 
watershed preservation. That is the kind of thing where the 
Agency now is going to be challenged to reach out to the States 
and to reach out to the local communities to help ensure that 
watershed protection continues in spite of what is seen to be 
now as a restriction on the ability of the Agency to actually 
regulate those issues.
    Senator Clinton. Mr. Chairman, could I just followup. Would 
that include perhaps looking at legislative changes that would 
provide clearer congressional authority for such action in the 
event that it was needed?
    Governor Whitman. I would be happy to work with you on 
taking a look at those issues.
    Senator Reid. Senator Corzine.
    Senator Corzine. Yes. I have heard about compassionate 
compliance, and I am sympathetic when there is over-reaching by 
regulators in the private sector. In my own experience, that 
sometimes has been a problem. But the cost of failure to comply 
can really be truly serious. As you are well aware, in New 
Jersey we had a warehouse explosion in Lodi which actually took 
five lives and interfered pretty seriously with environmental 
concerns to fire fighters and a whole host of folks that live 
in the area. And it gets at another version of right-to-know. 
There are concerns about whether we are aggressive enough, 
either in the State or, more importantly now, in the Nation 
about making sure that businesses that store hazardous 
materials make it known to the public. I wonder if you have 
observations about that, concerns about maybe the cutback of 
those substances in the decisions taken early on in your 
Administration, or how you feel about it as EPA Administrator.
    Governor Whitman. Certainly, Senator. First, let me address 
the issue of what occurred in New Jersey and right-to-know just 
to clarify. We have an extensive right-to-know policy. We go 
beyond the Federal Government in instances of some of the 
things that we list. We do not, and did not, adopt the U.S. 
Department of Transportation right-to-know requirements. That 
is something actually EPA has agreed with as a decision simply 
because it did not have the same application. Those were 
applications that dealt with transportation issues.
    One of the things I found, and particularly at the Lodi 
explosion that occurred early on in the Administration, was 
that, we had right-to-know books, the first responders were 
faced with right-to-know books that were literally the size of 
a telephone book. And the ability to go through those and 
figure out what they were facing in this particular fire was 
very difficult for them. Plus, they had no idea as to the 
location of the chemicals. They knew that those chemicals had 
been stored in this facility but they did not know where they 
were and what the potential interaction would be.
    So one of the things that we have done now in New Jersey is 
we have required all companies to provide to the local first 
response teams and to publish and post where they are easily 
available an actual map of where chemicals are located. We also 
try to ensure that we prioritize so that those first responders 
know which chemicals are there in bulk that are going to cause 
the biggest problem, rather than just if at some point there 
was some storage of a minor amount which does not really pose a 
health threat.
    We want to have right-to-know be not only do we need to 
know what is going through our State--and we did do, and again 
this sometimes gets muddy, we did do a survey of businesses as 
to what chemicals they had pursuant to the USDOT right-to-know, 
but that was for us to understand what chemicals were in the 
State, it was never incorporated into the State right-to-know 
law--but the important thing is to have this be something that 
is usable, something that is relevant to those who are 
responding to an emergency situation. They need to know right 
away what it is they are facing, in what quantities, what the 
possible combinations are. In that Lodi fire, that was one of 
the concerns because of the potential for carcinogens and the 
potential for volatility in the combination. They did not know 
whether in fact the drums were stored even in the same 
building; there were three buildings involved in that 
particular explosion.
    And so we have tried to not only ensure that we have a very 
thorough right-to-know, but that it is structured in a way that 
is actually of use to those who have to respond to these 
emergency situations.
    Senator Corzine. If I might frame this though in the 
enforcement question. Because without some kind of audit to 
make sure that the additions as well as the participation of a 
business is in place, it is nice to have it on the books, but 
with no audit it can turn out to be actually protection that is 
falsely embraced by a community.
    Governor Whitman. That is why it is important, as we have 
said at least in our New Jersey experience, inspections 
continue to be above the 20,000 level annually. So we have not 
backed off on the inspections. That is the way you ensure 
compliance. That is what we have to do. And I agree with you, 
at the Federal level that needs to be part of addressing these 
issues. No question about it.
    Senator Corzine. If I might, Mr. Chairman, I have a 
parochial question I might ask. You probably know this one is 
coming, Governor.
    Governor Whitman. I have a suspicion.
    Senator Corzine. Mills Corporation is seeking a permit for 
the fill-in of 206 acres of wetlands in the Hackensack 
Meadowlands in order to build a shopping mall and other kinds 
of facilities. The project has been opposed by the 
Environmental Protection Agency to date. I wonder if you have 
reviewed this, have a view on it. I am interested in your view 
of this in the context of protecting wetlands and protecting 
water supplies which we have been talking about here in 
watershed context, but equally important within the context of 
wetlands.
    Governor Whitman. Certainly. First, let me just say as 
Governor, I have read that I have been in support of this 
project. I have never taken a public position on this project. 
So that is simply incorrect.
    As far as the issue goes of were it to come before the 
Agency--well, the EPA has already opined on it, has issued an 
opinion on it--that would be an issue that I think I would want 
to discuss with counsel relative to recusal should I be asked 
to make a further decision, simply because of the level of 
involvement that I have had to date.
    Senator Reid. Senator Corzine, thank you very much. And you 
are welcome to stay if you wish for more questions.
    I understand New Jersey has experienced MTBE contamination 
of some of its important groundwater resources. You may know 
that Lake Tahoe, this beautiful lake that Nevada shares with 
California, has also had a problem with MTBE contamination. 
Carol Browner has supported reducing or eliminating use of MTBE 
and establishing a renewable fuel standard as a way to prevent 
further contamination.
    Do you have an opinion as to what should be done nationally 
to deal with this problem? At this time, would you support a 
ban on MTBE? And, final question, would you pledge to work with 
this committee, that is an easy one, to get legislation?
    Governor Whitman. Of course, you know I pledge to work with 
you, Senator. There is no question about that. This is an issue 
of great concern throughout the country. As you know, we have 
had concerns, ongoing concerns in New Jersey with that 
additive.
    The only thing that I would say, as we look toward a 
national response to this, is we ought to be sure of what the 
alternatives would bring. We have to be sensitive to the fact 
that MTBE was given the blessing of the Environmental 
Protection Agency because the feeling was that it was going to 
do good things.
    Senator Reid. And it did do good things.
    Governor Whitman. And it did do good things. It has cleaned 
the air. But we did not know enough about what its impact was 
going to be on the water. And that is something that I think we 
need to be very careful about as we move to alternative fuels 
and reformulated gas and other steps that we take to preserve 
the environment. That is where it comes down to the need for 
good science with peer review that is meaningful to ensure that 
we are as conversant as possible with all the potential 
impacts.
    Senator Reid. I think what we need to know is what we can 
do on a short term basis, and I know you cannot give us an 
answer now, because we have very, very definite problems in the 
Lake Tahoe area and we cannot wait for a long time for 
decisions to be made because that lake is not very renewable. 
It has problems that once water problems develop, they do not 
go away for decades and decades, unlike most water sources. So 
we need you to address that very quickly.
    Governor Whitman. Senator, I promise you I will. That will 
be among the first things that I would look at.
    Senator Reid. I understand that the State of New Jersey 
under your leadership has actively participated in the legal 
defense of EPA's new National Ambient Air Quality Standards for 
ozone and fine particles. Will you continue to support and 
defend these new standards both in the courts and within the 
Administration as head of the EPA?
    Governor Whitman. Senator, as you know, I have taken a firm 
position on that as a Governor. My responsibilities as 
Administrator of the Environmental Protection Agency require a 
national view and I would review it with that in mind, 
understanding what the issues are.
    My understanding of the problem is not going to go away 
because I have assumed this role. My responsibility to listen 
to everyone and to try to work out a solution is there because 
I will be assuming a different level of responsibility. But I 
have very real concerns about those issues. What I would like 
to see us do is to try again to work with those who have been 
identified as being part of the problem to see if we can't come 
up with ways to clean the emissions and reduce the emissions 
that are being put into the atmosphere without totally reducing 
their ability to function and do business.
    Senator Reid. Strong scientific evidence continues to 
accumulate demonstrating the connection between fine particles 
and premature mortality. You know I am sure that the President 
directed EPA to make a determination by July 2002 as to whether 
to revise or maintain the fine particulate matter. Given this 
proof of public health damage, and it is mounting, would you 
keep to this timeline for this determination?
    Governor Whitman. Senator, I can see no reason at this 
point why we would draw back from that timeline. But, again, it 
would be part of the rules and regulations that I would have to 
review if I were to become the Administrator of the Agency.
    Senator Reid. President Bush, not George W., President Bush 
talked about no net loss of wetlands. And we have not done a 
real good job of that. There has been some progress made. But 
for a State that is as wet as New Jersey, you may have some 
trouble understanding why we in the West have very, very few 
wetlands. And we treasure our wetlands. Do you understand how 
important wetlands are, and that as one of your main functions 
as EPA Administrator is to maintain our marshes, our swamps, 
the things we used to try to get rid of?
    Governor Whitman. Senator, I know why wars are fought in 
the West, and water is one of the major reasons for that. And I 
am very sensitive to those issues and very sensitive to the 
needs to protect our wetlands. That is one of the reasons why 
we have such an aggressive program in New Jersey to set aside 
those wetlands permanently and forever so that they cannot be 
degraded.
    Senator Reid. Senator Voinovich.
    Senator Voinovich. I was interested in some of the 
questions that you asked. I have been particularly interested 
in the court case before the Supreme Court where we have 
regional differences. One of the problems that I think we have 
today, and it may apply to regulations across the board, not 
only in the Environmental Protection Agency, but throughout the 
Federal Government, is that not enough emphasis, in my opinion, 
has been placed on risk assessment, cost-benefit, good science, 
peer review, alternative regulations, and so on. I would be 
interested in your view of that issue.
    When I, for example, visited with Carol Browner on this 
issue, she basically said, ``Look, Governor, there is not much 
I can do. I am not to take into account these other issues.'' 
Of course, I argued that CASAC and other scientists have said, 
in terms of the ozone and particulate matter in terms of 
environment and public health, that some argued that it really 
did not have the impact that some were saying that it was 
making. But she basically indicated that, because of the 
current law, there was not anything that she could do about it.
    I have been trying to get some change in that, very much 
like what we have in the Safe Drinking Water Act that basically 
says you go through a system of considerations and at the end, 
if the Administrator still says it is a public health or 
environment problem, we will go forward with the regulation. I 
would like to know how do you feel about looking at the cost-
benefit, good science, and those issues in terms of your 
Agency?
    Governor Whitman. Well, as I have said, I think good 
science is the basis for all the decisions that are made at the 
Agency. That is critical to the credibility of the Agency and 
to the implementation of the decisions made by the Agency. The 
things that you have talked about are I would have thought 
appropriate to be part of the decisionmaking process. I cannot 
speak to the analysis of the law that I presume counsel gave 
Carol Browner, so there may be some legal impediment to the 
more formalizing of those considerations.
    Certainly, good science, cost-benefit analysis, those are 
all appropriate things to be taken into consideration when 
making some of these decisions. Again, the final decision has 
to rest on the health of the environment and the population. 
That is the responsibility of the Agency. But to consider as 
broad as possible the other factors that impact on that is 
entirely appropriate.
    Senator Voinovich. It is interesting that when we first got 
into this issue of particulate matter that many argued that we 
were not sure what impact increasing that standard would have 
on public health and the environment. And simultaneously with 
the proposal of that regulation, the Agency asked for 
significant money to do research work on the issue of 
particulate matter. They are still installing monitors now 
around the country to ascertain just what impact particulate 
matter is going to have on the environment and on public 
health.
    Mr. Chairman, I think we have spent maybe $200 million so 
far on going forward with this research work to deal with the 
particulate matter. It seems to me that we are getting the cart 
before the horse. And then the Agency, even though it has not 
been approved yet, moved out and took some enforcement actions 
in terms of complying with the act and also with the NOx 
problem, you are familiar with that, that we have. We came back 
with a proposal that we would reduce NOx by 65 percent. But the 
Agency just came down and slammed the hammer down that it has 
got to be 85 percent, that is it. We showed them that we could 
get the 65 percent before the deadline on the 85 percent and 
they just said no, you have got to reach the 85 percent.
    The point is that it seems to me, and I know some people 
may not like to hear what you are saying about working with 
people, most people want to do the right thing but they want to 
know what the rules are. I think President-elect Bush talked on 
the campaign trail about the fact that we ought to be able to 
get together with someone and say this is what you are going to 
be responsible for, you go to work on it, and 5 years down the 
road we are not going to come back and change the rules on you; 
for example, like this new source review problem that we are 
having.
    Those are things that you are going to have to grapple 
with. And if the Supreme Court rules the other way, you will 
have to grapple with that problem. But I just hope that you are 
true to what you are saying, and that is that you want to work 
with people to get the job done. That does not mean that you 
are going to let somebody off and clobber them if they violated 
it. But there seems to be an attitude out of the EPA that they 
start off that you are bad, that you are a polluter, you do not 
care about your employees, you do not care about public health, 
you do not care about the environment. And the fact of the 
matter is I happen to believe that most people do. And if you 
work with them, they are going to do the job. Now we know there 
are some people out there that are bad. But what you do is you 
nail the bad ones so you set the precedent that you are not 
going to put up with it.
    Senator Reid. Senator Boxer.
    Senator Boxer. Thank you very much. Our Chairman Reid 
brought up the issue of MTBE, and Lake Tahoe is truly an 
incredible issue. I know you are very familiar with it. I want 
to followup. Also Senator Smith is very well aware of this. So 
it really is an area where we have strong bipartisan support on 
this committee. I really think we can get something done. We 
already passed a ban on MTBE out of this committee but we did 
not have the time to take it up on the Senate floor. I was 
proud to author that ban.
    I know that the first leakings that were discovered from an 
underground tank occurred in Rockaway, New Jersey, in 1980 of 
MTBE. If we had all understood what it really meant, we could 
have spared the Nation a very costly cleanup problem. Even in 
California we saw it coming but we were too slow to warn 
everyone. I came on this committee, I started to kind of let 
everyone know that this was an emerging major problem. In Santa 
Monica, California, we have lost half of our drinking water 
supply. The thing about MTBE is that it is a probable 
carcinogen. But beyond that, it has this horrible order even in 
very, very small quantities. So no one will drink the water if 
it gets into the water. They just refuse. Even is you tell them 
this is safe, no one is going to drink water that smells like 
turpentine or worse and looks like turpentine or worse. So it 
is an insidious problem.
    I had a big argument with EPA on this, just so you know 
that this is not about being partisan. I called for the phase-
out and I felt that EPA was denying that MTBE was a problem for 
a long time. They told me they did not have the authority to 
phase it out. We kept showing them parts of the law that they 
still said that they disagreed. Finally, they did agree that in 
the Toxic Substances Control Act they could, in fact, phaseout 
MTBE. And much to my delight, a little bit late but they did 
it, they began a rulemaking to phaseout MTBE.
    So my question to you is, can I have your commitment that 
you will continue to move that rulemaking forward?
    Governor Whitman. Senator, again, I generally, and we have 
had a little bit of this conversation, I am generally in favor 
of limiting the use of MTBE. I will certainly review that 
rulemaking, as we will review all the rules that are in 
process. I think that is appropriate to do as a new 
Administration coming in. But I tell you personally that I am 
generally in favor of limiting the use, because we have had the 
same sorts of problems that you are indicating. I am going to 
review this issue, I look forward to reviewing it with you, and 
certainly in the context of any other adverse impacts that it 
may have and causes that it could concern on the population.
    Senator Boxer. Let me just say there is a difference 
between limiting the use and phasing it out.
    Governor Whitman. I understand that. I am just giving you 
the first cut.
    Senator Boxer. I understand. But I think this is a very key 
matter. I think using it a little, it still leaks into the 
water supply. So it is a big problem. So I am very interested 
in this, and because my subcommittee that I will be the ranking 
member on with Senator Chafee will deal with waste cleanup and 
brownfields and Superfund, we will be getting into this. But we 
do have the support of I want to say both Chairmen for today, 
that is a fact, this chairman and the new chairman to come, on 
this question.
    There is another issue that I merely want to bring to your 
attention. And that is the courts are looking at the oil 
companies culpability in a lot of this. It is very contentious. 
There was an amendment we defeated in this committee that would 
have allowed oil companies to get off the hook for the 
liability. Those who supported the oil companies here said that 
oil companies had no idea that MTBE would pose such a problem. 
Discovery in a California suit which was similar to that filed 
in New Jersey shows that the oil company did know MTBE would 
pose exactly the problems we are now discovering. Do you agree 
that Congress should not pass legislation to stop the courts 
from examining if the oil companies knew about MTBE rather than 
let them off the hook?
    Governor Whitman. I would be surprised, with all due 
respect to the power of Congress, if they could pass a law that 
would prevent anyone from the courts looking at the cases that 
were brought before it.
    Senator Boxer. If we say that they are not liable, then 
there is no point in anyone suing. That was the question. There 
were those on this committee who tried to say oil companies had 
no liability. I will send you that so that you can take a look 
at it. I know these questions are not easy for you without 
consulting others. But I just wanted to say this is a 
contentious one.
    I wanted to talk to you about just a couple of other things 
and then I am actually going to be done. So I will wait until 
everyone is finished.
    Senator Reid. If I could say, Governor Whitman has been 
here since about a quarter after nine. We are going to allow 
one more round of questions and then we are going to ask that 
any other questions that people have be submitted in writing.
    Senator Boxer. Sure.
    Senator Reid. She has already agreed to get the questions 
answered by Monday.
    Governor Whitman. Yes, sir.
    Senator Reid. Senator Clinton.
    Senator Clinton. Governor, we have alluded to the issue of 
acid rain in several previous questions. But there are 
precedents certainly to be built on in trying to expand the 
regulation over the emissions from power plants that affect one 
part of the country that are based in another part of the 
country. Certainly in New York and in other parts of the 
Northeast, we suffer from acid rain that comes from two 
geographic locations, power plants in the Midwest and then 
increasingly some power plants in Canada.
    With respect to the first, my predecessor, Senator Moynihan 
was a leading voice on Federal legislation to control the 
emissions that cause acid rain. The EPA has played a leadership 
role in holding power plants accountable for the pollution they 
create that they do not themselves suffer from. But we think 
that we are going to have to go further and take a hard look at 
trying to control sulphur dioxide, nitrogen oxide, carbon 
dioxide, and mercury. It will certainly be up to the Federal 
Government, because this is not something that the States can 
do on their own, to play a leadership role in this.
    I would like, first of all, for you to respond, if you yet 
know, what role you would be willing to play to try to either 
broker agreements or come up with legislation that could pass 
that would hold domestic power plants responsible. And the 
second part of the question, which really is entangled with our 
trade policy, is how we negotiate with neighbors like Canada on 
our northern border or Mexico on our southern border with 
internationally caused pollution. And this is a particular 
issue for northern New York because there is increasing 
evidence of emissions that come from Canada that are not 
obviously controllable because of the prevailing winds. But it 
is one of the reasons why I think that labor and environmental 
standards should be a part of trade policy and not be left out 
when we negotiate compacts with our neighbors. In the absence 
of that, then we may have to look at separate negotiations 
regarding environmental issues that affect the United States 
that are really originating in either Canada or Mexico. So with 
respect to both of those issues, do you have any comment at 
this time?
    Governor Whitman. Senator, I will tell you that the acid 
rain program that President Bush established in 1990 I think 
has been one of the more successful programs of environmental 
compliance that we have seen with the cap and trade that was 
put in place. It has had a huge impact. EPA has been very 
involved in that implementation and has done it with minimal, 
amazingly, amount of staff because of what is required here. 
But it really has improved air quality, and there is no 
question about that.
    I think it gives us some idea of where we should go as we 
look toward the future. We are not finished with this problem, 
we know that, in spite of all the steps that we have taken and 
successes that we have achieved. But cap and trade and market-
based incentives have worked in this instance. That is 
something that I believe we can continue to do as we address 
now the more problematic areas that continue to provide our 
challenges, as it were, with acid rain. I would look forward to 
continuing that role and that relationship of the Environmental 
Protection Agency, its responsibility in this area. But we do 
at least have an example of a program that was innovative and 
has actually worked, and that is the kind of thing that I would 
hope that we would do more of. It is a market-based initiative, 
cap in trade, and it has made a difference.
    As far as the international negotiations are concerned, I 
think we have seen at the last few international trade meetings 
that NGO's are going to have a place at the table, that in fact 
those considerations will be part of future deliberations. And 
to the extent that we can work collegially with our neighbors 
on the North and on the South, that we should be part of that. 
That will not be, obviously, the primary responsibility of the 
Environmental Protection Agency, but I certainly expect that we 
would be partners in those kinds of efforts.
    Senator Clinton. I would agree. I would just add though 
that the 1990 legislation grandfathered in certain of those 
midwestern plants. And that has been one of the sources of----
    Governor Whitman. Which everyone assumed was going to 
phaseout and they have not. I understand.
    Senator Clinton. Exactly. And there has not been enough of 
a stick to phaseout the pollution produced by those plants. And 
the legislation did not cover all four of the major pollutants. 
So that we do need to look at some legislative changes.
    Governor Whitman. I would agree with you on that.
    Senator Voinovich. Mr. Chairman.
    Senator Reid. Senator Voinovich, did you have a comment?
    Senator Voinovich. Yes. I would like to comment on that. 
First of all, there is a regional difference of opinion on 
this. I advocated once we could shut down all the power plants 
in the Midwest and your States would still have a pollution 
problem. I am proud of the fact, for example, that there is not 
a county in Ohio that has not achieved the current ambient air 
standards. When I became Governor none of them had and we have 
reached the current standards.
    I would like to say to this committee that the utilities in 
the Midwest and in that area that we have been complaining 
about for so long are willing to sit down and deal with mercury 
and NOx and the other issues that are on the table and come up 
with a reasonable program that will get them to do the job that 
they need to do. But we just have not been able to sit down and 
really talk about these things because everyone says you cannot 
do this and you cannot do that. These people are willing. They 
are spending billions of dollars. They spent actually a lot 
more money than your utilities in the Northeast to comply with 
acid rain provisions of the Clean Air Act.
    I think a real challenge would be to see if those of us 
from different regions could sit down and work something out, 
lay it out, say here is what we want you to do, get an 
agreement, and say we are going to stay on your back in order 
for you to get this done, and let them get to it. But too often 
the EPA just, as I mentioned earlier in my remarks on the NOx 
issue, they said it has got to be 85 percent. The Ohio 
utilities admit that we are having a real impact on 
Pennsylvania and some other places and they are willing to do 
these things. But it seems that with the EPA it is just our way 
or no way. I think it is time for us to sit together and figure 
out how to get it done and get some consensus and compromise 
and get on with it. We will be better off and so will your 
region of the country. I would like to sit down with you, 
Senator, and some of your colleagues and see if we cannot get 
to the table and work on something.
    Senator Clinton. Senator, I would be absolutely delighted 
to do that. I think all of us want to see the results. I would 
love to take you up to the Adirondacks, I will come visit some 
of the plants, and we will see if we can bring people together 
around this so that we can build on the success of the 1990 
legislation and keep doing what we need to do to get the 
cleanest possible air. So we will look forward to that.
    Senator Reid. I look forward to joining in the Voinovich-
Clinton or Clinton-Voinovich bill that will be----
    Senator Clinton. Voinovich-Clinton. I am well aware of 
seniority here.
    [Laughter.]
    Senator Reid. Senator Corzine.
    Senator Corzine. So am I.
    [Laughter.]
    Senator Corzine. I think that there is plenty of room for 
us to make sure that we establish the facts with regard to this 
situation. I think this committee may very well be a great 
place for a full discussion so that it is understood in its 
complete context so that when you get around to trying to build 
a consensus there is an understanding of the basis on which the 
issues are being debated.
    Governor Whitman. Can I also say that you will have a 
partner in the Administration, because during the campaign 
President-elect Bush did talk about a multi-pollutant strategy 
to address the issues of the aging energy facilities. And so we 
will be happy to work together on that.
    Senator Corzine. Governor, following on a question that 
Senator Voinovich raised, I actually just want to clarify in my 
own mind, did I hear you say that prioritization of how you 
would look at regulatory factors or how you built regulation 
would come from good science and science rationale in the first 
instance, and then sort of cost-benefit analyses in the second?
    Governor Whitman. Good science I believe is the absolute 
foundation for decisions made by the Agency. There will be 
times however, as we all know in having dealt with scientists, 
that it may be difficult to reach an agreement as to what is 
the absolute perfect science and the Agency will be required to 
move ahead in any event. That is something we have to be 
prepared to do. But without a level of confidence on the part 
of the Congress and the people of this country that the Agency 
makes decisions based on the very best science available, I do 
not believe that we will have the moral authority, much less 
the legal authority, to really make a difference.
    Senator Corzine. I compliment that ordering. I think it 
would be the desire of the public to make sure that we are 
thinking about it in that kind of prioritization.
    I wonder if you would mind commenting on another regional 
issue, the so-called Gore Agreement with regard to ocean 
dumping, and whether the EPA's evolution of standards is 
something you embrace or have had a chance to look at in 
detail. There are a whole series of issues on dredging in 
various parts of the States and our region and I wonder if you 
have thought about alternative disposal strategies other than 
ocean dumping.
    Governor Whitman. Senator, as I am sure you are familiar, 
when I came into office I put a stop to ocean dumping off Sandy 
Hook until we found other disposal alternatives. Fully 
understanding the economic impact on our ports and the 
necessity for dredging, we have been very advanced in the State 
of New Jersey in developing de-watering plants, in finding 
beneficial use for dredged spoils, and we continue that.
    The new agreement that was made in 1997 I believe it was 
between the Administration and the EPA and at that point some 
of the environmental organizations in New Jersey was not one to 
which I was party, but I did endorse the pledge that was made 
that it would be sound science that would determine what was 
category I versus II and III. Subsequent to that, I, in the 
last year, wrote to the Department asking for an assurance 
that, in fact, that was going to be the determinant factor. I 
am not at this point familiar with what their final 
determination is relative to the science. But I continue my 
commitment to ensure that we do not dump hazardous spoils that 
pose a threat to our environment at that site, or anywhere off 
the United States that is not appropriate for that kind of use.
    We have found alternative disposal sites, we have found 
other uses for de-watered dredge spoil, and I believe there are 
alternatives that we can find to ocean dumping. I will continue 
to have an interest in how we address the very real economic 
needs of our ports for increased dredging while protecting the 
environment.
    Senator Corzine. The science in this particular area is one 
where we need to develop a consensus of view. It is one of the 
more disputed elements of debate in our region.
    Governor Whitman. It is, and at one point what was 
originally agreed to in 1997 was deemed by all to be the best 
science and what was called category I everyone was comfortable 
with, and that changed and we were suddenly no longer 
comfortable with that. I am not enough of a scientists nor have 
I had the opportunity to go behind the scientific analysis that 
was done to determine who is right in that one.
    Senator Reid. The last questions will be asked by Senator 
Boxer.
    Senator Boxer. Thank you. Governor, I have three areas of 
interest. I will never get to cover them. So I will go as far 
as I can and then I will send the rest to you. One is energy 
efficiency. I want to pick up on some of Tom Carpo's ideas that 
he mentioned to you. Another one is children's health, that we 
discussed. And the final one is the dumping of radioactive 
waste in non-NRC disposal sites, these are the licensed sites, 
and we have a problem in California there.
    We are about to have a very huge national debate/argument 
over the advisability of drilling in the Alaska Wildlife 
Reserve. I think it is going to be a very rough debate and I 
hope that the environmental side wins out on it. But it seems 
to me there is a much larger question of course about our 
energy policy. We know, for example, if SUVs had the same fuel 
economy as regular cars, it would be a million barrels of oil a 
day that we would save right there--right there. It would make 
it unnecessary to do a lot of the things that we have to. That 
is just one way.
    On this committee, a gentleman on the other side of the 
aisle, Senator Bennett, who just left, told me that he had 
bought a hybrid vehicle and he was just saying how wonderful it 
is. You fill your car up with gas and it kicks back and forth 
between gas and electricity. It is very clean and it also gets 
about 52 miles to the gallon average. Anyway, I bought one of 
these cars and I think it an amazing thing. It is no sacrifice, 
by the way, because it is the most comfortable thing and you do 
not notice any difference. It is a great interim step before 
people get more used to electric vehicles. I think it just says 
that if we all started to do more of these things, I think it 
would be good.
    Senator Carpo mentioned to you this notion about changing 
the kind of vehicles we use in our pool of automobiles. This is 
not so much a question, but I am asking if you would take a 
look at this, and EPA itself, what a good idea, take a look at 
how we can save energy. I am sure that you are going to have 
lots of other things on your plate. But would you be willing to 
do that, take a real good look, maybe have an energy audit--I 
am sure that Carol Browner did some of these things--and get 
back to me. Because if you will undertake some of these things, 
then maybe we can get other agencies to do it, and maybe even 
here in the U.S. Senate.
    Governor Whitman. Senator, if you will grant me some 
flexibility in the timeframe, I pledge to get back to you on 
that.
    Senator Boxer. Yes. You have got flexibility. Six months is 
a long time.
    [Laughter.]
    Senator Boxer. That is pretty good. Usually, we want our 
answers yesterday. So that is 6 months.
    On children's health, in my work on this committee, from 
Superfund to Safe Drinking Water Act, I have worked to ensure, 
with a lot of my friends here, that our environmental laws are 
kind to children. And when we talked about this yesterday, we 
talked about when you make sure the standards are set to 
protect children, they also protect pregnant women, the 
elderly, the disabled, and those with autoimmune diseases. So 
when you protect children, you are protecting the vulnerable 
populations.
    My first question is, and I think I know your answer to 
this but I want to get it on the record, will you keep the 
Office of Children's Health that Carol Browner put in place 
over at the EPA?
    Governor Whitman. Absolutely. President-elect Bush has 
indicated his desire to see that office function in a very 
strong advocacy role.
    Senator Boxer. I am very happy to hear that. We know that 
pound for pound children breath more air and drink more water 
than adults do. So if that water or air is polluted, the 
pollution will have a more harmful effect on a child's system 
because the child is rapidly developing. Senator Clinton came 
out to San Francisco when I introduced my Children's 
Environmental Protection Act, and I was very grateful to her, 
and I know she is particularly interested in this as are other 
members. So I hope you will work with us.
    We did amend the Safe Drinking Water Act right here in this 
committee so that anything we do with safe drinking water has 
to protect kids. I am going to ask you, will you support and 
fully implement that particular law?
    Governor Whitman. Again, Senator, I have to plead some 
ignorance to the extent of that law. But given the predilection 
of this Administration to protect our children and the most 
vulnerable populations, I would presume that we would look with 
a very favorable eye on that.
    Senator Boxer. Well, it is the law, so I think you have to.
    Governor Whitman. We always enforce the law.
    [Laughter.]
    Senator Boxer. I was just hoping that you would do it 
enthusiastically.
    Governor Whitman. We always enforce the law.
    Senator Boxer. All right. I am glad. And I am sure we will 
work together on this.
    Before the red light goes on, let me quickly state what is 
happening in California. Through the back door, and I am not 
pointing any fingers because there is lots of blame to go 
around, we got a shipment of radioactive material that set down 
in a hazardous waste site that was not licensed to take 
radioactive material. Well, that set up a big brouhaha and 
everyone blamed everyone else--the feds blamed the State, and 
the State blamed the feds, and I am in the middle of this 
argument. The initial point that was made in this debate is 
there is no room in our NRC licensed facilities. Well, again, 
Senator Bennett of Utah lives in a State where there is lots of 
room in these facilities.
    I am just putting this on your horizon there as you look at 
other issues because we will be holding hearings on this. I 
hope that you will take a strong stand on that when you send 
these nuclear materials out. In this case it came from the 
Manhattan Project in New York. New York did not want them, I do 
not blame them, so they sent them out to us at a place called 
Button Willow and they go into this non-licensed facility. It 
is very frightening to the communities. So I am putting it on 
your radar screen and hope perhaps you will take a look at this 
and let me know how you feel about sending radioactive 
materials into non-Nuclear Regulatory Commission licensed 
facilities.
    Governor Whitman. Six months?
    [Laughter.]
    Senator Boxer. No, not 6 months. This is Monday.
    [Laughter.]
    Senator Boxer. So if you could do that.
    Governor Whitman. OK.
    Senator Boxer. Thank you, Mr. Chairman. Again, my fine new 
colleagues, it is going to be great to work with all of you.
    Senator Reid. I want to thank members of the committee, 
especially our two new freshmen members, for your perseverance 
and patience. I would say just from experience, there are all 
kinds of things pulling you to do other things, but the more 
time you spend on your committees the better off you will be. 
You will just understand the issues better. On our side, we 
have four great subcommittee chairs--we have Senator Boxer with 
Superfund, we have Senator Baucus with transportation, we have 
Senator Graham who is going to lead a committee on clean water, 
and we have Senator Lieberman dealing with clean air and other 
things. So you are going to have lots to do. We are going to do 
much of our work on this committee in our subcommittees, not 
full committee. So when a subcommittee announcement comes out, 
I hope you will be as consistent, patient, and persistent as 
you were today.
    Senator Smith has indicated to me that he is going to try 
to get you reported out next week. We have to wait until your 
papers are in. We also have to wait until the Republicans fill 
the other members of the committee. So we are going to try to 
do that next week.
    I also will ask to be admitted into the record some 
questions submitted by William Orem Neil, Director of 
Conservation, the New Jersey Audubon Society; also from Jeffrey 
Rush, from the Public Employees for Environmental 
Responsibility from the State of New Jersey; also from Jeff 
Title, New Jersey Chapter of the Sierra Club; also a letter of 
support from James Sharp, the Mayor of Newark, New Jersey; a 
letter of support from the City Hall, Hoboken, New Jersey, from 
Mayor Anthony Russo. Unless there is objection, these will be 
made part of the record.
    To the final obligatory questions that I am required to 
ask. Are you willing, at the request of any duly constituted 
committee of the Congress, to appear as a witness?
    Governor Whitman. Of course.
    Senator Reid. Do you know of any matters which you may or 
may not have thus far disclosed, or questions that were not 
asked that might place you in any conflict of interest if you 
are confirmed in this position?
    Governor Whitman. No, I do not.
    Senator Reid. Thank you all very much. Questions for the 
record should be submitted by today at 5:00 p.m.
    The committee stands in recess.
    [Whereupon, at 1:20 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Mr. Chairman, I would like to join my colleagues in extending a 
warm welcome to Governor Christine Todd Whitman, the nominee for 
Administrator of the Environmental Protection Agency.
    The EPA administers and enforces a complex set of laws and 
regulations protecting public health and the environment. Although I 
understand you support cooperative efforts with industry to improve 
compliance with pollution and similar regulations, it is critical that 
EPA continue to enforce the law and hold violators responsible for 
their actions. My state has several Superfund sites that continue to 
require intensive monitoring and massive clean-up efforts. EPA must 
play a prominent role in preventing these environmental disasters from 
occurring again, either in my state or anywhere else in the country. 
Effective and fair enforcement can be used as a powerful tool to 
achieve this goal.
    With that in mind, I think we all agree that the most important 
tasks of the EPA are to ensure that already contaminated sites are 
cleaned up and that public health is protected. I hope that you, 
Governor Whitman, will support creative efforts to ensure that these 
important priorities are achieved. Based upon your record as Governor 
of New Jersey, especially your support of Brownfields legislation, I 
believe that you will.
    I look forward to working with you if you are confirmed on the many 
issues that will come before the Committee in the future and those 
issues that are unique to Montana. I also hope that you will accept my 
invitation to visit Montana. We have a few good trout streams.
                               __________
 Statement of Hon. Jon S. Corzine, U.S. Senator from the State of New 
                                 Jersey
    Thank you, Chairman Reid. It is an honor to appear before you 
today, and to have been selected for membership on this Committee. I am 
excited and enthusiastic about the prospect of working with you, with 
Chairman-to-be Smith, and with all the members of the Committee.
    Today I am pleased to join my distinguished senior colleague from 
New Jersey, Senator Torricelli, in introducing Governor Christine Todd 
Whitman to the Committee. And let me begin by publicly congratulating 
Governor Whitman on her nomination to head the Environmental Protection 
Agency. It is a great honor and a truly vital role. The Garden State is 
proud. As Senator Torricelli has explained, Governor Whitman has a long 
and distinguished record of public service, and has made many important 
contributions to our State.
    As you will see, Mr. Chairman, Governor Whitman is highly 
articulate and persuasive. She genuinely cares about the issues. And 
she knows how to make an impact.
    She has been a leader in protecting New Jersey's 127-mile shoreline 
and in fighting for cleaner air - guarding against the kind of 
pollution that knows no state boundaries. And as an individual and a 
Governor, she has demonstrated a strong commitment to preserving open 
space. Given the Governor's record on matters of conservation, I'm not 
sure I would not have preferred to see her nominated for Secretary of 
the Interior.
    As you well know, Mr. Chairman, the Administrator of EPA has the 
primary responsibility for ensuring that our air and water is clean, 
our natural resources are preserved, and our public health protected. 
It is a difficult job. It often requires a careful evaluation of highly 
complex scientific data, and an ability to translate that data into 
detailed policies. It needs someone who will fight internal battles to 
make environmental protection a budget priority. It needs someone who 
will work with local communities and businesses to find mutually 
acceptable solutions to environmental problems. And it needs someone 
who, when necessary, will be tough on polluters and force them to do 
the right thing.
    Mr. Chairman, I believe Governor Whitman has the background, the 
experience and the skills necessary to do the job.
    Of course, Mr. Chairman, these are not the only requirements for an 
EPA Administrator. These qualities must be matched by a determination 
to stand firm for the environment, to fully enforce our environmental 
laws and to fight for justice and equity for all. I know that you and 
other members of the Committee will want to ask the Governor for 
details about her views on specific environmental policies. And, once I 
get up on the other side of the dais, I will have questions of my own.
    But having spoken privately with the Governor, I believe that she 
will be able to effectively articulate her positions on specific issues 
and establish a real commitment to environmental protection. And, 
without rushing to a conclusion before the hearing even starts, I fully 
expect that she will convince the Committee not only that she deserves 
to be confirmed, but that she has the tools to be an effective 
Administrator.
    With that, Mr. Chairman, I would simply congratulate the Governor 
on her nomination and thank you for the opportunity to introduce her.
                               __________
Statement of Hon. Robert Torricelli, U.S. Senator from the State of New 
                                 Jersey
    I would first like to acknowledge Senator Jon Corzine and 
Representative Rodney Frelinghuysen, and thank them for joining me here 
today to introduce Governor Whitman. I would also like to congratulate 
our Governor - how proud her husband, John, and children, Kate and 
Taylor must be. It is special honor for me to introduce her to the 
committee. I have known her and her family for years, and we have 
worked together on many issues. During her years as Governor we have 
waged many fights together from open space preservation to ending ocean 
dumping.
    President Bush has made a wise selection. The EPA and the country 
will be getting an Administrator who is qualified, battle-tested and 
ready to tackle the challenges that lie ahead for this Agency.
    With this nominee, there will be no learning curve.
    There are few training grounds that could better prepare someone 
for this position than the Governor of New Jersey. As Chief Executive 
of the State, Gov Whitman has the managerial and administrative 
experience of running an agency as large as the EPA. But more 
importantly, no state has a better sampling of the issues facing the 
incoming Administrator of the EPA than New Jersey.
    With 127 miles of shoreline, Whitman has dealt extensively with 
issues of clean water and non-point source pollution. She knows first-
hand the threats to the economy and the environment from ocean dumping. 
Gov Whitman has increased funding for beach cleanups, and under her 
watch, beach closings have dropped from 800 in 1989 to just 11 in 1999. 
New Jersey has been praised by the Natural Resources Defense Council 
for having the nation's most comprehensive beach monitoring system.
    With more Superfund sites than any other state in the Union (111), 
she knows what works and what doesn't in the Superfund program. She has 
seen the value of a concerted effort to turn urban brownfields into 
productive industrial and commercial sites. Sharpe James, the mayor of 
New Jersey's largest city, has endorsed her because of her efforts on 
brownfields.
    During her tenure as Governor, Christie Whitman brought innovative 
technologies to the New Jersey Department of Environmental Protection 
to improve efficiency within the Department's permitting processes. 
This investment has paid off. For example, it has allowed for the 
expedited remediation of brownfields sites in New Jersey's urban 
centers.
    With the many dense urban centers in New Jersey, she has dealt with 
the complex funding and regulatory issues of upgrading dilapidated 
sewer systems and controlling combined sewer overflow.
    As Governor of our nation's most developed state, she initiated and 
passed a landmark $1 billion bond measure to preserve open space. By 
the time it is finished, we will preserve one million acres of 
farmland, pristine forest and watersheds, and urban parkland. Few 
elected officials in this nation, yet alone, this Cabinet, have a 
better understanding of what is needed to curb sprawl and protect our 
open spaces, than Christie Whitman.
    But more than her record of environmental progress, what makes Gov 
Whitman uniquely qualified for this position is her understanding that 
economic and environmental progress are not mutually exclusive goals. 
For example, travel and tourism generates $28 billion in revenue and 
employs nearly 800,000 people in Central and Southern New Jersey. No 
issue is more important to those jobs than ocean quality.
    Yet the Port of NY/NJ is a vital component of economic growth and 
employment in the northern part of NJ contributing $20 billion annually 
to the economy and supporting nearly 200,000 jobs. I have worked with 
Gov Whitman to balance these constituencies and develop a policy that 
ended ocean dumping while still allowing for the continuation of the 
dredging necessary for the Port's continued growth.
    The job for which Governor Whitman comes before this committee is 
by no means an easy one. The challenges faced by the next Administrator 
are both numerous and difficult.
    The Superfund and Clean Water and Clean Air Acts have not been re-
authorized in a decade and there are new challenges on the horizon, 
especially in our urban areas.
    Our urban centers have sewer systems that were built at the turn of 
the 19th Century. They frequently back-up and endanger public health 
and water quality because they are incapable of handling overflow.
    Too often industries unwanted anywhere else find homes on city 
blocks because of the jobs they offer and the taxes they pay. The next 
Administrator must make a priority of closing the gap between available 
funds and infrastructure needs and ensuring that environmental justice 
is more than a think tank slogan.
    I am confident that Governor Whitman will do this and more.
    The challenges ahead are many. Protecting our drinking water and 
purifying our air, preserving open space and reforming Superfund.
    But President Bush could not have selected a nominee with more 
experience and commitment than Governor Whitman.
    I have the utmost confident that she will do this committee and her 
home state very proud.
                               __________
Statement of Hon. Rodney P. Frelinghuysen, U.S. Representative from the 
                          State of New Jersey
    Mr. Chairman, As someone who has worked closely with President-
elect Bush's EPA Administrator-designate, as both a member of the House 
Appropriations Committee and as a former New Jersey State Legislator, I 
am honored to be here to support her nomination before you and your 
colleagues.
    President-elect Bush has made a wise choice in selecting Governor 
Christine Todd Whitman to lead our nation in the development of 
America's environmental policies for the 21st Century.
    Governor Whitman is an extremely capable executive. Throughout her 
tenure as New Jersey's governor, and as a county elected official, she 
has championed clean air and clean water, and has been, without 
question, the strongest proponent of open space in our state's history.
    As New Jersey's Chief Executive, her leadership has left New 
Jerseyans feeling proud of their state and its natural resources, which 
I might add are cleaner, and more protected than ever.
    Governor Whitman's effective stewardship of New Jersey's almost 130 
miles of Atlantic Ocean coastline has left our beaches pristine, and 
our waters among the cleanest in the nation.
    And, as one might expect, in the most densely populated state in 
the nation, the preservation of undeveloped land has been a top public 
priority. Again, Governor Whitman rose to the challenge of combating 
urban sprawl, and implemented a state initiative to protect one million 
acres of open space.
    She has also strengthened New Jersey's record in cleaning up 
hazardous waste, and has partnered with the EPA to actually clean up 
sites. She has made polluters pay whenever they could be identified and 
worked to implement a Brownfields strategy. Drawing on that experience, 
I am certain she will be an advocate for streamlining our nation's 
Superfund program, ensuring more effective expenditures and more 
accountability, and that there are more cleanups.
    These are a few examples of her strong leadership. Through your 
close examination of Governor Whitman's record, I am confident that she 
will be dedicated to the health and safety of all our nation's 
citizens, a true advocate for our environment.
    Finally, I have known Governor Whitman for years. I have proudly 
watched her as Governor handle every conceivable challenge. At every 
turn she has balanced competing interests in order to make decisions 
that have served New Jersey's best environmental and economic 
interests. She will do likewise for our nation.
    Mr. Chairman, I urge your support, and that of your colleagues, of 
her nomination.
                               __________
      Statement of Governor Christine Todd Whitman, Nominee to be 
          Administrator of the Environmental Protection Agency
    Thank you, Mr. Chairman.
    It is an honor to come before this committee today as President-
elect Bush's nominee to be Administrator of the Environmental 
Protection Agency. I am grateful for the opportunity the President-
elect has given me.
    Over the past several weeks, I have enjoyed sitting down with you, 
the members of the committee, to talk about what we can do together to 
preserve and protect our nation's environment.
    I am especially looking forward to accepting your kind invitations 
to come to your states--and perhaps even visit some trout streams. It 
was on the banks of a little stream that ran through our farm that my 
father first introduced me to the beauty of nature, and I have been 
hooked ever since.
    Mr. Chairman, we stand today at a place of enormous opportunity. 
Over the past three decades, our nation has won so many important 
victories in our common mission to preserve and protect America's 
environment.
    We have seen a significant transformation in the way we view our 
air, water, and land. Today, there is universal agreement that our 
natural resources are valuable, not just for the economic prosperity 
they help create, but for what they add to our quality of life. No 
longer do we debate about ``whether'' we need to act to protect our 
environment. Instead, we discuss ``how'' we can keep America green 
while keeping our economy growing.
    Due to the progress we have made, both in our actions and our 
attitudes, America is on the cusp of another major transformation. We 
are ready to enter a new era of environmental policy--an era that 
requires a new philosophy of public stewardship and personal 
responsibility.
    To discover what this new era will look like, one need only look to 
the states. There's one state with which I'm particularly familiar, so 
let me tell you a bit about what we've done in New Jersey over the past 
7 years.
    In my home state, we are moving beyond the ``command and control'' 
model of mandates, regulations, and litigation. We are, instead, 
working to forge strong partnerships among citizens, government, and 
business that are built on trust, cooperation, and shared mutual goals.
    Those partnerships are producing results--clear, measurable 
results. I would like to share some of them with you.
    Our air is cleaner. For example, the number of days New Jersey 
violated the Federal 1-hour air quality standard for ground level ozone 
has dropped from 45 in 1988 to just 4 last year. We're doing a better 
job monitoring our air quality, and we're on target to reduce 
greenhouse gas emissions below 1990 levels through incentives to 
encourage voluntary reductions, promote energy efficiency and renewable 
technologies, and reduce landfill gas emissions.
    Our water is clearer. The Delaware River is thriving again, with 
the shad population up by more than 300 percent since the 1970's. New 
Jersey leads the Nation in opening shellfish beds for harvesting. 
Annual ocean beach closings have dropped from more than 800 in 1988 to 
just 11 this past year.
    Our land is cleaner. We have transformed our brownfields program 
into a redevelopment tool, providing $15 million to help towns clean-up 
sites and market them for re-use. Mine is the only state in America 
with a reimbursement program for private parties that voluntarily 
clean-up sites. In addition, in 1998, the voters of New Jersey 
overwhelmingly approved my plan to preserve one million acres of open 
space and farmland by 2010--and we are already 20 percent of the way 
there.
    Only by measuring the quality of the environment--the purity of the 
water, the cleanliness of the air, the protection afforded the land--
can we measure the success of our efforts. By those measures, New 
Jersey is succeeding: our water and air are cleaner, and our land 
better protected than it was 7 years ago.
    At the same time, New Jersey's economy is stronger than ever--more 
people have jobs in my state today than ever before in our history. As 
President-elect Bush has emphasized--and as New Jersey has seen--
environmental protection and economic prosperity do go hand in hand.
    The President-elect has articulated a set of clear principles that 
I will work to implement at the EPA, should I be confirmed. I would 
like to highlight several of them today.
    First, we will launch a new era of cooperation among all 
stakeholders in environmental protection. Only by including all 
Americans can we meet the challenges we face. There is much government 
can do, but government cannot do it alone.
    Second, we will maintain a strong Federal role, but we will provide 
flexibility to the states and to local communities. They need that 
flexibility to craft solutions that meet their unique situations. We 
will also respect state and local authority and rely on their 
expertise.
    Third, we will continue to set high standards and will make clear 
our expectations. To meet and exceed those goals, we will place greater 
emphasis on market-based incentives.
    Next, we will use strong science. Scientific analysis should drive 
policy. Neither policy nor politics should drive scientific results.
    Finally, we will work to promote effective compliance with 
environmental standards without weakening our commitment to vigorous 
enforcement of tough laws and regulations. We will offer the carrot 
when appropriate, and always preserve the stick of enforcement.
    Taken together, these reforms will transform the way the EPA meets 
its mission. We will work in a bipartisan fashion to achieve them. They 
will also produce real results--results to which we will be able to 
look and know how far we have come--and how much further we need to go.
    I am looking forward to the job ahead, should you honor me with 
confirmation. The EPA is staffed with some of the finest environmental 
professionals in the world. I know that they are eager, as I am, to 
begin our work together.
    I also know that the demands I will face as Administrator of the 
EPA will not be the same I faced as Governor. The position I hope to 
assume allows no room for regional favoritism. But I do expect to bring 
to my job an understanding--and an empathy--for what it is like to be 
on the receiving end of directives from Washington.
    Mr. Chairman, one of the first things my father taught me, he 
taught me at that trout stream I mentioned a few minutes ago. I 
remember him telling me, ``Christie, always leave anyplace you go 
cleaner than you found it.''
    He didn't know it at the time, but that was awfully good advice for 
someone who would someday be nominated to serve as head of the nation's 
agency for environmental protection. I pledge to you, Mr. Chairman and 
members of the committee, that if I am confirmed I will do everything I 
can as EPA Administrator to leave America's environment cleaner than I 
found it.
    Thank you.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
          biographical sketch--governor christine todd whitman
    Christine Todd Whitman, the 50th Governor of New Jersey, was 
elected November 2, 1993, and re-elected November 4, 1997. She is the 
first woman to be elected to the state's highest office. Her second 
term runs until noon, January 15, 2002.
    Thirty-eight times during her first 7 years in office, Governor 
Whitman signed legislation to provide tax relief, most recently through 
a state earned income credit to complement the Federal credit for low- 
and moderate-income taxpayers. She fulfilled a campaign promise to cut 
the state income tax by 30 percent for most taxpayers and signed 
legislation to eliminate the tax completely for an estimated 700,000 
low-income families. Governor Whitman proposed and enacted the New 
Jersey SAVER program, the state's largest-ever direct property tax 
relief program. When fully phased in, New Jersey SAVER will provide 
households an average of $600 annually. She also signed bills to 
reinstate a property tax deduction on the state income tax and to 
freeze property taxes for low-income seniors and people with 
disabilities.
    Governor Whitman proposed and won voter approval for a stable 
funding source to preserve 1 million more acres of open space and 
farmland by the year 2010. Nearly as much land--over 250,000 acres--has 
already been preserved during her administration as in the previous 
three decades of the state's land preservation program.
    Governor Whitman encouraged greater use of the revised State 
Development and Redevelopment Plan as a tool for ``smart growth,'' and 
encouraged redevelopment of cities through programs to streamline 
cleanups of abandoned industrial ``brownfield'' sites. She also 
established a new watershed management program and in 2000 proposed an 
overhaul of the state's water regulations to direct future development 
to areas already approved for sewer service.
    During Governor Whitman's term, New Jersey significantly increased 
state funding for shore protection, experienced steep declines in beach 
closings, and earned recognition by the National Resource Defense 
Council for the most comprehensive beach monitoring system in the 
nation. Governor Whitman won voter approval for a plan to break a 
longstanding impasse over dredging the state's ports in an 
environmentally acceptable and economically feasible way. The Governor 
also supplied new funding for projects to clean New Jersey waterways 
and for new efforts to monitor and improve air quality.
    Governor Whitman initiated a $165 million plan in 2000 to encourage 
the growth of high-technology industries in New Jersey. Her efforts to 
spark private-sector job growth also include lowering corporate tax 
rates for small businesses, creating a business expansion and 
relocation incentive program, and reforming the state's civil justice 
system. These initiatives have helped the private sector add more than 
420,000 jobs to the state's economy since the beginning of the Whitman 
administration.
    In 2000, Governor Whitman approved an $8.6 billion school 
construction bill, by far the largest statewide investment in school 
infrastructure in the nation. During her tenure, Governor Whitman 
established new, rigorous standards in seven key academic subject areas 
for all public schools. She also approved legislation authorizing the 
establishment of charter schools, which now number more than 50, and 
creating a new college savings program for New Jersey families.
    Governor Whitman approved legislation to reform the juvenile 
justice system and signed ``Megan's Law,'' which requires community 
notification when a convicted sex offender is released from prison. She 
enacted legislation that mandates a life sentence for any violent 
criminal convicted of a serious crime for a third time. She also signed 
laws requiring violent criminals to serve at least 85 percent of their 
sentences before being considered for parole and giving the state 
Parole Board more discretion in denying parole to dangerous inmates.
    Governor Whitman designed and enacted Work First New Jersey, a 
welfare reform plan that requires most welfare recipients to work and 
places a 5-year lifetime limit on welfare benefits. Since the program 
began, New Jersey's welfare rolls have been cut by more than 50 
percent. She also initiated efforts to expand and improve child care 
and established a subsidized health insurance program for low-income 
children and adults.
    Governor Whitman appointed the first African American to serve on 
the state Supreme Court and the first female Chief Justice of the 
state's highest court. In 1995, she became the first Governor to 
deliver the Republican response to a U.S. President's State of the 
Union Address.
    Governor Whitman was born in New York City on September 26, 1946, 
and was raised in Oldwick Township in Hunterdon County. She attended 
the Far Hills Country Day School in Far Hills and the Chapin School in 
New York City. She graduated from Wheaton College in Norton, Mass., 
with a bachelor's degree in government in 1968.
    Upon completing college, Ms. Whitman worked for the U.S. Office of 
Economic Opportunity and for the Republican National Committee. While 
with the committee, she instituted a program to attract new party 
members from groups not traditionally aligned with the Republican 
Party.
    In 1982, Ms. Whitman was elected to the Somerset County Board of 
Chosen Freeholders. She was re-elected in 1985 and during her tenure on 
the board served two terms as director and deputy director.
    In 1988, Governor Thomas H. Kean appointed Ms. Whitman to fill an 
unexpired term on the New Jersey Board of Public Utilities and 
designated her to serve as its president. She was appointed to a full 
6-year term on the board in June 1989, but resigned the following year 
to run for a seat in the U.S. Senate. Although she lost to Senator Bill 
Bradley, she defied pollsters by garnering 49 percent of the vote.
    The Governor is married to John R. Whitman, a financial consultant. 
They have two children: Kate, born in 1977, and Taylor, born in 1979.
    Governor Whitman is the youngest daughter of the late Eleanor and 
Webster Todd, both of whom held leadership positions in state and 
county government and within the Republican Party. Mrs. Todd was a 
president of the New Jersey Federation of Republican Women, a 
Republican National Committee Woman, and a vice chairwoman of the New 
Jersey Board of Higher Education; and the Governor's father served for 
many years as state Republican chairman. Governor Whitman's two 
brothers, Webster Todd, Jr. and the late John Todd, and her sister, 
Kate Beach, have also served in various elected and appointed offices 
at the local, state, and Federal levels.
                                 ______
                                 
 Responses of Governor Christine Todd Whitman to Additional Questions 
                           from Senator Reid
    Question 1. What priority will you place on reducing the EPA's 
reliance on animal tests, on assuring that the animal protection 
community is invited to participate in the development of testing 
programs, and on devoting EPA resources to researching sophisticated 
test methods?
    Response. I understand that EPA does use animal test data in some 
of its research and risk assessments. It is important that such testing 
be as humane as possible without compromising the underlying goals of 
the research. I further understand that this is an issue that other 
agencies, such as the Department of Health and Human Services and the 
Department of Labor, also face. I look forward to learning more about 
these issues from you and working with you, other Federal agencies and 
others on these concerns.
    Question 2. There are currently several in vitro test methods used 
in other countries which have not been accepted for regulatory use in 
the U.S. because the U.S. does not accept the European Union's 
validation assessments. What plans do you have to facilitate the 
acceptance in the U.S. of methods currently recommended by the European 
Union and the Organization of Economic Cooperation and Development?
    Response. This is an important issue for EPA and many other 
agencies that conduct research regarding human health. I am not 
familiar with the European recommendations but look forward to learning 
more about them.
    Question 3. What portion of the EPA's research budget will you 
recommend using for test methods?
    Response. I am not familiar with what portion of EPA's research 
budget currently goes to test methods. Many test methods developed by 
EPA are used to determine levels of contaminants in soil, water, and 
other media and are constantly being refined. I will need to review 
this and other budget matters more thoroughly before making any 
recommendation.
    Question 4. In your testimony, you indicate that, under your 
leadership, EPA will use strong science. This suggests that EPA has 
not, in your opinion, always relied upon strong science. Could you 
please provide specific, preferably recent examples of instances in 
which EPA has not relied upon strong science?
    Response. My comment was based primarily on the conclusion of a 
recent National Academy of Sciences study found that science at EPA 
``is of uneven quality, and the agency's policies and regulations are 
frequently perceived as lacking a strong scientific foundation.''
    Question 5. Your testimony also noted that neither policy nor 
politics should drive scientific results EPA relies upon. Again, this 
suggests that EPA has allowed policy and politics to drive scientific 
results. Could you please provide specific, preferably recent examples 
of instances in which EPA allowed policy or politics to drive 
scientific results?
    Response. As stated above, my comment was based on the findings of 
a recent National Academy of Sciences (NAS) study found that science at 
EPA ``is of uneven quality, and the agency's policies and regulations 
are frequently perceived as lacking a strong scientific foundation.'' 
If confirmed, I will commit to working to make science the foundation 
for EPA's policymaking.
    Question 6. You noted in your testimony your eagerness to find 
mutually agreeable solutions to environmental problems. You also noted 
in response to questions that it is often difficult to reach agreement 
on scientific issues. Given your commitment to have sound science drive 
EPA's policy, how will you--to develop policies, or find mutually 
agreeable solutions to issues, for the Agency, when agreement on the 
science that underlies them cannot be reached?
    Response. I first would seek to bring people together to determine 
what science there is and what science can be agreed upon. If there is 
disagreement, then I would rely on advice from the Agency's various 
internal and external science advisors for their recommendations.
    Question 7. Is disagreement among scientists over the ``science'' 
of an EPA policy or action necessarily indicative of unsound science?
    Response. No. Many scientific questions have uncertain answers and 
disagreement regarding the ``right `` answer often merely reflects this 
uncertainty.
    Question 8. Under what circumstances, if any, do you believe 
disagreement among scientists should cause an EPA policy or action to 
be delayed until disagreement is resolved?
    Response. Each situation would present unique challenges and would 
have to be determined individually.
    Question 9. Some scientists argue that the science of global 
warming, and that the science behind the ozone and particulate matter 
ambient air standards, is unsound. Given the position the State of New 
Jersey has taken on both of these issues, how did you as Governor 
determine that there was sufficient agreement on, or soundness of, the 
science of these two issues?
    Response. I sought the advice and recommendations of the State 
agency's leading scientists, professionals and stakeholders.
    Question 10. Given that uncertainty is inherent to managing natural 
resources and that it is usually easier to prevent environmental damage 
than to repair it, do you believe that the burden of proof should be 
shifted away from those advocating protection toward those proposing an 
action that may be harmful?
    Response. The burden of proof needs to be considered in the context 
of a scientific assessment of the consequences, magnitude, and 
likelihood of potential harm. The brunt of the burden should be 
proportionate to what the risk-based assessment concludes. Where the 
potential consequences are severe, the magnitude is substantial, and 
the likelihood of harm is high, those proposing harmful action should 
bear a greater burden of justification. Where the opposite is true, 
those opposing action should bear the greater burden. Policies and 
decisions resulting from this give-and-take ultimately are a matter of 
risk management.
    Question 11. The term ``sound science'' is used commonly, 
particularly among those who disparage the policies or actions of EPA. 
How would you define ``sound science''?
    Response. EPA has adopted ``sound science'' as one of the 10 goals 
in the Agency's Strategic Plan. The Agency has defined ``sound 
science'' as developing and applying the best available science for 
addressing specific environmental and health hazards. I support this 
definition. Science must be credible in order for the Agency to be able 
to continue to fulfill its mission of protecting human health and the 
environment. To be credible, it needs to rely on the best data 
available, represent a prevailing view among respected scientists, and 
be peer-reviewed.
    Question 12. What standard will you use to judge whether the 
science underlying an EPA policy or action is sound?
    Response. Consistent with the definition of ``sound science'' 
above, I will ask whether the policy or action is based on the best 
available science.
    Question 13. What standard should the Committee use to judge 
whether the Agency, under your leadership, has used sound science in 
its policies and actions?
    Response. I would encourage the Committee to use the same standard 
that I have outlined above.
    Question 14. In listing your priorities as EPA Administrator, you 
mentioned the importance of addressing nonpoint water pollution. Do you 
believe that there are other sources of nonpoint source pollution, 
besides the combined sewer overflows (CSOs) you mentioned at your 
hearing, that should be addressed?
    Response. Yes.
    Question 15. What are these other sources?
    Response. By its nature, nonpoint water pollution comes from 
diverse sources. The specific sources often depend on the 
characteristics of each watershed. For instance, in rural areas runoff 
from agriculture operations can be major source of nonpoint source 
pollution. In urban areas, runoff from parking lots and streets can be 
a major source of pollution.
    Question 16. If you believe there are other sources of nonpoint 
source pollution beside that from CSOs, through what laws or programs 
do you intend to use to address them?
    Response. As a Governor, I have worked to improve our State's water 
quality by addressing watersheds under current clean water laws, 
cooperation with local communities and stakeholders, and through 
voluntary best management practices. If confirmed as Administrator, I 
would seek to work with states under their own water protection laws 
and the TMDL program and with other Federal agencies, such as the 
Department of Agriculture.
    Question 17. Total Maximum Daily Loads, or ``TMDLs,'' are tools for 
specifying the maximum amount of a pollutant that a waterbody can 
receive and still meet water quality standards, and allocating 
pollutant loads among both point and nonpoint sources. EPA's TMDL 
program is considered by many as one of the most important tools for 
achieving the nation's clean water goals. Do you agree that EPA's TMDL 
program is one of the most important tools for achieving the nation's 
clean water goals?
    Response. Despite its long-standing presence in the Federal Clean 
Water Act, TMDLs have not been used as a tool until recently. If 
developed and implemented through a cooperative effort, TMDLs can 
become important tools.
    Question 18. Do you believe that, generally speaking, TMDLs are a 
reasonable approach to addressing water pollution?
    Response. Section 303(d) of the Clean Water Act requires states, 
territories, and authorized tribes to develop TMDLs for impaired 
waters. If EPA works with these jurisdictions and other stakeholders, 
TMDLs can be an important tool in achieving clean water goals.
    Question 19. Will you commit to not rescinding EPA's recently 
completed TMDL rule?
    Response. If confirmed, I will review this recent rule and then 
decide how to proceed.
    Question 20. If you are unable to make such a commitment at this 
time, will you commit to not delaying, past October of this year, the 
implementation of this rule?
    Response. Before making any decisions about the TMDL rule, I will 
review the information that Congress has required be prepared, 
including the study of costs to meet TMDLs that EPA is to prepare by 
the end of February, as well as the National Academy of Sciences' 
report to be prepared on the science underlying TMDLs.
    Question 21. If you are unable to commit to either, what specific 
circumstances or facts would cause you to rescind the rule?
    Response. I would have to review the rule and the yet-to-be-
developed reports before making any decisions.
    Question 22. What specific circumstances or facts would cause you 
to delay the implementation of the rule?
    Response. I would have to review the rule and the yet-to-be-
developed reports before making any decisions.
    Question 23. There is an important gap in the Drinking Water State 
Revolving Fund, namely that some small communities simply cannot afford 
loans and are thus unable to use SRF funds to help them comply with 
drinking water regulations. This gap has particularly serious 
consequences for many states including Nevada, which is home to a large 
number of small communities which will soon have to comply with new 
drinking water standards for arsenic and radon. Would you support 
legislation that fills the gap in the Drinking Water SRF by 
establishing a program to provide grants to communities that cannot 
afford these loans?
    Response. I will need to learn more about the particulars of these 
communities' needs, evaluate what options might exist for filling any 
gap, and determine whether those options are cost effective. I look 
forward to working with you to learn more about this issue.
    Question 24. It seems to me that discharging dredge material into a 
wetland, putting fill into it, or draining it can all have the same 
effect--harming or destroying the wetland. As a general matter, do you 
believe that it should be the Federal Government's policy, to protect 
wetlands from being harmed or destroyed, regardless of whether the 
cause is discharges of dredge material to wetlands, adding fill to 
them, or draining them?
    Response. As this is an area that continues to be litigated and 
changed, as evidenced by last week's Supreme Court ruling and EPA's 
newly revised Tulloch rule, I would need first to be sure of what 
authority EPA has in this area. As I stated at the hearing, EPA has 
significant knowledge and expertise in protecting wetlands, and I 
would, if confirmed, look forward to working with states, communities 
and stakeholders to develop effective wetland protection measures.
    Question 25. The Clean Water Act (CWA) lies at the heart of EPA's 
authority to the protect water resources of this country. In the Act, 
``navigable waters'' are protected and these waters are defined as the 
``waters of the United States.'' How would you personally define 
``waters of the United States''?
    Response. I recognize that these five words have been fought over 
for decades, and I would hope to work with you and others to ensure 
that EPA works to protect these waters consistent with Congress' 
intent.
    Question 26. Would your definition include wetlands?
    Response. I understand that the courts have long held that this 
phrase does cover wetlands.
    Question 27. If your definition includes wetlands, do you believe 
it is reasonable to conceive of ``waters of the United States'' as 
applying to only those wetlands that are next to navigable waters? In 
other words, do you believe that the CWA should afford protection to 
only those wetlands adjacent to navigable waters?
    Response. I would like to see the Federal Government provide the 
necessary tools and resources to protect our nation's wetlands and 
watersheds. I look forward, if confirmed, to ensuring that EPA works 
with you and others to protect these waters consistent with Congress' 
intent.
    Question 28. You may be aware that last week EPA issued rules 
affecting the permitting of discharges of dredged material and fill to 
wetlands. This action partially closes a loophole in the so-called 
``Tulloch'' rule created by the courts. It is expected to protect tens 
of thousands of acres of wetlands from destruction each year. Will you 
commit to not rescinding EPA's recent clarification of the Tulloch 
rule?
    Response. I will commit to reviewing this recent rule, if I am 
confirmed as Administrator.
    Question 29. If you cannot commit to this, what specific 
circumstances or facts would cause you to rescind this rule?
    Response. I would have to review the rule before making any 
decision.
    Question 30. If you were to decide to rescind EPA's recent 
clarification of the Tulloch rule, how would you propose to replace the 
thousands of acres of wetlands that will be lost due to the current 
loophole and, at the same time, ensure that the nation's ``no net 
loss'' of wetlands goal is achieved?
    Response. I would have to review the rule before making any 
decision.
    Question 31. At various times in the past, scientists and 
policymakers have ranked the risk to human health and natural resources 
from environmental problems. One of the more comprehensive attempts was 
entitled ``Reducing Risk,'' a project done by EPA with input from many 
sources including the National Governors Association. During the 
hearing, you mentioned that you would tackle the problems where there 
is hope for consensus first, though I'm not sure these are the most 
serious problems. What do you think are the environmental problems that 
pose the gravest threat to human health and natural resources and the 
ones most deserving of Agency attention?
    Response. I am not familiar with that study. I believe that the 
Agency's scientists, together with other scientists, should assist EPA 
and Congress in defining the risks from various problems, so that we 
all can be better prepared to identify which are the most deserving of 
our attention. (see answers to the Sound Science questions above)
    Question 32. As you mentioned during the hearing, the State of New 
Jersey, under your leadership, has actively participated in the legal 
defense of EPA's new national ambient air quality standards for ozone 
and fine particles. You implied that this strong support may be diluted 
by the needs of a national office. But, for the record, will you 
continue to vigorously support and defend these new standards, both in 
the courts and within the Administration, in your capacity as head of 
the EPA? Will you do everything you can to see that they are 
implemented in the same form as they were promulgated and as soon as 
possible, assuming that the Supreme Court does not overturn them?
    Response. I will support, defend and enforce the laws of this land. 
I cannot speculate how the Supreme Court will rule.
    Question 33. If your answer to the previous question is not a 
resounding yes, please elaborate on why your previous support for the 
ozone and particulate matter NAAQS would change in your role as EPA 
Administrator. As you know, the NAAQS are to be set at a level of air 
quality which, in the judgment of the Administrator, is requisite to 
protect the public health, allowing for an adequate margin of safety. 
That directive in the Clean Air Act and case law interpretation of it 
prohibit the Agency from considering costs in setting the NAAQS. Do you 
think that cost should be considered when the Agency sets a national 
ambient air quality standard? If so, why?
    Response. That is one of the questions at issue in the case pending 
before the Supreme Court. I will wait to hear how they interpret the 
Clean Air Act.
    Question 34. In your testimony, you indicated that you saw no 
reason not to keep to the schedule outlined by President Clinton for 
EPA to make a determination by July 2002 as to whether to revise or 
maintain the fine particulate matter. Will you follow that 
determination up with the appropriate regulatory and enforcement 
actions?
    Response. I understand that the Clean Air Act requires EPA to 
review each current air quality standard to every 5 years. I will 
review the information and then make a decision.
    Question 35. During President-elect Bush's campaign, he endorsed an 
energy policy that included, to quote from the energy policy document 
itself, ``legislation that will require electric utilities to reduce 
emissions and significantly improve air quality'' by establishing 
mandatory reduction targets for emissions of the four main pollutants 
from power plants: nitrogen oxides, sulfur dioxides, mercury and carbon 
dioxide. How shall we go about determining what are the appropriate 
levels of reductions? Should they be based primarily on public health?
    Response. This is a complex issue, one to which the President is 
committed, one on which this Committee already has begun work, and one 
which will require great collaboration among Federal agencies and with 
states, utilities, and concerned citizens. Public health should be the 
primary concern, but others, particularly the impact on the 
environment, also are important. I look forward to working with you and 
others on this important matter.
    Question 36. As you may know, the Administration has found, 
pursuant to the Clean Air Act's direction, that it is necessary for 
public health to control mercury emissions from coal- and oil-fired 
power plants. The schedule set out in that recent determination 
requires EPA to propose regulations by December 15, 2003, and issue 
final regulations by December 15, 2004. Will you honor that schedule 
and allocate the appropriate resources to ensure that it can be met?
    Response. I will first review this recent determination and then 
make a decision.
    Question 37. As you may know, the 1999 regional haze rule set 
regulations for visibility protection in the country's national parks 
and other scenic areas. The Clean Air Act directs states to require 
that certain older, larger facilities install the best emission 
controls available as part of state strategies for meeting the regional 
haze rule. On January 12, 2001, the Administration issued proposed 
guidelines for states to use in determining what constitutes the best 
emission controls, or the ``best available retrofit technology'' 
(BART), and which plants must apply them. You may not be familiar with 
the details of this proposal, but will you commit to finalizing these 
guidelines by the end of 2001? And, will you notify the Committee, 
prior to promulgating the final guidelines, whether or not they will 
depart significantly from the proposed guidelines?
    Response. I am not familiar with the BART proposed guidelines but 
will commit to reviewing them and to informing you if the final 
guidelines will significantly depart from the proposal.
    Question 38. You mentioned that we want to be sure that no 
population bears a disproportionate burden from pollution because our 
statutes fail to protect the most exposed. Recent studies suggest that 
people living in urban corridors are exposed to significantly greater 
amounts of toxic air pollutants than people living elsewhere. EPA has 
begun, somewhat belatedly, to address urban air toxics with a 
comprehensive strategy, including a focus on mobile source air toxics. 
Will you make continuation of a focus on urban air toxics a priority, 
if you are confirmed?
    Response. I understand that the Clean Air Act Amendments of 1990 
require EPA to better study and, if warranted, regulate, air toxics, 
many of which may adversely impact urban dwellers. I will review EPA's 
current strategy and then determine how to proceed.
    Question 39. During the hearing, you indicated general support for 
the final diesel sulfur rule. Effectively implementing this rule will 
take a fair amount of resources. Will you support, including allocating 
sufficient resources, strongly enforce and vigorously defend this rule 
to get rid of dirty diesels and significantly reduce sulfur in diesel 
fuel?
    Response. I share with you the desire to improve the efficiency of 
vehicle pollution control systems and to make cleaner burning engines. 
I will review this recent rule and then determine how to proceed.
    Question 40. As you know, EPA and the Department of Justice have 
taken administrative and enforcement action against a variety of 
electric power companies for violations of the New Source Review 
requirements under the Clean Air Act. Will you encourage and work with 
the Attorney General to continue the ongoing actions and prosecute any 
matters still under consideration?
    Response. As I stated in my hearing, I believe it is important to 
first offer the carrot, but not to retire the stick. . Since these 
proceedings started somtime ago, I will work with the Attorney General 
as necessary and appropriate.
    Question 41. Some sources have suggested that New Jersey and other 
states have not structured their Clean Air Act Title V permitting 
programs to collect the funds necessary, as is intended and provided by 
the Act, to fund those programs in their entirety. What should EPA do 
to ensure that states are collecting adequate permitting fees to run 
their Title V programs?
    Response. I have been intrigued by occasional sources that claim to 
better understand New Jersey's programs than New Jersey. One of my 
priorities, if confirmed, will be to establish better working 
relationships with the states and hopefully improve the communication 
and understanding, on both sides, of matters such as this. EPA should 
afford states flexibility in how they find their programs and work with 
States to ensure that program requirements and environmental goals are 
being achieved.
    Question 42. Several states do not appear to be making a full good 
faith effort to comply with the terms and schedule outlined in the NOx 
SIP call. Will you use the authority of the Administrator to implement 
Federal Implementation Plans for these states if they do not comply 
expeditiously?
    Response. If confirmed, I would do all I could to assist the states 
in meeting the Federal air quality standards, and I would consider 
whether it would be appropriate in this instance to adopt FIPs.
    Question 43. During recent Air Subcommittee hearings, the Committee 
was informed by Governor Bush's representative on the Texas Natural 
Resource Conservation Commission that federally controlled off-road 
sources are an increasing portion of state pollution inventories. EPA 
has a number of initiatives under way to control off-road engines and 
sources. What kind of emphasis will you place on continuing this work?
    Response. Several states face challenges today in preparing state 
implementation plans to meet various Federal air quality standards for 
their communities. The states have particular measures they can take on 
their own, and the Federal Government has several measures that are 
more under the Federal Government's jurisdiction. I will work to meet 
the Federal Government's obligations to provide states with the tools 
they need to meet the Federal clean air standards.
    Question 44. As you may know, the EPA has the statutory 
responsibility for issuing final public health and safety standards for 
the protection of the public from releases from radioactive materials 
stored or disposed of in the proposed repository at Yucca Mountain in 
Nevada. In August 1999, EPA proposed to limit annual radiation doses to 
``reasonably maximally exposed individuals'' to 15 millirems and to 4 
millirems for exposure from groundwater. What are your views on EPA's 
responsibility to set strong and protective radiation standards for 
Yucca Mountain and all sources? And, specifically, what will you do to 
ensure that this rule will be finalized by the new Administration?
    Response. President Bush has indicated that the best science should 
determine where nuclear waste is permanently stored and in setting 
regulatory standards that fully protect human health and the 
environment. The Federal Energy Policy Act currently charges EPA with 
setting environmental standards for disposal of high-level nuclear 
waste, and I will ensure that EPA fulfills its obligation.
    Question 45. For many years, the EPA has lost various battles with 
DOE and NRC as it has tried to set strong radiation protection 
standards, and the Agency has seen its budget dwindle on these matters. 
What will you do to bring new life to EPA's radiation protection 
program? What would you think about centralizing all radiation 
standards setting authority in the EPA, so there would be no lingering 
doubt on this matter and remove the existing duplicative and confusing 
overlap between agencies?
    Response. I am not familiar with those battles or with the programs 
of the DOE and NRC. I look forward to learning more about this issue.
    Question 46. You may be familiar with efforts by both NRC and DOE 
to increase the amount of radioactively contaminated material that is 
recycled and allowed to enter into public commerce. In an October 
speech at the National Academy of Sciences, you said that 
``policymakers need to take a precautionary approach to environmental 
protection. . . .[and that] We must acknowledge that uncertainty is 
inherent in managing natural resources, recognize it is usually easier 
to prevent environmental damage than to repair it later, and shift the 
burden of proof away from those advocating protection toward those 
proposing an action that may be harmful.'' Does it make sense to you to 
add to the amount of exposure to manmade radioactive materials that the 
public is already experiencing?
    Response. I do not know enough about the particulars of this issue, 
including what amounts and concentrations the NRC and DOE may have 
proposed, but I would be interested in learning more about this issue.
    Question 47. At the hearing, you promised to work with me and the 
Committee regarding the problem that northwest Nevadans, specifically 
the Paiute Tribe of Pyramid Lake, have suffered from pollution blowing 
over from the Sierra Army Depot in California, which is part of the 
Department of Defense. You may also know that nearly 90 percent of 
Nevada is Federal land. Do you think that Federal facilities should be 
held to the same standards and treated the same way as private sector 
sources? Does that apply for all our environmental statutes?
    Response. President Bush has proposed to hold Federal facilities to 
the same environmental standards that apply to private facilities. This 
issue will be a priority for me, if confirmed, and will require 
significant coordination among Federal agencies and with the states, 
tribal governments and Congress.
    Question 48. Assuming you are confirmed as EPA Administrator, will 
you apply the ``precautionary principle,'' as you succinctly stated it 
in October 2000, to other environmental statutes, such as the Clean Air 
Act, FIFRA, TSCA, etc. and related Agency actions, which are focused on 
public health and not as much on natural resource protection? If so, 
please provide an example of how this would work. If not, please 
indicate why not.
    Response. Our nation's environmental policy and decisionmaking are 
based on longstanding traditions of precaution, science-based risk 
analysis, and sound risk management, including consideration of 
benefit/cost. I would continue to support these traditions. Precaution 
is an important component of risk management when making decisions in 
the face of uncertainty. The extent to which precautionary 
considerations are employed in risk management decisions is highly 
context-specific. Precaution, however, should not be used to justify 
arbitrary decisions.
    Question 49. Relative to Agency actions, how should we apply the 
``precautionary principle,'' as you have stated it, to the threat of 
global climate change?
    Response. As climate change science develops and we gain a better 
understanding of the climate change threat, precaution will likely be 
an important element of the overall risk management framework that we 
employ in developing policy and considering any specific measures to 
respond to the threat.
    Question 50. Under your leadership, New Jersey has set a goal of 
reducing greenhouse gas emissions by 3.5 percent from 1990 levels by 
the year 2005. New Jersey may be the first state to have set such a 
specific reduction target. Why did you support and encourage the 
setting of that goal? Can that goal be attained without harming New 
Jersey's economy?
    Response. I recognized, as has President Bush, that climate change 
is a serious issue and should be addressed. The states continue to be 
laboratories of environmental innovation, and I am proud of New 
Jersey's lead on this issue. We set the goal based on my environmental 
agency's recommendations after extensive stakeholder involvement and 
agreement and on the firm belief that the goal can be achieved and that 
it will improve energy efficiency, possibly even saving money in the 
long run.
    Question 51. What more could be done at the Agency to ensure that 
the U.S. moves closer to the voluntary goals set as part of the Senate-
ratified United Nations Framework Convention on Climate Change?
    Response. The United States should continue to play a leading role 
in both developing the science to help us better understand our climate 
and the potential changes we face and in developing and exporting 
cleaner, more efficient technologies. The EPA can assist these efforts 
by offering the expertise of its scientists and professionals, and EPA 
can work with the other appropriate Federal agencies, states, 
businesses and interested citizens in identifying and implementing new, 
effective strategies.
    Question 52. You indicated that President-elect Bush believes that 
global climate change is a serious problem. That seems to conflict 
slightly with the public remarks that he made on the topic. It does not 
appear that he believes that global climate change and warming is a 
serious enough matter to require swift and concerted government action 
now to prevent long term impacts on the U.S. economy. What do you 
believe is the appropriate Federal response to the accumulating 
scientific evidence that global warming is occurring fairly rapidly and 
could have a devastating impact on the domestic and global economy and 
environment? How will you reconcile your position and his in your new 
post?
    Response. The IPCC is expected to issue its latest findings soon, 
and I look forward to reviewing them and deciding on an appropriate 
response. President Bush is interested in addressing this issue, as am 
I. I am committed to working with you, and with the many others who 
will need to work together to address this important issue.
    Question 53. You have talked about rewarding companies with reduced 
regulatory burdens if they can show that they are able to meet 
environmental performance standards through innovative or 
unconventional means. How would you determine what performance criteria 
actually improve environmental and public health protection on a 
national, state or facility basis, given the general lack of 
standardized environmental or public health data?
    Response. The generation and use of accurate and useful 
environmental data is key to achieving environmental results whether it 
be done for existing regulatory standards or performance standards. For 
that reason a review and assessment of EPA's environmental information 
and data systems is a priority for me.
    Question 54. You have an excellent record of working to preserve 
open space and improve parks, and, in general, pursuing a smart growth 
agenda. In your new capacity as Administrator, will you support the 
existing programs and efforts of the Clinton Administration which are 
targeted at building sustainable and livable communities? Will you 
maintain your emphasis on this important policy matter and, from time 
to time, provide recommendations to this Committee and others on how we 
can encourage economic growth and improve long-term environmental 
protection?
    Response. I am proud of our work in New Jersey, and I would be 
happy to share my experiences with you.
    Question 55. This month, the Agency issued its first-ever report on 
trends in protecting children's health, entitled ``America's Children 
and the Environment: A First View of Available Measures.'' The report 
provides an assessment of EPA's progress over the past decade in 
protecting children's health, and was produced by EPA's Office of 
Children's Health Protection and its National Center for Environmental 
Economics. The report suggests some positive trends--such as fewer 
children living in counties which exceed national air quality standards 
for certain pollutants, including sulfur dioxide and ozone, and fewer 
children living in areas served by public water systems that have had 
violations of drinking water standards. However, some negative trends 
are also noted, including, for instance, approximately 1.5 million 
children showed elevated blood lead levels between 1992 and 1994--a 
finding that clearly is disturbing. This report points to the need for 
continuing Federal sources of data such as this. For instance, the 
Centers for Disease Control and Prevention (CDC), National Center for 
Environmental Health (NCEH), is slated to release the first-ever 
``National Exposure Report Card'' on specific blood levels of certain 
toxic substances found in a sample of 500 children. Will you continue 
the vital monitoring efforts that are the subject of the EPA report, 
coordinate with the CDC NCEH and other Federal sources of valuable data 
on children's health issues, and publish followup reports to the EPA 
report on a timely basis?
    Response. I am not familiar with all the different agencies' 
particular monitoring, data collection and reporting obligations. If 
confirmed, I will work with the appropriate agencies to improve the 
health of our children.
    Question 56. How important do you think it is to recover the 
economic benefit that a business gains from violating the law? For 
example, if a company saves $.5 million by delaying for 5 years the 
purchase of a pollution control equipment, should a penalty be 
collected that at least equals the amount the company saved from its 
violation?
    Response. If confirmed, I would review EPA's current policy and 
other agencies' policies, including their comparative effectiveness, 
before making a decision.
    Question 57. A recent letter from the Environmental Council of the 
States (ECOS) to Vice President-Elect Cheney emphasized the importance 
of monitoring the environment and pollution sources, and the need to 
devote resources toward that end. It strikes me that this is a common 
sense request: without data from inspections and other monitoring, the 
states and EPA will not have the information needed to enforce 
environmental laws. Do you share the view expressed by ECOS that 
compliance monitoring is a priority?
    Response. As I stated in the question above on performance 
standards, we do need to better monitor environmental conditions and 
compliance. This will be priority for me, if confirmed, and I hope you 
will support me in securing the needed resources.
    Question 58. As Administrator of EPA, how would you see your role 
in monitoring compliance with, and enforcing, environmental laws?
    Response. I will encourage the EPA staff to work with the EPA 
regional offices, the states, tribal and local governments, businesses 
and interested citizens in finding and adopting the most effective ways 
to ensure compliance with our laws and improvement in our environmental 
conditions. As I have said earlier, I will offer the carrot, but will 
not retire the stick.
    Question 59. The ECOS letter also states that many ECOS members 
would favor consolidation of EPA's Office of Enforcement and Compliance 
Assistance with the program offices. As you may be aware, at the 
beginning of the Reagan Administration, then EPA Administrator Anne 
Gorsuch undertook a major reorganization of the enforcement office, 
which was generally viewed as having a devastating effect on 
enforcement. I understand that the Commissioner of the New Jersey Dept. 
of Environmental Protection, Robert Shinn, was a signatory to that 
letter: of course, it is not clear whether he was one of the members 
that made this recommendation. Do you agree with this recommendation 
and, if so, how would you ensure that the mistakes of the Gorsuch 
Administration are not repeated?
    Response. I know there were a number of reorganizations over the 
last several years. Based on my experience, reorganizing can be 
beneficial, but it also takes a lot of energy and resources out of an 
Agency while the reorganization is taking place, and can disrupt the 
normal operation of the Agency. If you confirm me, I will need to 
evaluate what parts of EPA are working, what programs are effective, 
and what parts need to improve. This may lead to reorganizing parts of 
EPA. I welcome the Committee's views on what changes would make the 
Agency work better.
    Question 60. What is your view on right-to-know laws--what purposes 
do they serve, and how important are they?
    Response. The right-to-know laws--at the Federal, state and local 
level--can improve the public's understanding of the chemicals in their 
area and can assist emergency responders in better protecting the 
public from harm. I would be interested in any thoughts you may have on 
how to improve EPA's programs and better integrating and disseminating, 
in a helpful and understandable manner, the vast amount of information 
now being made available to the public.
    Question 61. You testified regarding accomplishments under New 
Jersey's brownfields cleanup program, and how those accomplishments 
promote environmental justice. Yet, some have charged that changes made 
during your tenure actually reduced the protectiveness of hazardous 
waste cleanups, by eliminating the preference for treatment remedies 
and reducing opportunities for public comment on proposed cleanup 
plans. As Administrator of EPA, will you be committed to ensuring that 
minority and low-income communities are protected over the long-term, 
in the event that a site at which the remedy involved leaving waste in 
place later poses a threat to human health in the community? What do 
you see as the role of the EPA Administrator in ensuring that 
communities are afforded meaningful opportunities to participate in 
cleanup decisions that may affect their quality of life?
    Response. New Jersey's law includes an important provision, that 
allows the state to go back in and require further cleanup if a new or 
additional danger is found. Communities should have the opportunity to 
comment on the setting of cleanup standards, and we should find ways to 
work with communities and businesses to encourage, not discourage and 
delay, cleanups.
    Question 62. As I said I would at the hearing, I have attached a 
newspaper article concerning objections to permitting of a cement plant 
in a poor, minority community in Camden, New Jersey, that was already 
impacted by an incinerator, sewage treatment plant, and a number of 
hazardous waste sites. Please respond to the concerns and criticisms 
discussed in the article, including: (1) that the plant would result in 
the emission of 60 tons of particulate dust annually, in a community 
with elevated incidences of asthma-like symptoms; (2) that the plant 
was being built where it is ``because [it] is a poor minority 
community. They thought that the neighborhood wouldn't stand up. . . 
''; and (3) that the State failed to consult with the City or 
community. In addition, please discuss application of the State 
Environmental Equity policy to the decision to grant a permit at this 
site.
    Response. I believe that no community should bear a 
disproportionate risk of environmental pollution. For that reason, New 
Jersey does not oppose EPA's acceptance of the complaint filed by South 
Camden Citizens in Action. While the state believes its actions were 
appropriate--we also recognize continued citizens concerns and will 
continue an open dialog to resolve them.
    Question 63. As you know, PCB contamination in the Hudson River has 
been studied for more than 20 years, and EPA recently issued its 
proposed cleanup plan for public comment. As Administrator of EPA, will 
you do everything in your power to ensure that EPA keeps to its 
schedule for issuing a final Record of Decision for the Hudson River by 
June 2001?
    Response. I will review and evaluate the comments submitted during 
this important public comment time, and I will then determine how next 
to proceed.
    Question 64. Several Senators spoke in favor of giving EPA cabinet 
level status. Would you favor a clean bill toward that end; that is, a 
bill that did nothing other than elevating EPA to cabinet status?
    Response. President Bush has stated that, if confirmed, I would 
have Cabinet-level status. I do not have any particular views on 
legislation making EPA a Department.
 Responses of Governor Christine Todd Whitman to Additional Questions 
                           from Senator Smith
    Question 1. One of President-Elect Bush's announced priorities is 
passage of a Federal multi-pollutant utility bill, similar to the air 
pollution reduction law enacted in Texas. What would be your main 
priorities in addressing this issue in legislation?
    Response. The President's proposal to reduce utilities' emissions 
of nitrogen oxides, sulfur dioxide, mercury and carbon dioxide is part 
of his call for a national energy plan. I hope to work with you, other 
important Federal agencies, states, businesses and interested citizens 
in finding the most effective ways to reduce these chemicals, as part 
of an overall strategy that meets our nation's short- and long-term 
energy needs.
    Question 2. One of the most critical environmental issues facing 
the next Congress and Administration will be financing the cost of 
building and maintaining the facilities needed to deliver safe drinking 
water and to treat wastewater. Recent EPA ``needs surveys'' estimated 
that the combined needs for drinking water and wastewater systems could 
approach $280 billion over 20 years. Others say this number is actually 
much higher. As a Governor I am sure you have dealt with this issue 
first hand. Could you provide the Committee with your perspective on 
the role the Federal and State governments should play in addressing 
the financial needs our water infrastructure systems face over the next 
20 years?
    Response. As I touched on during my testimony, I know that local 
communities have significant needs but do not have the necessary 
resources to meet those needs. I look forward to working with you to 
identify the most effective Federal programs and resources to address 
this issue.
    Question 3. Last Congress, a bipartisan effort was made to pass a 
bill to enhance and guide the EPA Brownfield program. One key aspect of 
the bill was to provide certainty to those who cleanup contaminated 
sites in order to encourage more cleanups and ensure that sites do not 
become future Superfund sites. The bill introduced last year created a 
division of labor between the Federal Government and States as to which 
sites should be cleaned up through the Superfund law and which should 
be handled by the States. Based on the limited resources of the Federal 
Government, there should be a greatly increased role of State 
responsibility of those sites at which an HRS scoring package has not 
been prepared or a decision that no further Federal action will be 
taken or those that by regulation the President determines warrant 
particular consideration. Do you agree that an increased State role is 
key to the success of the Brownfields program?
    Response. The states are leading the way today in cleaning up and 
redeveloping brownfield sites. With additional assistance from the 
Federal Government, I believe the states and local communities can 
indeed do even more.
    Question 4. After years of effort to comprehensively reform the 
Superfund law, although it is important to keep working toward that 
reform, it is also important to build more flexibility into the program 
and to administratively improve the program. In addition to the 
Brownfield initiative previously mentioned, the role that insurance 
plays in the cleanup of Superfund sites is ever increasing. In many 
cases, the stakeholders involved in the remediation of Superfund sites 
can benefit from the use of appropriate insurance products to cap 
cleanup costs and manage long-term risks. The past Administration has 
made some strides in providing a more workable framework for Superfund 
settlements through its reform packages, but more work is necessary. 
Some settlement negotiations are significantly delayed or terminated 
due to the costly premium payments required by EPA. Replacing such 
premiums in some settlements with insurance products is consistent with 
the Administration's goal to streamline Superfund settlements and speed 
the pace of cleanup. Will the new Administration consider ``cost cap'' 
and related insurance products to replace, or significantly reduce, 
those premiums in order to effectively remove this sometimes 
insurmountable barrier to finalizing such settlements?
    Response. Yes, I will consider the use of this innovative tool.
    Question 5. EPA has in the past clearly embraced the concept that 
there is often an inherent unfairness in the application of Superfund's 
liability scheme to small volume contributors to sites. Various 
statements and guidance documents issued by EPA articulate both the 
necessity and the benefits of early de minimis settlements. EPA has 
also encouraged other ideas, including the use of contribution waiver 
provisions, to increase the benefits of early settlement to de minimis 
settlers and decrease their transaction costs. Although the law has 
been found to impose strict, joint, and retroactive liability in court 
challenges, would you agree that reforms to better define who is 
liable, and for what volume they are responsible, are needed to ensure 
that small businesses are treated fairly in these proceedings. Do you 
agree that more administrative reforms are needed to be make the 
program more fair?
    Response. The Superfund program has far to go before it is perfect, 
and I look forward to working with you on any needed reforms.
    Question 6. One of the largest-ever Superfund settlements with a 
single potentially responsible party will be financed largely by finite 
risk insurance arrangement that is unique in Superfund cases but one 
that may become a popular pollution-liability financing tool. Under a 
proposed settlement with the current site owner, finite risk insurance 
would finance the $201 million estimated cost of hiring a professional 
environmental contractor for 30 years to operate a water treatment 
plant designed to purify some waterways heavily contaminated by acidic 
drainage from the Iron Mountain Mine site near Redding, California. An 
endorsement to the policy would provide a government agency in 30 years 
with $514 million more to cover the cost of protecting the environment 
from acidic drainage from the mine in perpetuity. The settlement will 
ensure long-term control of more than 95 percent of the pollution 
released from Iron Mountain, the largest source of toxic metals in the 
United States and the source of the most acidic mine drainage in the 
world, according to the EPA. Will the new Administration consider such 
``finite risk insurance arrangements'' as an acceptable pollution 
liability financing tool in order to expedite settlements?
    Response. Yes, I will consider the use of this innovative tool.
    Question 7. Last year, Senator Smith and Senator Chafee requested 
that GAO conduct a study to: (1) identify the compliance status with 
the December 22, 1998 [UST] deadline; (2) ascertain how EPA and the 
states are enforcing these requirements; and (3) substantiate the 
validity of claims that new tanks are leaking. Initial results indicate 
that the problems do not come from the lack of equipment installation, 
but the operation and maintenance of the equipment. Firstly, as 
Administrator will you work to identify the scope of MTBE in 
groundwater? To date there seems to be no national estimates of the 
impact of MTBE on the nation's water supply.
    Response. I will first need to assess the information already 
available at EPA and in the states.
    Question 8. Second, will you commit to work with the Committee to 
look at this issue and remedy the situation. Do you have any thoughts 
as to how we can get a handle on this issue?
    Response. Yes, I will work with you to assess this situation.
    Question 9. While I have served on this Committee, stakeholders 
have consistently raised two concerns regarding the administration of 
the EPA: the need for sound science to drive decisionmaking and the 
lack of ``sunshine'' at the Agency. For more than 50 years, animal-
based toxicology has driven hazard identification and risk assessment 
at the EPA. However, new non-animal test methods are rapid, predictive, 
cost-effective in the long run for industry, and more humane. Can you 
commit to making researching, developing and validating non-animal test 
methods a priority for EPA?
    Response. I certainly understand your concerns and I look forward 
to learning more about these new methods.
    Question 10. In addition, several EPA programs supported by the 
previous Administration have been developed without input from all 
interested stakeholders. In fact, the EPA has not published 
announcements of public meetings in the Federal Register, included 
qualified experts from all areas of interest on scientific committees 
and seriously addressed concerns stakeholders have regarding programs 
that are designed to use significant numbers of animals at great cost 
to industry. Can you commit that under your leadership EPA will strive 
to consistently abide by a policy of ``sunshine'' and inclusion for all 
interested stakeholders?
    Response. As I stated in my testimony, I will seek to include 
stakeholders in the Agency's policy discussions.
    Question 11. The previous administration had moved forward with 
various initiatives involving the collection of toxicity data resulting 
from the HPV chemical testing program, the children's health 
initiative, and the endocrine disruptor screening program. These 
programs will soon start producing data that will be available to the 
public. It is imperative to ensure that this data is not presented to 
the public as raw data and that the numbers are put into context for a 
layperson to understand, in terms of risk or at least with caveats or 
explanations. The Agency needs to better coordinate these efforts to 
ensure that the least number of animal lives are lost in collecting 
toxicity data and that the results are put in context. As 
Administrator, will you review these efforts to ensure that actual 
results will come of this effort and that the loss of animal life will 
be as few as possible?
    Response. I will review this program and then decide how to 
proceed.
 Responses of Governor Christine Todd Whitman to Additional Questions 
                          from Senator Baucus
    Question 1. Governor Whitman, I am sure you are aware of the price 
discrepancies that exist between the United States and Canada on farm 
pesticides, that the price charged to U.S. farmers is sometimes double 
what a Canadian farmer pays, and that these pesticides are often 
manufactured by the same company or related companies. Generally, the 
pesticides marketed in Canada are identical to the pesticides approved 
for sale in the U.S. by the EPA. Because of the laws governing the 
importation of farm pesticides, the Environmental Protection Agency 
last year was placed in the unenviable position of stopping U.S. 
farmers from buying the less expensive Canadian pesticides. Legislation 
was introduced last year to prevent EPA from being used in this manner 
again and will likely be reintroduced this year. This legislation was 
drafted with the technical help of the EPA. Governor Whitman, will you 
work with those of in Congress who want to ensure that our farmers have 
a level playing field, ensuring free but fair trade between the U.S. 
and Canada?
    Response. Yes.
 Responses of Governor Christine Todd Whitman to Additional Questions 
                         from Senator Lieberman
    Question 1. Under President Clinton, the EPA issued ground-breaking 
new standards for the quantities of ozone and particulate matter--or 
smog and soot--in the air. The Supreme Court is currently considering a 
challenge to the standards. If they are upheld by the Supreme Court, 
are you committed to ensuring that the rules are implemented?
    Response. Yes.
    Question 2. The EPA budget has been the subject of controversy in 
the appropriations process over the last decade and has not been 
increased in some time. Could you speak to your plans for requesting 
funding for the agency?
    Response. I am not yet sufficiently familiar with EPA or its budget 
to speak about any funding requests at this time.
    Question 3. Obviously, state governments vary in terms of the 
resources and expertise they devote to environmental protection. New 
Jersey, for example, has long been regarded as a leader among the 
states, setting an example to be emulated by others. As you administer 
EPA programs, how will you determine if individual states are ready to 
assume more authority? What criteria will you use to determine if they 
are adequately discharging their responsibility to implement state 
programs?
    Response. EPA has a long history of delegating programs to the 
States--and I believe that this partnership has accomplished a great 
deal. A new measuring stick already in place is the National 
Environmental Performance Partnership System, or NEPPS. I look forward 
to learning about other ways to measure progress and how existing 
methods can be improved.
    Question 4. In 1998, New Jersey awarded the contract to design a 
new emissions testing program to Parson Infrastructure and Technology 
Group. Emissions testing programs are a vital cog in our efforts to 
protect our clean air, but unfortunately, Parsons was inexperienced 
with such programs and produced a system that was ineffective and 
resulted in long delays for motorists. A blue ribbon panel tasked with 
looking into the cause of the problem concluded that the Governor's 
office ``did not effectively monitor the progress'' of the project. 
Could you speak to this incident and how you will avoid similar 
occurrences at EPA?
    Response. Since New Jersey is implementing one of the largest I&M 
programs in the country, the challenges have been great. To avoid 
similar situations as Administrator, I believe there is a need for 
thorough planning, with clear direction to able managers at the outset 
and throughout the project development and implementation. If anything 
goes wrong along the way, swift corrective action must be taken. If 
confirmed, I pledge to perform these functions.
    Question 5. As you well know, the Northeast in general, and 
Connecticut in particular, is very concerned about maintaining strict 
air pollution controls. Could you speak your plans for the Office of 
Air, including any particular initiatives affecting the office or what 
criteria you would use for candidates for the Assistant Administrator?
    Response. The Office of Air, like the other offices at EPA, is 
important to fulfilling EPA's mission. I am not familiar enough with 
EPA's structure to suggest any plans for any particular office. As for 
job qualifications, I am looking for the best and the brightest, those 
who know the substantive area well, are innovative leaders and 
decisionmakers, and are willing to listen to others.
    Question 6. In 1999, DOJ and EPA initiated a series of enforcement 
actions against operators of fossil fuel-fired power plants in the 
Midwest, Southeast, and Mid-Atlantic regions for violations permitting 
requirements under the Clean Air Act. These power plants were accused 
of emitting nitrogen oxides, sulfur dioxide, and particulate matter in 
amounts exceeding permissible levels because of modifications and 
upgrades made at the facilities over several decades. Many of these 
actions were pursued in conjunction with the State of New York. Are you 
committed to ensuring that the remaining enforcement actions are 
vigorously pursued, to ensure that interstate transport of air 
pollution, including ozone and sulfur dioxide, is reduced? And will you 
take any actions that could reduce opportunities for States, such as 
New York, to pursue such actions in the future?
    Response. I first will need to review the ongoing enforcement 
actions. I look forward to working with states to address air 
pollution, particularly where interstate transport is an issue and 
cross-boundary cooperation is needed.
    Question 7. In 1999, EPA and DOJ entered into a series of ground-
breaking consent decrees with the seven largest manufacturers of diesel 
engines. The companies had been designing engines operated in a manner 
that met the emission standards while on the test, but operated in a 
different manner--with greatly increased emissions--when not being 
tested. The consent decree required the companies to produce engines 
that never exceeded a certain margin of error above the emission 
standard. Will you vigorously enforce the consent decrees as written? 
If not, what changes would you make?
    Response. I will review the consent decree and the recently issued 
diesel/sulfur rule, which creates new requirements for engine 
manufacturers.
    Question 8. Governor Whitman, you have stated that you would like 
to move to the next generation of environmental protection, one that 
seeks to forge partnerships between citizens, the government and 
business. A number of similar programs initiated by the Clinton 
Administration, however, were not permissible under the current legal 
framework. What approach will you take to initiating this new era of 
environmental regulation?
    Response. I am optimistic that new partnerships can be created, and 
I look forward to working with you and the other members of the 
Committee on opportunities for ``next generation'' legislation.
    Question 9. What are your plans for requesting funding for the Long 
Island Sound office? The office was authorized to receive $40 million 
per year in last year's Estuary Bill but has yet to be appropriated 
funds under that authority.
    Response. I do not know the particulars of the funding for that 
office or why funds have not been appropriated, but I look forward to 
learning more.
 Responses of Governor Christine Todd Whitman to Additional Questions 
                           from Senator Boxer
    Question 1. Would you please review Administrator Browner's 
responses to the October 12, 2000, House Science Committee hearing on 
the subject of discrimination at EPA. Please let me know whether you 
will continue the review Ms. Browner began of EPA's Office of Civil 
Rights. If not, please let me know what your approach would be to 
ensuring that you are made personally aware of civil rights issues and 
problems within the agency.
    Response. I will do this and respond promptly, if I am confirmed.
    Question 2. As a Governor, I'm sure you can imagine the outcry from 
citizens that would result if the Federal Government was attempting to 
site a low-level radioactive waste facility in your state. During the 
Bush Administration, such an attempt was made to site such a facility 
in California, but we defeated it. The effort failed, in large part, 
because we discovered that the nuclear industry's arguments that a 
storage crisis existed at radioactive waste facilities were a sham. 
Today, there continues to be decades of capacity at such facilities.
    Even though that's the case, the nuclear industry has been pushing 
EPA to rewrite its rules to allow hazardous waste facilities to accept 
radioactive waste. They argue that there isn't enough capacity at 
existing radioactive waste disposal facilities to handle the waste. My 
colleague from Utah, Senator Bennett, has one of these facilities in 
his state. He would tell you that they want to take this waste. What 
it's really all about is that we are decommissioning nuclear plants and 
they don't want to pay to send the waste to a safe, NRC licensed site.
    I can also tell you that I am currently locked in a struggle with 
the Corps of Engineers because the agency itself dumped radioactive 
waste in a hazardous waste facility in California not licensed to 
receive such waste. In my view, Governor Whitman, allowing these 
hazardous waste facilities to take radioactive waste amounts to siting 
a radioactive waste facility in a state through the backdoor, which is 
unfair to the state and unfair to the public. Hazardous waste 
facilities are not sited with radioactive waste in mind and they lack 
the special protections that attend the disposal of it. EPA decided not 
to issue such a proposal ultimately.
    Can I rely upon you to continue the current law and EPA policy that 
radioactive waste--low-level or high level--should not be disposed of 
at hazardous or solid waste facilities? At the very least, can I rely 
upon you to inform my staff if you choose to revive this rulemaking 
process so that my Subcommittee can hold oversight hearings over any 
such proposal?
    Response. I will review this important issue, I will uphold the 
laws on the books, and I look forward to learning more from you about 
how we can ensure the public is adequately protected from radioactive 
waste, wherever it may be.
    Question 3. In my work on this Committee--from Superfund to the 
Safe Drinking Water Act--I have worked to ensure that our environmental 
laws are improved to make sure that they protect children. When these 
laws were originally written, we did not know that children are 
especially vulnerable to the harms caused by pollution. Do you agree 
that EPA should set pollution and public health standards at a level 
that protects the health of pregnant women, infants, children and the 
elderly?
    Response. EPA should set its standards to ensure that the health of 
pregnant women, infants, children and the elderly is protected.
    Question 4. The Safe Drinking Water Act contains a special 
provision I authored requiring EPA to ensure that Federal drinking 
water standards protect children. Will you support and fully implement 
this provision?
    Response. Yes.
    Question 5. The Food Quality Protection Act of 1996 contains a very 
important provision requiring EPA to revise all pesticide standards and 
to ensure that the new standards protect children. Can I rely upon you 
to implement this provision?
    Response. President Bush has committed to implementing the FQPA in 
a manner that does not disrupt our farmers' access to safe crop 
protections products. I will strive to implement this new public health 
standard and make the needed pesticide reviews using the best science 
and in a timely manner.
    Question 6. I know you are well aware of the problem of MTBE 
contamination from your own experience in New Jersey. If only we had 
taken steps to stop its use after it was first discovered leaking from 
an underground tank in Rockaway, New Jersey in 1980, we could have 
spared the Nation what promises to be a costly cleanup problem. As you 
know, a class action suit has been filed in Ocean County, New Jersey by 
private well owners against oil companies. The well owners are suing to 
get the companies to pay to cleanup MTBE contamination.
    When this Committee marked-up S. 2962 last year, some advocated 
letting oil companies off the hook for liability for MTBE cleanup. They 
argued that this would be fair because oil companies didn't know that 
MTBE would pose such a problem. They also argued that this would be 
fair because Congress told oil companies to add MTBE to gas when we 
passed the Clean Air Act Amendments of 1990. We are learning through 
California litigation that oil companies did know MTBE would pose 
exactly the problems we are now discovering. Further, testimony 
delivered by some oil companies before this Committee during the debate 
over the Clean Air Act amendments of 1990 shows that the companies 
urged Congress to adopt the 2 percent requirement that gave rise to the 
use of MTBE.
    Do you agree that those who knowingly pollute bear the 
responsibility to clean up that pollution--whether that responsibility 
is imposed under our environmental laws or under common law tort 
theories and/or product liability? While I don't think that there is a 
question that oil companies knew that MTBE would pose a serious 
drinking water problem, isn't it appropriate to let an impartial judge 
weigh the evidence on that issue rather than adopting legislation that 
would afford oil companies liability protection and effectively cutoff 
that judicial inquiry?
    Response. I do believe that polluters should pay. The second 
question calls for a legislative or judicial decision.
    Question 7. As you may know, we could save approximately 1 million 
barrels of oil per day if we were to require sport utility vehicles to 
meet the same corporate average fuel economy standards as those which 
apply to passenger cars. USGS estimates that the Arctic National 
Wildlife Refuge has approximately 3.2 billion barrels economically 
recoverable oil. If we were to raise CAFE standards for SUVs, in 8-9 
years we could save the amount of oil that drilling ANWR would yield. 
Wouldn't you agree that, given a choice between doing damage to an 
irreplaceable natural resources and conservation, that we should choose 
conservation? Shouldn't we at least study the effect of raising CAFE 
standards for SUVs before opening ANWR?
    Response. We should have a national energy policy that provides a 
strategic course for this nation to ensure both our short- and long-
term energy needs. I look forward to working with you and the 
appropriate Federal agencies on these issues.
 Responses of Governor Christine Todd Whitman to Additional Questions 
                          from Senator Carper
    Question 1. It was a pleasure to be with you this morning at your 
confirmation hearing and to have a chance to hear from you about your 
plans for the EPA. As I mentioned this morning, I am interested in your 
thoughts regarding the Delaware River.
    The Army Corps of Engineers has announced plans to deepen the 
Delaware River shipping channel from Philadelphia to the Atlantic. This 
is of particular interest because as you well know, the land underneath 
the river is considered Delaware property, and a major project taking 
place within the state deserves particular attention. Last week the 
Army Corps of Engineers announced that it will apply for necessary 
environmental permits from the State of Delaware. I welcome their 
application, and look forward to the permit review process.
    Under your leadership, what will be the EPA's position regarding 
the Army Corps' project to deepen the Delaware? Do you feel it is 
appropriate for Federal agencies, when operating in a state, to abide 
by that state's environmental standards?
    Response. I will first need to review the Army Corps' proposed 
project. I agree with President Bush's statement during the campaign 
that Federal agencies should comply with the same environmental laws 
that others must meet.
    Question 2. Earlier this week, the EPA ordered an independent 
economic analysis of the plans to deepen the Chesapeake & Delaware 
Canal. I support this decision, and look forward to the results of this 
analysis. As EPA Administrator, will you encourage economic analysis of 
major environmental projects, such as the C&D canal, and the Delaware 
River deepening projects?
    Response. As I stated in my testimony, I believe we should know the 
benefits and costs of projects.
 Responses of Governor Christine Todd Whitman to Additional Questions 
                          from Senator Corzine
    Question 1. Title VI of the Civil Rights Act prohibits recipients 
of Federal financial assistance from discriminating on the basis of 
race, color or national origin in their programs or activities. Under 
EPA's Title VI implementing regulations, EPA-funded permitting agencies 
are prohibited from issuing permits that have a discriminatory effect 
based on race, color, or national origin. In 1998, the EPA issued 
administrative rules to provide its staff with a framework to process 
Title VI environmental civil rights complaints. These rules--known as 
``guidance''--were issued on an interim basis. Revisions will be issued 
shortly.
    What will you do to ensure that all revised EPA rules and 
regulations, including the proposed Title VI guidance, ensure that all 
Americans receive equal enforcement of protective environmental laws?
    Response. I do not have any particular changes in mind for how EPA 
can improve on how it currently meets this obligation, but I will 
review EPA's process and determine how to proceed to ensure this law is 
followed.
    Question 2. What other steps will you take to ensure that no group 
of people will have to bear a disproportionate share of the negative 
environmental and health consequences that come from a decision to 
issue a permit to pollute?
    Response. I believe that groups should not have to bear a 
disproportionate burden for pollution. I will review EPA's current 
programs and determine how to proceed.
    Question 3. The EPA has opposed the proposal by the Mills 
Corporation to fill in the 206 acres of wetlands in the Hackensack 
Meadowlands, in order to build a retail, hotel and business center. Do 
you agree with the EPA's position?
    Response. It is likely that I will be required to recuse myself 
from decisions on this matter based upon my involvement in this issue 
in my position as Governor of New Jersey. However, all matters 
involving potential conflicts must be fully vetted with the EPA Ethics 
Office before determining whether recusal is appropriate.
    Question 4. In your testimony, you indicated that you might recuse 
yourself from any further decisionmaking on this proposal. Please 
indicate why you think you might need to be recused from further 
decisionmaking.
    Response. It is likely that I will be required to recuse myself 
from decisions on this matter based upon my involvement in this issue 
in my position as Governor of New Jersey. However, all matters 
involving potential conflicts must be fully vetted with the EPA Ethics 
Office before determining whether recusal is appropriate.
    Question 5. There is a proposal to build a 6.7 mile east-west 
highway between Route 1 and Interchange 8A on the New Jersey Turnpike. 
Environmentalists oppose it because it could potentially destroy 14 
acres of environmentally safe wetlands. While your administration 
supports the project, the Environmental Protection Agency does not. As 
EPA administrator, will you oppose this proposal as well?
    Response. It is likely that I will be required to recuse myself 
from decisions on this matter based upon my involvement in this issue 
in my position as Governor of new Jersey. However, all matters 
involving potential conflicts must be fully vetted with the EPA Ethics 
Office before determining whether recusal is appropriate.
    Question 6. New Jersey has 113 Federal Superfund sites, more than 
any other state in the nation. Yet the tax on the oil and chemical 
industry, which was used to help fund the cleanup of all Superfund 
sites, has expired. While enough money has accumulated in the fund to 
allow cleanup to continue through next year, there will not be enough 
money to finish cleaning up all the sites around the country. Should 
the tax on the oil and chemical industry be re-instated to help pay for 
the cleanup of Superfund sites? If not, should the money to help pay 
for the cleanup of these sites come from other taxpayers?
    Response. As I stated during the hearing, it is critical that the 
resources be available to the Federal and state governments for these 
cleanups. I look forward to working with you as to how best to ensure 
those resources are available.
    Question 7. One of the problems facing New Jersey and other states 
in the Northeast is the high level of air pollution from older power 
plants in both the Midwest and South. As Governor of New Jersey, you 
supported the EPA's lawsuits against those older power plants to force 
them to comply with the provisions of the Clean Air Act. Many of those 
lawsuits are still pending. Will you continue the EPA's Clean Air Act 
litigation and enforcement strategy to force older power plants to 
comply with the Clean Air Act?
    Response. I will review the status of this litigation. Lawsuits can 
sometimes be helpful, although I do not believe that a ``lawsuits 
first'' approach is very effective. As I stated during the hearing, I 
believe in offering the carrot first, but retaining the stick.
    Question 8. The Environmental Protection Agency issued new 
regulations which would further restrict the acceptable amounts of 
ozone and soot in the air. It is estimated that New Jersey's air 
pollution would drop by 20 percent if utility companies in the Midwest 
and South comply with these new regulations. These regulations are 
currently under review by the U.S. Supreme Court. If the Court strikes 
these regulations down, what will you do to replace them?
    Response. I will wait to see how the Supreme Court rules before 
deciding how to proceed.
    Question 9. Do you believe that members of the public who live near 
a business facility as well as the employees who work there have a 
right to know what types of toxic chemicals are being stored at that 
facility?
    Response. The Federal Government and many states and local 
governments have such right-to-know laws, which can provide people with 
helpful information about the risks they may face in their community 
and can give emergency responders needed information to protect the 
public.
    Question 10. When is it appropriate for the Federal Government to 
bring an enforcement action if a state is already involved in the 
matter? At what point would you step in as an EPA administrator and 
threaten a state that has failed to carry out the authority delegated 
to it by the EPA?
    Response. It would rarely, if ever, be appropriate for the Federal 
Government to step in where a state already is aggressively pursuing 
enforcement. If confirmed, I will work to provide states with the 
resources they need to carry out environmental programs, and I will 
work to establish performance standards to hold them accountable for 
making environmental improvements.
    Question 11. In your testimony before the committee, you emphasized 
the need for the EPA to work cooperatively with businesses and state 
and local governments in complying with environmental regulations. Sen. 
Inhofe described your approach to environmental enforcement as 
``compassionate compliance.'' But at what point do you believe the EPA 
should put away the so-called carrot of voluntary compliance and 
aggressively enforce the law?
    Response. I have seen in New Jersey that most businesses are 
working to comply with our laws, but that many do not have the time or 
resources (or lawyers) to keep up with all the requirements. The 
government should first seek to assist those businesses to comply--the 
goal, of course, is environmental protection, not enforcement for 
enforcement's sake. But where a business refuses to comply, then it is 
appropriate to step in and fully enforce the laws.
 Responses of Governor Christine Todd Whitman to Additional Questions 
                          from Senator Inhofe
    Question 1. Governor Whitman, when your nomination was announced, 
the President-elect stated that you and he shared ``a philosophy that 
moves beyond the old central command-and-control mindset that believes 
Washington has got all the answers to environmental issues.'' Your 
predecessor at EPA, by contrast, was committed to a federally imposed 
vision of the so-called ``Precautionary Principle.'' This ``one-size 
fits all'' approach seemed to dictate that even the most inflexible 
regulatory solutions were often preferable to appropriate, risk-based 
outcomes. Can you comment on how the philosophy that you and the 
President-elect share differs as regards to the Precautionary Principle 
versus risk-based approaches?
    Response. Our nation's environmental policy and decisionmaking are 
based on longstanding traditions of precaution, science-based risk 
analysis, and sound risk management, including consideration of 
benefit/cost. Precaution is an important component of risk management 
when making decisions in the face of uncertainty and the absence of 
complete knowledge. Whether and the extent to which precautionary 
considerations are employed in risk management decisions is highly 
context-specific. Precaution, however, should not be used to justify 
arbitrary decisions.
    Question 2. One of the criticisms often leveled at EPA is that the 
science supported in the Office of Research and Development is not 
linked to or incorporated into the regulatory agendas of the Agency's 
program offices. How do you plan to address this problem?
    Response. As I stated during the hearing, I believe science is the 
foundation on which all of EPA's policies should be built. I not only 
will work to improve coordination between EPA and others outside EPA, 
but also within EPA.
    Question 3. In December the EPA determined that they would move 
forward with a rulemaking to control emissions of mercury from power 
plants. Unfortunately, the EPA did so using a more restrictive 
``command and control'' facility-by-facility approach that limits the 
flexibility of utilities and states to find the most cost-effective 
means possible to control mercury. President-elect Bush, during the 
campaign, said that emissions reductions, including mercury, should be 
phased in ``over a reasonable time period,'' and that these controls 
should include ``market-based incentives, such as emissions trading and 
carbon credits, to help industry achieve the required reductions.'' My 
question is whether you would consider a cap-and-trade program, with 
the goal of regulating mercury emissions in a flexible manner that is 
based upon adequate protection of public health?
    Response. I am very interested in pursuing what works. We have seen 
that a cap-and-trade program has worked very well to reduce emissions 
of sulfur dioxide, under the Clean Air Act Amendments' Title IV acid 
rain program. I would like to explore that for other chemicals as well. 
I don't know if mercury should be included, but I will look into that 
with you.
    Question 4. Biotechnology is a growing field, not only for consumer 
products but also for remediation techniques. Do you support innovative 
pollution prevention programs that would foster the use of industrial 
enzymes in manufacturing processes in order to reduce the amount of air 
and water pollution and hazardous waste generation and are you aware 
that the biotechnology industry is playing a key role in reducing the 
amount of industrial pollution discharged annually by producing enzymes 
that make manufacturing processes cleaner?
    Response. I am not familiar with all the wonderful things that 
enzymes can do, but I am willing to learn.
    Question 5. On December 21, 2000, the EPA issued a final rule to 
reduce the sulfur levels in highway diesel fuel by 97 percent. 
Published reports indicate the new diesel sulfur rule could cause 
supply shortfalls of more than 12 percent nationwide and up to 37 
percent in the West. Major rules such as this typically undergo a 
ninety-day review period by OMB to examine the impacts. The Clinton OMB 
spent less than 2 weeks reviewing the final sulfur diesel package. Many 
have suggested that the latest diesel rule should be reexamined and 
perhaps rescinded. How do you intend to proceed with this rule?
    Response. I will review this rule along with all the other recent 
EPA rules, and then decide how to proceed.
    Question 6. Under the New Source Review program of the Clean Air 
Act, EPA is currently invoking its ``NSR Look Back'' program in which 
selected sources are required to provide historical documentation of 
any activity which may have triggered NSR permitting. In reviewing this 
information, EPA is evaluating the applicability of NSR permitting 
based upon its current interpretation of the program, which has changed 
significantly over the last twenty-five years and is different than the 
program interpretation at the time of the permitting activity. Will 
this looking at the past through 2001 eyes continue?
    Response. I believe it is important to be clear about your 
expectations, especially about legal requirements. Generally, the rules 
should not be changed in the middle of the game. I will review this NSR 
policy.
    Question 7. Will you commit to supporting in any upcoming 
Superfund/brownfields bill language that will protect innocent small 
businesses, who legally disposed of trash, and other protections, which 
relieve innocent small businesses from Superfund liability? What other 
Superfund reforms would you support?
    Response. We need to employ the tools that get the work done the 
most effectively. In some cases, Superfund's liability scheme may 
assist in the cleanup, but for many sites, such as brownfields, the 
Superfund liability scheme instead impedes cleanup. I would be happy to 
work with you to see what Superfund reforms might be needed.
    Question 8. Cost/benefit arguments are often used to shape 
environmental regulations. Please describe how your approach might 
differ from the approach taken by the last Administration.
    Response. I am not familiar with the last Administration's 
approach. I believe that we should know what the benefits and costs of 
a new policy are.
 Responses of Governor Christine Todd Whitman to Additional Questions 
                           from Senator Bond
    Question 1. As you may know, the benefits of plant biotechnology 
and the Federal regulatory regime which governs its application has 
been endorsed by nearly every leading science organization in this 
country. Most recently, the American Medical Association re-affirmed 
its support for plant biotechnology and continues to oppose unnecessary 
new labeling requirements which would threaten the viability of the 
technology. The support of the AMA is shared by the American Dietetic 
Association, American Society for Cell Biology (10,000 members), 
American Society for Microbiology (40,000 members), Genetics Society of 
America (4,000 members), Society of In Vitro Biology, American Society 
of Plant Physiologists, American Phytopathological Society, American 
Council on Science and Health, International Food Policy Research 
Institute, Federation of Animal Science Societies, and others. Nobel 
Laureates have joined other independent scientists in petitions 
supporting biotechnology.
    Those who stand the most to gain from this technology are the most 
disadvantaged in the world, particularly children, the sick, the poor, 
and the hungry in Africa and Asia. Notwithstanding the scientific 
consensus, anti-technology zealots, competitor groups such as some in 
the organic food industry, and trade protectionists in Europe have 
endeavored to discredit this new technology. Where the technology holds 
the most promise is in improved nutrition, medicinal uses, and 
environmental protection. Ironically, it is some activists who profess 
to represent the interests of environmental protection who oppose the 
development of technology.
    Our regulatory system exists to inform the public if products are 
unsafe or safe and under what conditions. Public confidence in the U.S. 
system food production system is founded on the principle that 
regulatory decisions regarding food safety be based on science, not on 
hysteria, politics or separate unrelated agendas. For our multi-agency 
system of approval to do otherwise, would threaten new technologies as 
well as the overall confidence in our food safety.
    Do you agree that the scientific experts in the regulatory agencies 
base their decisions on science and not politics?
    Response. I believe that most government scientists base their 
decisions on science, not politics.
    Question 2. The issue of the application of the precautionary 
principle to environmental and other matters has been very 
controversial in recent years. The overriding U.S. regulatory scheme 
incorporates the concept of precaution and acts protectively on the 
side of safety when there are substantive uncertainties. Our regulators 
have proven themselves willing and able to act to protect the public. I 
support the concept of the precautionary principle included as 
Principle 15 to the Rio Declaration. Principle 15 states that: ``Where 
there are threats of serious or irreversible damage, lack of scientific 
certainty shall not be used as a reason for postponing cost-effective 
measures to prevent environmental degradation.''
    The U.S. regulatory system recognizes the difficulties of proving 
the negative and that improper use of a precautionary principle can 
stifle innovative activity that benefits the health and safety of the 
public. U.S. regulatory policy reflects a careful balancing of the 
responsibilities in the area of precaution. Therefore, I note that some 
food groups have identified a statement attributed to you in an October 
2000 speech at the National Academy of Sciences that:
    ``policymakers need to take a precautionary approach to 
environmental protection. . . . We must acknowledge that uncertainty is 
inherent in managing natural resources, recognize it is usually easier 
to prevent environmental damage than to repair it later, and shift the 
burden of proof away from those advocating protection toward those 
proposing an action that may be harmful.''
    Please confirm that this remark does not reflect a desire to shift 
the carefully designed precautionary burdens currently established 
within the U.S. regulatory system.
    Response. My remarks were made in a specific context and were not 
directed at any change in the U.S. regulatory system.
    Question 3. One of the benefits of biotechnology is that its use 
has already proven to lower the need for chemical pesticide 
applications. There are a number of new applications of plant 
biotechnology under development to create plant-based vaccines and 
medicines. Additionally, there are a number of new applications of 
plant biotechnology under development to create bio-degradable plastics 
and enzymes that make manufacturing processes cleaner and even treat 
toxins in soil and water. Are you aware of these applications and do 
you agree that development of such technologies, subject to regulatory 
approval, should be encouraged?
    Response. I am not familiar with all the wonderful benefits of 
these new applications, but I am happy to learn.
 Responses of Governor Christine Todd Whitman to Additional Questions 
                         from Senator Voinovich
    Question 1. The EPA's 1996 Clean Water Needs Survey estimated that 
nearly $140 billion will be needed over the next 20 years to address 
wastewater infrastructure problems in our communities. In March 1999, 
the EPA revised their figures upwards whereas infrastructure needs are 
not estimated at $200 billion. Other independent studies indicate that 
the EPA has undershot the mark, estimating that these incredible unmet 
needs exceed $300 billion over 20 years. In recent years, Congress has 
only appropriated $1.35 billion for the Clean Water State Revolving 
Loan (SRF) program. The past Administration requested even less in its 
annual budgets. Do you believe the Bush Administration should include 
more funding for the Clean Water SRF in its budget requests to help 
communities cope with costly wastewater infrastructure problems?
    Response. President Bush has recognized this need, and I look 
forward to working with you on the specifics.
    Question 2. What does the Bush Administration intend to do to 
address water infrastructure needs nationwide?
    Response. President Bush has recognized this need, and I look 
forward to working with you on the specifics.
    Question 3. Do you believe there should be more grant moneys 
available to financially distressed communities to pay for water 
infrastructure projects?
    Response. I am not familiar with all the details of the current 
loan programs, but I would be willing to learn more and work with you 
to determine if additional grant moneys would be the most effective way 
of improving communities' water infrastructure.
    Question 4. The Wet Weather Quality Act of 2000 was enacted as part 
of the Consolidated Appropriations Act for FY2001. The bill creates a 
new 2-year, $1.5 billion grant program to states for combined sewer 
overflow and sanitary sewer overflow projects. However, the money is 
only triggered when Congress appropriates at least $1.35 billion for 
the Clean Water SRF. Do you believe the Bush Administration should 
request funding for this grant program?
    Response. President Bush has recognized this need, and I look 
forward to working with you on the specifics.
    Question 5. Sometimes its seems that the intent of Congress and the 
action of the EPA do not always coincide when it comes to meeting the 
environmental goals of our nation. I would like to know your views on 
how the Bush Administration will ensure that the intent of Congress is 
consistent with the actions of the EPA.
    Response. If confirmed, I will be committed to working with you and 
the other members of this diverse Congress toward ensuring that EPA 
acts consistent with our laws.
    Question 6. I have worked to pass the Regulatory Improvement Act 
(S. 746 in the 106th Congress). The bill would require all Federal 
agencies to conduct a cost-benefit analysis when issuing major rules. 
For instance, many Ohio communities are concerned that they are having 
to undertake billions of dollars in improvements to address non-
existent or marginal water quality impacts. Will the Bush 
Administration conduct cost-benefit analysis during the rulemaking 
process?
    Response. I do not know yet what the Administration-wide rulemaking 
process will look like, but President Bush has stated that regulators 
generally should have this information before making new policy.
    Question 7. No Question 7 was provided.
    Response. Question 8. Currently, there are separate regulatory 
programs for CSOs, SSOs, stormwater management, and total maximum daily 
loads. Do you believe these separate regulatory programs should be 
combined into a unified wet weather regulatory program?
    Response. That's an interesting idea. I would be interested to know 
more about this idea.
    Question 9. Some Ohio communities are concerned that the EPA is not 
very receptive to new technologies. For example, they would especially 
like the EPA to look closely at new technologies that would provide 
secondary treatment of wastewater at a lower cost than what the EPA 
requires. What are your views on how the Bush Administration will 
evaluate and approve new, cost-effective technologies?
    Response. If confirmed, I would work to ensure that EPA reviewed 
and acted on new, cost-effective technologies so that they could be put 
to work.
    Question 10. For SSOs, any discharge is currently illegal. CSOs are 
to be totally eliminated. It seems that from a practical standpoint, 
sewer deterioration will always take place and zero discharge for all 
storm weather conditions is an impractical/impossible goal. What are 
your views on finding the right balance between environmental benefit 
and the high costs of preparing for the worst-case scenario?
    Response. We need to seek a balance between the benefits and costs 
of our laws and rules.
    Question 11. I have been concerned that there is a lack of 
consistency between EPA's national office and the regions, as well as 
among the regions. Will you ensure that interpretations and policies 
will be consistent and standardized among all regions?
    Response. There is a delicate balance between the certainty that 
consistency provides and the need for differences based on unique 
regional situations. As a Governor, I have been conscious of that even 
within my own state, and I will work to find that right balance.
    Question 12. I believe that people you choose for your team should 
represent a regional balance. Do you agree?
    Response. Yes.
    Question 13. Total drinking water needs have been estimated to be 
in the $325 billion range over 20 years. At the same time, the current 
authorization for the Safe Drinking Water State Revolving Loan Fund 
program can only meet approximately $24 billion of the total needs. 
What will the Bush Administration do to address our nation's drinking 
water needs?
    Response. President Bush has recognized this need, and I look 
forward to working with you on the specifics.
    Question 14. Governor Whitman, you have prided your administration 
in New Jersey on your efforts to clean up brownfields at the state 
level and turn them into productive use. You have provided $15 million 
to help towns clean-up waste sites and market them for re-use, and New 
Jersey has a reimbursement program for private parties that conduct 
voluntary clean-ups at brownfields sites.
    However, many states are concerned that their efforts to get 
parties to clean-up brownfield sites are stymied because of Federal 
Superfund liability provisions. Parties that clean up non-Superfund 
sites under state cleanup laws need certainty about the rules that 
apply to them, particularly that their actions eliminate the risk of 
future liability under the Federal Superfund program.
    The bill that I introduced last year--and which I will be 
reintroducing this year--allows states to release parties that have 
cleaned up sites under state laws and programs from Federal liability. 
I believe that states should have more options to clean up brownfields 
sites, because in many respects, states are leading the way to cleaning 
them up more efficiently and cost-effectively.
    For instance, in some 20 years under the Federal Superfund program, 
the U.S. EPA has only cleaned up 17 sites in my state of Ohio. In 
contrast, 68 sites have been cleaned up under Ohio's voluntary cleanup 
program in just its first 5 years. And many more cleanups are underway. 
Ohio's actions are helping to recycle these wastelands, prevent urban 
sprawl and preserve our farmland and greenspaces, and in the process, 
they are making our cities more desirable places to live. I am 
convinced that putting abandoned sites back into productive use can be 
the spark that provides economic rebirth to many of our nation's urban 
areas, and with it, good-paying jobs to local residents.
    My question is: what will the EPA do to facilitate greater 
flexibility under Superfund to give our states the ability to quickly, 
and safely, return brownfields to productive use?
    Response. The states are trying to move ahead on cleaning up and 
redeveloping brownfields. As you know, President Bush has proposed 
reforming the Federal legislation and offering other programs to remove 
the threat of Federal liability, where the site is cleaned up, and to 
offer additional incentives to spur cleanup and redevelopment. I look 
forward to working with you on this important issue.
    Question 15. As Governor of New Jersey you took some very 
aggressive positions to represent your state on clean air issues, 
especially as they relate to the northeast versus the Midwest on ozone 
transport issues. As EPA Administrator, how are you going to reconcile 
the positions you took as Governor with the need for an EPA 
Administrator to take a broad, nationwide perspective on clean air 
issues?
    Response. My experience as Governor of New Jersey will always 
inform my decisionmaking. I know that, if confirmed, I will need to 
take the needs of the entire nation into account, not just one region.
    Question 16. As the Congress proceeds with reauthorization with the 
Clean Air Act, what changes to the Act would you be seeking? Do you 
think that the Act needs a major re-write or a few discrete ``rifle 
shot'' changes?
    Response. I have not thought that far down the road about 
particular approaches to reauthorizing the Clean Air Act, but I look 
forward to working with you on that.
    Question 17. Many people have talked about the need to do a better 
job of harmonizing environmental policy and energy policy, which often 
times seem to be in conflict. What are your views on how we can avoid 
conflicts and make sure the two policies are complementary? How do you 
see the Administrator's role in working with the Secretary of Energy to 
promote rational environmental and energy policies?
    Response. President Bush has told his nominees that he expects us 
to work together, to seek out expertise and assistance from other 
agencies, so that we can craft and implement the best policies for 
America. This is particularly true with our need to harmonize 
environmental and energy matters, and I am looking forward to working 
with our new Secretary of Energy.
    Question 18. As you may know, EPA ordered midwestern utilities to 
reduce their NOx emissions by May 2003, and this deadline was delayed 
by 1 year under Federal court order to May 2004. However, the so-called 
``126 petitions'' still include the original 2003 deadline, resulting 
in two different and inconsistent deadlines. Meeting the earlier 
deadline might result in market disruptions and price spikes, as units 
are taken out of service in order to complete the very large 
construction projects that are necessary to meet the NOx reduction 
target. I would also note that the ``126 petitions'' were intended to 
be a backstop and supplemental to the state-driven SIP call process, 
whereas we now have the 126 petition deadline superseding the state SIP 
call deadline. Recognizing that this NOx reduction will occur, do you 
think that these inconsistent deadlines are a problem? My question is 
whether you will review this issue and consider recommending and 
applying only the SIP call deadline in order to avoid any market 
disruptions.
    Response. I will review this issue.
    Question 19. In December the EPA determined that they would move 
forward with a rulemaking to control emissions of mercury from power 
plants. Unfortunately, the EPA did so using a more restrictive 
``command and control'' facility-by-facility approach that limits the 
flexibility of utilities and states to find the most cost-effective 
means possible to control mercury. President-elect Bush, during the 
campaign, said that emissions reductions, including on mercury, should 
be phased in ``over a reasonable time period,'' and that these controls 
should include ``market-based'' incentives, such as emissions trading 
and carbon credits, to help industry achieve the required reductions. 
My question is whether you consider a cap-and-trade program, with the 
goal of regulating mercury emissions in a flexible manner that is based 
upon adequate protection of public health?
    Response. I am very interested in pursuing what works. We have seen 
that a cap-and-trade program has worked very well to reduce emissions 
of sulfur dioxide, under the Clean Air Act Amendments' Title IV acid 
rain program. I would like to explore that for other chemicals as well. 
I don't know if mercury should be included, but I will look into that 
with you.
    Question 20. In the area of environmental protection, American 
industry primarily seeks cost-effective rules that provide regulatory 
certainty. President-elect Bush specifically referred to one such issue 
during the campaign, when he called for our nation to, and I am quoting 
here ``provide regulatory certainty to allow utilities to make 
modifications to their plants without fear of litigation.'' President-
elect Bush was referring to New Source Review. The EPA has changed 
their interpretation of NSR in recent years, and has now proposed a 
rule under which routine maintenance could trigger a wide range of 
environmental standards that are then enforced against the plant in 
question. This may well result in plants being taken out of service due 
to unmet maintenance requirements, at the very time that we need more 
reliable and low cost generation of electricity. Will you examine this 
proposed rule on NSR, and look at alternatives that will honor 
President-elect Bush's pledge to ``provide regulatory certainty to 
allow utilities to make modifications to their plants without fear of 
new litigation''?
    Response. Yes.
    Question 21. During your tenure in this appointed position, what 
key performance goals do you want to accomplish, and how would this 
Committee know whether you have accomplished them?
    Response. If confirmed, I will set performance goals, and I will be 
happy to work with you on those.
    Question 22. Are you familiar with the strategic plan, annual 
performance plans, annual accountability report, and financial 
statements of your prospective agency? What do you consider to be the 
most important priorities and challenges facing the agency as it 
strives to achieve its goals? What changes, if any, do you feel might 
be necessary in these plans?
    Response. I am aware that the Agency prepares them, but I am not 
familiar with their particulars. If confirmed, I will review those 
documents and work to ensure that the Agency is setting measurable 
performance standards to let us know whether we are in fact improving 
environmental conditions and not just whether we can count beans.
    Question 23. Virtually all the results that the Federal Government 
attempts to achieve are accomplished only if the efforts of a vast 
network of state and local government and private sector contractors 
and partners are effectively coordinated. For example, much of the 
Federal Government's domestic agenda--from mass transit to community 
mental health--is accomplished in part by providing grants and other 
technical assistance and support to state and local governments and 
third parties. Federal agencies, by working closely with their state 
and local partners, can instill performance-based approaches to 
managing intergovernmental programs that seek to maximize both results 
and state and local flexibility. Describe the skills and experience 
that you have that will prove helpful in developing and leading 
intergovernmental performance-based partnerships.
    Response. My 7 years of service as Governor of New Jersey has 
provided me with much practical, hands-on experience in promoting and 
delivering on intergovernmental partnerships. New Jersey, with its 
strong ``home rule'' tradition, literally could not work without such 
partnerships. My administration's environmental, as well as urban and 
education policies, have all been built around a commitment to working 
in partnership with local and county governments. For example, my plan 
for preserving one million acres of open space and farmland in New 
Jersey and the re-development of brownfields is dependent on a close 
working relationship between the state government and local and county 
governments.
    Question 24. What is your experience in working with Congress or 
other legislative bodies responsible for the authorization, funding, 
and oversight of government programs? Specifically, describe any 
experience you have in working on a bipartisan basis to identify 
statutory changes that can improve program efficiency and 
effectiveness, as well as in fostering and responding to legislative 
oversight.
    Response. Over the past 7 years, I have worked on a bipartisan 
basis with New Jersey's congressional delegation and state legislature 
on countless matters of concern to my state and its people.
    Question 25. What are your views on the importance and role of 
financial information in managing operations and holding managers 
accountable?
    Response. Any good manager knows that financial information is an 
important tool in managing operations and holding managers accountable. 
When entrusted with taxpayer dollars, government must do all it can to 
ensure that those resources are used efficiently, effectively, and 
wisely. One must avoid the trap, however, of equating spending levels 
with success in meetings one's mission. Too often, managers will 
declare a problem solved if they succeed in securing more money to 
address that problem. That is why managers must also include 
performance standards and measures in managing operations and 
evaluating success.
    Question 26. How would you address a situation in which you found 
that reliable, useful, and timely financial information was not 
routinely available for these purposes?
    Response. If I found that reliable, useful, and timely financial 
information was not routinely available, I would make whatever changes 
were necessary to ensure that it was.
    Question 27. The Government Performance and Results Act envisions 
that agencies will link their human capital planning with their 
strategic and annual plans. However, we found that most agency plans 
did not sufficiently address how human capital will be used to achieve 
results. Can you describe your experience in building and maintaining 
the human capital needed to achieve results (getting the right 
employees for the job and providing the training, structure, 
incentives, and accountability to work effectively)? More generally, 
describe your experience in integrating human capital considerations 
and planning into programmatic planning.
    Response. The skills, talent, and experience that an agency' work 
force brings to the work of that agency are the most important factors 
in determining the success with which the agency will meet its mission. 
As the New Jersey Governor, I have worked hard to ensure that our 
60,000 state employees have the training, structure, incentives, and 
accountability needed to succeed. To better assess the state's work 
force needs, my administration undertook a complete review of all civil 
service job titles, classifications, and descriptions, initiated 
reforms in our civil services structure to reward performance and 
encourage training and workplace excellence, and we have instituted 
procedures for the development of clear goals and measures for all 
state employees. I also initiated the first ever Performance Assessment 
Review system for non-civil service employees working in the Governor's 
Office.
    Question 28. Describe your experience in evaluating work forces 
(factors such as age, attrition rates, diversity, and skills 
imbalances) to identify the most challenging human capital issues, and 
discuss how you propose dealing with these issues in your agency over 
the next several years.
    Response. My administration has led the way in developing work 
force planning and a responsible comprehensive program. Even a cursory 
examination of the composition of the Federal work force indicates that 
the coming years will see significant attrition as experienced people 
reach retirement age. Replacing those people--and the long experience 
they have developed and the institutional memory they hold--is a very 
real and pressing challenge. If confirmed, I intend to make this 
challenge a top priority at EPA. We need to look for creative, 
effective solutions to meeting this potential problem.
    Question 29. If you have spoken with your predecessors--those who 
have held the position you now seek--about their ``lessons learned'' on 
how to manage the agency effectively, describe how their advice and 
experience has influenced your thinking and plans.
    Response. I am grateful that most of my predecessors have reached 
out to me in the weeks since President-elect Bush nominated me for this 
position. I look forward to continuing to meet and talk with them in 
the immediate future. I know they have much good advice and wise 
counsel to impart.
    Question 30. High-performance organizations draw on the strengths 
of employees at all levels and maintain honest two-way communications. 
Based on your experience, how would you assess your agency's capability 
for two-way communication, and what preliminary ideas do you have to 
promote such communication in your agency?
    Response. As I have not yet been confirmed, I have not yet met with 
EPA employees. I believe that two-way communication is important, and I 
will work to make sure EPA fosters that.
    Question 31. The Federal Government's work force has undergone 
significant downsizing in the past several years, and with the current 
tight labor market, it is becoming increasingly difficult to attract 
and retain talent. How would you work, within current rules, to attract 
and retain individuals with the experience, education, and skills 
needed by your agency?
    Response. If confirmed, I will read the report on EPA's human 
capital crisis and then speak with my Cabinet colleagues and others in 
government about what may work well in their agencies. This is a very 
important issue, and it will be a priority for me.
    Question 32. Numerous GAO reports have highlighted the need for 
agencies to expend more resources on effective training and 
professional development programs to better equip Federal employees for 
the workplaces of the future. Based on your experience, what priority 
would you place on workplace development, and how would you emphasize 
continuous learning in your agency?
    Response. I am a strong believer in work force development. As 
Governor, I significantly upgraded the stature and use of the state's 
Human Resources Development Institute, a training center. We have 
expanded its course offerings and its outreach to state employees. 
Recognizing the importance of work force development, my administration 
has also provided funds to help workers in the non-public sector 
improve their skills and training. I would expect all EPA employees to 
take full advantage of the opportunities offered for training and 
development and would ensure that managers throughout the organization 
encouraged such development. I will review EPA training courses and 
professional development programs to ensure that they meet future work 
force needs.
    Question 33. To become a high-performance organization, an agency 
needs senior leaders who are drivers of continuous improvement. What is 
the best approach for motivating career employees, or any employees for 
that matter, to achieve excellence?
    Response. I believe there are several important steps that a 
manager must take to promote continuous improvement and excellence. 
First, clear goals must be set. Second, clear measures for evaluating 
success must be established. Third, employees must know their 
performance will be evaluated against those goals and measures. In 
addition, employees at every level must be made aware of their 
importance to the agency's overall success and the things they can do 
in their job to help achieve that success. Managers, at every level, 
must also lead by example; their own commitment to excellence and 
continuous improvement should be evident to all those with whom they 
work.
    Question 34. Political appointees who create and maintain 
constructive working relationships with civil servants, including 
members of Federal unions, can improve employee morale, increase 
performance, and lower costs. Describe your specific experience 
involving ``front line'' employees in achieving results.
    Response. As Governor of New Jersey, none of what I sought to 
accomplish could have succeeded unless that state work force had been 
sufficiently motivated and committed to turning policy ideas into 
practical results. I have put a premium on the ability of all my 
political appointees (cabinet and sub cabinet) to work with the career 
employees and their unions to carry out my goals. I expect to have the 
same relationship at EPA.
 Responses of Governor Christine Todd Whitman to Additional Questions 
                           from Senator Crapo
    Question 1. What role, if any, should the EPA have regarding urban 
growth and development issues? If it should participate, how should the 
EPA interact with all of the parties to the debate so that their 
interests and concerns are addressed?
    Response. As you know from your service on the Committee, EPA is in 
the middle of most debates over growth and development, generally 
because many activities today are regulated in some way by EPA. I 
believe that EPA has a lot of expertise to help states and local 
communities meet their needs, and so I would offer that expertise if 
states or local communities requested it.
    Question 2. Do you support the EPA awarding Federal grants to 
organizations that engage in promoting anti-growth, anti-business 
efforts? If not, what steps will you take to ensure that Federal funds 
are not used for such activities?
    Response. I will review this policy and then make a decision.
    Question 3. The National Hazardous Waste Ombudsman and the Regional 
Ombudsmen serve as advocates for communities that disagree with agency 
actions involving activities managed by the EPA. Specifically, the 
Ombudsman provides an independent analysis on current projects under 
dispute. On January 3, 2001, the EPA published draft guidance for the 
conduct of the Ombudsman that most impartial and stakeholders agree 
would have the effect of undermining the independence and authority of 
the Ombudsmen. Do you support the important public advocacy and 
watchdog role provided by the Ombudsmen? What are your intentions with 
regard to the draft guidance? Will it be implemented, will it be 
implemented as written or significantly overhauled?
    Response. I do support the Congressionally mandated ombudsmen role, 
and I will review the draft guidance and then decide how to proceed.
    Question 4. Presently, the Regional Ombudsmen report to the 
Regional Administrators and the National Ombudsman reports to the OSWER 
Assistant Administrator. Would you be in favor of having the Regional 
Ombudsmen report to the National Ombudsman?
    Response. I am not familiar enough with the situation to answer.
    Question 5. At present, the National Ombudsman Office does not have 
control of its budget or personnel. The personnel report to the OSWER 
Assistant Administrator, not the Ombudsman. The Ombudsman must request 
resources and approval for all expenditures. Would you support the 
Ombudsman having control of his or her personnel and financial 
resources?
    Response. I am not familiar enough with the situation to answer.
    Question 6. In your testimony, you suggested that so-called 
Brownfields legislation will be a priority of yours if confirmed as 
Administrator. In recent years, Congress has recognized that use of 
funds for Brownfields programs undercuts resources for other important 
Superfund initiatives. It has now been 14 years since the last 
significant reform of the Superfund statute. How will you work with 
Congress to enact needed comprehensive Superfund reform that includes 
liability, remedy, and natural resource damages reform?
    Response. I am interested in learning what reforms are do-able in 
this Congress, and will work with you to get those done.
    Question 7. Small and rural communities have a competitive 
disadvantage in securing resources for compliance with environmental 
regulations under traditional granting programs. In other areas, EPA 
guidelines prohibit funding to communities for the purpose of 
developing feasibility studies for environmental projects. Increasing 
environmental regulations have the effect of strangling small 
communities that have few resources from which to draw for compliance. 
Do you support efforts to create special assistance programs, such as 
the proposed Project SEARCH Act, to help small communities comply with 
environmental regulations?
    Response. Small communities, like small businesses, face special 
problems in trying to meet environmental requirements and fund the 
needed improvements. I would be interested in learning more about the 
proposed Project SEARCH Act and other ways that EPA might be able to 
assist small communities in improving their environmental conditions.
    Question 8. Do you support efforts to increase the involvement of 
small communities in EPA policy-development? Do you support the 
proposed Small Communities Assistance Act?
    Response. If confirmed, I would like to involve small communities 
in EPA's policy development. I look forward to learning more about the 
proposed Small Communities Assistance Act and other ways that EPA might 
be able to assist small communities in improving their environmental 
conditions.
    Question 9. Water and wastewater infrastructure needs are growing 
for communities throughout the United States. Such initiatives are 
costly and Federal resources are limited. Continuing and additional 
regulations have the effect of exacerbating resource shortfalls in many 
communities. As Chairman of the Subcommittee on Fisheries, Wildlife, 
and Water, I will be working on efforts to address many of these 
concerns. Will the EPA under your direction work with Congress to help 
identify solutions to the infrastructure gap?
    Response. Yes.
    Question 10. In 1997, the EPA adopted stricter air quality 
standards for ozone and particulate matter, known popularly as the smog 
and soot rule. The U.S. Supreme Court heard oral arguments on 
challenges to this rule on November 7, 2000. One of the key issues 
argued before the Court was whether EPA's contention, that it can issue 
environmental regulations without consideration of costs to affected 
industries, is correct. If confirmed as Administrator, how would you 
consider costs and benefits in the development of environmental 
regulations?
    Response. I understand that this particular issue is one of the 
questions before the Supreme Court. As I stated in my testimony, I 
believe we should know the benefits and costs of new policies.
    Question 11. What is the proper role of risk assessment, cost-
benefit analyses, and sound science in the development of environmental 
policies?
    Response. We should use these tools so that we can better 
prioritize our efforts and the identify the best solutions.
    Question 12. This year, the Clinton Administration promulgated 
Clean Water Act TMDL rules that will be extremely burdensome to 
businesses and states. These regulations lack a sound scientific basis. 
At the direction of Congress, the National Academy of Sciences is 
currently examining the science of TMDLs to provide a more solid 
foundation and is due to complete its study in June. Would you consider 
reexamining and revising the TMDL regulations based on the NAS study?
    Response. I will review both EPA's own cost study, due out by the 
end of February, and the NAS study, and then I will determine how to 
proceed.
    Question 13. In August 1999, the EPA published in the Federal 
Register a draft radiation release standard for the geologic repository 
being investigated at Yucca Mountain in Nevada. In promulgating the 
standard, the EPA had been directed by Congress to follow the 
recommendations of the National Academy of Sciences. The American 
Nuclear Society, the Nuclear Regulatory Commission, and the Department 
of Energy have submitted technical comments critical of the proposed 
standard. The American Nuclear Society has commented that the proposed 
standard is not consistent with the recommendations of the National 
Academy of Sciences. If confirmed, would you be willing to review these 
comments and to review the draft standard against what was recommended 
by the National Academy of Sciences?
    Response. I understand that Administrator Browner signed that rule 
on January 17. I will review this action, along with the other recent 
EPA actions.
 Responses of Governor Christine Todd Whitman to Additional Questions 
                          from Senator Chafee
    Question 1. Billions of dollars will need to be spent in the near 
future on water infrastructure. How will you seek to balance increased 
infrastructure needs with constrained resources and smaller budgets?
    Response. As I discussed in the hearing, as a Governor I know that 
communities are facing a critical need for improved water 
infrastructure but do not have sufficient resources. President Bush has 
recognized this need, and I look forward to working with you and others 
to seeing how we can best meet it.
    Question 2. As Governor of New Jersey, you were a leader in 
protecting open space in your state. What role do you believe EPA 
should play in preventing urban sprawl and preserving the Nation's open 
spaces?
    Response. I am very proud of our efforts in New Jersey, and I know 
that states and communities can do great things if they pursue them. 
EPA has a great deal of expertise that it can offer to states and 
communities who are interested in EPA's assistance.
    Question 3. As Administrator, how would you strive to improve 
internal coordination and communication among the individual divisions 
of the Agency?
    Response. I have learned, from my experiences in New Jersey, that 
communication in environmental agencies can be segmented into the silos 
of air, water and land. I will work to open up communication within the 
agency, to share innovative ideas and basic data.
    Question 4. In the past year, EPA has taken a number of legal 
actions against the nation's coal-fired power plants to encourage 
industry compliance with the Clean Air Act Amendments of 1990? Do you 
believe this is a useful tool for improving the nation's air quality?
    Response. As I stated during the hearing, I do not believe in an 
``enforcement first'' practice. I would first work with businesses to 
find the best ways to improve environmental performance. For those who 
refused to comply, then enforcement would follow. I will offer the 
carrot first, but I will not retire the stick. Lawsuits like these may 
be helpful in some cases, but I generally do not intend to use them in 
the first instance.
 Responses of Governor Christine Todd Whitman to Additional Questions 
                          from Senator Clinton
    Question 1. As you know, California is facing a serious energy 
crisis. In New York, we understand the effects of price spikes all too 
well. This past July, average bills for Con Ed's 3.1 million customers 
in New York City and Westchester County increased by 43 percent more 
than they were the previous July. Obviously, New York's utility costs 
remain some of the biggest threats to economic growth. The state's 
utility rates are the second highest in the country--60 percent higher 
than the national average. This is bad for business--and a strain on 
the budgets of too many of our hardest pressed New Yorkers. One of the 
reasons behind these price spikes is the growing demand. Therefore, 
conservation is a way to deal with this problem and lower pollution, 
yet a number of conservation programs have not been fully funded in the 
appropriations process. Will you advocate for increased investment in 
conversation both for environmental, and energy-related reasons? What 
is your strategy for promoting energy generation from renewable 
resources?
    Response. If confirmed, I will work with my colleagues in the 
Administration to ensure that we have a sound national energy policy. 
As part of President Bush's proposal for such a policy during the 
campaign, he included various incentives to promote the use of 
renewable resources, and I will support those efforts.
    Question 2:
    New York and New Jersey have led the fight to combat sprawl. 
Particularly on Long Island, we have seen a tremendous effort to 
protect open space. Since 1981, the Land and Water Conservation Fund 
(LWCF) has each year received only a portion of its dedicated revenues 
and the Fund now has an unexpected balance of over $12 billion. LWCF 
grant funds may be used for state planning and for the acquisition and 
development of state and local facilities that provide active and/or 
passive recreation opportunities. Do you support providing the LWCF an 
annual appropriation of $ 900 million and additional permanent funding 
for wildlife, marine historic preservation and other conservation 
programs?
    Response. President Bush supports full funding of the Land and 
Water Conservation Fund and returning a significant portion of that to 
the states for their conservation efforts. Question 3. What will your 
policy be on taking into account and determining on every issue the 
specific health risk that pollutants pose to children in particular? I 
believe children aren't ``little adults'' and I'm proud of the fact 
that over the last several years, the EPA has taken into account health 
effects on children when making determinations about pollutants. Do you 
think that is the right course? Should we take into account effects on 
children? Are there any areas you don't think that that should be the 
case?
    Response. As I discussed at the hearing, I believe we should adopt 
standards that are protective of sensitive populations, including 
children and the elderly.
 Responses of Governor Christine Todd Whitman to Additional Questions 
                          from Senator Bennett
    Question 1. What is your view of the new diesel sulfur reduction 
rules? I am also interested to know your feelings on sulfur reduction 
for off-road diesel fuels, homes heating oil, etc.
    Response. I will review this recent rule and then make a 
determination. I am not familiar with the details or impacts of 
particular proposals for reducing sulfur in other fuels.
    Question 2. When does the cost of a proposed regulation exceed its 
benefits? How and who should determine the cost benefits?
    Response. As I stated in the hearing, I believe it is important the 
government determine what the benefits and costs of a particular new 
policy might be before implementing that policy. I would work with the 
cost/benefit experts in the government to make decisions about 
particular policies.
    Question 3. Should environmental policy be exercised at the expense 
of energy policy?
    Response. As I discussed in the hearing and as President Bush has 
stated, it is critical to America that we have a strong national energy 
policy. If confirmed, I will work closely with my colleagues in the 
Administration, including the Secretary of Energy, to ensure that such 
a policy meets our nation's energy needs and still protects the 
environment.
    Question 4. How will the forecasted energy shortages and rate 
increases impact the construction permitting process?
    Response. I am not familiar with the particular impacts but am 
interested in learning more.
    Question 5. How will you ensure that EPA will make all new 
regulations by the approved rulemaking process involving adequate 
notice and public comments rather than by guidance documents or 
changing definitions at a later date?
    Response. I believe government should seek input from the public 
when making new policy and should inform the public about new policies. 
Government should set the rules and not change them in the middle of 
the game, without letting people know.
    Question 6. EPA is currently invoking its ``New Source Review (NSR) 
Look Back'' program in which selected sources are required to provide 
historical documentation of any activity, which may have triggered NSR 
permitting. In reviewing this information, EPA is evaluating the 
applicability of NSR permitting based upon its current interpretation 
of the program, which is different than the program interpretation at 
the time of the permitting activity. Will this ``looking at the past'' 
through 2001 eyes continue?
    Response. I will review this policy, if confirmed, and then make a 
determination.
    Question 7. If industry invests in greener processes as a result of 
their development efforts, will you work with Congress to see that 
those accomplishments are recognized by extending patent protection for 
those products by 2-3 years?
    Response. I am not familiar with the particulars of this patent 
issue, but I will do all I can to work with Congress and others to 
encourage businesses to develop and adopt cleaner processes.
    Question 8. Some states running delegated programs operate in a 
constant fear of the EPA finding fault with the work they are doing. 
This makes it difficult for industry and state agencies to cooperate in 
protecting the environment. What are some steps you envision taking 
that will help build, rather than challenge, state/industry 
relationships?
    Response. As a Governor, I know what it's like to be on the 
receiving end of mandates from DC. I look forward, if confirmed, to 
improving EPA's relationship with the states.
    Question 9. What value will be placed on voluntary, collaborative 
programs during your administration relative to the program areas 
themselves and the enforcement division?
    Response. As I stated at the hearing, I believe in offering the 
carrot first, but not retiring the stick. I have seen in New Jersey 
that we can make significant environmental improvements through 
voluntary, collaborative approaches, and I would seek to continue to 
identify those opportunities if I were confirmed as EPA Administrator.
                               __________
  Gale Warnings: Governor Whitman Nominated for U.S. EPA Administrator
               comments of the new jersey audubon society
             (By William R. Neil, Director of Conservation)
    On Friday, December 22, 2000, President-Elect George Bush nominated 
Governor Christine Todd Whitman of New Jersey to the nation's top 
environmental job, Administrator of the U.S. Environmental Protection 
Agency.
    New Jersey Audubon feels compelled to speak out after participating 
intensively for 7 years in many of the processes and proposals of her 
administration. We believe that the Governor of New Jersey is, by 
temperament, inclination, and management style, poorly suited for this 
position.
    We give all due respect to the Governor's achievements as a 
preserver of open space, the preservation of Sterling Forest in New 
York, and her 1,000,000 acre program, the idea for which originated in 
a policy memo drafted by New Jersey Audubon Society on March 4, 1996. 
But saving open space in a roll-of-the-dice pattern is quite a 
different thing than systematically controlling sprawl in New Jersey, 
where the Governor is visibly failing. That's because she has been 
quite content with a toothless, voluntary State Plan that lacks 
standards, leaving zoning and building densities in the hands of 
municipalities which won't zone to effectively protect even the most 
sensitive of the Garden State's natural resources. Essentially, 
Governor Whitman is turning her back on our own best land-use history. 
In our Pinelands, which have been shielded since 1980 by one of the 
nation's most innovative regulatory land-use systems, votes of the 
Commission overseeing its regulations now go 2-1 to weaken those 
protections, thanks to a spate of poor appointments by Governor 
Whitman. Saving open space is not, however, central to the mission of 
the USEPA, and it is the reluctance of Governor Whitman to build upon 
New Jersey's good tradition of land use regulation, that offers us a 
strong clue about what is to come and worries us the most about her 
appointment to the USEPA.
    We appreciate the views of New Jersey's Senators and some national 
environmental groups who reason that, given President-Elect Bush's 
environmental record and views, we should consider ourselves fortunate 
to have a moderate on the environment--we could do much worse, they 
say. While this certainly is a plausible position to take on the rather 
grim prospects for the environment under President Bush, we 
respectively disagree with this rather over-simplified fatalism.
    Because of our first hand knowledge and experience under Governor 
Whitman, we feel that we must issue ``gale warnings'' to our 
representatives and the national environmental community. The primary 
mission of the USEPA is to issue regulations and standards governing 
the amount of pollutants that can be legally discharged to our air and 
water and to protect human health from at least some of the myriad of 
chemical products that appear in the marketplace. EPA also has 
important oversight duties concerning the regulation of wetlands. Thus 
regulatory concerns are at the heart of the matter. But it is on 
regulatory issues that Governor Whitman has serious philosophical and 
practical problems. It is her attempts to weaken wetlands and water 
regulations that have caused the greatest uproar in New Jersey. She 
herself set the stage for struggles in these areas by coming into 
office with barely disguised hostility toward environmental 
regulations. The code words used in the fall campaign by President 
Elect Bush--``command and control''--were heard early and often in the 
first years of the Whitman administration.
    Her Administration spent a great deal of time promoting the Dutch 
model of environmental regulation which, among much else, sets long 
term goals and gives businesses the freedom to pick the methods. It 
sounded so good, until one stopped gazing at the Dutch ``heavens'' and 
focused on the ground-level attempts in Washington (the Contract with 
America and Congressman Schuster's ``Dirty Water'' Bill) and Trenton to 
weaken water pollution standards. We said it at the time and we worry 
about it for the nation's sake now: while everyone sat around Whitman's 
``stakeholder's'' tables pretending they had no big differences and 
promising not to sue each other (at least that was the Governor's 
hope), sophisticated lobbyists for industry were hellbent on ripping 
out the floorboards of our national and State protective standards. 
While the Governor held a soothing green umbrella over the processes, 
reassuring the public of her commitment to environmental protection, 
and stressing the need for efficiency and cutting red tape, water and 
wetland protection standards were actually being weakened.
    It was not as if clues were missing for what was about to unfold. 
The water battles had been preceded by other policy initiatives that 
should have given friends of the environment pause. As David Halbfinger 
wrote in the New York Times on December, 26, 2000 (``Two Grades, One 
Record,'' pps. 1 & 26.):

    . . . she cut its budget (NJDEP) by 30 percent and laid off 
    hundreds of workers. She ordered that State regulations be no more 
    stringent than Federal rules. And she cut inspections, eliminated 
    penalties and introduced grace periods for violators, to the point 
    that collections of environmental fines plunged 80 percent.
    Adopting the motto ``Open for Business,'' Governor Whitman 
    eliminated the environmental prosecutors Mr. Florio had introduced, 
    and replaced a public advocate's office, which had at times sued 
    the State on behalf of environmental groups, with a business 
    ombudsman's office to guide businesses through the permitting 
    process. And she sought to move away from punitive measures toward 
    voluntary compliance. (P.26)

    There has been a predictable pattern in Governor Whitman's handling 
of environmental regulations. It began in early 1996 with the 
publication of a massive rewrite and weakening of water-related 
regulations, running to hundreds of pages in the February 5, 1996 issue 
of the New Jersey Register. The scope and sophistication of the 
technical changes and weakenings placed comprehension of the proposal 
out of the reach of most citizens. Thus began a long battle of official 
denial of increased pollution, op-ed and letter-to-the-editor debates 
and gradual retreat and withdrawal of the proposal for re-write under a 
growing storm of public protest, as the technical and ``legal'' cover 
for the weakenings was exposed. The same process, on a smaller scale, 
happened with the December 2, 1996 publication in the New Jersey 
Register of revisions to New Jersey's Fresh Water Wetlands Protection 
Act rules, the nation's strongest. Again, a storm of public criticism 
led to the rules withdrawal. They would re-emerge, 4 years later, in 
the summer of 2000, in a massive re-write that stretched to hundreds of 
pages, much larger than the original, and again have come under a hail 
of criticism that they are poor revisions and loaded with new General 
Permits that trouble conservationists.
    Most recently, this year, as the culmination of a process that has 
dragged out since 1996, Governor Whitman's wastewater and watershed 
rule proposal, again running to hundreds of pages, was greeted with 
nearly universal incomprehensibility this past summer. Builders, the 
State Business and Industry Association, and municipal officials, all 
asked for more time to understand a rule that they had had months to 
digest. And with all the legal and technical help money can buy, they 
were still not sure they understood how the rule worked--or didn't 
work. This was for a rule that was supposed to help control sprawl and 
lend itself to predictability and certainty in the crucial policy area 
of wastewater infrastructure planning. Much of the environmental 
community, while lauding the Governor's goals, found the rule much too 
weak and lacking in the clarity and standards necessary to achieve this 
goal. As we write in December, the New Jersey Legislature is on the 
verge of declaring the proposal out of step with Legislative intent, 
very broadly defined. Our view is that despite having had nearly 4 
years to decide what she wants to do, Governor Whitman has once again 
made nearly all parties dissatisfied and still has not made up her mind 
on key policy calls that are necessary to end its utter confusion.
    That was what led us to make our ``osprey'' comparison. The osprey 
is a new Marine Corps hybrid aircraft that is both plane and 
helicopter, but which seems to do neither one very well, and crashes 
frequently. It looks like it has a design ``identity crisis.'' So does 
Governor Whitman when it comes to environmental regulations. These are 
not good omens for someone heading into the top job at EPA.
    Neither is the fact that the Governor keeps quite a distant, hands-
off approach to these matters. In the 4 years of the watershed process, 
involving scores of meetings with stakeholders, the Governor never set 
foot in any of the meetings. In the first wetland regulations' revision 
proposal, when it was withdrawn under withering criticism in 1997, the 
press accounts made it sound like the terrible rule must have been 
issued under some rogue administrator from a different administration, 
not her very own at the New Jersey Department of Environmental 
Protection. It was as if she was totally unaware that her own DEP 
Commissioner was publishing gutting regulations that she would later 
have to disown. There seemed to be no connection, no responsibility. 
Indeed, throughout the numerous meetings we've attended through the 
Whitman Administration's massive regulatory revision processes, we 
don't ever recall seeing the Governor attend, sit down once and get her 
hands dirty and share her thoughts and ideas with all the suffering 
stakeholders. It may be one reason why these have been, despite her 
soothing sounds and wishes, time after time, rather fruitless 
stalemates that leave participants with a bitter aftertaste. And, we 
should note, these have ended in stalemates after conservationists have 
exhausted themselves in blunting the worst of the weakening provisions.
    We have heard quite of few comments recently about how Governor 
Whitman has protected New Jersey's coast. We think you should know that 
her revisions of New Jersey coastal law (called CAFRA) started out 
pretty well, weakened year by year as they dragged out between 1997-
1999, and have ended with both builders and environmentalists suing on 
grounds so convoluted that they make the recent election issues in 
Florida seem straightforward. And the Governor flatly refused to 
campaign with us to get the Legislature to close an infamous coastal 
law loophole, which greatly compromises the effectiveness of the 
regulatory changes she proposed. Time after time on major environmental 
issues, this Governor has refused to take up any issue that might give 
her a difficult road in the Legislature.
    Recently, in an interview with the Star-Ledger, (December 20, 2000, 
``Terms of Triumph and of Frustration,'' page 32) the Governor spoke 
some revealing and troubling words about her views of those that will 
be competing before her at EPA, and have been competing in the policy 
arena before her as Governor for the past 7 years. She said that

    If you let it be seen that you can only have an either/or, we'll 
    lose to business, because they've got more gumption, more dollars 
    to put behind efforts, more power to sway things. We've got to show 
    that we can strike the balance, and we've done that and done that 
    successfully. (Our emphasis).

    Now that's a marvelously revealing comment, and one that troubles 
us for someone heading into EPA. We thank Governor Whitman for her 
candor about who has more power and money, which is a frank and correct 
observation about this political era, as advocates for campaign finance 
reform never cease in telling us. But as for gumption, defined as 
courageous or ambitious enterprise, as opposed to just shrewd common 
sense (from the context it seems the Governor meant courage and 
ambition), we can only note that based on the state of the 
environmental community in New Jersey over the past 10 years, we might 
forgive her for this observation. That was not always the case however, 
because it took a lot of gumption to get the Pinelands legislation and 
the nation's toughest wetlands protections passed, in 1979 and 1987, 
respectively. Since then, on land-use regulatory tools, the State's 
gone South and West with a vengeance.
    But it also seems that this is a clear personal and philosophical 
preference with a troubling implication: one can't oppose business 
interests on major regulatory or legislative matters and it's futile to 
try, we guess even when it's in the public interest to do so. And on 
some matters of great importance at the EPA involving questions of 
human and ecosystem health, it is often necessary to impose substantial 
costs on business interests. Notice we didn't say always or in every 
situation. But this Governor's preference is clear, and it can well 
lead to a lack of necessary objectivity--objectivity which the EPA 
Administrator post demands.
    We think that the Governor's attitude translates all too easily 
into two classes of citizenship and standing before the regulatory 
bodies. We said as much in watching her Administration give the 
cranberry growers of New Jersey the go-ahead to destroy 300 acres of 
wetlands even though more than 90 percent of the written comments from 
the public opposed her General Permit proposal and the industry was 
facing a known supply glut. Not only has her stance on this permit 
sanctioned the unnecessary destruction of wetlands, now taxpayers at 
the State and Federal level now are kicking in some $73 million dollars 
to aid price-stricken growers and landowners in the cranberry industry, 
when it was the industry's own relentless pursuit of expansion which 
caused their market to crash. Because of massive amounts of campaign 
contributions and the fact that the heads of the regulatory agencies 
are political appointees, we testified bluntly in 1999 that the 
environmental community implicitly did not have equal standing before 
the agencies considering the proposals.
    We do think, however, that plenty of gumption was on display when 
one of the State's largest political donors and cranberry growers, A.R. 
DeMarco Enterprises, Inc. was accused of filling 22 acres of wetlands 
without obtaining a permit so that he could expand his cranberry bog 
operations. New Jersey's new Inspector General issued (November, 2000) 
a very critical report on New Jersey's proposed settlement of this, the 
largest freshwater fill in the law's history. And this under a DEP 
Commissioner who was trying to do something very generous for a 
industry to which he had very close ties. Governor Whitman had no 
problem with this, and never replied to our letter asking her to 
withdraw the permit because of Commissioner Shinn's conflicts of 
interest. This also has some troubling implications for the role that 
she will play at EPA.
    Similarly, in the face of overwhelming citizen opposition, the 
Governor has given her full support to the biggest proposed wetlands 
fill in the Clean Water Act's history in the Northeast, more than 200 
acres to be filled to allow a new massive new shopping mall to be build 
in the Meadowlands (Meadowlands Mills), just outside New York City. 
Here the common sense of citizens is on sounder ground than the Mills 
Corporation's marketing experts: ``just what New Jersey needs,'' 
citizen after citizen sarcastically remarked at the public hearings, 
``another shopping mall.'' The Governor just can't seem to see that the 
EPA chief needs to bring a healthy skepticism to the table about some 
of the business community's proposals. When we see how the cranberry 
industry has wrecked its own market, driving small growers under, and 
the trends in energy ``deregulation'' (where are those three 
consecutive years of lower prices we were all promised when it was 
being marketed in New Jersey?), we wonder whether the Governor knows 
that the bloom is off the rose of the era of deregulation?
    We would be unfair to the Governor and to environmental history in 
New Jersey if we didn't mention and thank the Governor for her rapid 
protection of the horseshoe crab from over-harvesting. Her actions 
stand in stark contrast to the horrendous anti-environmental positions 
of Virginia's Governor James Gilmore III, who stonewalled, year after 
year, in limiting his State's harvest of the horseshoe crab, before he 
finally relented this past year--the last holdout on the eastern 
seaboard.
    But the full context of Governor Whitman's action on the horseshoe 
crab issue needs to be stated. The business interests supporting 
continued massive harvesting were, by comparison to other issues, a 
narrow segment of public opinion, truly a special, special interest. So 
there was no huge political or financial fall-out to her decision. 
Compared to the financial stakes linked to decisions she will have to 
make at EPA, this was, as the saying goes, a ``piece of cake.''
    We conclude with a plea to our Senators, to our delegation in 
Congress: be forewarned on what the Whitman record, relevant to EPA's 
regulatory mission, has been in New Jersey. We wonder aloud whether we 
would not rather face someone going to EPA who was an upfront, open 
regulatory ``gutter.'' Now we hope that we are wrong about what 
Governor Whitman will do at EPA, but we think our officials and our 
colleagues at the national environmental organizations are just a bit 
rosy eyed if they think, based on the historical record we have laid 
out, that this is a happy choice to head the Federal EPA. We sincerely 
hope that Governor Whitman realizes the implications of her new role 
and does an about face from her regulatory history in New Jersey. But 
the record really cannot support that optimism.
    So if you see that inviting green umbrella go up, or hear talk of 
the Dutch model, our advice is to get your magnifying glass out and 
legal funds ready, and brace yourselves for grand regulatory 
revisions--with stealthy weakenings buried deep within. And all done, 
mind you, with a gracious smile and long denials that anyone so 
environmental friendly would even consider such actions. Gumption 
indeed.
                                 ______
                                 

      Joint Letter from New Jersey Sierra Club and Audubon Society

                           Sierra Club, New Jersey Chapter,
                                New Jersey Audubon Society,
                                   Princeton, NJ, January 22, 2001.

Robert Smith, Chairman,
Harry Reid, Ranking Democrat,
Senate Environment and Public Works Committee,
Dirksen Senate Office Building,
Washington, DC.

Re: Whitman EPA Administrator Confirmation Hearing Record

Dear Chairman Smith and Senator Reid: Please accept this letter on 
behalf of the over 20,000 members of the Sierra Club, New Jersey 
Chapter. We request that this submission and attached Exhibits be 
included in the formal hearing record in the Congressional Record.
    We greatly appreciate the opportunity to participate in this 
process.
    We would like to clarify the record with respect to the January 17, 
2001 testimony of Governor Whitman, as well as express our overall 
concerns with the confirmation process.
1. DEP Budget
    Governor Whitman testified to the effect that her Administration 
had increased the Department of Environmental Protection's (DEP) 
budget. The Governor did not offer a baseline and timeframe to support 
this statement. We feel that this testimony is misleading.
    Exhibit 1 provides a May 16, 1996 letter from seven Republican New 
Jersey State Senators to Whitman opposing proposed cuts to the DEP 
State fiscal year 1997 budget. This letter also raised concerns with 
``historical erosion of staffing'' at DEP, an allusion to prior Whitman 
DEP cuts made in her fiscal year 1995 and fiscal year 1996 budgets. 
This letter was written in the context of widespread public opposition 
to Whitman DEP budget cuts. We have dozens of New Jersey news accounts 
that document this record. Exhibit 2 provides a Newark Star Ledger 
January 14, 2001 news story that claims Whitman cut the DEP budget 30 
percent. Governor Whitman diverted over $80 million in funds 
established for environmental purposes to the General accounts that 
document this record. Exhibit 2 provides a Newark Star Ledger January 
14, 2001 news story that claims Whitman cut the DEP budget 30 percent. 
Governor Whitman diverted over $80 million in funds established for 
environmental purposes to the General Fund. Whitman DEP cuts resulted 
in a mandatory workweek reduction at DEP from 40 to 35 hours/week. DEP 
accounts for less than 2 percent of the New Jersey State budget. 
Federal funds and regulatory fees and fines comprise about 50 percent 
of DEP revenues. Despite this fiscal reality, DEP was targeted for 
layoffs and budget cuts in the first 3 Whitman budgets (Fiscal Year 
1995--Fiscal Year 1997). The DEP budget, as a percentage of the total 
State budget, has declined under Whitman.
    Given these, and other facts, it is misleading to suggest that 
Whitman has increased the DEP budget.
2. Mills Corporation development
    Governor Whitman testified to the effect that she had not taken a 
position regarding the Mills' Corporation development. We feel that 
this is misleading.
    Governor Whitman herself may or may not have personally addressed 
the Mills' Corporation Plan for its largest mall (nationwide) ever in 
the Hackensack Meadowlands, but her Administration has certainly 
supported the Hackensack Meadowlands Development Commissions (HMDC) 
Special Area Management Plan (SAMP). The HMDC has regional planning and 
land use powers in the Hackensack Meadowlands. The SAMP is the formal 
planning and regulatory framework that contains (and legally had to 
contain) the development and wetland fill plans for the Mills' mall.
    Whitman's Commissioner of the Department of Community Affairs 
(DCA), Jane M. Kenny, is the Chairman of the HMDC. According to a DCA 
press release dated April 1, 1999, Kenny ``signed the SAMP Guidance 
Letter that will be published in the Federal Register next week.''
    Despite the fact that the Guidance Document signed off on the 
destruction of 465 acres of wetlands, in best Orwellian fashion, the 
press release headline claimed that ``Governor Whitman's Open Space 
Goals Move Forward, More Meadowlands Wetlands Acreage Preserved, SAMP 
Revisions to be Published in Federal Register.''
    Of course, this specific press release never mentions the 
Meadowlands Mills project. Instead, in trumpets the improvement over an 
earlier 1995 draft SAMP that called for filling of 842 wetland acres.
    Formal comments on the SAMP's July 20, 200 draft Environmental 
Impact Statement were filed October 11, 2000 by Professor Ed Lloyd of 
Columbia University School of Law, Jennifer Davis of NRDC, James Tripp 
of Environmental Defense and Susan Kraham of the Rutgers Environmental 
Law Clinic. These comments indicate that the size of the proposed 
wetlands fill is now 134 acres, not the 90 portrayed in the 199 SAMP, 
and that the Mills Corp's wetland ``enhancement'' plan ``will actually 
cause significant adverse impacts to 221 additional acres of extant 
wetlands, and will itself require Section 404 and Section 10 permits, 
as well as mitigation.'' (page 21 of comments).
3. Voluntary Compliance
    Governor Whitman testified to the effect that she supported a 
voluntary compliance approach. We feel it important to document what 
that approach has meant to New Jersey environmental programs. While the 
concept may appear to be limited to traditional environmental 
compliance and enforcement issues, Whitman has used it as a major 
policy theme that has been applied across-the-board in regulatory 
affairs. Examples:
    <bullet>  In 1991, New Jersey enacted a model Pollution Prevention 
Act. The Act sought ``significant reductions'' in toxics use. Whitman's 
DEP Commissioner wrote a letter to industrial facilities regulated by 
the Act that the DEP would not enforce the first round of planning 
requirements of the Act. As a result, about 25 percent of facilities 
were late or did not file required plans, and toxics use reduction, the 
cornerstone of the Act, has been completely ignored.
    <bullet>  New Jersey has a national model known as the Clean Water 
Enforcement Act. The Act imposes mandatory penalties for violation of 
effluent limits in NPDES permits. This law is responsible for sharp 
reductions in the number of significant violators of State water laws. 
Under the ``voluntary approach'' Whitman did not oppose, and in fact 
supported, certain efforts by the New Jersey Legislature to gut this 
law.
    <bullet>  In developing State air pollution control regulations to 
assume the Clean Air Act Title V Operating Permit Program, DEP staff 
recommended that the State adopt requirements to submit both air 
quality modeling and risk assessment for Title V permits. Staff were 
over-ruled, and the DEP adopted regulations that make modeling ends 
risk assessment ``voluntary.'' We understand that not a single 
industrial facility, including major facilities that emit tons of 
hazardous air pollutants, has voluntarily done modeling and/or risk 
assessment.
    <bullet>  Under Whitman, NJDEP abandoned its historic State 
hazardous site cleanup program. Whitman signed legislation that: a) 
eliminated the statutory preference for permanent remedies; b) 
prohibited DEP from requiring alternatives analysis; c) vested the sole 
authority to select a remedy in the hands of the responsible party or 
developer; d) authorized large volumes of highly contaminated materials 
to be left onsite and ``stabilized'' with inadequate caps and other 
``institutional controls''; and provide only minimal notice to impacted 
communities just 45 days prior to construction (after all DEP approvals 
had been issued). Whitman abandoned the historic use of legally 
enforceable Spill Act Directives and Administrative Consent Orders 
(ACO) to control cleanups in favor of unenforceable ``voluntary 
agreements.'' Whitman refunded prior ACO mandated financial assurance 
to responsible parties and eliminated stipulated penalties for failure 
to comply with an ACO or Directive.
    <bullet>  Whitman abandoned the 1993 Statewide Solid Waste 
Management Plan, including that plan's source reduction, toxics use 
reduction, and packaging and materials management policies. We are 
unaware of any industry that has voluntarily come forward to comply 
with the policies of the 1993 Plan.
    <bullet>  Whitman issued an Executive Order 27 (1994) that mandated 
that State regulations that are more stringent than Federal 
requirements be justified by cost benefit analysis. This Order resulted 
in the across-the-board weakening of, among other things, State 
regulation for air, water and waste permits, deregulated used oil as 
hazardous waste and eroded chemical plant safety requirements addressed 
under the provisions of Section 112 (r) of the Clean Air Act Amendments 
of 1990.
    Exhibit 3 documents that in a memorandum of July 29, 1994, State 
DEP Assistant Commissioner Nagy found that the USEPA Federal 112 (r) 
requirements were ``technically unjustifiable'' and would ``correlate 
with a a significant increase in the number of potential fatalities'' 
(Nagy, p. 2).
    We know of no chemical facilities that have agreed with this 
finding and voluntarily agreed to comply with more protective State 
standards.
    Similarly, EO 27 resulted in weakening of water quality study 
requirements for NPDES discharge permits proposed by the DEP on 
February 5, 1996 and in the above mentioned Title V operating Permit 
program. We are similarly not aware of any industrial facilities that 
have voluntarily complied with more protective State standards.
    We find these facts particularly troubling in light of the Whitman 
testimony regarding the need to retain Federal EPA flexibility to 
account for unique local and State concerns. If Whitman supports such 
flexibility, then why did she issue EO 27, which eliminated New Jersey 
flexibility to address local concerns for purposes of Federal 
consistency.
4. No Further Action letters
    Governor Whitman testified that New Jersey had issued ``7,000'' No 
Further Action (NFAs) in the New Jersey State hazardous site 
remediation program. We strongly believe that the Governor misspoke, 
perhaps by inadvertently equating the universe of know contaminated 
sites with the issuance of NFAs. Because a NFA letter releases a 
polluter from liability under the State program, it is a critically 
important regulatory document. Accordingly, we request that the 
committee ask the Governor to clarify her testimony regarding NFAs.
5. MTBE liability
    Governor Whitman testified to the effect that Congress lacked the 
authority to address liability for MTBE cleanup. We believe she 
misspoke. Given the importance of this issue, we request that the 
committee ask the Governor to clarify her testimony regarding MTBE 
liability.
6. Sound Science
    Governor Whitman touted ``sound science'' as the backbone of 
regulatory policy. However, in New Jersey, Whitman adopted an 
``affirmative action'' policy for environmental science, whereby DEP 
research funds must be used at New Jersey institutions, not necessarily 
on the most advanced science.
    Exhibit 4 documents what has become a troubling pattern, whereby 
the Governor makes press remarks that contradict the undisputed facts 
and recommendations of her Agency scientists.
    In closing, we wish to note that we were disappointed that neither 
the Whitman testimony nor the committee's questions were able to 
document and hold Whitman accountable for her record in New Jersey.
    We again appreciate the opportunity to participate in the process 
and again thank your for your generous assistance in this important 
matter.
            Sincerely,
                                Bill Wolfe, Policy Director
                                   Sierra Club, New Jersey Chapter.

                       Bill Neil, Director of Conservation,
                                        New Jersey Audubon Society.
                            list of exhibits
    Exhibit 1--New Jersey Senate--letter to Whitman opposing DEP budget 
cuts (May 16, 1996)
    Exhibit 2--``Questions for the New Environmental Chief''--Newark 
Star Ledger (Tom Johnson, January 14, 2001)
    Exhibit 3--memorandum of DEP Assistant Commissioner Nagy (July 29, 
1994)
    Exhibit 4--confidential memorandum of DEP Division of Science and 
Research regarding factual errors made to press by Whitman (March 28, 
1994)--Note--sworn testimony of DEP officials supporting conclusions 
that Whitman and DEP Commissioner Shinn conspired to suppress and 
downplay the significance of environmental mercury and fish tissue 
research is available upon request.
    Exhibit 5--Questions for Whitman, Sierra Club, New Jersey Chapter.
                                 ______
                                 
                               exhibit 1
                                         New Jersey Senate,
                                         Trenton, NJ, May 16, 1996.

The Honorable Christine Todd Whitman, Governor,
State of New Jersey
State House CN-001
Trenton, NJ 08625-0001.

Dear Governor Whitman: Among all the responsibilities of government, 
there are few of greater importance, or of more concern to the public 
than the protection of New Jersey's environment and the quality of 
public health. We know that protecting these important concerns, and 
carrying out these responsibilities through appropriate State actions 
and support is a priority you share with the Legislature and the 
general public. It is in recognition of that shared commitment to 
protecting New Jersey's environment and public health that we write to 
you today.
    We are greatly concerned that your proposed budget for fiscal year 
1997 does not adequately provide the necessary resources to State 
government to meet the environmental challenges facing the State. This 
is especially true in the proposed funding for the Department of 
Environmental Protection.
    The proposed budget would require dramatic reductions in 
scientific, technical and human resources critical to the mission of 
the Department. In a State facing the environmental issues New Jersey 
does, we need to respond aggressively to the challenges of insuring 
that our air is safe to breath, the water safe to drink or the empty 
lot next door safe to play in. It is highly questionable as to whether 
the Department will maintain the requisite expertise and resources 
under the fiscal year 1997 budget proposal to answer these questions 
and respond in a way protective of public health and the environment.
    We are also concerned that the proposed reduction in resources will 
not fulfill the new approaches to environmental protection. The 
successful implementation of the initiatives under discussion will 
require additional resources above and beyond those currently available 
to the DEP. Many of the ``reengineering'' initiatives being undertaken 
by the Department will be fundamentally handicapped by the proposed 
reductions in resources contained in the current budget proposal.
    Due to these concerns we feel that it is important that you be 
aware we may not be able to support this budget proposal, should it 
come before the Senate in its current form The historical erosion of 
staffing at the Department experienced over past budget cycles cannot 
be continued because the environmental goals we have outlined above 
will not be attainable.
    We feel strongly that the proposed layoffs of DEP personnel will 
negatively impact the Department's ability to effectively safeguard the 
environment and protect public health. Therefore, we cannot support a 
final DEP budget which contains employee layoffs.
    We are, of course, committed to working with you to restore the 
resources we feel are necessary to carry out the critical functions of 
the Department of Environmental Protection We feel that it is very 
possible to identity appropriate resources, sources of funding and 
approaches to achieve this, and we ask for the opportunity to explore 
these with you and your staff.
            Respectfully yours,
                                           John O. Bennett,
                                            Senate Majority Leader.

                                          Andrew R. Ciesia,
                                                           Senator.

                                        Joseph M. Kyrillos,
                                                           Senator.

                                         Henry P. McNamara,
                                                           Senator.

                                          Joseph A. Palaia,
                                             President Pro Tempore.

                                           Jack G. Sinagra,
                                                           Senator.

                                          Robert W. Singer,
                                                           Senator.
                                 ______
                                 
     [From the Newark (NJ) Star-Ledger, Wednesday, January 3, 2001]
               Bush-Whitman Agenda Will Hurt Environment
                            (By Bill Wolfe)
    President-elect George W. Bush has nominated Governor Christie 
Whitman as Administrator of the Federal Environmental Protection 
Agency. In the nomination speech, Bush revealed his environmental 
agenda by declaring that it's time to move beyond ``the old central 
command and control mindset.'' Whitman, who has presided over her own 
``open for business'' environmental policy, agreed, adding, ``I know 
what it's like to be on the receiving end of mandates from 
Washington.''
    Bush attempted to present this agenda as mainstream, citing what he 
claimed was ``a growing consensus to this country about environmental 
policy.''
    We strongly disagree that any such consensus exists. The Bush-
Whitman rhetoric reflects a dangerous combination of free-market and 
states'-rights conservative ideology. This agenda would severely weaken 
historic protections for the nation's air and water--protections that 
the overwhelming majority of Americans support and have come to expect 
from the EPA.
    Under Federal law, the EPA has three primary functions: to set 
protective regulatory standards, to enforce these standards against 
regulated industries and to oversee and hold States accountable for 
implementing programs to achieve these standards.
    For the past 30 years, States have had a poor record in protecting 
the environment. The progress that has been made has been the result of 
strong Federal standards, vigorous enforcement against polluting 
industries and the EPA's willingness to sanction poorly performing 
States.
    Bush and Whitman reject this history and equate it with a failed 
Soviet-style ``command and control'' model They believe that business 
and industry are already overregulated, that industry can set its own 
standards and that industry voluntarily complies with current 
standards. As Governors, Bush and Whitman have assailed EPA oversight, 
sanctions and ``mandates from Washington.''
    These radical beliefs have consequences. A Bush-Whitman agenda 
would bar the EPA from developing necessary new standards and likely 
lead to a rollback of existing protections. These standards include 
protections concerning how much cancer-causing material can be 
discharged into our air and drinking water. Especially vulnerable to 
rollback are the EPA's recently adopted ozone, fine particulate and 
diesel standards, which protect our lungs.
    As Texas Governor, Bush had an abysmal environmental record and was 
unable to convince the American public otherwise. Whitman has a 
similarly poor record, gutting enforcement and systematically weakening 
environmental standards. The truly dangerous distinction is that 
Whitman has effectively marketed her support for ``open space'' and her 
outdoors image to mask strongly anti-environmental policies.
    As they say, wherever the Nation is going, New Jersey gets there 
first. I can see it now--Whitman doing an Alaskan photo-op canoe trip 
as the oil rigs drill the Arctic National Wildlife Refuge.
    Bill Wolfe is policy director for the Sierra Club's New Jersey 
chapter. He served as a policy planner at the New Jersey Department of 
Environmental Protection from 1985 to 1995.
                                 ______
                                 
             [From the Trenton (NJ) Times, January 1, 2001]
               Whitman Appointment is a Cause for Concern
                            (By Bill Wolfe)
    On December 22, 2000, President-elect Bush nominated Governor 
Christine Whitman as U.S. Environmental Protection Agency 
Administrator. In his nomination speech, Bush revealed his 
environmental policy agenda by declaring that it's time to move beyond 
``the old central command and control mindset.'' Whitman, who has 
presided over her own ``open for business'' environmental policy 
agreed, adding, ``I know what it's like to be on the receiving end of 
mandates from Washington.''
    Bush attempted to present this agenda as mainstream, by citing what 
he claimed was ``a growing consensus in this country about 
environmental policy.''
    I strenuously disagree that any such consensus exists.
    The Bush/ Whitman rhetoric reflects a dangerous combination of free 
market and State's rights conservative ideology. If allowed to go 
forward, this agenda would severely weaken historic protections for the 
nation's clean air and clean water protections that the overwhelming 
majority of Americans support and have come to expect from the EPA.
    What's at stake are crucial decisions made by the EPA, essentially, 
whether Americans can continue to rely on a national environmental 
protection program and whether the EPA can continue to function as an 
institution that enforces the nation's laws and holds the States' feet 
to the fire to implement the nation's dean air, clean water and toxic 
laws.
    Under the various Federal environmental laws, the EPA has three 
primary functions: 1) to set protective regulatory standards; 2) to 
enforce these standards against regulated industries; and 3) to oversee 
and hold the States accountable for implementing programs that achieve 
these standards.
    For the past 30 years, States have had a poor track record in 
protecting the environment. The progress that has been made has been 
the result of strong Federal standards, vigorous enforcement against 
polluting industries--and the EPA's willingness to sanction poorly 
performing States.
    Bush/Whitman reject this history and equate it with a failed Soviet 
style ``command and control'' model. They believe that business and 
industry are already overregulated, that industry can set its own 
standards and that industry voluntarily complies with current 
standards. As Governors, both Bush and Whitman have assailed EPA 
oversight, EPA sanctions and EPA ``mandates from Washington.''
    These radical beliefs have consequences. A Bush/Whitman agenda 
would bar the EPA from developing necessary new standards and will 
likely lead to a rollback of existing protections. These standards 
include protections concerning how much cancer-causing substances are 
allowed to be discharged into our air and drinking water. especially 
vulnerable to rollback are the EPA's recently adopted ozone, fine 
particulate and diesel standards that protect the lungs of our 
children.
    How can a Whitman-led EPA effectively enforce laws and oversee 
State programs when she and Bush believe in ``voluntary compliance'' 
and have opposed EPA oversight?
    As Governor of Texas, Bush had an abysmal environmental record, but 
he was inept at selling it to the American public. Here in New Jersey, 
Whitman had a similarly poor record by gutting enforcement and 
systematically weakening environmental standards. The truly dangerous 
distinction is that Whitman has effectively marketed her support for 
``open space'' and outdoors image to mask strong anti-environmental 
policies.
    As they say, wherever the Nation is going, New Jersey gets there 
fast. I can see it now--Whitman doing an Alaskan photo-op canoe trip as 
the oil rigs drill the Arctic National Wildlife Refuge.
                                 ______
                                 
                                       State of New Jersey,
                    Department of Environmental Protection,
                                        Trenton, NJ, July 29, 1994.
MEMORANDUM TO: Robert C. Shinn, Jr., Commissioner.

FROM: Lewis J. Nagy, Acting Assistant Commissioner Policy and Planning.

SUBJECT: TCPA--Proposed Rule Amendment to Add USEPA Regulated 
    Substances to its List.

    Section 112(r) of Federal Clean Air Act requires EPA to create an 
Accidental Release Prevention Program (ARP) that will be a nation-wide 
version of the Department's Toxic Catastrophe Prevention Act (TCPA) 
program. EPA is developing their rules in two separate rulemaking 
processes. On January 14, 1994 they adopted the list of chemicals to be 
regulated and the triggering threshold quantity for each chemical. The 
remainder of the rule that actually defines risk management programs 
was proposed on October 20, 1993, and is not expected to be adopted 
until late 1994 (the earliest) or sometime during 1995 with compliance 
required 3 years from adoption. Recent court cases upholding the Clean 
Air Act implementation dates could require facilities to be in 
compliance by December 1996 instead of 1997 or 1998.
    As part of this Department's Air Operating Permit rule submittal to 
USEPA, a demonstration is required that the Department can enforce the 
ARP rule as part of the operating permit conditions. The attached rule 
proposal is the first step to meet that requirement. When EPA adopts 
the remainder of the ARP rule, a second TCPA rule revision Will 
probably be necessary to reconcile technical requirements, document 
submittal, submittal dates, etc.
    This proposal adds substances from the EPA list to the TCPA list, 
namely, 28 toxics, 52 flammables and 64 explosives. With three 
exceptions, the corresponding triggering threshold for existing TCPA 
substances, that are also on the EPA list, was set at the lower 
threshold of the two rules. In most cases, this was the TCPA threshold. 
The existing TCPA list contains 11 substances mandated in the TCPA 
statute and their thresholds given in the statute, and 94 substances 
added to the list by using a mathematical criteria based on toxicity 
and volatility with thresholds set by modeling criteria. The modeling 
criteria were based on the definition of an extraordinarily hazardous 
substance (EHS) given in the Act; that is, one which if released at 
sufficient quantity could result in death or permanent disability 
beyond the property line. The model considered an average population 
density of the 25 cities located near New Jersey's northeast to 
southwest (I-95--Turnpike--I-295) corridor of high EHS usage. The 
thresholds correlate with one fatality beyond a property line that is 
assumed 100 meters from the potential accidental release point.
    This proposal raises the threshold given in the Act for three of 
the original chemicals based on using the Department's criteria: 
chlorine from 500 to 1,000 lbs.; bromine from 100 to 1,000 lbs.; and 
toluene-diisocyanate from 100 to 10,000 lbs. EPA's adopted thresholds 
for these substances are 2,500, 10,000 and 10,000 [sic] lbs.., 
respectively. On adoption, EPA significantly raised the thresholds on 
71 of its 77 toxic substances. Industry (e.g., CIC and NJBIA) would 
obviously prefer backing off to the EPA thresholds. If EPA had adopted 
its thresholds as proposed, that would have been the preferred option, 
since the proposed thresholds were in general agreement with TCPA 
criteria. (The original USEPA thresholds averaged 4.7 times the TCPA 
values with 18 of the 60 substances common to both lists assigned from 
5 to 40 times corresponding TCPA values.) However, the increases made 
by EPA on adoption were so large (averaging some 18 times the TCPA 
values with 33 of the 60 substances common to both lists assigned from 
5 to 167 times corresponding TCPA values) that they are not technically 
Justifiable in an area as densely populated as New Jersey where 
substances are generally handled on small sites, and would correlate 
with a significant increase in the number of potential fatalities.
    This proposal requires an initial registration of regulated 
facilities within a short period time. This early registration will 
provide the Department with the information on the identity and number 
of new registrants coming into the program. It is anticipated that some 
558 new registrants will be added to the existing 123 registrants that 
would remain (after an anticipated seven of the current 130 would be 
exempted from the program). The early registration will allow the 
Department to begin working With the new registrants in an outreach 
mode to help them prepare the required risk management plans, etc. The 
Department would offer counseling to small business. Results of its 
current cooperation helping USEPA develop model risk management 
programs would be shared with small business for whom those models 
would be appropriate. Some three hundred new registrants will bF LEG or 
propane facilities that will require significant help in complying with 
these rules.
    TCPA is a fee funded program. Early registrations will have two key 
impacts related to fees. By substantially increasing the size of the 
regulated community, but maintaining the Bureau's budget at-or-near its 
current level, fees for existing registrants will drop significantly. 
The second impact of the early registration (the new registrants added 
will be charged fees during January 1996) will be a decrease in the 
number of registrants after the first billing. In 1988, the initial 
program saw several hundred facilities reduce their inventories of 
regulated substances to below the triggering thresholds upon receipt of 
their first TCPA bill. This immediately reduced the potential risk at 
these facilities while at the same time exempting these facilities from 
the fees and rule requirements. The early registration will narrow the 
field of registrants quickly so that the Bureau's resources can be 
devoted to those facilities that will remain in the program.
    It is anticipated that this proposal will be on the agenda at the 
August 16, 1994 legal meeting so that it can be forwarded to the Office 
of Administrative Law by August 19, 1994 (alternative September 2, 
1994).
                                 ______
                                 
                                     State of New Jersey,  
         Department of Environmental Protection and Energy,
                                                    March 28, 1994.
                              Confidential
MEMORANDUM TO: Commissioner Robert Shinn.

THROUGH: Robert Tucker, Ph.D., Director.

FROM: Leslie McGeorge, Assistant Director.

SUBJECT: Information on Mercury in Fish.

    Over the past several weeks, it has been observed that information 
attributed by the press to the Governor's Office on the issue of 
mercury in fish has contained some technical inaccuracies. We offer the 
information in this memorandum for your consideration in providing the 
Governor's Office with further clarification of this issue.
    As was stated by the Governor's Office, there are three forms of 
mercury:

    Elemental Mercury (metallic mercury). This is the type of mercury 
    used in thermometers.

    Inorganic Mercury (mercury salts). An example is mercuric chloride.

    Organic Mercury. Methylmercury is the most important organic 
    mercury compound in terms of environmental exposure.

    Contrary to the statements reported in the press, all three forms 
of mercury are toxic to humans. Elemental mercury is volatile, and it 
is toxic when breathed from the air; exposure to elemental mercury can 
cause effects on the central nervous system. The toxicity of the other 
two types of mercury (inorganic and organic) can occur through 
ingestion, which is the exposure route relevant to mercury in fish. 
Inorganic mercury is toxic to the kidney. Methylmercury, the organic 
mercury of primary concern, is toxic to the central nervous system. The 
most sensitive toxic effect of Methylmercury in non-pregnant adults is 
paresthesia (abnormal sensations in the skin). Methylmercury is also 
toxic to the developing fetus, and causes defects in the development of 
the nervous system. This developmental toxicity is the most sensitive 
effect of exposure to methylmercury.
    Of the different forms of mercury, all scientific data indicate 
that essentially all of the mercury in fish is methylmercury. The most 
recent and reliable investigation into the occurrence of methylmercury 
in fish conducted under ultraclean laboratory conditions (Bloom, 1992) 
showed that almost all of the mercury in the edible portion of fish and 
shellfish (muscle tissue) is in the form of methylmercury. This study 
included multiple samples (at least 3) of 15 species. For all species, 
the average percentage of methylmercury was at least 91 percent of 
total mercury, and for all freshwater fish species, methylmercury was 
96 percent or more of total mercury. These results are generalizable to 
all marine and freshwater fish.
    Information attributed to the Governor by the press indicated that 
there may be a marked difference in the ease of metabolism of different 
forms of mercury, and that the toxicity of mercury is-dependent on 
whether it is released naturally or by man-made processes. Actually, 
the time required for the body to rid itself of a dose of mercury is 
generally similar for all three forms of mercury. Additionally, the 
toxicity of a given form of mercury is not dependent on whether it 
originated from natural or man-made processes. Any type of mercury 
released may undergo changes from one form to the other in the 
environment. The mercury in fish may have come from either source, but 
the origin of the mercury in the tissue is not relevant to the 
potential for toxicity to humans.
    In summary, there are three forms of mercury. For all intents and 
purposes the only form of mercury found in fish is methylmercury. 
Exposure to methylmercury through fish ingestion can pose a significant 
potential for adverse human health effects. Mercury in fish may 
originate from human or natural processes, but this distinction is not 
relevant from a human health perspective.
    The Division of Science and Research has additional information on 
all of the points mentioned above. We would be happy to discuss these 
issues further with you at your convenience if you so desire. \1\
---------------------------------------------------------------------------
    \1\ Reference: Bloom, N.S. (1992). Can. J. Fish. Aquat. Sci. 49, 
1010.
---------------------------------------------------------------------------
                                 ______
                                 
             Questions on the Whitman Environmental Record
(From the Sierra Club, New Jersey Chapter, Bill Wolfe, Policy Director)
Governor Whitman has had some positive accomplishments in New Jersey. A 
        key question is whether Whitman will pursue these policies at a 
        National level as EPA Administrator.
    Statement: As Governor, you joined fellow northeastern States and 
EPA in litigation to enforce the Clean Air Act on coal burning power 
plants in the Ohio Valley. As a member of the National Governor's 
Association, you lobbied your fellow Governor's to support EPA's 
efforts to implement the Clean Air Act, especially regarding reduction 
of emissions from Midwest coal power plants. As Governor of New Jersey, 
you supported EPA's recently adopted ambient ozone, fine particulate, 
mercury and diesel standards under the Clean Air Act.
    Question: As EPA Administrator, will you vigorously defend each of 
these EPA regulatory standards against industry legal challenges and 
against attacks from Congressional oversight?
    Will you continue EPA's Clean Air Act litigation strategy and 
enforcement efforts to force individual plants and State's to reduce 
emissions from Midwestern coal power plants?

    Statement: Under your leadership as Governor, former New Jersey 
Attorney General Poritz signed on to a letter written by the National 
Association of Attorney's General strongly opposing efforts in the 
104th Congress to pass ``takings'' legislation. As you know, some 
conservative legal scholars argue that many EPA environmental 
protection standards, such as wetlands restrictions under the Clean 
Water Act, constitute compensable ``regulatory takings.''
    Question: What are your views on property rights and ``regulatory 
takings,'' and will you continue to implement former New Jersey AG 
Poritz' views in EPA regulatory programs?
II) Whitman has had a poor environmental record in New Jersey--will it 
        carry forward at EPA?
    Statement: Given New Jersey's unique challenges, New Jersey has had 
a long history of developing model environmental protection programs 
and in adopting protective air, water, waste and soil standards. These 
standards have been backed up by strong and well funded environmental 
and public health regulatory programs. New Jersey was first State to 
adopt laws addressing national issues such as Superfund hazardous waste 
cleanup, Worker and Community Right-to-Know; Clean Water Enforcement; 
chemical accident release prevention, Pollution Prevention; recycling 
and solid waste planning/management (addressed under Subtitle D of 
Federal RCRA), et al.
    Reversing this trend, in 1994, as Governor, you issued Executive 
Order No. 27.
    EO 27 seeks to make Federal and State requirements consistent. EO 
27 requires that any State regulation that exceeds in scope or is more 
technically stringent than its Federal counterpart be justified by 
cost-benefit analysis. Under EO 27, if the State standard is not 
justified by cost-benefit analysis, it is to be rolled back and made 
consistent with the minimum Federal requirement.
    For example, Section 112 of the 1990 Clean Air Act Amendments 
established a chemical Accidental Release Prevention Program (ARP). 
This program overlaps and was modeled on New Jersey's 1984 ``Toxic 
Catastrophe Prevention Act.'' In an attempt to implement EO 27 in 
developing State regulations pursuant to TCPA, DEP Assistant 
Commissioner Nagy warned DEP Commissioner Shinn in a July 29, 194 
memorandum that:
    `` [EPA's Federal thresholds to trigger ``extraordinarily hazardous 
substance'' requirements] are not technically justifiable in an area as 
densely populated as New Jersey where substances are generally handled 
on small sites, and would correlate with a significant increase in the 
number potential fatalities'' (Nagy, 1994--attached)
    Despite this dire warning, the more stringent State TCPA 
regulations recommended by Assistant Commissioner Nagy were never 
adopted by NJDEP.
    (Note: the Whitman EO 27 policy was also a justification for 
cutting New Jersey's Right to know list by about 2,000 chemicals and 
adopting the Federal RTK reporting thresholds; for rolling back New 
Jersey's water pollution and air discharge permit program requirements; 
ad nauseum).
    Question 1. Do you still support the Federal consistency policy of 
EO 27 (and your cuts to New Jersey RTK list), in light of the above 
illustration?
    The Clean Water Act expressly prohibits EPA or States from 
considering economic costs in developing surface water quality 
standards. Such water quality standards must be based solely on science 
and designed to protect aquatic and human health. Yet, in February 
1996, despite prior written opposition in 1995 by USEPA Region II, your 
Administration proposed regulations to weaken New Jersey's surface 
water quality standards via an entirely new category of variance to 
allow industry to consider costs and technological achievability.
    Question 2. Is the underlying cost-benefit justification approach 
to EO 27 relevant or appropriate to EPA regulation under the Clean 
Water Act, including EPA's development of national water quality 
standards and in EPA's review and approval of State standards? If so, 
how?
    Question 3. Industry litigation now before the U.S. Supreme Court 
challenges EPA's recently adopted Clean Air Act standards on the basis 
of failure to pass cost-benefit analysis tests.
    Question 4. How will you address the issue of the role of costs in 
developing EPA national ambient air quality standards under the Clean 
Air Act; in defending the legal challenge now before the court; and in 
implementing and enforcing EPA's recently adopted air quality 
standards?

    Statement: USEPA Region II, in October 2000, imposed sanctions on 
New Jersey under the Clean Water Act and withheld $2.2 million in 
Section 106 Federal grants. In July 1999, the USEPA Office of Inspector 
General issued an Audit Report of New Jersey's water monitoring and 
clean water act programs. The Report found key deficiencies, including: 
t New Jersey failed to adopt water quality standards for 33 of 126 EPA 
priority pollutants; New Jersey lacked a strategy to monitor all State 
waters as required by the Act; that recent budget cuts had further 
reduced the States ability to monitor water quality; and that New 
Jersey had ``dropped the ball'' in implementing the provisions of 
Section 303(d) of the Clean Water Act. Environmental groups have filed 
litigation now in Federal court to force USEPA to direct New Jersey to 
comply with the requirements of Section 303(d) of the Clean Water Act. 
Nationally, there are 36 lawsuits filed by enviro groups to force EPA 
to force States to comply with Section 303(d). Section 303(d) of the 
Act requires that States list all rivers and stream that fail to meet 
water quality standards and develop cleanup plans. Cleanup plans are 
know as ``total maximum daily loads'' or ``TMDLs.'' New Jersey has over 
1,000 sections of rivers/streams that require TMDLs, but the NJDEP has 
developed only a handful.
    USEPA adopted national TOOL rules in July 2000. These rules were 
opposed by forestry, mining, and agricultural ``dirty water'' 
interests. The TMDL rules were adopted by the Clinton EPA essentially 
in defiance of a rider passed by Congress. Some Members of Congress 
have expressed an interest in legislatively vetoing EPA's new TMDL 
rules.
    Question: As Governor, you supported a National Governor 
Association's policy opposed to the TMDL program. AS Governor, you have 
a weak record in implementing the TMDL program. Given opposition in 
Congress, will you support aggressive implementation of the TMDL 
program at EPA and the States?

    Statement: We understand that you support a ``voluntary 
compliance'' enforcement policy. The NJDEP cut fines and penalties 
against regulated industries and developers by 80 percent over the 
first 4 years of your administration. Air inspections were reduced by 
44 percent, compared to the last years of the Florio Administration. 
You abolished the Office of Environmental Prosecutor. You signed a 
``Grace Period'' bill which prohibits the State DEP from issuing 
enforcement penalties for ``minor'' violations. The State DEP never 
proposed regulations to define ``minor violation.'' The NJDEP 
established an Office of Dispute Resolution in lieu of the traditional 
enforcement approach to settle enforcement matters.
    Question: What will your enforcement policy be at USEPA? How will 
you assure that the nation's environmental laws are enforced? How will 
you assure that States are enforcing Federal laws in State delegated 
national environmental programs?

    Statement: As Governor, you abolished the Offices of Environmental 
Prosecutor and Public Advocate. You also created an Office of Business 
Ombudsman.
    Question: Will you support and retain the EPA's Office of 
Ombudsman?

    Statement: As Governor, you publicly advocated ``regulatory 
reform.'' However, your July 1995 ``Strategy to Advance Regulatory 
Reform'' (STARR Report) explicitly seeks to provide ``regulatory 
relief', not ``regulatory reform'' (Source: STARR, page 1117).
    Specific ``regulatory relief'' strategies identified in the DEP 
environmental section of your STARR Report include:

    <bullet>  Cutting New Jersey's RTK list from 3,000 to 800 
chemicals;
    <bullet>  Increasing the thresholds for DEP environmental reviews 
of local sewer plans;
    <bullet>  Reduction/elimination of compliance monitoring at major 
industrial facilities;
    <bullet>  Allowing industry lobbyists to rewrite State air permit 
regulations;
    <bullet>  Rollback of New Jersey's model Clean Water Enforcement 
Act;
    <bullet>  Easing solid water industry economic regulation;
    <bullet>  Rolling back New Jersey's hazardous waste management 
regulations to Federal minimums deregulating used oil as a hazardous 
waste;
    <bullet>  Relaxing standards for hazardous waste site cleanup;
    <bullet>  Reducing enforcement penalties;
    <bullet>  Providing grace periods;
    <bullet>  Polluter immunity for self disclosed violations;
    <bullet>  Alternate dispute resolution;
    <bullet>  Emission trading and privatization of permit reviews and 
hazardous site cleanups;
    <bullet>  Budget and staff reductions at DEP.

    Question: Will you pursue similar regulatory relief policies at 
EPA?
Examples of upcoming key Whitman EPA oversight issues.
            I. Key policy issues/themes:
    Question 1. Can Whitman oversee and enforce the Federal 
environmental law on the States, given both Bush and Whitman State's 
rights and federalism/devolution philosophy (e.g. Whitman has opposed 
EPA oversight as ``mandates from Washington'') ?
    Question 2. Can Whitman enforce the Federal environmental laws 
against polluters, given her ``open for business'' ``voluntary 
compliance'' philosophy, and the ``free market'' philosophy she shares 
with Bush?. These views are extremely hostile to environmental 
regulation.
    Question 3. Can a Whitman lead EPA invest in and develop the 
science and air/water monitoring data necessary to support new 
environmental standards, given her New Jersey record where she: a) 
slashed the NJDEP's budget by 30 percent; b) severely cut back NJDEP 
science; c) reduced air/water quality monitoring networks; and d) 
actually issued Executive Order No. 27 that rolled back New Jersey's 
stringent environmental standard to minimum Federal requirements.
    EPA oversight of State's is pervasive. EPA has oversight of 
virtually everything a State agency does, such as issuing environmental 
permits, enforcement actions, adoption of regulations and standards, 
siting of dangerous facilities such as hazardous waste incinerators and 
landfills, and settlement of litigation. EPA oversees hundreds of 
millions of dollars of Federal aid to States to assure that it is spent 
to protect the environment, as intended by Congress.
II) Some specific examples (past and present)
            A) Clean Water Act
    <bullet>  Whitman touts ``open space'' as her legacy, including a 
major new Whitman regulation called the ``watershed and water quality 
management planning rules.'' These rules are strongly opposed by the 
New Jersey enviro community. The rules are subject to review and 
approval by USEPA under Sections 303 and 208 of the Clean Water Act. 
Will Whitman EPA objectively and critically review and oppose these 
rules?
    <bullet>  October 2000, EPA Region II imposed sanctions on New 
Jersey by withholding $2.2 million in Federal grant money because the 
NJDEP was 9 months late in submitting a critical bi-annual water 
quality inventory Report. The Report was submitted to EPA by DEP in 
November and is now pending EPA review. Because the Report shows 
significant continuing deficiencies in water quality monitoring, 
restoration and water quality standards, we are urging EPA to withhold 
the money until NJDEP makes improvements.
    <bullet>  In July 1999, USEPA Region I (Boston) Inspector General 
issued an audit report that was critical of NJDEP's Clean Water Act 
programs under Whitman. NJDEP has not resolved the deficiencies and has 
flouted the Report.
    <bullet>  In 1995 and 1996, USEPA Region II opposed efforts by the 
Whitman DEP to weaken the New Jersey surface water quality standards 
and National Pollution Discharge Elimination System (NPDES) water 
pollution control permit program. The proposals were withdrawn. After 5 
years of stall, in December 2000, NJDEP proposed new State water 
quality standards. This proposal is subject to USEPA review and 
approval under the Clean Water Act.
    <bullet>  Environmental groups have pending litigation in Federal 
District court to force USEPA to force New Jersey to clean up over 
1,000 polluted waters that do not meet Federal water quality standards 
and are not fishable and swimmable. Cleanup plans are known as 
``TMDLs'' (for ``total maximum daily loads''). NJDEP estimates that 
cleanup could cost over $7 billion. NJDEP and USEPA have dragged their 
feet in implementing the TMDL program under Section 303(d) of the Clean 
Water Act, which was required to be implemented in 1978 by the 1972 
Clean Water Act. NJDEP and USEPA have a Memorandum of Agreement to 
implement the TMDL program over the next 13 years. The TMDL agreement 
and each and every TMDL are subject to EPA review and approval.
    <bullet>  USEPA finalized controversial national TMDL regulations 
in July 2000. Clinton ordered EPA to adopt them in defiance of a rider 
passed by Congress. What will Whitman EPA do in the face of this strong 
opposition by timber, farming, mining, industrial and municipal sewage 
treatment plants to these regulations?
    <bullet>  In 2000, USEPA opposed an NJDEP sweetheart enforcement 
deal with a politically connected major republican campaign contributor 
for the largest illegal wetlands destruction in New Jersey State 
history. A new settlement is under negotiation.
    <bullet>  EPA opposed versions of a ``general permit'' intended to 
weaken wetlands protections for cranberry growers in the Pinelands.
    <bullet>  New Jersey recently propped but has yet to adopt major 
new statewide wetlands regulations that are subject to review and 
approval by USEPA.
    <bullet>  Construction of a Route 92, a major new central jersey 
highway connecting Route 1 with the New Jersey Turnpike, hinges on EPA 
approval of wetlands permit.
    <bullet>  Hackensack Meadowlands Special Area Management Plan 
(SAMP) would allow massive destruction of wetlands in the meadowlands. 
The SAMP is subject to USEPA review and approval.
    <bullet>  Meadowlands Mills mall development hinges on EPA approval 
of wetlands permit.
    <bullet>  South Jersey/Philly port dredging for the ``Delaware 
deepening'' hinges on EPA approvals?
    <bullet>  New Jersey is unique nationally in that we discharge 
large amounts of industrial and sewage treatment wastewaters into 
rivers UPSTREAM of public drinking water supply intakes. These 
conditions warrant special attention (e.g strict monitoring and tight 
discharge standards). NJ DEP under Whitman has NOT considered these 
factors and has actually weakened discharge limits for sewage treatment 
plants on the Passaic River above drinking water intakes. What will 
Whitman EPA do?
            B) Clean Air Act
    <bullet>  Clean air standards for ozone, fine particulates, 
mercury, and diesel fuel (truck) emissions were recently adopted by the 
Clinton EPA. Some air standards are before the Federal courts due to 
industry lawsuits. What will Whitman EPA or Bush Justice Department and 
EPA do?
    <bullet>  Last year, an EPA national study known as the 
``Cumulative Exposure Project'' suggested that New Jersey has excessive 
levels of air toxics and that these levels may cause high caner risks. 
NJDEP has only one air toxics monitoring station (in Camden) and a poor 
record on air toxics. What will a Whitman EPA do?
            C) Superfund
    <bullet>  New Jersey has the most Superfund hazardous waste sites 
in the country (about 109, I think). There are also over 7,000 sites 
that are being ``cleaned up'' under State law, but that are within EPA 
purview. Whitman presided over changes in law that weakened cleanup 
requirements, such as allowing toxic contamination to be left onsite or 
inadequately ``capped,'' and excluded community groups from 
participating in the selection of the cleanup plan. Major themes, such 
as environmental justice, are raised by these cleanups, where sites are 
often in minority or disadvantaged neighborhoods. The contamination 
that is excavated from these sites is typically disposed of in 
landfills, transfer stations and incinerators which also are 
predominantly located in poor, disadvantaged or minority neighborhoods 
(same as garbage management facilities regulated by Subtitle D of 
Federal RCRA). Whitman has done ZERO on environmental justice. Where 
will Whitman EPA be?
            D) Resource Conservation and Recovery Act (hazardous and 
                    solid waste management)
    <bullet>  See above.
    <bullet>  Whitman weakened New Jersey hazardous waste management 
rules.
    Safe Drinking Water Act
    Right to Know/Emergency Planning
    Chemical Plant Safety (TCPA)
                               __________
Responses of Governor Whitman, State of New Jersey, to Joint New Jersey 
       Sierra Club and Audubon Society Letter of January 22, 2001
    The following responses address the points raised by the New Jersey 
Chapter of the Sierra Club and the New Jersey Audubon Society in their 
joint letter to Chairman Robert Smith and Senator Harry Reid of the 
Senate Environment and Public Works Committee dated January 22,2001.
    1. Statement On DEP Budget: ``Governor Whitman testified the effect 
that her Administration had increased the Department of Environmental 
Protection's (DEP) budget. The Governor did not offer a baseline and 
timeframe to support this statement. We feel that this testimony is 
misleading. . .''
    Response On DEP Budget: Over the course of Governor Whitman's 
Administration, the operating budget of the New Jersey Department of 
Environmental Protection has, in fact, increased when compared to the 
last base operating budget of the prior administration. Since Fiscal 
1997, the budget proposed for DEP has grown from $166.4 million to a 
current Fiscal Year (2001) level of $197.1 million. This represents an 
increase of $30.7 million or 18.5 percent. This does not take into 
account the Governor's budget recommendation for fiscal year 2002, 
which is $218.2 million, representing an increase in DEP funding of 
$7.8 million over the current fiscal years adjusted budget of $210.4 
million.
    As for staffing, the Department, as of January 2001, is down some 
10 percent versus when Governor Whitman took office. Here, again, 
claims have been made that staffing reductions on the magnitude of 25 
percent were initiated during the Governor's first 3 years of office. 
This is clearly not the case. As with the budget, staffing within the 
Department has been increasing to address such strategic initiatives as 
watershed management, greenhouse gas planning, air toxics, water 
monitoring and for maintenance of State parks and natural areas.
    Finally, more than $15 million has been invested in the Department 
for the design and development of the Nation's first totally integrated 
environmental management information system, a system that is aimed at 
assisting the Department in making the most informed environmental 
decisions possible.

    2. Statement On Mills Corporation Development: ``Governor Whitman 
testified to the effect that she had not taken a position regarding the 
Mills' Corporation development. We feel that this is misleading . . . 
.''
    Response: The Governor testified that she personally had not taken 
a public position on the proposed Meadowlands Mills proposal in the 
Hackensack Meadowlands District. In addition, she stated that she would 
seek the advice of EPA counsel on being recused from future 
decisionmaking at the EPA. This was largely because of State agency 
involvement with the proposed project while Governor Whitman was in 
office.
    It is true that two of the Governor's Cabinet Officers, 
Commissioner Jane Kenny (Community Affairs and Chair of the Hackensack 
Meadowlands Development Commission) and Commissioner Robert C. Shinn, 
Jr. (Environmental Protection) signed a Federal Register Notice 
spelling out proposed changes to the Special Area Management Plan for 
the Hackensack Meadowlands. The Federal Register Notice dated April 22, 
1999 was also signed by the U.S. Environmental Protection Agency, the 
U.S. Army Corps of Engineers, the U.S. Fish and Wildlife Service, the 
National Oceanographic and Atmospheric Administration, and even the 
President's Council on Environmental Quality. The Federal Register 
Notice announced the intent of the agencies to proceed to the Final 
Environmental Impact Statement (prepared pursuant to the National 
Environmental Policy Act) on a Meadowlands district-wide land use and 
environmental restoration plan. The District is 32 square miles in size 
and contains approximately 8500 acres of wetlands.
    The ``Special Area Management Plan'' (SAMP) concept was authorized 
in the 1980 Amendments to the Federal Coastal Zone Management Act. SAMP 
was employed by the Corps, USEPA, and NOAA to reconcile conflicts 
between a regional agency with powers to zone and make land use 
decisions (the Hackensack Meadowlands Development Commission) and 
Section 404 of the Clean Water Act that regulates the filling of 
wetlands. Under the Meadowlands Commission's Master Plan, which dates 
back to 1972, over 2,000 acres of wetlands are zoned for development. 
The goals of the Special Area Management Plan, as articulated in a five 
party Memorandum of Agreement, were to provide for reasonable economic 
growth in the Meadowlands District while achieving no net loss in 
wetlands values and greater protection to the environment. The 
Memorandum of Agreement was signed in 1988 and has been carried forward 
through three Gubernatorial administrations in New Jersey.
    The 1999 changes in the Special Area Management Plan focused 
primarily on reductions in the fill of wetland acreage previously 
proposed in the 1995 Draft Environmental Impact Statement. In the 
Federal Register Notice, Commissioners Kenny and Shinn signed off on a 
45 percent reduction of wetland fill, now capped at a maximum of 465 
acres for the entire region. This figure is much less that could be 
achieved under the 404 Federal process.
    The Hackensack Meadowlands Special Area Management Plan has not 
been finalized. The Mills Corporation has chosen to pursue an 
individual Section 404 permit for its proposed development. In July of 
2000, the Corps of Engineers issued a Draft EIS on the free standing 
Mills proposal. Both the New Jersey Department of Environmental 
Protection and the Hackensack Meadowlands Development Commission issued 
extensive comments critical of the Mills project and the level of 
analysis in the Draft EIS. Neither agency has endorsed the Mills 
proposal. The Corps of Engineers must issue a Final EIS before 
proceeding to a permit decision. Region 2 of EPA has gone on record 
recommending denial.

    3. Statement On Voluntary Compliance: ``Governor Whitman testified 
to the effect that she supported a voluntary compliance approach. We 
feel it important to document what that approach has meant to New 
Jersey environmental programs. While the concept may appear to be 
limited to traditional environmental compliance and enforcement issues, 
Whitman has used it as a major policy theme that has been applied 
across-the-board in regulatory affairs. Examples:
    Statement 3a: In 1991, New Jersey enacted a model Pollution 
    Prevention Act. The Act sought ``significant reductions'' in toxics 
    use. Whitman's DEP Commissioner wrote a letter to industrial 
    facilifies regulated by the Act that the DEP would no' enforce the 
    first round of planning requirements of the Act. As a result, about 
    25 percent of facilities were late or did not file required plans, 
    and toxics-use reduction, the cornerstone of the Act has been 
    completely ignored.''

    Response On Pollution Prevention Act: On June 17, 1994, 
Commissioner Shinn sent a letter to approximately 550 New Jersey 
facilities which were required to prepare Pollution Prevention Plans 
and submit Plan Summaries to the department by July 1, 1994. As a 
result of the considerable public debate about the new law, the 
Legislature was considering amendments to the law, which could have had 
an impact on which facilities were ultimately required to prepare 
Plans. In his letter, Commissioner Shinn stressed that the department's 
philosophy in implementing the Pollution Prevention Planning component 
of the Act was to rely on outreach and incentives to achieve the goals 
of the program, and he directed that ``no penalties were to be assessed 
against any company under the Act until the department and the 
Legislature have the opportunity to review the program as statutorily 
required in 1996.'' Facilities covered by the Act were still required 
to complete a Pollution Prevention Plan and to submit a Plan Summary to 
the department. By December, 1994, 97 percent of the covered universe 
did comply with the planning requirements. An original public policy 
goal of the Act, to reduce production-related waste, or non-product 
output by 50 percent below 1987 baseline amounts, was achieved in 1994. 
New Jersey continues to show a downward trend for non-product output, 
independent of changes in the State's economy, while national non-
product output numbers are increasing. We have also increased our 
reduction goal from the original 50 percent target already achieved in 
1994 to a full 75 percent reduction from the original 1987 baseline.

    Statement 3b. ``New Jersey has a national model known as the Clean 
    Water Enforcement Act. The Act imposes mandatory penalties for 
    violation of effluent limits in NJPDES permits. This law is 
    responsible for sharp reductions in the number of significant 
    violators of State water laws. Under the ``voluntary approach,'' 
    Whitman did not oppose, and in fact supported, certain efforts by 
    the New Jersey Legislature to gut this law.''
    Response On Clean Water Enforcement Act: DEP has been consistently 
enforcing the provisions of the Clean Water Enforcement Act since its 
inception. Further, the Whitman Administration's message has been the 
same for the past 7 years. We want to work with those members of the 
regulated community that understand their obligations and are willing 
to go beyond compliance. For those who have minor violations, we'll 
work with them to achieve compliance within a short timeframe before we 
assess a penalty. But for major or recurrent violators, traditional 
enforcement must be utilized. A strong baseline enforcement program is 
needed to provide a credible deterrent for the portion of the regulated 
community that does not understand this message.
    DEP continues to take strong enforcement action against those 
violators who repeatedly violate environmental laws or whose violations 
are not of a minor nature. Compliance is still the bottom line and this 
approach has not changed: if a violation is of a minor nature, the 
facility receives notice of that violation consistent with the State's 
Grace Period Law and is not assessed a penalty if the violation is 
fixed in the required timeframe. However, if a violation is not minor, 
DEP assesses a penalty for that violation.

    Statement 3c: In developing State air pollution control regulations 
    to assume the Clean Air Act Title V Operating Permit Program, DEP 
    staff recommended that the State adopt requirements to submit both 
    air quality modeling and risk assessment for Title V permits. Staff 
    were overruled, and the DEP adopted regulations that make modeling 
    and risk assessment ``voluntary.'' We understand that not a single 
    industrial facility, including major facilities that emit tons of 
    hazardous air pollutants, has voluntarily done modeling and or risk 
    assessment.''
    Response On Title V Operating Permits: The use of modeling and risk 
assessments is not required as part of the Clear Air Act Title V 
Operating Permit Program. No State in the country requires them either. 
Although no company has voluntarily conducted modeling or risk 
assessments, the Department does utilize risk assessment in reviewing 
permit applications for the construction or modification of major 
sources of air pollution emissions. Each year DEP staff reviews 
hundreds of air pollution permit applications, applying risk screening 
tools. If determined to be necessary as a result of the screening, the 
permittee is then required to conduct modeling and risk assessment for 
the proposed equipment changes.

    Statement 3d: ``Under Whitman, NJDEP abandoned its historic State 
    hazardous site cleanup program. Whitman signed legislation that: a) 
    eliminated the statutory preference for permanent' remedies; b) 
    prohibited DEP from requiring alternatives analysis; c) vested the 
    sole authority to select a remedy in the hands of the responsible 
    party or developer; d) authorized large volumes of highly 
    contaminated materials to be left onsite and ``stabilized'' with 
    inadequate caps and other ``institutional controls'' and provide 
    only minimal notice to impacted communities just 45 days prior to 
    construction (after all DEP approvals had been issued). Whitman 
    abandoned the historic use of legally enforceable Spill Act 
    Directives and Administrative Consent Orders (ACO) to control 
    cleanups in favor of unenforceable ``voluntary agreements.'' 
    Whitman refunded prior ACO-mandated Financial assurance to 
    responsible parties and eliminated stipulated penalties for failure 
    to comply with ACO or Directive.''
    Response On Hazardous Waste Clean-ups: The New Jersey Department of 
Environmental Protection's (NJDEP) voluntary cleanup program for 
contaminated sites actually has resulted in private investment of the 
remediation of many more contaminated sites than would have been 
accomplished by the NJDEP with public funds alone. The primary purpose 
of the program was to accelerate work at thousands of lesser 
contaminated sites that would not have become a priority for NJDEP's 
publicly funded program for some years, and were not being worked on by 
private parties. All remedial activities at contaminated sites in New 
Jersey must follow the State's Technical Requirements for Site 
Remediation, regardless of whether they are being conducted under an 
Administrative Consent Order, Memorandum of Agreement or with public 
funds. These requirements guide investigations and cleanups in New 
Jersey along with the State's conservative public health risk standard 
that is very protective. It requires that contamination be addressed if 
a person's exposure to a hazardous substance results in a cancer risk 
exceeding one in a million and a non-cancer risk exceeding a hazard 
quotient of one. These benchmark human health standards were not 
changed during my administration, and remain more stringent than 
USEPA's risk guidance. Also, the statutory preference for permanent 
remedies was again embodied in the Brownfield and Contaminated Site 
Remediation Act in 1998; it has not been eliminated. The State 
continues to approve on a site specific basis remedial measures that 
incorporate engineering and institutional controls allowing 
contamination to be left in place at certain levels if such controls 
prevent exposure to the public and are maintained properly. Such 
locations require a deed notice and biennial certification reports 
documenting the controls remain protective of the State's strict public 
health standards and the environment. Caps and other engineering and 
institutional controls are used and must be reported on by the party 
responsible for maintenance of the control. In addition, an inspection 
of the site is conducted by DEP personnel; to date, no failures 
resulting in environmental consequence have been documented. New Jersey 
is the only State in the United States that has a full time control 
inspector. Spill Act directives (50 issued since 1995) and 
Administrative Consent Orders (85 signed since 1992) have been used, 
are used, and will continue to be used for priority sites for which the 
State is prepared to spend public funds if the responsible parties do 
not comply with the directive.

    Statement 3e: ``Whitman abandoned the 1993 Statewide Solid Waste 
    Management Plan, including that plan's source reduction, toxics use 
    reduction, and packaging and materials management' policies. We are 
    unaware of any industry that has voluntarily come forward to comply 
    with the policies of the 1993 plan.''
    Response On Statewide Solid Waste Management Plan: New Jersey has 
established one of the most comprehensive solid waste management 
programs in the United States premised upon reducing solid waste 
generation to the extent possible, mandatory recycling, toxicity 
reduction and ``self-sufficiency'' in taking care of our own long-term 
disposal needs through a county/state planning process and construction 
of 31 major facilities which make up our transfer and disposal 
infrastructure. A centerpiece to the system was the ability of local 
governments to impose ``flow control'' to direct solid waste to 
specific disposal facilities. In 1994, the U.S. Supreme Court ruled in 
the case of Carbone v. Clarkstown, and invalidated the flow control 
system in Clarkstown, New York. In 1997, the State was dealt a crushing 
blow when our historic system of ``flow control'' was struck down in 
the case of Atlantic Coast Demolition and Recycling vs. Board of Chosen 
Freeholders of Atlantic County et al. 112F. 3d 652 (3rd. Cir. 1997)
    This decision thrust the State into nearly an immediate mode of 
deregulation with a historic debt figure amassed by our counties and 
solid waste authorities of over $2 billion in the development of our 
long-term disposal infrastructure. As a result, the entire fabric of 
New Jersey's solid waste system has been in a state of transition since 
nearly the time Governor Whitman took office with the uncertainties of 
the Carbone decision in 1994. The State has also been struggling to 
address the outstanding debt situation since the 1997 Atlantic Coast 
decision.
    Notwithstanding the serious situation the State has been forced to 
address, NJDEP has continued to advance New Jersey's commitment to 
recycling and toxicity reduction. Governor Whitman raised the statewide 
total waste stream recycling goal from 60 percent to 65 percent. All 21 
of our counties now operate permanent or periodic systems for the 
collection and proper disposal of household hazardous waste. DEP has 
advanced ``Universal Waste'' management to collect fluorescent bulbs, 
thermostats, switches, consumer electronics and other products which 
contain heavy metals, including mercury. We continue to implement our 
``Toxic Packaging Reduction Act'' and ``Dry Cell Battery Management 
Act'' to reduce toxics in packaging and collect batteries which contain 
mercury and other heavy metals. Finally, New Jersey has the most 
stringent standards in the country for mercury emissions control at the 
five energy recovery incinerators which operate in the State and we 
have nearly completed our second assessment of mercury in the 
environment through a Mercury Task Force stakeholder process.
    Despite a complete upset of the historic solid waste system by the 
courts, DEP has retained New Jersey's focus on comprehensive solid 
waste management which includes source reduction, virtually 
unprecedented levels of materials recycling, household hazardous waste 
management, toxicity reduction, public education and disposal at state-
of-the art landfills and incinerators.

    Statement 3f: ``Whitman issued an Executive Order 27 (1994) that 
    mandated that State regulations that are more stringent than 
    Federal requirements be justified by cost benefit analysis. This 
    Order resulted in the across-the-board weakening of, among other 
    things, State regulation for air, water and waste permits, 
    deregulated used oil as hazardous waste and eroded chemical plant 
    safely requirements addressed under the provisions of Section 112r 
    of the Clean Air Act Amendments of 1990.''
    Response On Executive Order 27: Executive Order 27 (EO 27) stated 
that State agencies should consider applicable Federal standards when 
adopting regulations that have Federal counterparts and should analyze 
whether existing Federal standards sufficiently protect the health of 
New Jersey's citizens. When DEP determines that New Jersey needs more 
stringent standards, EO 27 simply requires us to explain that decision. 
Therefore, the Order does not prohibit DEP from adopting standards or 
regulations that are more stringent than their Federal counterpart and 
did not force DEP to weaken all existing standards in order to comply 
with the Order; New Jersey still has the flexibility to promulgate more 
stringent standards where necessary. In fact, after careful analyses, 
NJDEP has adopted numerous environmental standards or rules that are 
more stringent than EPA's. Some examples include:
                                  air
    1. New Jersey's standards for mercury emissions from municipal 
solid waste incinerators are more stringent than EPA's. EPA standard is 
80 ug/m3 or 85 percent control and New Jersey is 28 ug/m3 or 80 percent 
control. New Jersey's standards were effective 1/1/96 whereas EPA's 
just came into effect in 12/00.
    2. New Jersey's air toxics program is more comprehensive than 
EPA's. New Jersey requires facilities to list air toxic emissions on 
their permits if they exceed a predefined threshold value. This would 
then potentially trigger a risk assessment by DEP or the application of 
a state-of-the-art standard for those air toxics. EPA on the other hand 
only requires air toxics to be listed on a permit if EPA has 
promulgated an emission standard for the particular source operation 
being permitted.
    3. EPA does not have NOx RACT rules per se, but the NOx standards 
in their acid rain rules are less stringent than the NOx standards in 
our NOx RACT rules.
    4. The stringent NOx standards for power plants in our NOx budget 
rules (.15 lbs/mwh) set the stage for EPA's subsequent SIP call to 22 
States.
    5. Our preconstruction permitting program (Subchapter 8) for new 
and modified non--mayor sources is more comprehensive than EPA's. EPA's 
permitting trigger is between 25-100 tons per year of a given pollutant 
whereas New Jersey's trigger (although it's equipment based) equates to 
as low as approximately one ton per year.
                            hazardous waste
    1. New Jersey's ``10 day'' transfer facility requirement is more 
stringent than EPA's. We have standards for how waste must be managed 
during the 10 day holding period and we prohibit the mixing of unlike 
materials. Also, transporters must tell us that they're operating a 10-
day facility and must keep logs of material entering and exiting the 
facility. EPA does not have these requirements.
    2. New Jersey requires hazardous waste generators to submit 
hazardous waste manifests (shipping papers), whereas EPA does not.
    3. New Jersey requires hazardous waste transporters to be licensed, 
whereas EPA does not.
    4. New Jersey requires entities to submit plans to us for approval 
before they can process used oil. EPA does not. Also, our standards for 
halogens in used oil fuel (1000 ppm) are more stringent than EPA's 
(4000 ppm).
                              solid waste
    1. We regulate transfer stations, transporters, and recycling 
facilities whereas EPA does not.
    2. The Solid Waste Utility Control Act requires that people engaged 
in the solid waste business be regulated as a utility. New Jersey's 
rules therefore set forth business practices, transaction standards, 
competition requirements and billing practices. There is no Federal 
counterpart to this.
    3. The Comprehensive Regulated Medical Waste Management Act sets 
forth registration, transportation and waste handling requirements that 
are in addition to the solid waste requirements. This Act was based on 
a Federal version which has since lapsed. We are not aware of a Federal 
counterpart at this time.
    4. The A-901 Disclosure Review Act sets forth standard that must be 
met in order for an entity to engage in the business of solid waste 
transportation or processing/disposal. There is no Federal counterpart 
to this Act.
                            site remediation
    1. When determining whether a site is sufficiently remediated, in 
most cases we are more stringent than EPA. New Jersey applies a risk 
factor of 1x10<SUP>6</SUP> (increased lifetime cancer risk)to 
individual contaminants whereas EPA applies a risk range of 
1x10<SUP>4</SUP> to 1x10<SUP>6</SUP> and it is based on the cumulative 
impact of all contaminants.
    2. We regulate large non-residential heating oil underground 
storage tanks (greater than 2,000 gallons), whereas EPA does not.
    3. New Jersey requires that only New Jersey licensed individuals 
perform work on Federal and state-regulated underground storage tanks. 
There is no corresponding Federal requirement.
    4. New Jersey's Industrial Site Recovery Act prohibits certain 
types of industrial properties from being sold or transferred unless 
they are remediated first. EPA does not have this requirement.
                           coastal management
    1. New Jersey's freshwater wetlands program includes buffers in the 
definition of transition areas whereas EPA does not.
                          safe drinking water
    1. New Jersey has 15 chemicals for which we either have more 
stringent standards than EPA or we have a standard whereas EPA does 
not. For example, for MTBE, we have a standard whereas EPA does not. 
Also, for trichlorethylene, New Jersey's standard is 1 ppb, but the 
Federal standard is 5 ppb.
    2. New Jersey has 13 drinking water standards that are more 
protective than Federal standards, and standards for 5 additional 
contaminants beyond those regulated at the Federal level.
                                 water
    1. New Jersey has regulations governing the construction of 
wastewater treatment and conveyance systems whereas EPA does not.
    2. New Jersey permits all discharges to groundwater whereas EPA 
only permits underground injection and discharges at RCRA facilities.
    3. The State law commonly known as the Clean Water Enforcement act 
(CWEA) has a number of provisions which are more stringent than the 
Federal Clean Water Act. In particular, the CWEA requires the 
Department or Delegated Local Agency to impose mandatory penalties for 
monitoring omissions or effluent violations that are serious violations 
or that cause the violator to become a significant non-complier.
                               pesticides
    The following pesticide initiatives/rules go beyond EPA programs 
and requirements Requirements for notification of the public prior to 
applications of pesticides so the public may take precautions to 
minimize exposure if deemed necessary.
    1. Require commercial applicators to be licensed and certified 
(take exams) prior to using any pesticides, not just the more hazardous 
``restricted use'' pesticides, as an additional protective measure. 
Require annual refresher training for agricultural workers.
    2. Rules on applications conducted in schools in order to be 
protective of children, who are a vulnerable population.
    3. Extensive regulations to prevent contamination, risk and 
exposure in homes and public buildings during structural pest control 
applications.
    4. Regulate an additional industry sector of dealers of restricted 
use pesticides through licensing and record keeping requirements.
    5. Require permits for aquatic pesticide applications and mosquito 
control applications to prevent pesticide misapplications and 
contamination in bodies of water and hazardous exposure during large-
scale community spray programs.
                           release prevention
    1. New Jersey's discharge prevention program is more stringent than 
the Federal requirements in that the State program covers a vast array 
of chemicals as well as petroleum and petroleum products. IN addition, 
all plans required to be developed under New Jersey rules must be 
submitted to NJDEP for approval, while Federal plans are only required 
to be submitted for facilities with over one million gallons of storage 
or facilities that have a discharge. The State program inspects all 
regulated facilities once a year, and also inspects some non-regulated 
facilities whereas the Federal program inspects only a fraction of the 
regulated universe.
    2. New Jersey's TCPA (Toxic Catastrophe Prevention Act) program is 
more stringent than the Federal program as follows: more covered 
chemicals; lower thresholds for some chemicals; more reporting 
requirements; and more inspections per year. Also, the State program 
requires a risk reduction effort after a hazard analysis is performed.
    3. New Jersey's RTK chemical inventory reporting program is more 
stringent than the Federal program in that employers must report 
regulated chemicals at a 500 pound threshold rather than the 10,000 
pound Federal threshold. The State's environmental release reporting 
program requires reporting at 10,000 pounds rather than the Federal 
25,000 pounds. Also, the State program includes materials accounting 
where the Federal program does not.

    Statement 4: ``No Further Action Letters: Governor Whitman 
    testified that New Jersey had issued ``7,000'' No Further Action 
    (NFAs) in the New Jersey State hazardous site remediation program. 
    We strongly believe that the Governor misspoke, perhaps by 
    inadvertently equating the universe of known contaminated sites 
    with the issuance of NFAs. Because a NFA letter releases a polluter 
    from liability under the State program, it is a critically 
    important regulatory document. Accordingly, we request that the 
    committee ask the Governor to clarify her testimony regarding 
    NFAs.''
    Response On No Further Action Letters: 7,000 No Further Action 
letters have been issued since the Brownfields law was enacted. No 
Further Actions are issued for full site cleanups, partial site (known 
as ``Areas of Concern'') cleanups, cleanups of homeowner tanks, and 
sites that require no further work after a review of initial documents. 
All of these sites are included in the number. The Brownfields Act is 
clear that liability protection (the ``covenant not to sue'' contained 
in No Further Actions) never extends to parties who are responsible for 
the discharge. They remain liable under the Spill Act. ``The covenant 
not to sue shall not provide relief from any liability, either under 
statutory or common law, to any person who is liable for cleanup and 
removal costs pursuant to subsection c. of section 8 of P.L. 1976, 
c.141 (C.58:10-123.11g), and who does not have a defense to liability 
pursuant to subsection d. of that section.'' See N.J.S.A. 58:10B-13.le.

    Statement 5: ``MTBE Liability: Governor Whitman testified to the 
    effect that Congress lacked the authority to address liability for 
    MTBE cleanup. We believe she misspoke. Given the importance of this 
    issue, we request that the committee ask the Governor to clarify 
    her testimony regarding MTBE liability.''
    Response On MTBE Liability: The New Jersey Underground Storage Tank 
Statute (N.J.S.A. 58:10A-210 effective September 8, 1986) was modeled 
after Subtitle I of the 1984 Federal Hazardous and Solid Waste 
Amendments to the Resource Conservation and Recovery Act. Both laws and 
subsequent implementing New Jersey and Federal regulations give full 
authority to respond to discharges from regulated underground storage 
tanks. This ability clearly extends to all regulated underground 
storage tank contents, including MTBE.
    In New Jersey, the Spill Compensation Control Act of 1976, the 
Underground Storage Tank Act and others are used to compel remediation 
of underground storage tank discharges, which may include MTBE. These 
laws, which include strict, joint, and several liability, give the 
State adequate authority to compel known responsible parties to conduct 
remediation including situations involving co-mingled contaminant 
plumes. All responsible parties with regulated underground storage tank 
discharges that are conducting ground water sampling have been required 
since 1990 to analyze for MTBE.

    Statement 6: ``Sound Science: Governor Whitman touted ``sound 
    science'' as the backbone of regulatory policy. However, in New 
    Jersey, Whitman adopted an ``affirmative action'' policy for 
    environmental science, whereby DEP research funds must be used at 
    New Jersey institutions, not necessarily on the most advanced 
    science. Exhibit 4 documents what has become a troubling pattern, 
    whereby the Governor makes press remarks that contradict the 
    undisputed facts and recommendations of her Agency scientists.''
    Response On Sound Science: Through the establishment of its unique 
multi-media environmental science and research program in the late 
1970's, DEP has had a long history of developing and applying sound 
science to its regulatory, enforcement and planning activities. With 
the agency's transition to a Results-Based Management System in the 
last 6 years, the use of current and accurate scientific information in 
decisionmaking has been given even greater emphasis. Environmental 
research, specific to New Jersey's needs, has been a primary means by 
which this information is obtained. Consistent with State procurement 
laws, DEP has employed a competitive process to identify, select and 
fund those research proposals best designed to meet its technical 
information needs. This competitive process invites proposals from 
academic institutions (as well as appropriate non-academic 
organizations) both within and external to New Jersey. All proposals 
are evaluated based on two paramount criteria: value of the proposed 
study to environmental decisionmaking in New Jersey, and scientific 
merit; these criteria are applied regardless of the applicant's 
location. DEP first seeks qualified in-state researchers to perform 
environmental research; however, if this search in unsuccessful, the 
agency looks outside of New Jersey.
    Exhibit 4 from the New Jersey Sierra Club/Audubon Society, a 1994 
DEP memorandum providing scientific information on the issue of the 
health effects of exposure to mercury in fish, is an example of the 
high quality scientific advice used in New Jersey's environmental 
decisionmaking. All of the State's mercury fish advisories developed in 
the last 6 years were based on the principles described in this 
memorandum. The basis for New Jersey's approach to mercury fish 
advisories was recently supported in a report of the National Academy 
of Sciences, (``Toxicological Effects of Methylmercury,'' NAS, 2000).
                               __________
                             [January 2001]
                            Whitman Sampler
        (By Jeff Tittel, New Jersey Chapter of the Sierra Club)
    Governor Whitman has had some important environmental achievements, 
setting aside moneys for open space, support of Sterling Forest and 
banning the horseshoe crab harvesting. However in areas of 
environmental enforcement and regulation, Governor Whitman's legacy is 
quite different.
    The Governor's environmental agenda has been the systematic 
dismantling of 40 years of New Jersey environmental policies, programs 
and enforcement.
    <bullet>  Eliminated the Environmental Prosecutor on the State and 
county levels.
    <bullet>  Eliminated the Office of Public Advocate whose job was to 
help citizens and citizen groups deal with government bureaucracy and 
even sued the State on behalf of environmental groups.
    <bullet>  The Governor opened the Office of Business Ombudsman 
whose job was to push through permits for businesses and to help 
facilitate permitting problems for industry.
    <bullet>  The Governor then took all fees, penalties and other 
funds that were dedicated to the DEP and brought them into the budget 
to underwrite her tax cut; then took an additional $21 million dollars 
that had been dedicated for Combined Sewer Overflows; brought them into 
the budget and then eliminated that program.
    <bullet>  The Governor's environmental policy was called ``Open for 
Business'' where the Administration dismantled important regulatory 
enforcement functions, opened the Office of Resolution Disputes, 
allowed for grace periods on enforcement, risk assessments on 
regulations, and flexible permitting and eliminated penalties based on 
financial assessments.
    <bullet>  Passed an Executive Order that the State shall have no 
standards stricter than Federal regulations without a cost benefit 
analysis and special reasons.
    <bullet>  Since the DEP cuts and Open for Business, there has been 
an 80 percent drop in the moneys collected for fines in the State of 
New Jersey and an 80 percent decline in the number of cases under 
administrative appeal.
    <bullet>  Eliminated the DEP lab, the only lab in New Jersey that 
was certified to test in accordance with the Safe Drinking Water Act.
    <bullet>  Proposed to eliminated the New Jersey Geological Survey.
    <bullet>  Eliminated oversight of pesticide use.
    <bullet>  Privatized the voluntary Site Remediation Clean-up 
Program.
    <bullet>  Eliminated the DEP's mercury reduction program.
    <bullet>  Eliminated the mandatory Employee Trip Reduction Program.
    <bullet>  Cut the Right to Know Act's list of chemicals by 2,000.
    <bullet>  Eliminated the Solid Waste Plan.
    <bullet>  Tried to eliminate the Clean Water Enforcement Act.
    <bullet>  Tried to eliminate the Pollution Prevention Act and the 
Administration is at it again with new proposed regulations.
    <bullet>  Dismantled the Hazardous Waste Program.
    <bullet>  Cut the Radiation Protection Program.
    <bullet>  Changed the regulations to allow waste oil to be burned 
in space heaters in garages.
    <bullet>  The DEP has waited 5 years past its mandatory deadline to 
propose new rules for Coastal Zone Management. The rule was at best 
ineffective and has been pulled.
    <bullet>  Cut funding and maintenance for State parks. New Jersey 
has the lowest per capita spending for State parks in the nation.
    <bullet>  Appointed property rights advocates to the Pinelands 
Commission where they now have a majority.
    <bullet>  Tried to eliminate the New Jersey Office of State 
Planning.
    <bullet>  There has been no implementation of the State Plan. The 
rewrite of the Plan is weakening it even more.
    <bullet>  Supported budget language that provides that the New 
Jersey State Plan cannot be used to stop discretionary money to 
municipalities.
    <bullet>  While the Governor supports open space, the Governor has 
stated ``We need to build highways to the open space so that people can 
get there.''
    <bullet>  The DOT is supporting 40 new highways or highway 
expansions, mostly through rural areas.
    <bullet>  The Governor supports Rt. 92 a sprawl highway through the 
largest stretch of environmentally sensitive planning area designated 
in Middlesex County wit a 14 acre wetland fill. EPA opposes this 
project.
    <bullet>  The Governor supports the extension of Rt. 29, a 
waterfront highway through a park along the Delaware River, filling in 
part of the river. Used a loophole to avoid a NEPA review.
    <bullet>  The Governor supported the Casino Tunnel, a new highway 
through a middle income African American neighborhood that will be a 
private driveway for a casino developer.
    <bullet>  The Governor supported taxpayers building a private road 
from the New Jersey Turnpike to a toxic waste incinerator that the 
Governor was supporting in Linden.
    <bullet>  The Governor supports Bergen Arches which is to turn an 
existing freight tunnel into a highway.
    <bullet>  The Governor supports the extension of Rt. 18 through the 
Rutgers Nature Preserve and along the riverfront.
    <bullet>  The Governor supports spending $270 million dollars of 
public money for Merrill Lynch to build a corporate office part in a 
farm field in Hopewell, including running a sewer line 9 miles from the 
City of Trenton.
    <bullet>  The Governor supported the filling in of 200 acres of 
wetlands in the New Jersey Meadowlands for the Meadowland Mills mall. 
Opposed by the EPA.
    <bullet>  The Governor also supports the filling in of up to 500 
acres for the new Meadowlands Plan (SAMP).
    <bullet>  The DEP proposes to allow cranberry growers to destroy up 
to 300 acres of pristine wetlands in the Pinelands for the creation of 
cranberry bogs. EPA had opposed.
    <bullet>  The EPA rejected the settlement agreement on a major 
wetland violation in the Pinelands by DeMarco Enterprises, a 
politically connected cranberry grower. The proposed settlement was 
also criticized by New Jersey's Inspector General.
    <bullet>  The Sierra Club had to go to court to prevent the 
adoption of the ``mega rule'' NJDEPES which would have allowed for 
substantial increases in the discharges of pollutants into New Jersey 
waterways. The EPA intervened to stop the adoption.
    <bullet>  The DEP is currently proposing to change permitted flows 
form using the 7Q10 standard to harmonic mean flows. This would allow 
dischargers to increase their flows by a 500 percent increase.
    <bullet>  The DEP is currently proposing 15 new general permits on 
wetlands that would allow special interests to be able to do everything 
from build fences through wetlands to animal waste lagoon.
    <bullet>  The DEP has refused to upgrade the Wallkill River to an 
appropriate Category I designation to protect the water quality in the 
Wallkill National Wildlife Refuge.
    <bullet>  Supported funding for a new sewer plant on the Wallkill 
River, as well as a sewer line through a Natural Heritage site.
    <bullet>  The DEP is proposing to allow a 700' television tower to 
be locate don top of Weldon Mountain in the Weldon Mountain Wildlife 
Refuge Area.
    <bullet>  The DEP has refused to enforce its own permit levels on 
phosphorous discharges from sewer plants.
    <bullet>  New Jersey has the highest percentage (85 percent) of 
streams and rivers rated impaired for pollution in the country.
    <bullet>  Governor Whitman supported the Mercer County incinerator 
and financial bail-out for other incinerators.
    <bullet>  The DEP eliminated the siting criteria for garbage 
transfer stations and Class II recycling centers which included 
asphalt.
    <bullet>  The State has abandoned its long standing position on the 
taking issue and has now sided with the property rights advocates.
    <bullet>  The Governor's energy deregulation legislation allows for 
a $9 billion dollar bail-out of stranded assets of electrical 
utilities, cuts funding in half for energy conservation programs, as 
well as for alternative and renewable energy programs, categorizes 
garbage incinerators as renewable energy, lists nuclear power plants as 
non-acid rain producing and eliminates siting criteria for power 
plants.
    <bullet>  The Governor supports the dredging of the Delaware River 
and the dumping of contaminated dredge spoils in environmentally 
sensitive areas.
    <bullet>  The DEP has refused to use its own million to one 
standard for public health on radium levels in drinking water.
    <bullet>  One-third of fines on pollution violations go 
uncollected.
    <bullet>  There has been a 44 percent reduction in air monitoring 
inspections.
    <bullet>  Eliminated the Highlands Task Force.
    <bullet>  Eliminated third party appeals on permits which removed a 
useful tool by community and environmental groups to appeal permits 
granted to polluters and developers.
    <bullet>  Adopted regulations that removed water quality standards 
for stormwater discharges for quarries.
    <bullet>  Weakened brownfield programs. Eliminated community 
involvement in cleanup plans as well as allowed for voluntary cleanup 
plans which includes capping and walking away without liability. 
Supported self-audit legislation for pollution permits. Defeated by New 
Jersey Legislature. Supported weakening of New Jersey Air Pollution 
law. Defeated by New Jersey Legislature. Supported allowing polluters 
to have 10 year interim permits. Stopped by EPA. Whitman cut water 
monitoring facilities from 200 down to 76.
    <bullet>  EPA Inspector General Report July 1999 said that New 
Jersey violated the Clean Water Act in its water monitoring program. 
Cited failures to monitor for 33 toxic chemicals as well as the lack of 
monitoring stations and New Jersey's failure to have any TMDLs.
    <bullet>  Sanctions imposed by EPA in September 2000 for New 
Jersey's failure to do proper water monitoring.
    <bullet>  New Jersey Assembly unanimously passed an oversight 
resolution in September 2000 that said the proposed watershed rules did 
not meet legislative intent to clean up and protect New Jersey's 
waters. The bill was up for a vote in the State Senate on the day 
Governor Whitman was nominated to the EPA and was pulled.
    <bullet>  CAFRA coastal rules are under litigation by every major 
New Jersey environmental group for allowing too much growth along the 
coast.
    <bullet>  The Whitman Administration has deliberately avoided 
implementing any environmental justice programs.
    <bullet>  Supported the Cape May sewer deal which will allow for 
sprawl development to pave over some of New Jersey's most 
environmentally sensitive lands and allowing for salt water intrusion 
to pollute the aquifer.
    <bullet>  As head of the Board of Public Utilities, Governor 
Whitman allowed for the selling off of watershed lands to real estate 
companies. The New Jersey legislature had to step in a pass the 
Watershed Moratorium Act.
    <bullet>  Cut funding for recycling and eliminated the mandatory 60 
percent reduction in solid waste.
    <bullet>  Supported the building of Tabernacle High School in the 
Pinelands Preservation Area.
    <bullet>  Supported the firing of Terry Moore who was an advocate 
of growth management as Director of the Pinelands Commission.
    <bullet>  Supported ``The Sanctuary'' development in Evesham in the 
middle of endangered species habitat.
    <bullet>  Supported the reopening of the South Ocean County 
landfill. Vetoed funding dam repairs which was followed by flooding 
that destroyed some of the dams that were targeted for repairs.
    <bullet>  Line item vetoed budget language that would have 
prevented polluters from writing watershed cleanup plans.
    <bullet>  Governor Whitman's open space program actually cut the 
funding for urban parks, park development and matching grants to 
counties and municipalities. The farmland program has been criticized 
for failure to have an ethics code and for buying development rights on 
the lands of the politically well connected, lands that can't be 
developed, and on estates and gentleman farms, not family farms.
    <bullet>  The loss of open space to development has more then 
doubled under Governor Whitman and New Jersey leads the Nation in the 
loss of open space as a percentage of land area.
                                 ______
                                 
  Response by the Governor Whitman, State of New Jersey, to ``Whitman 
          Sampler'' from New Jersey Chapter of the Sierra Club
    Statement 1: ``The Governor's Environmental agenda has been the 
systematic dismantling of 40 years of New Jersey environmental 
policies, programs and enforcement.''
    Response. Under Governor Whitman's leadership, New Jersey has a 
clear Strategic Plan for environmental protection being implemented 
that is predicated on a belief that environmental protection and a 
vital economy are inextricably linked; that strong environmental 
policies, when properly administered, can enhance rather than hinder 
the State's economy. While renewing its 25-year commitment to ensuring 
a safe and healthy environment for New Jersey's 8 million residents to 
enjoy, we have pledged to eliminate unreasonable and unnecessary 
regulations and policies that do not help fulfill that commitment and 
to shift our focus from a ``command and control'' mentality, to one of 
results based management.
    Some of our notable accomplishments over the past 7 years while I 
have been in office.
    . Passage of a statewide ballot measure to constitutionally 
dedicate $98 million annually for the purpose of preserving open space, 
farmland and historic resources;
    . Moving forward to implement my commitment to have world class 
parks throughout our State so our citizens have access to high quality 
parks and other recreation and wildlife areas.
    Significantly increasing dollars dedicated to preserving New 
Jersey's beaches. These funds help to protect lives and property 
through the construction of shore protection projects like, placement 
of revetments, groins, bulkheads, and sand for beach nourishment.
    Signing legislation in 1997 to implement our comprehensive 
Watershed Management Program and, of critical importance, to fund it 
through a portion of the Corporate Business Tax.
    <bullet>  Providing a stable funding source that led to an 
unprecedented number of hazardous waste clean-ups through more than 
$118 million from the Corporate Business Tax revenue dedicated for this 
purpose;
    Further enhancing hazardous waste site clean-up by New Jersey being 
the only State in the Nation with a reimbursement program for non-
responsible private parties conducting voluntary cleanups at brownfield 
sites.
    <bullet>  Successfully negotiating the Atlantic Compact for low-
level radioactive waste disposal with our sister States of South 
Carolina and Connecticut to provide our State with low-level 
radioactive waste disposal capacity for about the next 50 years;
    Statement 2: ``As Governor, she has eliminated the State's 
environmental prosecutor.''
    Response. Dissolution of the Office of the Environmental Prosecutor 
has had no impact on the Department's enforcement program and its 
protection of the environment. While that office served as a as a 
coordinator for major environmental cases during its years of 
existence, the underlying functions of investigating noncompliance with 
environmental laws and taking appropriate enforcement action in 
response to noncompliance by the Department continued unabated. Since 
that office DEP continues to investigate and handle civil 
administrative enforcement cases; the Division of Law continues to 
provide advice and court representation in support of those cases; and 
the Division of Criminal Justice, Environmental Crimes Bureau handles 
any environmental matters that either DEP refers to them for criminal 
investigation/prosecution or that they determine from review of DEP 
case files that they will investigate/prosecute.
    Statement 3: ``As Governor, she has eliminated the Office of Public 
Advocate, whose job was to help citizens and citizen groups deal with 
government bureaucracy and even sued on behalf of environmental 
groups.''
    Response. The Department of the Public Advocate was abolished to 
eliminate inefficient bureaucracy resulting from one State agency suing 
other agencies and towns. In eliminating this bureaucracy, the Governor 
ensured that the vital core functions of the Office of the Public 
Advocate were preserved. For example, mental health and criminal 
matters previously handled by the Public Advocate were transferred to 
the Office of the Public Defender; the Public Advocate's functions 
concerning environmental protection and insurance matters were 
transferred to and assumed by the Departments of Environmental 
Protection and Banking, respectively; and the Ratepayer Advocate was 
established to represent consumer interests in proceedings before the 
Board of Public Utilities. Moreover, the Attorney General with the 
support of Governor Whitman, recently established the Office of the 
Inspector General to serve as an independent watchdog and protect 
against waste in State government on behalf of the public interest.
    Statement 4: ``As Governor, she has taken all fees, penalties and 
other funds that were dedicated to the Department of Environmental 
Protection and brought them into the General Budget to underwrite her 
tax cut.''
    Response. Upon taking office, it was evident that the DEP was too 
heavily reliant on resources generated from fees and fines and other 
non-state sources in order to fund its operating budget, which made up 
over 50 percent of its revenue. It was determined that, without 
substantial increases in fees and fines, the Department would be faced 
with a reduction in various environmental programs, since their costs 
were well beyond DEP's ability to fully fund those individual programs. 
It was also clear that dependence upon fees and fines represented a 
negative position from which to revitalize New Jersey's economy.
    At the request of the Department, consensus was reached on placing 
DEP ``On Budget.'' By doing so, individual programs no longer had to 
generate 100 percent of the revenue required to fund their programs; 
the General Fund absorbed the cost of the fringe benefits and indirect 
costs; the Treasury began picking up negotiated cost of living 
increases for employees and programs, that were facing certain 
reductions, now had the ability to operate in a fiscal climate where 
achieving results could be their focus versus how they were going to 
fund their very existence.
    Other tangible benefits of the ``On Budget'' initiative were: that 
it allowed a more effective Executive and Legislative oversight process 
in crafting DEP's budget and further it afforded the Department the 
opportunity to shift funds out of previously dedicated financial silos 
to priority areas identified in each budget planning cycle.
    Statement 5: ``She took an additional $21 million dollars that had 
been dedicated for combined sewer overflows into the budget and then 
eliminated that program.''
    Response. Under Governor Whitman's leadership, New Jersey has 
developed a comprehensive CSO Control Strategy and has undertaken 
regulatory actions to implement the same. The Strategy is in 
conformance with the National CSO Control Policy and has been approved 
by USEPA. New Jersey is aggressively pursuing the Strategy to control 
the discharge of Solids/Floatables and elimination of Dry Weather 
Overflows. Some of the notable accomplishments in this regard include:
    Planning activities have been completed for all known CSO Points. 
Design activities are ongoing or have been completed for 84 percent of 
CSO Points. Twenty-five (25 percent) percent of the CSO Points are 
under construction. Construction for ten (10 percent) percent of the 
CSO Solids/Floatables Control Facilities have been completed and 
operating. The Department has awarded over $21 million in planning and 
design grants and over $122 million in construction loans through the 
State Revolving Fund to address the Phase I Solids/Floatables Control 
Measures needs. All CSO Points have been identified and are regulated 
by a NJPDES permit. The Department has incorporated all of the 
applicable Nine Minimum Controls of the Nations CSO Control Policy into 
the appropriate NJPDES permits and has taken appropriate enforcement 
actions. Development of CSO Long-term Control Plans (LTCPs) is being 
coordinated in concert with the Statewide Watershed Management Process.
    The total cost required to implement CSO Long-term Control Plans is 
estimated at $3.1 billion.
    Statement 6: ``The Whitman administration dismantled important 
regulatory enforcement functions.''
    Response. The Department's regulatory enforcement program is one of 
the largest and most extensive in the country. The Department performs 
an average of over 21,000 inspections a year supplemented by county 
environmental health agencies who, with the oversight of DEP, perform 
an additional 8,000 (average) inspections per year. This strong field 
enforcement presence is achieved with a team of approximately 200 
inspectors in the program areas of: air, water, hazardous waste, solid 
waste, pesticides, Right to Know, Release Prevention and Coastal and 
Land Use. In addition to field inspections, the Department's 
enforcement personnel perform in-depth reviews of annual facility 
compliance certifications, excess emission reports, and other documents 
and submissions that are important to gauging facility compliance with 
the extensive body of State and Federal environmental laws. The State's 
improved environmental quality is assisted by the Department's 
enforcement program by encouraging compliance, by taking appropriate 
enforcement action in response to violations and by sending a message 
of deterrence to potential violators.
    Statement 7: ``She opened the Office of Resolution Disputes.''
    Response. The Office of Alternate Dispute Resolution was created to 
provide for an opportunity to better resolve conflicts between 
departmental programs and the entities they regulate because issues and 
responsibilities can be thoroughly discussed and more parties affected 
can participate. During this process, all statutes and regulations are 
followed. If successful, the violation is corrected more quickly than 
waiting for the resolution of a lengthy court proceeding. Any cases 
that cannot be settled go to litigation. We note that the Air Pollution 
Control Act amendments of 1995 required the Department to establish 
procedures for alternate dispute resolution of air contested cases. The 
ADR process is designed to be more interactive, providing a forum for 
all interested parties to discuss a particular issue or problem related 
to a facility in detail, provide an opportunity to communicate the 
Department's position regarding a particular issue or permit, and to 
identify options for resolution. Not every enforcement case goes 
through ADR. Many requests for ADR are denied, especially when the 
issue under dispute is simply the size of the penalty.
    The Federal Environmental Protection Agency has had its own 
successful Alternative Dispute Resolution Program since 1987. Federal 
statutes and executives orders require all Federal enforcement agencies 
and Federal courts to offer ADR in appropriate cases.
    Statement 8: The Whitman administration ``allowed for grace periods 
on enforcement.''
    Response. In 1995 the Legislature passed the Grace Period Law. 
Providing grace periods for minor infractions, as defined by statute, 
helps obtain compliance since violators are given the opportunity to 
correct the problem before monetary penalties are cited. Compliance is 
the end result DEP is seeking.
    The Fast Track Compliance Act for minor violations allows programs 
to focus resources on more environmentally significant violations, 
including emission violations. This is so because facilities contested 
formal enforcement actions with small penalty assessments to preserve 
the right to small penalty reductions in settlement. By requiring 
compliance only and providing a ``grace period,'' this entire case 
management process was avoided, allowing reallocation of resources to 
significant cases. In the case of the air program penalty amounts 
actually increased as a result, but the more important matter is the 
positive environmental results of the enforcement effort.
    Statement 9: The Administration allowed ``risk assessments on 
regulations and flexible permitting and eliminated penalties based on 
financial assessments.''
    Response. Based on a model developed in cooperation with USEPA, New 
Jersey has developed a voluntary, tiered regulatory option know as 
Silver and Gold Track. The program is a prime example of moving away 
from ``command-and-control'' regulation and rewarding high performers 
for going beyond the boundaries of traditional compliance through 
voluntary covenants. Only applicants with good compliance track records 
are eligible. The program provides operational flexibility while 
offering incentives and public recognition in return for a facility's 
commitment to improved environmental performance. Participation in the 
program also requires applicants to have aggressive local community 
outreach plans.
    Penalties are not eliminated based upon a violator's ability to 
pay. If DEP conducts an ability-to-pay analysis and it is determined 
that the violator does not have the financial or other resources to pay 
a penalty, a payment schedule may be put in place. The manner in which 
the department assesses penalties is published in each program's 
portion of the New Jersey Administrative Code. These regulations 
identify violation citations, a summary description of the citation and 
the base penalty that will be assessed and how a base penalty can be 
modified based upon the specifics of the violation. These regulations, 
however, do not provide for an opportunity to eliminate penalties 
simply because of the financial condition of a company.
    Statement 10: ``Since the DEP cuts, there has been an 80-percent 
drop in the money collected from fines in the State and an 80-percent 
decline in the number of cases under administrative appeal.''
    Response. The amount of penalties collected is not a good 
indication of either facilities compliance with environmental laws and 
regulations or the environmental benefit that comes from a strong and 
effective enforcement program, such as DEP's. Generally, the 
Department's rate of penalty collection is good and new efforts are 
underway to use the services of a collection agency to collect 
penalties.
    Since the compliance rates are up, assessments are down and 
therefore collections are down and decreasing from prior years. It 
should be noted however, that one, or a few large penalties in any one 
year can cause a spike that may appear to alter trends when that is not 
the case.
    To the extent that the Grace Period law has eliminated a number of 
penalty cases that would have previously been contested, it follows 
that less cases are under appeal. However, DEP makes an effort to 
settle cases with settlement agreements since they are a much more 
efficient way to handle cases from a resource stand point. Successful 
settlements would also result in less appeals of penalty actions. Where 
cases do not settle, DEP is always prepared to follow through with 
formal enforcement action.
    Statement 11: Governor Whitman ``eliminated the DEP lab, the only 
one in New Jersey certified to test in accordance with the Safe 
Drinking Water Act.''
    Response. In 1994, DEP initiated a laboratory consolidation 
program. Under this program, the DEP's radiological laboratory was 
merged with the DHSS laboratory and DHSS acquired the analytical 
equipment for specific additional pesticide methods. DEP routinely uses 
the DHSS laboratory's capabilities for surveillance and verification 
monitoring. DHSS laboratories are currently certified by EPA, which 
fulfills the State's laboratory requirements under the Federal Safe 
Drinking Water Act.
    Statement 12: ``She eliminated oversight on pesticide use.''
    Response. The Department has a robust pesticide control program 
that covers a wide range of important regulatory activities that affect 
the health of New Jersey residents as well as the environment in which 
they live: licensing of commercial pesticide applicators; requiring and 
assisting in providing training to pesticide applicators; a food 
monitoring program for the detection of pesticides in food products; 
outreach to migrant farm workers who handle or tend to be exposed to 
pesticides in agricultural settings; outreach through the Urban 
Initiative to educate consumers in urban settings about proper use of 
pesticides; establishment and strong advocacy of Integrated Pest 
Management as a preferred choice before pesticide use; and a program of 
enforcement to assure that pesticides are labeled, sold and applied in 
accordance with law. In addition, the Department's rules also require 
that pesticide applicators give notice to the public when making 
applications to help minimize the public's exposure to pesticides. The 
Department has just filed a rule proposal which will make extensive 
amendments to the pesticides regulations including: requiring the 
licensing of private applicators (farmers); increased or improved 
public notification requirements; increased training requirements for 
pesticide applicators. All of the above demonstrates that New Jersey 
has a top notch pesticide program and that oversight and involvement in 
the pesticide field has not been eliminated but has been expanded.
    Statement 13: ``She privatized the voluntary Site Remediation 
Cleanup Program.''
    Response. Since 1993, the voluntary cleanup program has facilitated 
contaminated site cleanups by private parties and municipalities under 
DEP oversight. The program was never been privatized. The cornerstone 
of the DEP program is a Memorandum of Agreement that allows a party to 
voluntarily approach the Department with the intent to investigate and 
clean up a contaminated site for redevelopment or to allow a property 
transaction to occur. Each year a portion of these voluntary cleanup 
agreements the Department approves includes a new group of brownfield 
projects. DEP issued No Further Action letters for 16,128 sites from 
June 30, 1993 to June 30, 2000, the majority of which were conducted 
under the voluntary cleanup program. DEP now issues more than 2,000 No 
Further Action letters each year after investigations and cleanups are 
completed to keep real estate and business transactions moving while 
providing safeguards for the environment. In terms of moneys spent on 
remedial work conducted under the voluntary cleanup program, NJDEP 
provided oversight at cleanups worth $51.6 million in State fiscal year 
1999 and $40.4 million State fiscal year 1998.
    DEP and the New Jersey Economic Development Authority have approved 
more than $73.8 million in grants and loans for brownfield site 
projects and other remedial actions conducted under the voluntary 
cleanup program since funds became available in 1994. Grants and loans 
to municipalities and private parties who want to conduct remedial 
actions voluntarily have increased the number of site cleanups in the 
State.
    Statement 14: ``She eliminated the DEP's mercury reduction 
program.''
    Response. This administration adopted the most stringent mercury 
limits in the world for municipal solid waste incinerators and 
implemented those standards in 1996, 5 years before the Federal EPA's 
compliance date for national standards. A1SO7 waste management of 
medical waste was successful at reducing mercury from medical waste 
incinerators by over 95 percent.
    New Jersey implemented the most comprehensive municipal solid waste 
(MSW) incinerator standards in the country (28 Og/dry standard cubic 
meter (dscm) or an 80 percent reduction, vs. the Federal standards of 
80 Dg/dscm or 85 percent reduction). New Jersey also implemented a 
significant medical waste incinerator emissions reduction program. 
These actions have resulted in a greater than 90 percent reduction in 
incinerator mercury emissions since 1993 making New Jersey a national 
model for progress in mercury emissions reductions. DEP has also 
piloted and managed innovative mercury battery, mercury switch and 
mercury containing fluorescent lamp collection and recycling programs.
    Statement 15: ``She cut the list of chemicals covered by the Right 
to Know Act by 2,000.''
    Response. In 1984, DEP required employers to report to DEP the 
entire U.S. Department of Transportation (USDOT) list of hazardous 
materials on a survey form that DEP used at that time called the 
Emergency Services Information Survey (ESIS). The Department included 
the USDOT list reporting requirement in order to gather information 
about the extent of use of the USDOT substances in New Jersey. This 
information would then be used to determine whether any of the USDOT 
substances should be considered Environmental Hazardous Substances 
(EMS) under the Right To Know law and be listed as EMS's in DEP's rule. 
The USDOT list was developed by the Federal agency for the purpose of 
identifying those substances which potentially posed a hazard during 
transportation and which an emergency responder to a transportation 
accident would thus want to know about. The USDOT list had no 
relationship to the Department's Environmental Hazardous Substances 
list of chemicals which was developed to include those substances that 
could pose an environmental and public safety threat based upon their 
storage, manufacture, use at facilities in the State. In January 1994, 
Commissioner Jeanne Fox adopted the elimination of the ESIS survey 
(which had been incorporated in the RTK inventory survey) and also 
adopted elimination of the USDOT list of substances to be reported. At 
the same time, DEP proposed a new EHS list which proposed to include 
the USDOT list of hazardous substances. In July 1994, Commissioner 
Shinn adopted the new EHS list but did not adopt inclusion of the USDOT 
list of hazardous substances as part of the EHS list. Thus, the EHS 
list never included the USDOT list of hazardous substances as RTK 
Environmental Hazardous Substances.
    Statement 16: ``The Governor dismantled the Hazardous Waste 
Program.''
    Response. To the contrary, New Jersey boasts an award winning 
voluntary clean-up program. Two clean-ups overseen by the State, 
Trenton Waterfront Development and the Edison Crossroads Mall, were 
recipients of the prestigious National ``Phoenix Award'' for innovative 
site clean-up actions in 1999 and 2000 respectively. In terms of 
Superfund, since 1994, 13 sites have been fully cleaned and removed 
from the National Priorities List of sites and one partially removed. 
This brings the total number of sites removed to 18. Furthermore, 
Superfund sites are divided into subsites to facilitate both immediate 
cleanups that may involve drum removals and long-term cleanups that 
target contamination, such as tainted groundwater, requiring decades of 
treatment. As of December 31, 1999, 275 out of 446 subsites (62 
percent) have been completely cleaned up or are being addressed through 
long-term operation, maintenance and monitoring. This is an increase of 
111 subsites since June 30, 1994, or a 68 percent rise.
    Governor Whitman signed the Brownfield and Contaminated Site 
Remediation Act in January 1998. DEP's brownfield inventory is 1,327 
sites as of September 2000. New Jersey is the only State in the Nation 
with a reimbursement program for private parties conducting voluntary 
cleanups at brownfield sites. The state brownfield program enables a 
developer to enter a Redevelopment Agreement with the State after the 
company agrees to cleanup and reuse a brownfield site. Taxes generated 
from new businesses operating at a former brownfield site provide funds 
to reimburse a developer 75 percent of its cleanup costs.
    Statement 17: The Governor ``cut the Radiation Protection Program.
    Response. New Jersey's Radiation Protection Program remains fully 
intact within the DEP and carries out its regulatory functions required 
by law. These include the oversight and licensure of x-ray technicians, 
inspection of x-ray machines to reduce unnecessary exposures to 
radiation, regulation of nuclear power plants, administration of New 
Jersey's comprehensive radon protection program, management of the low 
level nuclear waste siting commission activities, including negotiation 
of the Atlantic Compact with our sister States of South Carolina and 
Connecticut and providing technical support to Federal agencies on 
radiation protection issues.
    Statement 18: The Governor ``changed the regulations to allow waste 
oil to be burned in space heaters in garages.''
    Response. As a primary management strategy, the DEP continues to 
support used oil recycling. Most counties in the State actively require 
the collection of used motor oil. DEP also allows the burning of used 
oil in state-of-the-art combustors installed at maintenance garages to 
help avoid illegal dumping and less desirable management practices for 
used oil not destined for recycling. New Jersey's used oil combustion 
rule is amongst the most restrictive in the nation.
    Environmental safeguards on maintenance garage used oil combustors 
include: limitation to certain onsite generated used oil (such as 
crankcase, transmission and hydraulic fluids from maintenance garages); 
prohibition on burning chlorinated solvents and similar materials; and 
annual combustion monitoring and burner tune-up to ensure efficient 
combustion.
    Statement 19: ``The Governor cut funding and maintenance for State 
Parks. New Jersey has the lowest per capita spending for State parks in 
the nation.''
    Response. The Governor is committed to the citizens of New Jersey 
and visitors to the State having access to high quality facilities at 
not only the New Jersey parks, but also our wildlife and natural areas. 
Over the past few years, she increased operating budgets for parks by 
over six million. She also recently asked New Jersey lawmakers to 
dedicate $250 million dollars over the next 10 years to maintain and 
improve the State's parks, historic sites, wildlife and natural areas 
so that we will enjoy a ``world-class'' open space system.
    Using information from the State Parks Trends 2000 Conference, in 
1999 capital expenditure per visitor throughout the Nation ranged from 
$.01 to $8.11. New Jersey fell in the middle of the States at $1.44 per 
visitor ($2.65 per resident). In the 11 Northeastern States, the 
average per visitor was $1.10.
    With respect to operating budget per visitor, throughout the Nation 
it ranged from $.44 to $9.24; New Jersey fell in the middle at $1.87 
per visitor ($3.44 per resident). In the 11 Northeastern States, the 
average operating budget per visitor was $2.73.
    Statement 20: ``During her term, the State Development and 
Redevelopment Plan has not been implemented. The rewriting of the plan 
weakens it even more.''
    Response. The implementation of the State Development and 
Redevelopment Plan has been a priority objective of the Whitman 
administration. Under the Governor's direction, each of the State 
agencies charged with implementing the plan have staff assigned for 
that purpose. These State agency ``teams'' are coordinated through a 
State Plan Implementation Assistance Team in the Department of 
Community Affairs. Implementation steps undertaken by the State 
agencies include the development of Geologic Information System (GIS) 
compatible systems; providing planning grants to local municipalities 
and counties; the development of environmental Indicators tied to State 
Plan goals; and a focus on coordinated infrastructure investment 
opportunities.
    The Draft Final State Development and Redevelopment Plan, that is 
currently in the public hearing phase and should be adopted by the end 
of March 2001, replaces the current center designation process with a 
new process called ``plan endorsement.'' This new process will 
significantly enhance the implementation of the Plan as, before 
endorsement can be attained, there will be a requirement for 
coordination and integration between State agency functional plans and 
local regional and municipal master plans.
    Statement 21: ``The DEP waited 5 years past its mandatory deadline 
to propose new rules for Coastal Zone Management. The rules were at 
best ineffective and have been withdrawn.''
    Response. The DEP adopted the first set of amendments, concerning 
single family homes, within one year of the 1993 legislative amendments 
to the Coastal Area Facility Review Act (CAFRA). It took longer to 
develop a set of comprehensive regulations that for the first time 
integrated environmental regulations with the State Development and 
Redevelopment Plan. These regulations, adopted on February 7, 2000, 
were the result of extensive negotiations with municipal, 
environmental, business, and legislative leaders. These regulations 
have resulted in significantly enhanced environmental protection and 
planning in the coast and for the first time established limitations of 
on development.
    Statement 22: ``While the Governor supports open space, her 
Department of Transportation is supporting 40 new highways or highway 
expansions, mostly through rural areas.''
    Response. The Department of Transportation provided its draft FHWA 
funded Planning Work Program to the State's three Metropolitan Planning 
Organizations (MPO's) for their review and comment. There is an 
activity in that Work Program entitled ``Concept Development/Corridor 
Analysis'' which lists 43 locations where transportation planning 
studies are either active or proposed. Some individuals and groups have 
construed that the DOT is proposing major roadway widenings at each of 
the identified locations. This is not the case. These studies will 
evaluate the transportation needs in the area from a congestion, 
operational, safety, roadway/bridge condition, bicycle, pedestrian, 
transit and community perspective. The studies will evaluate and 
recommend improvement concepts that address the specific needs 
identified consistent with the needs of the community. The DOT believes 
that most of these studies will not be recommending major roadway 
widening. For those areas where major widening is warranted, no 
decision will be made to advance a project until a full Public 
Involvement Process has been conducted.
    Statement 23: ``The Governor supports construction of Rt 92 through 
the largest stretch of environmentally sensitive land designated in 
Middlesex County, with 14 acres of wetlands to be filled in. The EPA 
opposes the highway.''
    Response. Route 92 is an essential east/west link in the central 
part of New Jersey where there is no such limited access facility or 
regional facility. The consequence of not constructing east/west access 
is that significant regional trips will continue to use the local road 
system. The local road system was not designed for large trucks and, in 
addition, the current traffic volume on the local road system inhibits 
the free-flow of traffic to meet the intended purposes of the local 
road system. Route 92, in the design year, is projected to serve an 
average daily volume of 32,000 vehicles, 2,600 of which are trucks. 
Moving regional traffic the Turnpike Authority's proposed Route 92 will 
result in a reduction of air pollution and will create a materially 
safer environment for those who live, work and raise families in the 
Central New Jersey area.
    Route 92 will cause the filling of approximately 14 acres of 
wetlands. The Turnpike Authority, through creative design and a 
willingness to invest additional funds, has reduced the wetlands impact 
from an original 33.5 acres to the current 14 acres. The Turnpike 
Authority has presented a mitigation plan that will create 
approximately 50 new acres of wetlands to replace the filled acreage. 
In addition, the Turnpike Authority has committed to convey to the 
Governor's Open Space Program over 200 acres of forested wetlands.
    Route 92 represents an appropriate balance between needed quality 
of life for the movement of people and goods with an appropriate 
respect for the environment. The project has overwhelming support from 
business, labor, local municipalities, the County of Middlesex, the 
Middlesex County Planning Board and the prestigious and well-recognized 
Regional Planning Partnership.
    Statement 24: The Governor supported the casino tunnel, a new 
highway through a middle-income neighborhood in Atlantic City that will 
he a private driveway for a casino developer.
    Response. The need to connect the Atlantic City Expressway and 
Brigantine Island has been sought and studied for more than 30 years. 
The Expressway offers the only flood-free exit from Atlantic City. In 
addition, the need to handle growth in traffic has called for grade-
separated interchanges since casinos first were developed in the marina 
area nearly 20 years ago.
    The advent of a 2,000-room resort casino hotel with a potential for 
two similar properties offered both the opportunity and the necessity 
to address these issues. In looking at alternatives, the Department of 
Transportation believed it was critical that the project minimize 
wetlands takings and impacts. DOT also wanted to minimize impacts on 
residents. The best alternative was to go between neighborhoods rather 
than through them. The alignment selected did just that. To further 
reduce impacts, DOT buried the road and kept all construction 
activities out of the neighborhood. Casino financial participation made 
this possible.
    The tunnel will support the development and redevelopment of the 
bay area in Atlantic City for casino development and will allow the 
proper closure of an abandoned landfill. Promotion of casino 
development in Atlantic City is a significant public policy supported 
by the voters of New Jersey. Far from being a ``private driveway,'' the 
tunnel will provide access to many properties in that area and will 
make their development possible The tunnel was designed and constructed 
to meet all applicable environmental standards. The tunnel was 
ultimately supported not only by the local government of Atlantic City 
but by the residents of the neighborhood in which it went through.
    Not only are we providing the connection to Brigantine and 
improving traffic but we also are carrying out one of the largest 
public-private infrastructure projects with minimal environmental 
impact on both the natural and man-made conditions.
    Statement 25: ``Whitman advocated taxpayer financing of a private 
road from the New Jersey Turnpike to a toxic waste incinerator that the 
Governor was supporting in Linden.''
    Response. Ultimately, shrinking hazardous waste generation in New 
Jersey, as well as regional ``capacity assurance'' planning, revealed 
that the State did not need to move forward with new hazardous waste 
disposal capacity. As a result, the proposed project never moved 
forward and the ramps were not constructed. While litigation remains 
active concerning this proposed facility and site, the project is not 
moving forward.
    The New Jersey Hazardous Waste Facility Siting Commission approved 
the construction of a hazardous waste incinerator in the Trembley Point 
Section of Linden. The approval was conditioned upon trucks destined 
for the incinerator not using the local road system but would access 
the site through the use of ramps built by the New Jersey Turnpike 
Authority. The Turnpike Authority worked with the private landowner to 
develop access facilities exclusively for hazardous waste trucks. The 
ramps were to be paid for by the private landowner with no taxpayer or 
Turnpike Authority funds used for the construction. The Turnpike 
Authority's approved ramps leading to Trembley Point represented not 
only the fulfillment of the conditions set forth by the Siting 
Commission, but most importantly reflected the Turnpike Authority's 
commitment to protect the wellbeing and safety of New Jersey's citizens 
by removing trucks containing hazardous materials from the local road 
system and placing such trucks on the New Jersey Turnpike.
    Statement 26: ``She supports the extension of Route 18 through the 
Rutgers Nature Preserve and along the Raritan riverfront.''
    Response. The Route 18 extension through Rutgers Nature Preserve 
has gone through a full Federal Environmental Impact Statement and has 
been approved by the FHWA. This review process determined there were no 
significant impacts. During the EIS development, the impacts to the 
preserve were fully known, considered and discussed with Rutgers 
University and other stakeholders. The DOT worked with these groups to 
minimize the impact and change the design to do so.
    The area to be impacted (8.6 acres) by the project is on the 
periphery of the Preserve, in an area consisting of secondary growth 
woodland on what was formerly farmland. This will be mitigated by 8 
acres of land adjacent to the Preserve. The more significant, mature 
forest is located on the eastern portion of the site and will not be 
impacted. Because this project is in an urban setting, there were 
difficult tradeoffs to be made to address safety, congestion and the 
need to preserve natural habitat.
    In terms of the Route 18 aspects along the Raritan Riverfront, the 
Governor is deferring to and supporting the environmental review 
process, which is seeking to find an acceptable solution to a serious 
congestion and safety problem in an environmentally sensitive manner. 
The environmental review process is not complete and a final 
determination of significant impacts has not been made. Once all of 
this is known, a final decision will be made of what the project will 
be. Clearly, a final outcome has not been determined.
    Statement 27: ``The Governor supported spending $270 million 
dollars to help Merrill Lynch build a corporate office park in a farm 
field in Hopewell, a project that included running a sewer line nine 
miles from Trenton.''
    Response. Merrill Lynch decided to locate its corporate office park 
in Hopewell Township, New Jersey a number of years ago. A proposal in 
1999 to run a new sewer line to Trenton was never formally approved by 
Hopewell Township and was eliminated from consideration. The project 
site is currently connected for sewage disposal to the local Ewing-
Lawrence Sewerage Authority.
    Statement 28: ``She supported the filling of 200 acres of wetlands 
in the Meadowlands for a mall. The EPA also opposed this project''
    Response. The Governor has never supported filling 200 acres of 
wetlands to construct a mall in the Hackensack Meadowlands. Regulatory 
issues surrounding this project are currently pending before the Army 
Corp of Engineers in terms of its 404 wetlands permitting jurisdiction. 
The State will further evaluate the feasibility of this project from a 
regulatory perspective once the Army Corp has acted.
    Statement 29: ``The DEP wants to allow cranberry growers to destroy 
up to 300 acres of wetlands in the Pinelands for the creation of 
cranberry bogs. The EPA rejected the settlement agreement on a major 
wetland violation in the Pinelands by DeMarco Enterprises, a 
politically connected cranberry grower. The proposed settlement was 
also criticized by the New Jersey Inspector General.''
    Response. Last year the DEP adopted general permit 23 for the 
limited expansion of cranberry bogs in the Pinelands. Cranberry growing 
has been occurring in the Pinelands for over 100 years and is one of 
the few permitted uses of land in the preservation area. Cranberry bog 
expansions have been deemed desirable by both the State and Federal 
Governments as part of the Pinelands Comprehensive Management Plan, the 
most stringent land use regulatory program in the nation. GP23 allows 
no more than 300 of the 200,000 acres of wetlands in the Pinelands to 
be converted into bogs and provides for a no net loss of wetlands as 
well as additional mitigation and minimization provisions. Region II of 
the Federal EPA has approved GP23 as resulting in ``no more than a 
minimal individual and cumulative impact.'' The Inspector General's 
comments on this settlement are currently under review by the 
Department. The settlement has not been finalized.
    Statements 30 and 31: ``Also in the Pinelands, she supported 
construction of Tabernacle High School in the Preservation Area. She 
appointed property rights advocates to the Pinelands Commission, on 
which they now have a majority.''
    Response. The Tabernacle High School proposal was made by the 
municipality and was approved by the independent Pinelands Commission 
without the Governor's involvement. The decision to allow construction 
of the high school was ultimately supported by Secretary of the 
Interior Babbit following his visit to New Jersey. The Governor has 
appointed a wide range of members to the Pinelands Commission, 
including environmentalists and those who are concerned with the proper 
balance between land preservation and property rights. The New Jersey 
Pinelands remains the most strictly regulated and protected land mass 
in the nation.
    Statement 32: She also ``supported removal of the long-time 
executive director.''
    Response. Under New Jersey law, the Pinelands Commission itself has 
exclusive responsibility and authority for the naming of its Executive 
Director, who serves at the pleasure of the Commission. In 1999, the 
Commission did appoint a new Executive Director at its own discretion 
to bring a renewed perspective to this critical position.
    Statement 33: ``The Sierra Club had to go to court to prevent the 
adoption of a rule that would have allowed for substantial increases in 
the discharges of pollutants on to New Jersey waterways. The EPA had to 
intervene.''
    Response. The Department adopted comprehensive New Jersey Pollutant 
Discharge Elimination System (NJPDES) regulations (N.J.A.C. 7:14A et. 
seq.) on May 5, 1997, after extensive public dialog involving all 
interested parties including the Sierra Club. These regulations, which 
control the discharge of treated wastewater into waters of the State, 
are consistent with Federal regulations and are protective of water 
quality. The Department formally submitted those regulations to the 
United Stated Environmental Protection Agency, which approved them on 
October 26, 2000. The Sierra Club--New Jersey Chapter was one of the 
plaintiffs who brought suit against the Department concerning the 
adoption of those regulations. The Appellate Division of the Superior 
Court of New Jersey ruled in favor of the Department on April 14, 2000.
    Statement 34: ``New Jersey has the highest percentage in the 
country--85 percent--of streams and rivers impaired by pollution.''
    Response. This impaired waters percentage is derived from outdated 
information that has been taken out of context.
    The Draft 2000 New Jersey Water Quality Inventory Report 
demonstrates that New Jersey's ocean and bay bathing beaches are fully 
swimmable and 75 percent of lake beaches are fully swimmable. New 
Jersey has been a national leader in opening shellfish beds for harvest 
with 88.9 percent currently harvestable.
    In addition, 85 percent of monitored river stations met, or were 
better than, what is required by the New Jersey Surface Water Quality 
Standards for dissolved oxygen, which is necessary for aquatic life; 
100 percent met or were better than required by standards for the toxic 
form of ammonia. Although 78 percent of monitored river stations had 
elevated bacteria, these locations are not designated bathing beaches, 
and New Jersey Surface Water Quality Standards are among the most 
stringent in the country. Fish communities have improved in the 
Raritan, Passaic and Delaware Basins largely due to secondary and 
tertiary improvements in sewage treatment. The Governor's commitment 
and funding of her Watershed Management initiative will provide for the 
next significant increment of water quality improvements in New Jersey.
    Statement 35: ``The Whitman administration adopted regulations that 
removed water quality standards for stormwater discharges for 
quarries.''
    Response. The Department has not adopted regulations that remove 
water quality standards for stormwater discharges from quarries. In 
fact, the Department presently regulates 46 quarries and other mining 
facilities in the State, under the New Jersey Pollutant Discharge 
Elimination System (NJPDES) permit program. These permits require 
quarries to eliminate or minimize the discharge of pollutants to the 
waters of the State. The program is implemented under the authority of 
Federal.National Pollutant Discharge Elimination System (NPDES) permit 
program and is consistent with permits issued by the Environmental 
Protection Agency and other delegated States on a national basis. To 
further improve the quality of our waters, the Department is presently 
developing a new general NJPDES permit that will be more comprehensive 
in regulating quarries and mining facilities for discharges to both 
surface and ground waters of the State.
    Statement 36: ``The EPA Inspector General's (IG) July 1999 report 
found that New Jersey violated the Clean Water Act in its water 
monitoring program. The report cited failures to monitor for 33 toxic 
chemicals, as well as the lack of monitoring stations.''
    Response. New Jersey has a comprehensive water monitoring program 
and set of surface water quality standards. Unlike many other States, 
New Jersey utilizes both chemical and biological monitoring to assess 
its waters. The chemical monitoring was expanded last year and will 
include over 300 sites. In addition, there are about 800 stations 
monitored to determine the health of our aquatic ecosystem.
    Of the 33 chemicals cited in the IG's report that are not in the 
New Jersey standards, EPA has not published criteria recommendations 
that would trigger the need for New Jersey to adopt standards for 23 of 
these chemicals. For 9 other chemicals, New Jersey regulates them in 
two chemical groups rather than as individual compounds, as EPA has 
done recently. The remaining chemical will be proposed in a future 
proposal. The Inspector General's report notes that New Jersey has 
criteria for 29 substances beyond what is on EPA's list of 126 priority 
toxic pollutants.
    Statement 37: ``The State Assembly unanimously passed an oversight 
resolution in September that said the administration's proposed 
watershed rules did not meet legislative intent to clean up and protect 
New Jersey's waters. The resolution was scheduled for a vote and then 
pulled in the Senate the day was nominated to head the Environmental 
Protection Agency.''
    Response. The proposed watershed rules are one of the most 
comprehensive continuous planning regulations in the country. They 
address the water resource impacts of new development that will occur 
if the area will be on sewers or use septic systems. Ensuring that new 
development does not cause the pollution of the State's water resources 
is a main purpose of the rules. The rules also establish a watershed 
management planning program for the entire State to address existing 
problems and develop long term solutions for areas that are continuing 
to develop. The legislative action on the rule was more a reaction to 
the inclusion of a linkage to New Jersey's State Development and 
Redevelopment Plan rather than a concern about the need for the 
proposed planning efforts to protect the State's water quality and 
water quantity.
    Statement 38: ``The Governor's energy deregulation legislation 
allows for a $9 billion dollar bailout of electrical utilities, cuts 
funding in half for energy conservation programs, as well as for 
alternative and renewable energy programs, categorizes garbage 
incinerators as renewable energy, lists nuclear power plants as non-
acid rain producing and eliminates siting criteria for power plants.''
    Response. [Eileen pursuing input from the BPU, but the DEP's 
response is as follows! Energy deregulation was a bipartisan 
legislative effort undertaken in New Jersey and several other States in 
the Northeast and California. Known as the New Jersey Energy 
Restructuring Act, its primary purpose is to reduce the cost of energy 
to the electric ratepayer by allowing competition in the energy 
generator industry. Although the environment was not a major theme of 
this Legislation, several provisions, supported by the Governor were 
enacted which will also have a positive and long lasting impact on New 
Jersey energy policy and environment. Among these are;
    Establishing a process to enact additional system wide electrical 
generation emission controls on facilities in New Jersey. These 
standards, if needed, would be enacted by New Jersey and neighboring 
States.
    Requiring specific emissions information to be sent to all electric 
ratepayers so that the customer can make the choice of buying cleaner 
energy. This is known as ``green power.''
    Allowing consumers who generate their own electricity through solar 
and/or wind power to offset their electricity rate by ``selling back'' 
unused electricity to the utilities.
    Enacting the most comprehensive demand side management program for 
energy efficiency in the country as rated by independent organizations. 
The new Societal Benefits Charge funding program includes a significant 
incentive for new Class I renewable energy technologies (Class I 
renewables are electricity generation from wind, photovoltaic, solar,
    geothermal, wave, fuel cells, landfill gas and biomass.) The 
funding does not include MSW incinerators or large hydroelectric plants 
that are defined as Class II renewables. This funding amount, over $100 
million per year, is the second largest funding incentive program in 
the country.
    Requiring, all sellers of electricity into the New Jersey market to 
have a percentage of renewable energy as part of their portfolio. The 
standard does allow for up to 2. 5 percent of their existing portfolio 
to be Class I and Class II renewables for the year 2000 and 2001; 
however, this same standard requires that an additional 4 percent of 
their portfolio come solely from Class I renewables. This translates 
into 2.7 million MWH of electricity to be generated by new Class I 
renewables by 2012. This will significantly advance the renewable 
energy market in New Jersey.
    Finally, in terms of promoting nuclear as a component of our non-
acid rain program. New Jersey does not have a strategy that promotes 
nuclear as part of any air program. However, the current operating 
nuclear facilities are part of New Jersey's electricity baseload. These 
facilities do not have emissions. This baseload is part of any 
emissions inventory calculations required by the USEPA for NOx, 
S0<INF>2</INF>, C0<INF>2</INF> or mercury.
    Statement 39: ``Her efforts to weaken the State's air pollution law 
was stopped by the Legislature.''
    Response. The administration supported the 1995 legislative 
amendments to the Air Pollution Control Act. The majority of these 
amendments strengthened the Act and were to ensure the State statute 
was consistent with recent amendments to the Federal Clean Air Act.
    New Jersey has a good air program. The Governor's new budget 
initiatives to expand the air program in air toxics and greenhouse gas 
will not only strengthen the program but make New Jersey a leader in 
this area.
    Statement 40: ``Her bid to grant polluters 10-year interim permits 
was blocked by the EPA.''
    Response. We are not aware of any 10-year interim permit limits 
that were blocked by EPA.
    New Jersey has never had 10 year permits in any environmental 
program. Since 1968, New Jersey has had 5 year authorizations for 
operation in the air permit program. The water program has always had 5 
year authorizations.
    In the early 1990's, the department developed a number of proposals 
to strengthen the water program and held a series of interested party 
meetings to discuss those ideas. As a result of those discussions, in 
1996 the department proposed major reforms of the water program which 
included a concept known as interim permit limits. These were not for a 
10-year period. Based on public comment and further discussion, the 
department made a determination not to adopt those limits.
    The Air Pollution Control Act does include a provision allowing for 
facilities with operating permits to establish a 15 year plan for 
achieving greater emission reductions than required. The additional 
reductions the facility achieves are renewable in 5 year increments 
upon renewal of their operating permits.
    Statement 41: ``She used her line-item veto to eliminate budget 
language that would have prevented polluters from writing watershed 
cleanup plans.''
    Response. Polluters are not writing watershed cleanup plans. This 
is referring to the preparation of Total Maximum Daily Loads (TMDLs) 
and associated implementation plans that will determine how to restore 
water quality that is not meeting standards. These plans are prepared 
by the State Department of Environmental Protection with input from all 
interested parties in the watershed that is impacted. The USEPA 
regional office reviews and approves these plans before the Department 
formally adopts them.
    Statement 42: ``When she was head of the State Board of Public 
Utilities, Whitman allowed watershed lands to be sold. The Legislature 
had to step in and pass the Watershed Moratorium Act.''
    Response. [Answer requested from BPU.]
    Statement 43: ``She cut funding for recycling and eliminated the 
mandatory 60 percent target for reducing solid waste.''
    Response. New Jersey has one of the most comprehensive recycling 
programs in the United States with a documented total recycling rate of 
55 percent. During Governor Whitman's tenure, she did modify the 
statewide goal, but did so to increase our target from 60 percent--65 
percent total waste stream recycling.
    Statement 44: The Governor ``vetoed funding for dam repairs. Later, 
flooding destroyed several of the dams that were targeted for repair.''
    Response. The Governor provided close to $10 million for dam 
repairs in 1999 and another $10 million in 2000. More significantly, 
the Governor initiated a more aggressive dam safety inspection program 
and has doubled the staff within the State's Dam Safety Program (to 20) 
to ensure the success of the more aggressive program.
    Statement 45: ``Despite her open space preservation program, the 
loss of open space to development has more than doubled under Governor 
Whitman. New Jersey leads the Nation in the loss of open space.''
    Response. As recognized in the Trust for Public Land's annual 
report, New Jersey and Maryland's smart-growth programs are among the 
nation's most comprehensive. Indeed under the Governor's leadership, 
New Jersey voters approved a constitutional dedication of $98 million 
annually and the issuance of $1 billion in bonds over the next 10 years 
to provide a stable source of funding the acquisition and preservation 
of one million more acres of open space, farmland, and historic sites 
in New Jersey. With the addition of one million more acres of preserved 
land, New Jersey will have preserved over 25 percent of its total 
acreage. The Governor also provided up to $98 million per year for 20 
years to pay off any bonded indebtedness.
    The Governor has also supported the expansion of the Environmental 
Infrastructure Trust Financing Program (EIFP) to provide half-market 
rate loans to local and county governments so that the acquisition of 
open space and protection of water quality may proceed at an 
accelerated pace. Loans through the EIFP, coupled with the existing 
funding available through the Green Acres program, is receiving 
significant interest and will significantly increase the amount of open 
space preserved.
                               __________
          Public Employees for Environmental Responsibility
                                   Washington, DC, January 8, 2001.

Senator Harry Reid, Nevada,
Environment and Public Works Committee,
Dirksen Senate Office Building.
Washington, DC 20510-6175

Dear Senator Reid: On behalf of Public Employees for Environmental 
Responsibility (PEER), I am writing to express our concerns about the 
environmental record of New Jersey Governor Christine Todd Whitman, the 
US Environmental Protection Agency (EPA) Administrator-designate.
    If Governor Whitman's chief qualification to head USEPA is her 
record in New Jersey, that record bears critical examination by the 
Senate Environment and Public Works Committee.
    As Governor, Ms. Whitman championed policies which diminished the 
ability of the New Jersey Department of Environmental Protection (DEP) 
to enforce anti-pollution laws, protect natural resources and serve the 
public. Within 2 years of taking of rice as Governor, Ms. Whitman:

    <bullet>  eliminated DEP's only prosecution unit;
    <bullet>  abolished the Public Advocate Office, designed to assist 
affected communities and individuals in presenting their concerns to 
the DEP, and replaced it with a Business Ombudsman; and
    <bullet>  cut departmental staff by approximately one-third.

    In her public statements, Governor Whitman has contended that her 
environmental record should be judged not by performance measures such 
as the number of inspections conducted or successful enforcement 
actions taken but instead should be evaluated solely by environmental 
results. PEER would urge you to approach this contention with two 
challenges:
    1. What evidence is there that Governor Whitman's actions at DEP 
caused or directly contributed to any identified environmental quality 
improvements? Environmental improvements often have long gestations 
and, to the extent quality improvements can be isolated, Governor 
Whitman may simply be reaping the benefit of policies instituted by 
predecessors or by actions at the Federal level.
    2. Precisely which environmental measures improved due to Governor 
Whitman's policies of discouraging enforcement? As you know, 
environmental quality measures are fraught with methodological 
fuzziness, however, certain results from her tenure seem clear:

    <bullet>  the number of impaired waters in the State of New Jersey 
increased by approximately 10 percent; and
    <bullet>  more than 60,000 acres of protected wetlands were lost to 
development due to relaxation of DEP regulatory protections.

    Perhaps the committee should consider the testimony of DEP 
scientists, inspectors, permit writers and other environmental 
specialists who were charged with reconciling Governor Whitman's 
policies with their sworn obligation to faithfully execute anti-
pollution laws. According to a survey of New Jersey DEP employees 
conducted by PEER in 1997 (copy enclosed), the agency experienced a 
sharp de-emphasis on enforcement, excessive corporate influence and 
manipulation of scientific findings under Governor Whitman.
    The PEER survey, the only survey of State environmental 
professionals conducted in the Whitman era, was sent to all DEP 
employees and found:

    <bullet>  Nearly two out of three respondents report instances 
where ``DEP inaction or lack of enforcement has caused environmental 
damage.''
    <bullet>  More than three out of four employees say that the 
``level of DEP's environmental enforcement has decreased in the past 3 
years.''
    <bullet>  Nearly three out of four employees believe that under 
Governor Whitman, the ``regulated community excessively influences DEP 
permitting, policy and enforcement decisions.''

    This PEER survey consisted of questions composed by DEP employees 
themselves. PEER mailed the survey to the work addresses of the more 
than 3,000 DEP employees. Approximately one in four agency employees 
(24 percent) responded, a strong rate of return when compared to the 
standard return rate for mailed surveys, generally.
    Many employees included essays (also enclosed) further describing 
internal problems. According to one supervisor, ``Trees are cut 
unlawfully, water is polluted, and wildlife is left unprotected.'' 
Special interest influence and political pressure were identified as 
major problems. For instance, an employee criticized DEP for being 
``corrupt and too political.'' An administrator accused the Governor of 
``catering'' to business interests, and claimed ``environmental rules 
are changed to protect industry.'' Another employee commented that 
``Regulations are being written by industry. . . permits have `no 
teeth' anymore (because) polluters get what they want.''
    DEP employees also reported obstruction of environmental law 
enforcement, masking of scientific data and hiding of information from 
the public:

    <bullet>  More than half agree that ``scientific evaluations are 
influenced by political considerations at DEP.''
    <bullet>  One quarter of employees reported that they have received 
direct orders ``to ignore an environmental rule or regulation'' during 
the past 3 years.
    <bullet>  Sixty percent of employees fear ``job-related retaliation 
for disclosing improper activity within DEP.''

    If past is prologue, Governor Whitman's record at DEP should be 
closely examined in weighing her nomination to be EPA Administrator. To 
the extent that she seeks to replicate the policies instituted in New 
Jersey, her tenure at EPA will be marked by political interference in 
scientific findings, discouragement of needed anti-pollution 
enforcement efforts and suppression of candid recommendations from 
EPA's professional staff.
    PEER urges you to carefully examine this nominee.
            Sincerely,
                                              Jeffrey Ruch,
                                           PEER Executive Director.
                               __________
                        New Jersey Institute of Technology,
                                       Newark, NJ, January 8, 2001.

The Honorable Trent Lott, U.S. Senate Minority Leader,
Russell Senate Office Building,
Washington, DC, 20510.

Dear Senator Lott: I write to commend President-Elect George W. Bush's 
appointment of Governor Christine Todd Whitman as Administrator of the 
Environmental Protection Agency. I urge you to support her 
confirmation.
    I have worked closely with Governor Whitman for 7 years. I can 
attest to her commitment to ecological preservation, environmental 
improvement and environmentally sustainable economic development.
    Governor Whitman has energized the State Development and 
Redevelopment Plan making it a priority for all State agencies to 
balance economic growth with conservation and environmental protection 
needs.
    Let me mention a few other areas in which she has provided dramatic 
and timely leadership in New Jersey: open space preservation; dredging 
and remediation; brownfields reclamation; watershed management; and 
preserving clean ocean water. Support of environmental research has 
been a consistent theme of her administration.
    Based on my experience, I am convinced that Governor Whitman will 
provide strong leadership, built upon quality science and focused on 
effective environmental protection. She will fulfill the 
responsibilities of EPA Administrator with distinction.
    Senator, I commend Governor Whitman to you without reservation. I 
urge you to support her confirmation as EPA Administrator. If you have 
any questions, please do not hesitate to have your staff contact me.
            Sincerely,
                                Saul K. Fenster, President,
                                New Jersey Institute of Technology.
                               __________
                                        Clean Ocean Action,
                                                  January 11, 2001.

Governor Christine Todd Whitman,
State of New Jersey,
State House,
Trenton, NJ 08625.

Dear Governor Whitman: Congratulations on your nomination to become 
Administrator of the Environmental Protection Agency. It will be a 
tremendous opportunity and a great challenge. On behalf of Clean Ocean 
Action, we wish you the best through the confirmation process.
    We remember well the leadership and initiative you took to end 
ocean dumping off the Jersey Shore. The controversy about ocean dumping 
contaminated dredged materials was raging when you campaigned for, and 
took the office of Governor. From the outset you took on this 
contentious and complicated issue with courage and wisdom. You brought 
together experts with a mission to identify solutions that would keep 
the ocean and the port thriving. Together, the expert crafted a 
solution that guaranteed both. and you ensured it was implemented.
    It's not to say there were not bumps in the road; however, your 
steadfast commitment to supporting the ocean and the port prevailed.
    Should you deem it beneficial, I would be available to testify in 
Washington, DC, at your confirmation hearing regarding your 
achievements to end ocean dumping off the Jersey Shore.
            Sincerely,
                            Cindy Zipf, Executive Director.
                               __________
    New Jersey Governor Christie Accomplishments for the Environment
Open Space/Farmland Preservation
    <bullet>  More Land Preserved than any previous Administration. 
Since January 1994, a total of 252,000 acres of open space and farmland 
in New Jersey has been preserved in comparison to 281,000 acres 
preserved from 1961-1993. Other highlights include:
    <bullet>  A total of 177,000 acres preserved under New Jersey's 
Green Acres program during the Whitman Administration--versus a total 
of 458,000 acres preserved under the program since 1961.
    <bullet>  Over 7,000 acres of preserved farmland closed or approved 
since 1994 versus the 207,131 acres of farmland closed prior to 
Governor Whitman's term.
    <bullet>  Creation of a stable source of funding and Garden State 
Preservation Trust to preserve one million acres over next decade. To 
date, 165,000 acres have been preserved toward the million acre goal 
(May 1997--December 2000), including 104,000 acres of open space and 
61,000 acres of farmland.
    <bullet>  Signing of legislation providing $11 million toward the 
purchase of Sterling Forest in New York, a source of drinking water for 
Northern New Jersey.
    <bullet>  Signing of her administration's 38th tax cut--for land 
conservation donations.
    <bullet>  Approval of over $5 million for farmland soil and water 
conservation projects.
Watershed Management Planning--The Creation of a New Program
    Governor Whitman established 20 Watershed Management Areas 
statewide and has spent over $8 million each year for plans and 
projects to clean its waterways. New Jersey is considered a national 
model with its alliance of local regional and State officials; 
integrating infrastructure and permitting programs.
Wastewater Regulation--A Revamped and Strengthened Program
    Governor Whitman signed Executive Order 109 requiring comprehensive 
environmental assessments before the Department of Environment 
Protection (LIP) can approve new or amended wastewater management 
plans. These new` rules revere proposed earlier this year to coordinate 
with regional Watershed and State Plans and encourage smart growls in 
areas with existing infrastructure.
Air Quality--New Funding to Improve Monitoring Efforts
    Under Governor Whitman, three new monitoring sites were established 
and others upgraded to provide more comprehensive statewide data than 
is currently available from Federal sources. And the State is working 
to red Bloc greenhouse gas emissions below the 1990 levels through 
incentives to encourage voluntary reductions, promote energy efficiency 
and renewable technologies, and reduce landfill gas emissions.
Brownfields--New Programs to Streamline Clean-ups and Encourage 
        Redevelopment
    Governor Whitman signed a new law to transform the Brownfields 
program into a redevelopment tool and provided $15 million to help 
towns clean-up sites and market them for reuse.
    New Jersey is the only State in the Nation with a reimbursement 
program for private parties conducting voluntary cleanups at brownfield 
sites. New Jersey has more than $73.8 million in grants and loans for 
brownfield site projects and other remedial actions since funds became 
available in 1994. (DEP's brownfield inventory was 1,327 sites as of 
September 2000.)
State Plan--Support of Local Planning Efforts
    Governor Whitman has made it her administration's priority that all 
State agencies follow the State Plan to promote smart growth; the 
Governor has supported the cross-acceptance process to revise the Plan 
with local input. Governor Whitman appropriated $3 million per year in 
Smart Growth grants to towns and counties.
Clean Beaches--Drop in Beach Closings and Increased Funding for 
        Protection
    Under Governor Whitman, all 127 miles of ocean beaches and 138 
miles of bay beaches are 100 percent open for swimming with beach 
closings dropping from 800 in 1989 to 11 in 2000. Governor Whitman has 
allocated $25 million per year in shore protection projects to protect 
lives and property. The State has been praised by the National 
Resources Defense Council for having the nation's most comprehensive 
beach monitoring system.
Shellfish Harvesting--New Jersey is Leader in Increasing Acreage of 
        Shellfish Harvesting Waters
    Under Governor Whitman, New Jersey heads the Nation in opening 
shellfish beds with 88.9 percent now able to be harvested. its acreage 
has consistently risen from 578,419 acres in 1993 to 592,222 acres in 
2001.
Horseshoe Crab Population--New Jersey Guides Other Atlantic Coastal 
        States
    Governor Whitman enlisted the Governors of Maryland and Delaware to 
support $ 125,000 in new research to ensure the sustainability of 
horseshoe crabs as a food source for dependent animals. Governor 
Whitman supported a Federal reserve along tile Delaware Bay to prohibit 
the harvest of horseshoe crabs here. The initiative follows the State's 
management strategies limiting harvests In Delaware and New Jersey 
waters.
Dredging--New Jersey is National Leader in Innovation for Dredged 
        Materials
    Under Governor Whitman, New Jersey residents supported the ports 
when they passed the Port Revitalization. Dredging Environmental 
Cleanup, Lake Restoration, and Delaware Bay Area Economic Development 
Bond Act of 1996. The Governor's subsequent signing of legislation 
provided the authority and process for planning and implementing a 
statewide dredging and disposal plan. Dredged material is now seen as a 
resource and is being used to cap and reclaim tanner industrial sites 
and landfills, restoring them to productive use, resulting in both 
environmental benefit and well being for local economies.
Environmental Infrastructure Trust--Funding for Clean Water
    Under Governor Whitman, the program has awarded $590 million in 
clean water loans, $85 million in drinking water loans, 55.2 million in 
planning grants and $12.2 million in designing grants for 
infrastructure improvements statewide. With DEP the Trust offers loads 
to upgrades build or repair wastewater facilities; upgrade 
infrastructure to reduce non-point source pollution, closure of 
landfills, and for land acquisition.
Hazardous Waste Clean-ups--Stability of Site Remediation Program
    Under Governor Whitman, more than $118 million in Corporate 
Business Tax revenue has been dedicated to publicly funded cleanups for 
remedial investigations, cleanups and administrative support during 
State Fiscal Year 1998 through State Fiscal Year 2001. This funding has 
provided the DEP's Site Remediation Program with a reliable source of 
revenue to begin site cleanup work at over 50 new sites and pay for 
ongoing remedial projects at over 200 active publicly funded sites 
across the State. The stability of the program's publicly funded effort 
is vital to New Jersey remaining a top recipient of Federal cleanup 
moneys in the nation. More than $613 million in Superfund dollars was 
earmarked for New Jersey sites since 1994.
Quality New Jersey Award--NJDEP is Presented with Prestigious Award
    As part of its strategic planning process, the DEP adopted the 
criteria from the Malcolm Baldridge National (duality Award program as 
its framework for defining and achieving its ``Open and Effective 
Government7' fecal and in support calf its five environmental goals. In 
November 2000, NJDEP was presented with the 9000 Governor's Award for 
Performance Excellence--Bronze Level. DEP is the first State Department 
in New Jersey to receive this prestigious award and the only State 
environmental agency in the Union to receive this form of recognition 
based on a complete Baldridge-type application.
                               __________
                                                   January 16, 2001

The Honorable Harry Reid, Chairman,
Environment and Public Works Committee,
United States Senate,
Washington, DC 20510.

Dear Mr. Chairman: I am writing to you today to support strongly the 
nomination of New Jersey Governor, Christine Todd Whitman, to the 
position of Administrator of the U.S. Environmental Protection Agency.
    During the 14 years that I served in the New Jersey General 
Assembly (1982-1996), I chaired the Environment Committee for 8 of 
those years. When Governor Whitman served as President of the Board of 
Public Utilities in the late 1980's, she and I were always in agreement 
on the importance of reducing air pollution and increasing efficiency 
by the utilities. Since she was elected, Governor Whitman has often 
used the collaborative ``Netherlands'' approach of setting goals and 
establishing benchmarks to decrease pollution by industry. During her 
two terms, Governor Whitman took a strong stand against dredging and 
dumping in the ocean; personally intervened to prevent the decimation 
of the horseshoe crabs in the Delaware Bay; advocated a watershed 
protection plan to decrease non-point source pollution; and 
continuously promoted ``smart growth'' to reduce air pollution, traffic 
congestion and the loss of our open spaces. While the foregoing is far 
from a definitive list of her accomplishments, I believe that they give 
you an understanding of the breadth of her leadership on environmental 
issues.
    Since I retired from the New Jersey Legislature, I have worked 
closely with Governor Whitman on the preservation of open space, 
especially through the establishment of a stable source of funding to 
eliminate our reliance on bond issues. In 1998 Governor Whitman led a 
campaign to pass a Constitutional Amendment dedicating $98 million 
dollars a year to preserve New Jersey's vanishing open space. Through 
her leadership, New Jersey is committed to preserving another million 
acres, 40 percent of our landmass.
    I believe Governor Whitman's environmental record in New Jersey 
attests to her ability to be an excellent Administrator of the USEPA.
            Sincerely,
                                             Maureen Ogden.
                               __________
                           National Association of Realtors
                                  Washington, DC, January 18, 2001.

The Honorable Robert Smith,
Committee on Environment and Public Works,
Dirksen Senate Office Building,
Washington, DC, 20510.

Dear Senator Smith: On behalf of the more than 760,000 members of the 
National Association of Realtors (NAR), I am pleased to endorse the 
nomination of Governor Christine Todd Whitman as Administrator of the 
U.S. Environmental Protection Agency.
    As Governor of New Jersey, Christine Todd Whitman has demonstrated 
a commitment to environmental protection. She has worked to protect the 
shoreline, clean up hazardous waste sites and preserve open space. In 
so doing, she has worked with--rather than against--the regulated 
community to achieve her goals. She recognizes that environmental 
protection and economic development can co-exist.
    NAR believes that Governor Whitman's State government experience 
enables her to fully understand the relationship between environmental 
protection efforts at the Federal, State and local government levels. 
Most importantly, it enables her to understand the impact oi 
environmental regulation on the everyday lives of citizens and 
communities.
    We are confident that Governor Whitman will bring the same energy 
and commitment to the broad spectrum of environmental issues that she 
will confront as EPA Administrator, and that she will call upon the 
knowledge and expertise of realtors to assist in developing workable 
solutions to critical environmental issues.
    The National Association of Realtors believes that Governor Whitman 
is an excellent choice to serve with President George W. Bush and the 
107''3 Congress in developing and implementing environmental policies. 
We look forward to working together with the new Administration and the 
new Congress on issues affecting the real estate industry.
            Sincerely,
                                        Richard Mendenhall,
                                                    2001 President.
                               __________
                           American Civil Rights Coalition,
                                   Sacramento, CA, January 8, 2001.

The Honorable Christie Todd Whitman,
441 N. Capitol St., NW,
Suite 201,
Washington, DC 20001.

Dear Governor Whitman: I write to congratulate you on your appointment 
as Secretary-designate of the U.S. Environmental Protection Agency 
under the new Administration.
    Given your qualifications, I am sure you will serve the President-
elect and our nation well. I hope and pray that the new Administration 
will be successful in turning this country around on the issue of 
``race.'' I pledge my support and assistance to promote opportunity and 
a culture of achievement needed most in our inner-city and rural areas 
so that we adequately prepare our fellow Americans and our kids for the 
end of affirmative action preferences. The outgoing Administration has 
regrettably not done enough to advance self-reliance and break the 
cycle of dependency--not just on welfare but also with ``affirmative 
action'' as we have come to know it.
    Although you and I disagree on the issue of race preferences, I 
believe it is extremely unfortunate that Jesse Jackson and others have 
chosen to raise questions about your nomination on the basis of racial 
profiling complaints. If there were any nominee who should not be 
subjected to the race card based on one's past interactions with black 
Americans, it should be you.
    Once again, congratulations and best wishes.
            Sincerely,
                                   Ward Connerly, Chairman.
                               __________
                                City of Newark, New Jersey,
                              Office of Mayor Sharpe James,
                                 Newark, NJ 07102, January 8, 2001.

Hon. Harry Reid, Ranking Democratic Member,
Environment and Public Works Committee,
Senate Office Building,
Washington, DC, 20510.

Dear Senator Reid: As Mayor of New Jersey's largest city, I have had 
the pleasure of working with Governor Christine Todd Whitman during her 
tenure as our State's chief executive. She has been a strong advocate 
of open space and the environment and pushed for the adoption of New 
Jersey's Master Plan which favors economic development in our urban 
areas, while preserving valuable farm land and open space. The 
successes that we have seen in the Garden State during her term in 
office prove that preservation of the environment does not have to 
suffer at the expense of successes in economic development and job 
growth.
    The City of Newark has made significant strides in developing its 
Brownfields sites thanks to Governor Whitman's Department of 
Environmental Protection. Under Governor Whitman's watch our city has 
enjoyed a strong working partnership with the State DEP and U.S. 
Environmental Protection Administration. These relationships have 
enabled Newark to speed up the time consuming and complex process of 
reclaiming contaminated urban land, and have helped make New Jersey's 
largest city a role model for other communities across this nation.
    Newark became the first large city in New Jersey to implement 
Governor Whitman's Environmental Opportunities Zone legislation, which 
enables developers to freeze the assessment on contaminated land at its 
pre-clean up value and use the difference between that and the post-
clean up value to remediate the land. This allows the developer to pay 
a lower tax rate during clean up and use the money saved to pay for the 
reclamation. The use of this zone legislation is a tool to stimulate 
development wherever Brownfields are an impediment to attracting new 
investment and jobs, once again, enforcing the Governor's philosophy 
that the environment does not suffer at the expense of development.
    My relationship with Governor Whitman goes back to 1986 when I was 
first elected mayor of Newark and she was the chairperson of the Bureau 
of Public Utilities. At that time, Newark was in a center of a debate 
over the closing of landfills, the construction of a resource recovery 
plant and the opening of garbage transfer stations. As head of the BPU 
and in all other roles that she has held, Christine Todd Whitman has 
always shown professionalism, honesty, vision and sensitivity to the 
needs of government and the people of New Jersey.
    We in New Jersey are honored to have our Governor nominated by 
President-elect George Bush to serve as the administrator of the U.S. 
Environmental Protection Administration and hope that you and your 
colleagues on the Environment and Public Works Committee will recognize 
what she has done to improve New Jersey's economic and environmental 
climate and recommend her swift confirmation by the membership of the 
U.S. Senate.
            Sincerely,
                                       Sharpe James, Mayor.
 Statement of the Atlantic City Branch of the National Association for 
                   the Advancement of Colored People
    We are writing to apprise you of a project with significant 
community and environmental justice impacts which directly relates to 
the confirmation hearing of Governor Christie Whitman for Administrator 
of the USEPA. The Atlantic City Tunnel Project is a project that was 
funded by the State of New Jersey, administered by one of its agencies, 
and for the purpose of serving a casino. The Atlantic City Tunnel 
Project, which is formally referred to as the Atlantic City/Brigantine 
Connector, is being built by the South Jersey Transportation Authority, 
in conjunction with the New Jersey Department of Transportation 
(NJDOT), the New Jersey Transportation Trust Fund Authority, Mirage 
Resorts, Inc. and the Casino Reinvestment Development Authority, and 
will serve as the primary transportation route to a casino resort that 
was to be built by Mirage Resorts, Inc. The Boyd Gaming Company is the 
present owner of the casino construction site and plan to build a 500 
million dollar casino named the ``Borgota''.
    The South Jersey Transportation Authority, in conjunction with the 
New Jersey Department of Transportation, selected a route that bisects 
the Atlantic City communities of the First Ward, Second Ward, Third 
Ward, Fourth Ward, and Venice Park area of Atlantic City, all of which 
consists of predominantly African-American residents. The selected 
route has resulted in the relocation and displacement of homeowners 
that resided on the selected route. In addition, the route traverses 
within 25 feet of the remaining residents. Although they identified 
four viable routes, the route selected was the only one that would 
result in the displacement of residents.
    A group of the impacted residents sued the project developers under 
Title VI of the Civil Rights Act (Bryant et al. v. New Jersey 
Department of Transportation et al., 1F. Supp 426 (1998)). The 
residents asserted that, despite the fact that the selected route 
traversed and impacted on a number of communities, which are 
predominantly African-American communities, the South Jersey 
Transportation Authority and the New Jersey Department of 
Transportation ignored racially discriminatory impacts of its decision. 
Specifically, the residents asserted that South Jersey Transportation 
Authority and New Jersey Department of Transportation affirmatively 
selected the route regardless of such impacts, despite the fact that 
viable alternatives existed that would not have such discriminatory 
impacts.
    Because of limitations on resources to fully prosecute the case, 
the plaintiffs settled the lawsuit only after a specific commitment by 
the South Jersey Transportation Authority and the New Jersey Department 
of Transportation to address all issues of potential impacts to 
residents. The settlement agreement provided for the plaintiffs the 
opportunity to hire an independent technical consultant to review all 
the project plans and issue recommendations to South Jersey 
Transportation Authority and the New Jersey Department of 
Transportation to prevent negative impacts to the residents.
    Among the significant issues of concern were:
Protecting Residents from Exposure to Contaminants in the Soil
    Soil in the selected route of the tunnel is contaminated with heavy 
metals, petroleum-related compounds, and other organic and inorganic 
substances at levels in excess of health-based standards established by 
the New Jersey Department of Environmental Protection. Most of the soil 
exceeding NJDEP cleanup criteria will be reused onsite; the total 
volume of the contaminated soil that will be reused onsite is estimated 
by SJTA at 152,000 cubic yards. To ensure that these contaminants will 
not migrate into the community, the South Jersey Transportation 
Authority was requested to conduct air monitoring continuous 
engineering controls and cover the soil along with air monitoring--
onsite and onsets--of the most significant contaminants found in the 
soils--heavy metals. This recommendation was rejected and excavation 
continues. Community residents have begun to complain of respiratory 
difficulties since the beginning of construction--including the 
triggering of dormant asthma.
Long-Term Air Quality
    Computer model analysis performed by the consultants to the South 
Jersey Transportation Authority and the New Jersey Department of 
Transportation acknowledge the possibility that there could be hot 
spots of carbon monoxide and sulfur dioxide in the areas adjacent to 
the tunnel due to vehicular emissions. The residents recommended the 
installation of vents and air control devices to treat emissions prior 
to venting from--a low cost measure, particularly in light of the 330 
million public dollar cost of the project. The residents also 
recommended air monitoring of these contaminants for a short time 
period after the tunnel is constructed. South Jersey Transportation 
Authority rejected these measures.
Flooding
    The area where the tunnel is being built has a high water table. 
The project documents acknowledge that storm water flow will be cutoff 
by the tunnel. While South Jersey Transportation Authority has stated 
that the need to address storm water flow will be addressed in the 
project, the residents have recommended that the area be monitored 
after the completion of the tunnel to identify and address any 
localized flooding.
New Jersey Inaction and Federal Government Intervention
    The South Jersey Transportation Authority, the New Jersey 
Transportation Authority, and the City of Atlantic City have not 
responded to any of the issues of impacts to the community residents. 
The New Jersey Department of Environmental Protection has served in the 
dual role of technical advisor to the South Jersey Transportation 
Authority and regulatory agency over the cleanup of contaminated soil. 
The community residents have issued recommendations to prevent impacts 
and requested environmental data on the project--none of which has been 
complied with When a staffer from the New Jersey Department of 
Environmental Protection was urged to review the recommendations, the 
staffer stated that ``while the recommendations were reasonable, 
without directions from above, he cannot act.''
    Because of the unresponsiveness of all New Jersey State Agencies, 
the residents sought the assistance of the Federal Government. It 
reached out to the USEPA, both to Assistant Administrator Timothy J. 
Fields, Jr. and Region II Administrator Jeanne Fox, and through a USEPA 
Advisory Council, the National Environmental Justice Advisory Council. 
Based on the record of inaction by New Jersey State Agencies, the USEPA 
agreed to undertake actions to fully investigate environmental issues 
by committing to the following actions:

    <bullet>  investigate all past and present activities involving the 
handling of contaminated soil, its use as part of the tunnel 
infrastructure and the potential for migration of contaminants toward 
adjacent residential areas;
    <bullet>  convene a meeting of New Jersey Department of 
Transportation and South Jersey Transportation Authority, in 
consultation with the US Department of Transportation, to address the 
long-term air quality issues associated USA tunnel and flooding of 
adjacent residents; and??
    <bullet>  establish permanent oversight until the completion of the 
tunnel project;
Recommendations
    Based on Governor Whitman's Administration, direct involvement in 
the Atlantic City Tunnel Project and the potential conflicts associated 
with such in her prospective new position as Administrator of the 
USEPA, we urge that she commit to the following actions:

    <bullet>  Recusal from any involvement by Governor Whitman or any 
of her immediate staff members in USEPA's ongoing involvement in the 
Atlantic City Tunnel Project;
    <bullet>  permit the USEPA personnel currently involved to fully 
pursue and complete their above-noted commitments;
    <bullet>  submit a report by such USEPA personnel to the Senate 
within 60 days of the status of the completion of its commitments; 
and??
    <bullet>  support for the full implementation of policies and 
actions by the USEPA, and in particular the Office of Environmental 
Justice and Office of Civil Rights, and USEPA's National Environmental 
Justice Advisory Council, to investigate and prevent projects that 
disproportionately burden communities of color or low income 
communities.
    We hope this information will help you assist us in getting the 
environmental protection that is so important to the health and welfare 
of our community.
                               __________
    Statement of Rae Roeder, President, CWA Local 1033, Trenton, NJ
    Mr. Chairman and members of the Environment and Public Works 
Committee, I am Rae Roeder, President of CWA (Communications Workers of 
America), Local 1033 in Trenton, New Jersey where I represent 6000 New 
Jersey State Workers in Motor Vehicles in the Department of 
Transportation, Department of Treasury, Department of State, Department 
of Military and Veterans Affairs, Department of Education, Department 
of Law and Public Safety, Department of Banking and Insurance, and the 
Office of Public Defender.
    As President of CWA Local 1033, I wish to notify all Senators 
serving on the Environment and Public Works Committee that our members, 
are opposed to the nomination of Christie Whitman to head the 
Environmental Protection Agency and urge you to consider the following 
facts in your deliberation and to reject her nomination.
    The reasons for the opposition of our membership to the nomination 
of Governor Christie Whitman are as follows:
    Whitman's Environmental Record shows that she:

    <bullet>  Cut the New Jersey Department of Environmental 
Protection's (DEPE) budget by approximately \1/3\ during her tenure as 
Governor.
    <bullet>  Reduced staffing at DEPE, New Jersey Department of 
Environmental Protection, especially in the area of enforcement.
    <bullet>  Reduced fines for polluters, allowing business to 
regulate themselves.
    <bullet>  Abolished the post of environmental Prosecutor by 
eliminating the New Jersey Office of the Public Advocate and replacing 
it with an Office of Business Ombudsman.

    Privatization efforts in Liberty State Park in Jersey City where 
the Governor is attempting to create a commercial Waterpark and bring 
an additional 4000 daily uses on 13 acres of park land. The Waterpark 
would destroy the park's public access and great potential by causing 
inevitable summer weekend traffic jams. Despite statements by Governor 
Whitman in 1995 that the interior of the Park should not be developed 
in any way, she now has become a spokesperson for the Waterfront Park. 
A public hearing on this matter is scheduled for January 27, at the 
Liberty Science Center. The little remaining space in Hudson County, 
New Jersey is invaluable for our generation--and generations yet to 
come.
Parsons Infrastructure Fiasco: the Privatization of NJDMV Inspection 
        Stations
    In 1998 Whitman sold off public services to a private company, 
Parsons Infrastructure of California, the highest and only bidder for a 
$550 million contract to build the state is new auto emissions system.
    CWA Local 1033 and other CWA Locals opposed the privatization and 
the awarding of a contract because:
    <bullet>  It was a taxpayer rip-off Parsons wanted to conduct the 
old emissions test for 1 year, at three times the cost the state was 
paying; instead of charging $8.00 per car, Parsons would charge $21.00.
    <bullet>  It was an illegal bid. Parsons failed to disclose that it 
was involved in several lawsuits including charges of fraud State law 
requires bidders to disclose pending lawsuits.
    It was a dirty deal Parsons had already given $64,000 to the 
Whitman's Republican Party and its candidates, as well as hired GOP 
officials to lobby on its behalf: See attached chart.
    <bullet>  If was unfair to public employees; Dedicated State 
Workers lost their jobs and lost pay, health care benefits and 
pensions. (More than 300 workers lost their jobs.
    Governor Whitman and her Treasurer DiEuleuterio claimed that the 
new system would be cheaper if a private contractor ran it rather than 
state workers. But the real numbers bear out what CWA predicted. In the 
first year of the contract, Parsons charged the State of New Jersey 
over $48 million to perform the old emissions test, $20 Million more 
than the state paid the year before for the same test.
    During the first 18 months, Parsons was operating the old system 
and developing the new one at the same time. The Sierra Group was hired 
as consultants by the State to oversee the Parson is creation of a new 
emissions test. The Sierra Group sent 90 memos to high-ranking State 
officials, warning that the system was being improperly developed. The 
memos put the State on notice that Parsons' test would not work when it 
went on-line in December 1999. Instead of investigating these concerns, 
the State plowed ahead with the new test imposing havoc on the lives 
and curs of thousands of New Jerseyans.
    When the new emissions test began in December 1999, it quickly 
became clear that the Sierra Group's alarm was justified. Hundreds of 
motorists were stuck on waiting lines for more than 4 hours. The 
equipment and the software for the new test machinery failed miserably, 
especially when the temperature dropped below freezing. Motorists 
waited in open-air shelters while their cars were inspected, despite 
the contractual requirement that Parsons was to build closed wailing 
areas to protect people frown the weather. Cars that should have passed 
the test failed. . Some cars were damaged by the new test. The Newark 
Star Ledger and other newspapers reported the public's frustration on 
the issue at great length.
    <bullet>  Governor Whitman ranted and raved about the lines while 
allowing Parsons to continue to operate the inspection stations, 
despite clear evidence that it had not been able to create the test us 
it was conducted to do.
    <bullet>  Parsons continues to bill three times as much as the 
state paid for the same test when state employees conducted it.
    And now Christie Whitman is before your committee to run and 
control the very agency, Environmental Protection, that controls the 
Clean Air Act and enforces the regulations could Parsons must abide by. 
How convenient? Now we will have the fox watching the hen house! So 
much for privatization saving taxpayers' money or providing quality 
service.
    Additionally, CWA Local 1033 is strongly critical of Governor 
Whitman's lack of progress in identifying and ending racial profiling. 
Particularly disturbing is the picture of the Governor ``patting down'' 
an African-American suspect in Camden. This question of racial 
profiling is significant because the EPA oversees the cleanup of waste 
sites that are often located in low-income areas and sets emission 
standards that operate on urban streets.
Racial Profiling of New Jersey State Workers
    The Whitman administration has systematically promoted 
institutionalized racism by promulgating a flawed subjective system of 
evaluation of workers, known as the PARS system This system ties worker 
evaluation to a reduction in overall seniority despite the State's own 
figures which show that minorities systematically receive lower ratings 
than do their white coworkers. For this reason, CWA Local 1033 has 
filed a Civil Rights lawsuit in Federal court against the State of New 
Jersey.
    For all of these reasons stated herein, we ask you to reject the 
nomination of Christie Whitman.
    Thank you for the opportunity to let our views be made part of the 
record.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                         City Hall, Hoboken, NJ, January, 16, 2001.

Honorable Harry Reid, Chairman,
Environment and Public Works Committee
U.S. Senate
Washington, DC 20512.

Dear Chairman Reid: I submit this letter for insertion in the records 
of your committee in support of the confirmation of the nomination of 
Christine Todd Whitman, as Administrator of the Environmental 
Protection Agency.
    I have served since 1993 as the Mayor of the City of Hoboken, an 
urban area in Hudson County, New Jersey. Our City was recently 
recognized by the national Sierra Club with an award as the best city 
in New Jersey for urban developments and by New Jersey Monthly Magazine 
as The best city in New Jersey. Hoboken has a long and proud history as 
a city located on the Hudson River, treasuring a rich maritime 
heritage, the birthplace of baseball and Frank Sinatra. The movie ``On 
the Waterfront'' was filmed here in our City and on our piers.
    With the decline of shipping in the Port of New York, our piers, 
warehouses and head houses were abandoned and fell in to disrepair. The 
areas were also contaminated with what are known as ``historic soils'', 
consisting of contaminants such as coal ashes, heavy metals, fuel oils, 
and the debris from 200 years of maritime service.
    Confronted with this situation, I sought upon my election to 
revitalize the Hoboken Waterfront, cleaning up the contaminated sites, 
working to revitalize them for commercial office space, and to restore 
and rebuild the rotting piers as open public space and parklands. With 
Governor Whitman's, election I approached her not as a Democratic Mayor 
to a Republican Governor, but as two public officials concerned only 
with cleaning up the Hudson River and the contamination on the 
waterfront. I shared with her my dream for We revitalization of the 
waterfront and she without question embraced the dream and the task of 
a cleanup.
    Governor Whitman directed that her appointees to the Port Authority 
of New York and New Jersey enter into a Public-private partnership with 
the City of Hoboken for the clean-up and restoration of the piers and 
dock; areas, the development and installation of infrastructure for the 
new commercial properties, and with $78,000,000 of public funding. 
Governor Whitman assisted the City with additional $5,750,000 of Green-
Acres Funds'' for waterfront cleanup, constructing new parks, the first 
kayak and canoe launching areas on the Hudson River, and assuring 
waterfront access to our residents.
    Today our shared dream exists on the Hudson. Gone are the rotting 
piers and the environmental contamination, replaced with 10 acres of 
open space and parkland on new piers. Demolished are the warehouses and 
head houses, replaced with three new city blocks with over 2,300,000 
square feet of office space under construction. This environmental 
remediation and revitalization has brought a new surge of economic 
progress and jobs to the City, with companies like textbook publisher 
John Wiley and Sons relocating their world headquarters to Hoboken, New 
Jersey.
    This project demonstrates Governor Whitman's successful efforts and 
concern for cleaning up and protecting our waterfront, for giving us 
access to the water for the first time in 200 years, for ensuring 
revitalization of the area and creating open-space and parkland that we 
have never had, and committing herself to the success of our collective 
dream. This effort and others are the hallmark of her administration, 
working through cooperation not conflict, performance not promises, and 
turning rhetoric into reality.
    Our success in protecting and restoring our environment ``on the 
waterfront'', would not have been possible without her assistance, 
direction, cooperation, shared vision and concern for working toward 
solutions and results.
    As the Mayor of the City of Hoboken, we affirm her to you, 
realizing New Jersey's loss is the country's gain.
            Respectfully,
                                   Anthony J. Russo, Mayor.

                                   - 

</pre></body></html>
